<html>
<title> - THE SITUATION IN IRAQ AND PROGRESS MADE BY THE GOVERNMENT OF IRAQ IN MEETING BENCHMARKS AND ACHIEVING RECONCILIATION</title>
<body><pre>[Senate Hearing 110-635]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 110-635
 
 THE SITUATION IN IRAQ AND PROGRESS MADE BY THE GOVERNMENT OF IRAQ IN 
            MEETING BENCHMARKS AND ACHIEVING RECONCILIATION

=======================================================================

                                HEARINGS

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        APRIL 8, 9, AND 10, 2008

                               __________

         Printed for the use of the Committee on Armed Services




                     U.S. GOVERNMENT PRINTING OFFICE
45-666 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


  

                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN McCAIN, Arizona
ROBERT C. BYRD, West Virginia        JOHN WARNER, Virginia,
JOSEPH I. LIEBERMAN, Connecticut     JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              JEFF SESSIONS, Alabama
DANIEL K. AKAKA, Hawaii              SUSAN M. COLLINS, Maine
BILL NELSON, Florida                 SAXBY CHAMBLISS, Georgia
E. BENJAMIN NELSON, Nebraska         LINDSEY O. GRAHAM, South Carolina
EVAN BAYH, Indiana                   ELIZABETH DOLE, North Carolina
HILLARY RODHAM CLINTON, New York     JOHN CORNYN, Texas
MARK L. PRYOR, Arkansas              JOHN THUNE, South Dakota
JIM WEBB, Virginia                   MEL MARTINEZ, Florida
CLAIRE McCASKILL, Missouri           ROGER F. WICKER, Mississippi

                   Richard D. DeBobes, Staff Director

              Michael V. Kostiw, Republican Staff Director

                                  (ii)

  




                            C O N T E N T S

                               __________

                    CHRONOLOGICAL LIST OF WITNESSES

 The Situation in Iraq and Progress Made by the Government of Iraq in 
            Meeting Benchmarks and Achieving Reconciliation

                             april 8, 2008

                                                                   Page

Petraeus, GEN David H., USA, Commander, Multi-National Force-Iraq     7
Crocker, Ambassador Ryan C., United States Ambassador to Iraq....    21

 The Situation in Iraq and Progress Made by the Government of Iraq in 
          Meeting the Benchmarks and Achieving Reconciliation

                             april 9, 2008

Bacevich, Andrew J., Professor of International Relations and 
  History, Boston University.....................................    95
Keane, GEN John M. USA (Ret.), Senior Managing Director, Keane 
  Advisors, LLC..................................................   100
Malley, Robert, Middle East and North Africa Program Director, 
  International Crisis Group.....................................   105

   The Situation in Iraq, Progress Made by the Government of Iraq in 
   Meeting Benchmarks and Achieving Reconciliation, the Future U.S. 
      Military Presence in Iraq, and the Situation in Afghanistan

                             april 10, 2008

Gates, Hon. Robert M., Secretary of Defense......................   161
Mullen, Admiral Michael G., USN, Chairman, Joint Chiefs of Staff.   165

                                 (iii)


 THE SITUATION IN IRAQ AND PROGRESS MADE BY THE GOVERNMENT OF IRAQ IN 
            MEETING BENCHMARKS AND ACHIEVING RECONCILIATION

                              ----------                              


                         TUESDAY, APRIL 8, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:31 a.m. in room 
SD-106, Dirksen Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, 
Clinton, Pryor, Webb, McCaskill, McCain, Warner, Inhofe, 
Sessions, Collins, Chambliss, Graham, Cornyn, Thune, Martinez, 
and Wicker.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Evelyn N. Farkas, professional staff 
member; Michael J. Kuiken, professional staff member; Thomas K. 
McConnell, professional staff member; Michael J. McCord, 
professional staff member; William G.P. Monahan, counsel; 
Michael J. Noblet, professional staff member; and William K. 
Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; David G. Collins, research assistant; Paul C. 
Hutton IV, research assistant; Gregory T. Kiley, professional 
staff member; David M. Morriss, minority counsel; Lucian L. 
Niemeyer, professional staff member; Christopher J. Paul, 
professional staff member; Lynn F. Rusten, professional staff 
member; and Dana W. White, professional staff member.
    Staff assistants present: Fletcher L. Cork, Ali Z. Pasha, 
and Brian F. Sebold.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; Frederick M. 
Downey, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Bonni Berge, assistant to Senator 
Akaka; Christopher Caple, assistant to Senator Bill Nelson; 
Andrew R. Vanlandingham, assistant to Senator Ben Nelson; Jon 
Davey, assistant to Senator Bayh; Andrew Shapiro, assistant to 
Senator Clinton; M. Bradford Foley, assistant to Senator Pryor; 
Gordon I. Peterson, assistant to Senator Webb; Stephen C. 
Hedger, assistant to Senator McCaskill; Richard H. Fontaine, 
Jr., assistant to Senator McCain; Sandra Luff, assistant to 
Senator Warner; Anthony J. Lazarski and Nathan Reese, 
assistants to Senator Inhofe; Todd Stiefler, assistant to 
Senator Sessions; Mark J. Winter, assistant to Senator Collins; 
Clyde A. Taylor IV, assistant to Senator Chambliss; Andrew 
King, assistant to Senator Graham; Lindsey Neas, assistant to 
Senator Dole; Brian Polley, assistant to Senator Cornyn; Jason 
Van Beek, assistant to Senator Thune; Brian W. Walsh, assistant 
to Senator Martinez; and Erskine W. Wells III, assistant to 
Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    First, let us welcome General Petraeus and Ambassador 
Crocker, we thank you for joining us today. We thank you for 
your service to our Nation, and please express our deep 
gratitude to the men and women serving in Iraq, both in our 
Armed Forces, and the civilian agencies of our Government. We 
look forward to your report and recommendations as to where we 
go from here.
    Until recent attacks on the Green Zone, heightened attacks 
on our forces, and violent events in Basrah and Baghdad, the 
surge, along with other factors, appeared to have achieved some 
success in reducing violence in Iraq.
    This newly increased violence raises questions about the 
military success of the surge, but more significantly, the 
purpose of the surge as announced by President Bush last year, 
which was to give the Iraqi leaders breathing room to work out 
a settlement, has not been achieved. That reality lead many of 
us to, once again, challenge President Bush's policy.
    During my recent trip to Iraq, just before the latest 
outbreak of violence, a senior U.S. military officer told me 
that he asked an Iraqi official, why is it that we're using our 
U.S. dollars to pay your people to clean up your town, instead 
of you using your funds? The Iraqi replied, ``As long as you 
are willing to pay for the cleanup, why should we do it?''
    This story crystallizes a fundamental problem of our policy 
in Iraq. It highlights the need to change our current course in 
order to shift responsibility from our troops and our taxpayers 
to the Iraqi Government, and force that government to take 
responsibility for their own future politically, economically, 
and militarily.
    Our current open-ended commitment is an invitation to 
continuing dependency. An open-ended pause, starting in July, 
would be just the next page in a war plan with no exit 
strategy.
    Another senior U.S. military officer in Iraq put it 2 weeks 
ago, it's time to take the training wheels off and it's time to 
take our hands off the Iraqi bicycle seat.
    The Bush administration's strategy has been built on the 
assumption that, so long as we continue to provide the Maliki 
Government with plenty of time, military support, and financial 
assistance, they will take responsibility for Iraq and its 
people.
    The major political steps that they need to take have not 
yet been taken by the Iraqis, including establishing a 
framework for controlling and sharing oil revenues, adapting an 
election law so that provincial elections can take place, and 
considering amendments to their constitution.
    Even the few small political steps that have been taken by 
the Iraqis are in jeopardy because of the incompetence and 
obsessively sectarian leadership of Mr. Maliki.
    Last week, this incompetence was dramatized in a military 
operation in Basrah. Far from being the defining moment that 
President Bush described, it was a haphazardly planned 
operation, carried out apparently without meaningful 
consultation with the U.S. military or even key Iraqi leaders, 
while Maliki made unrealistic claims, promises, and threats.
    In January of last year, when President Bush announced the 
surge, he said the Iraqi Government planned to take 
responsibility for security across Iraq by the end of 2007. The 
President also pledged to hold the Iraqi Government to a number 
of other political benchmarks which were supposed to be 
achieved by the end of 2007. Instead of forcefully pressing for 
political progress, President Bush has failed to hold the 
Maliki Government to their promises, showering them instead 
with praise that they are bold and strong.
    The President has ignored the view of his own military 
leaders. A State Department report less than 5 months ago 
included the quote, ``the intransigence of Iraq's Shiite-
dominated government is a key threat facing the United States' 
efforts in Iraq, rather than al Qaeda terrorists, Sunni 
insurgents, or Iranian-backed militia.''
    Now violence appears to be on the rise, and President Bush 
is once again taking pressure off of Maliki if he announces 
that reductions of our troops will be halted in July, and that 
the pause is open-ended.
    On the economic side, 5 years after the war began, 
skyrocketing oil prices have swelled Iraqi oil revenues beyond 
all expectation. Iraq now has tens of billions of dollars in 
surplus funds in their banks, and in accounts around the world, 
including about $30 billion in U.S. banks.
    The Iraqi leaders and bureaucrats aren't spending their 
funds. The result is, that far from financing its own 
reconstruction as the administration promised 5 years ago, the 
Iraqi Government has left the U.S. to make most of the capital 
expenditures needed to provide essential services and improve 
the quality of life of Iraqi citizens.
    American taxpayers are spending vast sums on reconstruction 
efforts. For example, the U.S. has spent over $27 billion to 
date on major infrastructure projects, job training, education 
and training, and equipping of Iraqi security forces (ISFs).
    On the other hand, according to the Special Inspector 
General for Iraq Reconstruction, the Iraqi Government budgeted 
$6.2 billion for its capital budget in 2006, but spent less 
than a quarter of that. As of August 31, 2007, the Iraqi 
Government has spent somewhere between 4.4 percent, according 
to the Government Accountability Office, and 24 percent 
according to the White House, of its $10 billion capital budget 
for 2007.
    As of last Thursday, the United States is paying the 
salaries of almost 100,000 Iraqis who are working on the 
reconstruction. To add insult to injury, in addition to 
spending tens of billions of U.S. dollars on reconstruction, 
American taxpayers are also paying $3 to $4 a gallon for gas 
here at home, much of which originates in the Middle East, 
including Iraq.
    The Iraqi Government seems content to sit by, build up 
surpluses, and let Americans reconstruct their country and let 
Americans foot the bill. But the American people surely aren't 
content with that, and the Bush administration shouldn't be 
either.
    Militarily, 5 years after the war began, the Iraqi Army now 
numbers 160,000 soldiers, over 60 percent of whom, according to 
our own statistics, are capable of taking the lead in 
operations carried out in conjunction with U.S. troops.
    However, in 4 key Northern Provinces where the Iraqis have 
50,000 trained soldiers, the United States forces number 
20,000. We were told on our recent visit that from December 29, 
2007 through March 16, 2008, there were 110 combined U.S.-Iraqi 
operations of a company size, or greater, and that the Iraqi 
Army led in just 10 of those 110 operations.
    As the fighting in Basrah and Baghdad demonstrates, we are 
being drawn deeper into what General Raymond T. Odierno 
described here last week as an intercommunal conflict. That 
conflict, which has nothing to do with al Qaeda and everything 
to do with a civil war, appears to be brewing.
    There is a consensus among the President's supporters and 
critics alike that there is no military solution to this 
conflict and there will be no end to it unless the Iraqi 
political leaders take responsibility for the country's future.
    An announcement of an open-ended pause on troop reductions, 
starting in July, would simply send the wrong message to the 
Iraqi leaders. Rather, we need to put continuous and increasing 
pressure on the Iraqis to settle their political differences, 
to pay for their own reconstruction effort with their oil 
windfalls, and to take the lead in conducting military 
operations.
    The way to do that is to adopt a reasonable timetable for a 
change in mission and redeployment of our troops. Gradually 
shifting responsibility to the Iraqis for their own future--
politically, militarily, and economically--is our best hope for 
a successful outcome in Iraq and represents, finally, an exit 
strategy for most of our troops.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you, Mr. Chairman, and welcome back 
to our two distinguished witnesses.
    We've come a long way since early 2007 and quite a 
distance, even, since General Petraeus and Ambassador Crocker 
appeared before our committee last September. We owe these two 
patriotic Americans a debt of gratitude for their selfless 
service to our country.
    At the beginning of last year, we were engaged in a great 
debate about what to do in Iraq. Four years of mismanaged war 
had brought us almost to the point of no return. Sectarian 
violence in Iraq was spiraling out of control, life had become 
a struggle for survival, and a full-scale civil war seemed 
almost unavoidable. Al Qaeda in Iraq (AQI) was on the offensive 
and entire Iraqi provinces were under the control of 
extremists.
    Yet, rather than retreat from Iraq and face, thereby, the 
terrible consequences that would ensue, we chose to change 
strategies to try to turn things around. Instead of abandoning 
Iraq to civil war, genocide, and terror, and the Middle East to 
the destabilizing effects of these consequences, we changed the 
strategy and sent additional troops to carry it out. By the 
time our two witnesses testified in September, it had become 
clear that these new efforts were succeeding.
    Since the middle of last year, sectarian and ethnic 
violence, civilian deaths, and deaths of coalition forces have 
all fallen dramatically. This improved security environment has 
led to a new opportunity; one in which average Iraqis can, in 
the future, approach more normal political and economic life.
    Reconciliation has moved forward, and over the weekend, 
Sunni, Shiite, and Kurdish leaders backed the Prime Minister in 
a statement supporting his operation in Basrah, and urging the 
disbandment of all militias.
    Much, much more needs to be done, and Iraqi leaders need to 
know that we expect them to show the necessary leadership to 
rebuild their country, for only they can. But today, it is 
possible to talk with real hope and optimism about the future 
of Iraq and the outcome of our efforts there.
    While the job of bringing security to Iraq is not finished, 
as the recent fighting in Basrah and elsewhere vividly 
demonstrated, we're no longer staring into the abyss of defeat 
and we can now look ahead to the genuine prospect of success.
    Success: the establishment of a peaceful, stable, 
prosperous, democratic state that poses no threats to its 
neighbors and contributes to the defeat of terrorists, this 
success is within reach. With success, Iraqi forces will take 
responsibility for enforcing security in their country, and 
American troops can return home with the honor of having 
secured their country's interests at great personal cost, and 
of helping other people achieve peace and self-determination.
    That's what I hope every American desires for our country 
and for our mission in Iraq. But should the United States, 
instead, choose to withdraw from Iraq before Iraq's security is 
established we will exchange for this victory a defeat that is 
terrible and longlasting.
    AQI will claim victory, and increase its efforts to promote 
sectarian tensions, pushing for a full-scale civil war. It 
could descend into genocide and destabilize the Middle East. 
Iraq would become a failed state and it could become a haven 
for terrorists to train and plan their operations.
    Iranian influence would increase substantially in Iraq, and 
Iran would encourage other countries to seek accommodation of 
Tehran at the expense of our interests.
    An American failure would almost certainly require us to 
return to Iraq, or draw us into a wider, far, far costlier war.
    On the other hand, when the Iraqis are able to build on the 
opportunity provided by recent successes, they will have a 
chance to leave in Iraq a force for stability and freedom, not 
conflict and chaos. In doing so, we will ensure that the 
terrible price we are paying in the war, a price that has made 
all of us sick at heart, has not been paid in vain.
    Our troops can leave behind a successful mission, and our 
Nation can leave behind a country that contributes to the 
security of America and the world. To do this, we must continue 
to help the Iraqis protect themselves against the terrorists 
and the insurgents.
    We must press ahead against al Qaeda, the radical Shiite 
militias, and the Iranian-backed special groups. We must 
continue to support the Sunni volunteers and the Iraqi 
Awakening as they stand up to AQI. We must continue to build 
the ISFs so they can play an ever-stronger and more neutral 
role in suppressing violence.
    This means rejecting, as we did in 2007, calls for a 
reckless and irresponsible withdrawal of our forces at the 
moment when they are succeeding. I do not want to keep our 
troops in Iraq a minute longer than necessary to secure our 
interests there. Our hope, my hope, is an Iraq that no longer 
needs American troops, and I believe we can achieve that goal, 
perhaps sooner than many imagine. But I also believe the 
promise of withdrawal of our forces, regardless of the 
consequences, would constitute a failure of political and moral 
leadership.
    Achieving our goals in Iraq will require much more than a 
military effort. Arab neighbors should increase their 
investment and engagement, including an overdue dispatch of 
ambassadors to Baghdad. We should encourage greater United 
Nations (U.N.) involvement, building on the work that 
representatives have done on Kirkuk recently.
    Iraqis must continue the reconciliation that has helped 
dampen violence over recent months, and they need to move a 
portion of their budget surpluses into job creation programs, 
move toward an end to their reliance on outside sources of aid, 
and look for other ways to take on more of the financial 
burdens currently borne by American taxpayers.
    This is especially important as the Government of Iraq 
continues to take in revenues it finds difficult to disburse 
through its own government channels. One way they begin to do 
this is by contributing significantly to the Commander's 
Emergency Response Program (CERP) which pays for the employment 
of reconstruction projects throughout the country. This is a 
start. Other programs of this type can and should be funded by 
the Iraqis themselves.
    By giving our men and women in uniform the time and support 
necessary to succeed in Iraq, we have before us a hard road. It 
is a privilege beyond measure to live in a country served so 
well by these individuals. The sacrifices made by these 
patriots and their families are incredibly great, and the 
alternative path is, in the end, a far costlier one.
    As we convene this hearing, and as we continue to debate 
our future in Iraq, Americans continue to risk everything to 
accomplish their mission on our behalf. Given the untold cost 
of a failure and the benefits offered by success, Congress must 
not choose to lose in Iraq. We should choose instead to 
succeed.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Again, a warm welcome to you, General Petraeus and 
Ambassador Crocker.
    General Petraeus, will you begin?

   STATEMENT OF GEN DAVID H. PETRAEUS, USA, COMMANDER, MULTI-
                      NATIONAL FORCE-IRAQ

    General Petraeus. Thank you, Mr. Chairman, Ranking Member, 
and members of the committee, thank you for the opportunity to 
provide an update on the security situation in Iraq, and to 
discuss the recommendations that I recently provided to my 
chain of command.
    Since Ambassador Crocker and I appeared before you 7 months 
ago, there has been significant, but uneven, security progress 
in Iraq. Since September, levels of violence and civilian 
deaths have been reduced substantially. AQI and other extremist 
elements have been dealt serious blows, the capabilities of ISF 
elements have grown, and there has been noteworthy involvement 
of local Iraqis and local security.
    Nonetheless, the situation in certain areas is still 
unsatisfactory and innumerable challenges remain. Moreover, as 
events in the last 2 weeks have reminded us, and as I have 
repeatedly cautioned, the progress made since last spring is 
fragile and reversible.
    Still, security in Iraq is better than it was when 
Ambassador Crocker and I reported to you last September, and it 
is significantly better than it was 15 months ago when Iraq was 
on the brink of civil war and the decision was made to deploy 
additional forces to Iraq.
    A number of factors have contributed to the progress that 
has been made. First, of course, has been the impact of 
increased numbers of coalition and Iraqi forces. We're well 
aware of the U.S. surge, let us recognize that Iraqis also 
conducted a surge, adding well over 100,000 additional soldiers 
and police to the ranks of the security forces in 2007 and 
slowly increasing its capability to deploy and employ these 
forces.
    The second factor has been the employment of coalition and 
Iraqi forces in the conduct of counterinsurgency operations 
across the country, deployed together to safeguard the Iraqi 
people, to pursue AQI, to combat criminal elements and militia 
extremists, to foster local reconciliation, and to enable 
political and economic progress.
    Another important factor has been an attitudinal shift 
among certain elements of the Iraqi population. Since the first 
Sunni Awakening in late 2006, Sunni communities in Iraq 
increasingly have rejected AQI's indiscriminate violence and 
extremist ideology.
    These communities also recognize that they cannot share in 
Iraq's bounty if they didn't participate in the political 
arena. Over time, awakenings have prompted tens of thousands of 
Iraqis, some former insurgents, to contribute to local 
security, the so-called Sons of Iraq. With their assistance and 
the relentless pursuit of AQI, the threat posed by AQI, while 
still lethal and substantial, has been reduced significantly.
    The recent threat in Basrah, southern Iraq, and Baghdad 
underscored the importance of a ceasefire declared by Muqtada 
al-Sadr last fall, another factor in the overall reduction in 
violence.
    Recently, some militia elements became active again, but an 
al-Sadr stand down did resolve the situation to a degree. The 
flare-up also highlighted the destructive role Iran has played 
in funding, training, arming, and directing the so-called 
Special Groups, and generated a renewed concern about Iran in 
the minds of many Iraqi leaders. Unchecked, the Special Groups 
pose the greatest long-term threat to the viability of a 
democratic Iraq.
    As we look to the future, our task together with our Iraqi 
partners will be to build on the progress achieved and to deal 
with the many challenges that remain. I do believe that we can 
do this while continuing the ongoing drawdown of the surge 
forces.
    In September, I described the fundamental nature of the 
conflict in Iraq as a competition among ethnic and sectarian 
communities for power and resources. This competition 
continues, influenced heavily by outside actors. Resolution 
remains the key to producing long-term stability in Iraq.
    Various elements push Iraq's ethno-sectarian competition 
toward violence. Terrorists, insurgents, militias, extremists, 
and criminal gangs pose a significant threat. Al Qaeda senior 
leaders who still view Iraq as the central front in their 
global strategy send funding, direction, and foreign fighters 
to Iraq.
    Actions by neighboring states compound Iraq's challenges. 
Syria has taken some steps to reduce the flow of foreign 
fighters from its territory, but not enough to shut down the 
key members of AQI. Iran has fueled violence, as I noted, in a 
particularly damaging way, through its lethal support for these 
Special Groups.
    Finally, insufficient Iraqi governmental capacity, 
increased sectarian mistrust, and corruption add to Iraq's 
problems. These challenges and a recent week's violence 
notwithstanding, Iraq's ethno-sectarian competition in many 
areas is now taking place more as debate and less through 
violence.
    In fact, the recent escalation of violence in Baghdad and 
Southern Iraq was dealt with, temporarily at least, by most 
parties acknowledging that the rational way ahead is through 
political dialogue, rather than street fighting.
    As I stated at the outset, though Iraq remains a violent 
country, we do see progress in the sectarian arena. As this 
chart (slide 1) illustrates, for nearly 6 months, security 
incidents have been at a level not seen since early to mid-
2005, though the level has spiked in recent weeks as a result 
of the fighting in Basrah and Baghdad.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The level of incidents has already begun to turn down 
again, though the period ahead will be a sensitive one. As our 
primary mission is to help protect the population, we closely 
monitor the number of Iraqi civilians killed through the 
violence. As this chart (slide 2) reflects, civilian deaths 
have decreased over the past year to a level not seen since the 
early 2006 Samarra Mosque bombing that set off a cycle of 
sectarianism violence that tore apart the fabric of Iraqi 
society in 2006 and early 2007.
    This chart (slide 2) also reflects our increasing use of 
Iraqi-provided reports, with the top line reflecting coalition 
and Iraqi data, and the bottom line reflecting coalition return 
data only.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    No matter which data is used, civilian deaths due to 
violence have been reduced significantly, but more clearly 
needs to be done.
    Ethno-sectarian violence is a particular concern in Iraq as 
it is a cancer that continues to spread if left unchecked. As 
the box at the bottom left of this chart (slide 3) shows, the 
number of deaths from ethno-sectarian violence has fallen since 
we testified last September. A big factor has been a reduction 
of deaths by sectarian violence in Baghdad. Density blocks for 
this are shown in the box depicting Iraq's capital over time.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Some of this decrease is, to be sure, due to sectarian 
hardening of certain Baghdad neighborhoods. However, that is 
only a partial explanation, as countless sectarian fault lines 
and numerous mixed neighborhoods still exist in Baghdad and 
elsewhere.
    In fact, coalition and Iraqi forces have off loaded along 
the fault line, to reduce the violence and enable Sunni and 
Shiite leaders to begin the long process of healing into their 
local communities.
    As this next chart (slide 4) shows, even though the number 
of hard-core violent attacks increased in March as AQI lashed 
out, the current level of attacks like this remains far below 
its height a year ago. Moreover, as we have helped improve 
security and focused on enemy networks, we have seen a decrease 
in the effectiveness of such attacks.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    The number of deaths due to ethno-sectarian violence, in 
particular, remain relatively low, demonstrating the enemy's 
inability to reignite the cycle of ethno-sectarian violence.
    The emergence of Iraqi volunteers to help secure their 
local communities has been an important element. As this chart 
(slide 5) depicts, there are now over 91,000 Sons of Iraq, 
Shiite as well as Sunni, under contract to help coalition and 
Iraqi forces protect their neighborhoods and secure 
infrastructure and roads.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    These volunteers have contributed significantly in the 
savings of vehicles not lost because of reduced violence, not 
to mention the priceless lives saved, that far outweigh the 
costs of the Iraqi contracts.
    The Sons of Iraq have also contributed to the discovery of 
improvised explosive devices (IEDs), and weapons in explosive 
caches. As this next chart (slide 6) shows, we have already 
found more caches in 2008 than we found in all of 2006.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Given the importance of the Sons of Iraq, we're working 
closely with the Iraqi Government to transition the ISFs into 
other forms of employment, and over 21,000 have already been 
accepted into the police force or other government jobs. This 
process has been slow, but it is taking place, and we will 
continue to monitor it carefully.
    Al Qaeda also recognizes the significance of the Sons of 
Iraq, and they rely on this to target it and reveal it. 
However, these attacks, in addition to widespread use of women, 
children, and the handicapped as suicide bombers, have further 
alienated AQI from the Iraqi people. The tenacious pursuit of 
AQI, together with AQI's loss of global support in many areas, 
has substantially reduced its capability, numbers, and freedom 
of movement. This chart (slide 7) displays the key military 
effect of the effort against AQI, and its insurgent allies. As 
you can see, we've reduced considerably the areas in which al 
Qaeda enjoys support and sanctuary, but clearly there is more 
to be done.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Having noted that progress, al Qaeda is still capable of 
lethal attacks, and we must maintain relentless pressure on the 
organization, on the networks outside Iraq that support it, and 
on the resource flows that sustain it.
    This chart (slide 8) lays out a comprehensive strategy that 
we, the Iraqis, and our interagency and international partners 
are employing to reduce what AQI needs. As you can see, 
defeating AQI requires not just actions by our elite 
counterterrorist forces, but also major operations by coalition 
and Iraqi conventional forces, a sophisticated intelligence 
effort, political reconciliation, economic and social programs, 
information operations initiatives, diplomatic activity, the 
employment counterinsurgency principles and detainee 
operations, and many other actions.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Related to this effort, I applaud Congress's support for 
additional intelligence, surveillance, and reconnaissance (ISR) 
assets in the upcoming supplemental, as ISR is vital to the 
success of our operations in Iraq and elsewhere.
    As we combat AQI, we must remember that doing so not only 
reduces a major source of instability in Iraq, it also weakens 
an organization that al Qaeda's senior leaders view as a pool 
to spread its influence, and forment regional instability.
    Osama bin Laden and Ayman al-Zawahiri have consistently 
advocated exploiting the situation in Iraq, and we have also 
seen AQI involved in destabilizing activities in the wider Mid-
East Region.
    Together with the ISFs, we have also focused on the Special 
Groups. These elements are funded, trained, armed, and directed 
by Iran's Quds Force, with help from Lebanese Hezbollah. It was 
these groups that launched Iranian rockets and mortar rounds at 
Iraq's seat of government 2 weeks ago, causing loss of innocent 
life and fear in the capital, and requiring Iraqi and coalition 
actions in response.
    Iraqi and coalition leaders have repeatedly noted their 
desire that Iran live up to the promises made by President 
Ahmadinejad and other senior Iranian leaders to stop their 
support for the Special Groups. However, nefarious activities 
by the Quds Force have continued, and Iraqi leaders now clearly 
recognize the threat they pose to Iraq. We should all watch 
Iranian actions closely in the weeks and months ahead, as they 
will show the kind of relationship Iran wishes to have with its 
neighbor, and the character of future Iranian involvement in 
Iraq.
    The ISFs have continued to develop since September, and we 
have transferred responsibilities to Iraqi forces as their 
capabilities and conditions on the ground have permitted.
    Currently, as this chart (slide 9) shows, half of Iraq's 18 
provinces are under provincial Iraqi control. Many of these 
provinces, not just the successful ones in the Kurdish regional 
government area, but also a number of Southern Provinces have 
done well.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Challenges have emerged in some other areas, including, of 
course, Basrah. Nonetheless, this process will continue, and we 
expect Anbar and Qadisiyyah Provinces to transition in the 
months ahead.
    Iraqi forces have grown significantly since September, and 
over 540,000 individuals now serve in the ISFs. The number of 
combat battalions capable of taking the lead in operations, 
albeit with some coalition support, has grown to well over 100 
(slide 10). These units are bearing an increasing share of the 
burden, as evidenced by the fact that ISF losses have recently 
been three times our own. We will, of course, conduct careful 
after-action reviews with our Iraqi partners in the wake of 
recent operations, as there were units and leaders found 
wanting in some cases, and some of our assessments may be 
downgraded as a result.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Nonetheless, the performance of many units was solid, 
especially once they got their footing, and gained a degree of 
confidence and certain Iraqi elements proved quite capable.
    Underpinning the advances of the past year has been 
improvements in Iraq's security institutions. An increasingly 
robust Iraqi-run training base enabled the ISFs to grow by over 
133,000 soldiers and police over the past 16 months, and the 
still-expanding training base is expected to generate an 
additional 50,000 Iraqi soldiers and 16 Army and Special 
Operations Battalions through the rest of 2008, along with 
23,000 police and 9 National Police Battalions.
    Additionally, Iraq's security ministries are steadily 
improving their ability to execute their budgets. As this chart 
(slide 11) shows, in 2007, as in 2006, Iraq's Security Ministry 
spent more on their forces than the United States provided 
through the ISF Fund (ISFF). We anticipate that Iraq will spend 
over $8 billion on security this year, and $11 billion next 
year. This projection enabled us recently to reduce 
significantly our ISFF request for fiscal year 2009 from $5.1 
billion to $2.8 billion.
    [The chart referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    While improved, ISFs are not yet ready to defend Iraq or 
maintain security throughout the country on their own. Recent 
operations in Basrah highlighted improvements in the ability of 
the ISFs to deploy substantial numbers of units, supplies, and 
replacements on very short notice. They certainly could not 
have deployed a division's-worth of army and police units on 
such short notice a year ago.
    On the other hand, the recent operations also underscored 
the considerable work still to be done in the area of 
logistics, force enablers, staff development, and command and 
control.
    We also continue to help Iraq through the U.S. Foreign 
Military Sales (FMS) Program. As of March 2008, the Iraqi 
Government has purchased over $2 billion worth of equipment and 
services of American origin through FMS. Since September, and 
with your encouragement of the organizations and the FMS 
process, delivery has improved as the FMS system has strived to 
support urgent wartime requirements.
    On a related note, I would ask that Congress consider 
restoring funding for the International Military Education and 
Training Program, which supports education for mid- and senior-
level Iraqi military and civilian leaders, and is an important 
component of the development of the leaders Iraq will need in 
the future.
    While security has improved in many areas, and the ISFs are 
shouldering more of the load, the situation in Iraq remains 
exceedingly complex and challenging. Iraq can face a resurgence 
of AQI, or additional Shiite groups could violate Muqtada al-
Sadr's cease-fire order, and return to violence.
    External actors, like Iran, could stoke violence within 
Iraq, and actions by other neighbors could undermine the 
security situation, as well.
    Other challenges result, paradoxically, from improved 
security which has provided opportunities for political and 
economic progress, and improved services at the local, 
provincial, and national levels.
    But the improvements have also created expectations that 
progress will continue. In the coming months, Iraq's leaders 
must strengthen governmental capacity, execute budgets, pass 
additional legislation, conduct provincial elections, carry out 
a census, determine the status of disputed territories, and 
resettle internally displaced persons and refugees. These tasks 
would challenge any government, much less a still-developing 
government, tested by war.
    The CERP, the State Department's Quick Response Fund, and 
the United States Agency for International Development (USAID) 
programs enable us to help Iraq deal with its challenges.
    To that end, I respectfully ask that you provide us, by 
June, the additional CERP funds requested in the supplemental. 
These funds have an enormous impact. As I noted earlier, the 
salaries paid to the Sons of Iraq alone cost far less than the 
cost savings in vehicles not lost due to the enhanced security 
in local communities.
    Encouragingly, the Iraqi Government recently allocated $300 
million for us to manage as Iraqi CERP, to perform projects for 
their people, while building their own capacity to do so.
    The Iraqi Government has also committed $163 million to 
gradually assume Sons of Iraq contracts, $510 million for small 
business loans, and $196 million for a joint training, 
education, and reintegration program.
    The Iraqi Government pledges to provide more as they 
execute the budget passed 2 months ago. Nonetheless, it is 
hugely important to have our resources continue, even as Iraqi 
funding begins to outstrip ours.
    Last month, I provided my chain-of-command recommendations 
for the way ahead in Iraq. During that process, I noted the 
objective of retaining and building on our hard-fought security 
gains, while we draw down to the pre-surge level of 15 brigade 
combat teams. I emphasized the need to continue work with our 
Iraqi partners to secure the population, and to transition 
responsibilities to the Iraqis as quickly as conditions permit, 
but without jeopardizing the security gains that have been 
made.
    As in September, my recommendations are informed by 
operational and strategic considerations. The operational 
considerations include recognition that the military surge has 
achieved progress, but that that progress is reversible. ISFs 
have strengthened their capability, but still must grow 
further. The provincial elections in the fall, refugee returns, 
detainee releases, and efforts to resolve provisional boundary 
disputes and Article 140 issues will be very challenging.
    The transition of Sons of Iraq into ISFs or other pursuits 
will require time and careful monitoring. Withdrawing too many 
forces too quickly could jeopardize the progress of the past 
year, and performing the necessary tasks in Iraq will require 
sizable conventional forces, as well as Special Operations 
Forces and advisor teams.
    The strategic considerations include recognition that the 
strain on the U.S. military, especially on its ground forces, 
has been considerable. A number of security challenges inside 
Iraq are also related to significant regional and global 
threats.
    A failed state in Iraq would pose serious consequences for 
the greater fight against al Qaeda, for regional stability, for 
the already existing humanitarian crisis in Iraq, and for the 
efforts to counter-malign Iranian influence.
    After weighing these factors, I recommended to my chain of 
command that we continue the drawdown of the surge combat 
forces, and that upon the withdrawal of the last surge brigade 
combat team in July, we undertake a 45-day period of 
consolidation and evaluation. At the end of that period, we 
will commence a process of assessment to examine the conditions 
on the ground, and over time, determine when we can make 
recommendations for further reductions.
    This process will be continuous, with recommendations for 
further reductions made as conditions permit. This approach 
does not allow establishment of a set withdrawal timetable, 
however, it does provide the flexibility those of us on the 
ground need to preserve the still-fragile security gains our 
troopers have fought so hard, and sacrificed so much, to 
achieve.
    With this approach, the security achievements of 2007 and 
early 2008 can form a foundation for the gradual establishment 
of sustainable security in Iraq. This is not only important to 
the 27 million citizens of Iraq, it is also vitally important 
to those in the Gulf Region, to the citizens of the United 
States, and to the global community. It clearly is in our 
national interest to help Iraq prevent the resurgence of al 
Qaeda in the heart of the Arab world, to help Iraq resist 
Iranian encroachment on its sovereignty, to avoid renewed 
ethno-sectarian violence that could spill over Iraq's borders 
and make the existing refugee crisis even worse, and to enable 
Iraq to expand its role in the regional and global economies.
    In closing, I want to comment briefly on those serving our 
Nation in Iraq. We have asked a great deal of them and of their 
families, and they have made enormous sacrifices. My keen 
personal awareness of the strain on them, and on the force as a 
whole, has been an important factor in my recommendations. 
Congress, the executive branch, and our fellow citizens have 
done an enormous amount to support our troopers and their loved 
ones, and all of us are grateful for that. Nothing means more 
to those in harms' way than the knowledge that their country 
appreciates their sacrifices and those of their families.
    Indeed, all Americans should take great pride in the men 
and women serving our Nation in Iraq, and in the courage, 
determination, resilience, and initiative they demonstrate each 
and every day. It remains the greatest of honors to soldier 
with them.
    Thank you very much.
    Chairman Levin. Thank you, General Petraeus.
    Ambassador Crocker?

    STATEMENT OF AMBASSADOR RYAN C. CROCKER, UNITED STATES 
                       AMBASSADOR TO IRAQ

    Ambassador Crocker. Mr. Chairman, Senator McCain, members 
of the committee, it is an honor to appear before you today to 
provide my assessment on political, economic, and diplomatic 
developments in Iraq.
    When General Petraeus and I reported to you in September, I 
gave my considered judgment on whether our goals in Iraq were 
attainable. Can Iraq develop into a united, stable country with 
a democratically-elected government operating under the rule of 
law?
    Last September, I said that the cumulative trajectory of 
political, economic, and diplomatic developments in Iraq was 
upwards, although the slope of that line was not steep. 
Developments over the last 7 months have strengthened my sense 
of a positive trend. Immense challenges remain and progress is 
uneven, and often frustratingly slow, but there is progress.
    Sustaining that progress will require continuing U.S. 
resolve and commitment. What has been achieved is substantial, 
but it is also reversible.
    Five years ago, the statue of Saddam Hussein was toppled in 
Baghdad. The euphoria of that moment evaporated long ago, but 
as Iraq emerges from the shattering violence of 2006 and the 
early part of 2007, there is reason to sustain that commitment 
and the enormous investment we have made in the lives of our 
young men and women and our resources.
    Let me describe the developments upon which I base such a 
judgment.
    The first is at the national level, in the form of 
legislation and the development of Iraq's parliament. In 
September, we were disappointed that Iraq had not yet completed 
key laws. In the last several months, Iraq's parliament has 
formulated, debated vigorously, and in many cases, passed 
legislation dealing with vital issues of reconciliation and 
nation-building.
    A pension law extended benefits to individuals who had been 
denied them because of service with the previous regime. The 
accountability and Justice Law, de-Baathification reform, 
passed after lengthy and often contentious debate, reflects a 
strengthened spirit of reconciliation, as does a far-reaching 
amnesty law.
    The Provincial Powers Law is a major step forward in 
defining the relationship between the Federal and Provincial 
Governments. This involved a debate about the fundamental 
nature of the State, similar in its complexity to our own 
lengthy and difficult debate over States' rights.
    The Provincial Powers Law also called for provincial 
elections by October 1, 2008, and an electoral law is now under 
discussion that will set the parameter for those elections. All 
major parties have announced their support for elections, which 
will be a major step forward in Iraq's political development, 
and will set the stage for national elections in late 2009.
    A vote by the Council of Representatives in January to 
change the design of the Iraqi flag, means the flag now flies 
in all parts of the country for the first time in years. The 
passage of the 2008 budget, with record amounts for capital 
expenditures ensures that the Federal and Provincial 
Governments will have the resources for public spending.
    All of this has been done since September. These laws are 
not perfect and much depends on their implementation, but they 
are important steps.
    Also important has been the development of Iraq's Council 
of Representatives (COR) as a national institution. Last 
summer, the parliament suffered from persistent and often 
paralyzing disputes over leadership and procedures. Now, it is 
successfully grappling with complex issues and producing viable 
tradeoffs and compromise packages.
    As debates in Iraq's parliament become more about how to 
resolve tough problems in a practical way, Iraqi politics have 
become more fluid. Those politics still have a sectarian bent 
and basis, but coalitions have formed around issues, and 
sectarian political groupings, which often were barriers to 
progress, have become more flexible.
    Let me also talk about the intangibles; attitudes among the 
Iraqi people. In 2006 and 2007, many understandably questioned 
whether hatred between Iraqis of different sectarian 
backgrounds was so deep that a civil war was inevitable. The 
Sunni Awakening Movement in Anbar, which so courageously 
confronted al Qaeda, continues to help keep the peace in the 
area, and keep al Qaeda out.
    Fallujah, once a symbol for violence and terror, is now one 
of Iraq's safest cities. The Shiite holy cities of Najaf and 
Karbala are enjoying security and growing prosperity in the 
wake of popular rejection of extremist militia activity. The 
Shiite clerical leadership, the Marja'iyyah, based in Najaf, 
has played a quiet, but important, role in support of 
moderation and reconciliation.
    In Baghdad, we can see that Iraqis are not pitted against 
each other purely on the basis of sectarian affiliation. The 
security improvements of the past months have diminished the 
atmosphere of suspicion and allowed for acts of humanity that 
transcend sectarian identities.
    When I arrived in Baghdad a year ago, my first visit to a 
city district was to the predominantly Sunni area of Dora. 
Surge forces were just moving into neighborhoods still gripped 
by al Qaeda. Residents were also terrorized by extremist Shiite 
militias.
    Less than a year later, at the end of February, tens of 
thousands of Shiite pilgrims walked through those same streets 
on the way to Karbala to commemorate the martyrdom of Imam 
Hussein. Sunni residents offered food and water as they passed 
through, and some joined the pilgrimage.
    News from Iraq in recent weeks has been dominated by the 
situation in Basrah. Taken as a snapshot, the scenes of 
increasing violence and masked gunmen in the streets, it is 
hard to see how the situation supports a narrative of progress 
in Iraq, and there is still very much to be done to bring full 
government control to the streets of Basrah and eliminate 
entrenched extremist, criminal, and militia groups.
    But when viewed with a broader lens, the Iraqi decision to 
take on these groups in Basrah has major significance. First, a 
Shiite majority government, led by Prime Minister Maliki, has 
demonstrated its commitment to taking on criminals and 
extremists, regardless of identity.
    Second, ISFs led these operations in Basrah, and in towns 
and cities throughout the south. British and U.S. elements 
played important roles, but these were supporting roles, as 
they should be.
    The operation in Basrah has also shaken up Iraqi politics. 
The Prime Minister returned to Baghdad from Basrah shortly 
before General Petraeus and I left for Washington, and he, 
confident in his decision, was determined to press the fight 
against illegal groups. But he is also determined to take a 
hard look at lessons learned.
    The efforts of the government against extremist militia 
elements have broad political support, as a statement April 5 
by virtually all of Iraq's main political leaders--Sunni, 
Shiite, and Kurd--made clear, in support of Prime Minister 
Maliki's Government.
    A wild card remains the Sadrist Trend, and whether the 
Iraqis can continue to drive a wedge between other elements of 
the Trend and Iranian-supported Special Groups. A dangerous 
development in the immediate wake of the Basrah operation was 
what appeared to be a reunification between Special Groups and 
mainline Jaysh al-Mahdi (JAM). We also saw a potential collapse 
of the JAM freeze in military operations.
    As the situation unfolded, however, Muqtada al-Sadr issued 
a statement that disavowed anyone possessing heavy weapons, 
which would include the signature weapons of the Special 
Groups. This statement can further sharpen the distinction 
between members of the Sadrist Trend, who should not pose a 
threat to the Iraqi state, and members of the Special Groups, 
who very much do.
    One conclusion I draw from these signs of progress is that 
the strategy that began with the surge is working. This does 
not mean that U.S. support should be open-ended, or that the 
level and nature of our engagement should not diminish over 
time. It is in this context that we have begun negotiating a 
bilateral relationship between Iraq and the United States.
    In August, Iraq's five principal leaders requested a long-
term relationship with the United States, to include economic, 
political, diplomatic, and security cooperation. The heart of 
this relationship will be a legal framework for the presence of 
American troops, similar to that which exists in nearly 80 
countries around the world.
    The Iraqis view the negotiation of this framework as a 
strong affirmation of Iraqi sovereignty, placing Iraq on par 
with other U.S. allies and removing the stigma of Chapter 7 
status under the U.N. charter, pursuant to which coalition 
forces presently operate.
    Such an agreement is in Iraq's interest and ours. U.S. 
Forces will remain in Iraq beyond December 31, 2008, when the 
U.N. resolution presently governing their presence expires. Our 
troops will need basic authorizations and protections to 
continue operations, and this agreement will provide those 
authorizations and protections.
    The agreement will not establish permanent bases in Iraq, 
and we anticipate that it will expressly foreswear them. The 
agreement will not specify troop levels, and it will not tie 
the hands of the next administration. Our aim is to ensure that 
the next President arrives in office with a stable foundation 
upon which to base policy decisions, and that is precisely what 
this agreement will do. Congress will remain fully informed as 
these negotiations proceed in the coming weeks and months.
    Mr. Chairman, significant challenges remain in Iraq. A 
reinvigorated cabinet is necessary, both for political balance 
and to improve the delivery of services to Iraq's people. 
Challenges to the rule of law, especially corruption, are 
enormous. Disputed internal boundaries, the Article 140 
process, must be resolved. The return of refugees and the 
internally displaced must be managed. The rights of women and 
minorities must be better protected. Iraqis are aware of the 
challenges they face, and are working on them.
    Iraq's political progress will not be linear. Developments 
which are, on the whole, positive, can still have unanticipated 
or destabilizing consequences. The decision to hold provincial 
elections, vital for Iraq's democratic development and long-
term stability, will also produce new strains. Some of the 
violence we have seen recently in Southern Iraq reflects 
changing dynamics within the Shiite community as the political 
and security context changes. Such inflection points underscore 
the fragility of the situation in Iraq, but it would be wrong 
to conclude that any eruption of violence marks the beginning 
of an inevitable backslide.
    In terms of economics and capacity-building, in September, 
I reported to you that there had been some gains in Iraq's 
economy and in the country's efforts to build capacity to 
translate these gains into more effective governance and 
services. Iraqis have built on these gains over the past month, 
as is most evident in the revival of marketplaces across Iraq, 
and the reopening of long-shuttered businesses.
    According to a Center for International Private Enterprise 
poll last month, 78 percent of Iraqi business owners surveyed 
expect the Iraqi economy to grow significantly in the next 2 
years.
    With improving security and rising government expenditures, 
the International Monetary Fund projects that Iraq's gross 
domestic product will grow 7 percent in real terms this year, 
and inflation has been tamed. The dinar remains strong, and the 
Central Bank has begun to bring down interest rates.
    Iraq's 2008 budget has allocated $13 billion for 
reconstruction, and a $5 billion supplemental budget this 
summer will further invest export revenues in building the 
infrastructure and providing the services that Iraq so badly 
needs.
    This spending also benefits the United States. Iraq 
recently announced its decision to purchase 40 commercial 
aircraft from the U.S. at an estimated cost of $5 billion. As 
Iraq is now earning the financial resources it needs for bricks 
and mortar construction through oil production and export, our 
assistance has shifted to capacity development and an emphasis 
on local and post-kinetic development through our network of 
Provincial Reconstruction Teams (PRTs) and ministerial 
advisors.
    The era of U.S.-funded major infrastructure projects is 
over. We are seeking to ensure that our assistance, in 
partnership with the Iraqis leverages Iraq's own resources. Our 
25 PRTs throughout Iraq have been working to improve provincial 
and local governance capabilities, particularly in budget 
design and execution. They are also helping to establish 
critical linkages between provincial and Federal Governments. 
Our PRTs are great enablers, and we are working to ensure their 
continued viability as our forces redeploy. The relatively 
small amounts that they disburse through Quick Response Funds 
have major impacts on local communities, and congressional 
support is important, as it is for other vital programs in the 
fiscal year 2008 global war on terrorism supplemental request.
    Iraq increasingly is using its own resources to support 
projects and programs that we have developed. It has committed 
approximately $200 million in support of a program to provide 
vocational training for Concerned Local Citizens who stood up 
with us in the Awakening.
    Our technical assistance advisors have helped design new 
procurement procedures for Iraq's Oil Ministry. We developed 
the technical specifications from which Iraq's State-owned oil 
company will build new oil export platforms and underwater 
pipelines worth over $1 billion.
    In Baghdad, in the last 3 months, the municipality has 
stepped up to take over labor contracts worth $100 million that 
we had been covering under the Community Stabilization Program 
to clean the street.
    Like so much else, Iraq's economy is fragile, the gains 
reversible, and the challenges ahead, substantial. Iraq will 
need to continue to improve governmental capacity past national 
level, improve hydrocarbon legislation, improve electrical 
production and distribution, improve the climate for foreign 
and domestic investment, create short- and long-term jobs, and 
tackle the structural and economic problems of the vital 
agricultural sector. We will be helping the Iraqis as they 
tackle this challenging agenda, along with other international 
partners including the U.N. and the World Bank.
    In terms of regional and international dynamics, Mr. 
Chairman, along with the security surge last year, we also 
launched a diplomatic surge focused on enhancing U.N. 
engagement in Iraq, anchoring the international compact with 
Iraq, and establishing an expanded neighbors process which 
serves as a contract group in support of Iraq.
    The U.N. has taken advantage of an expanded mandate granted 
to the United Nations Assistance Mission in Iraq (UNAMI) to 
increase the scope of its activities and the size of its staff. 
Under dynamic new leadership, UNAMI is playing a key role in 
preparing for provincial elections, and in providing technical 
assistance to resolve disputed internal boundaries. The United 
Nations High Commissioner for Refugees has returned 
international staff to Iraq to assist with the return of 
internally displaced persons and refugees. The international 
compact with Iraq provides a 5-year framework for Iraq to 
reform its economy and achieve economic self-sufficiency in 
exchange for long-overdue Saddam-era debt relief. Preparations 
are underway for a ministerial-level compact meeting in Sweden 
next month; 74 nations were represented at last year's 
gathering in Egypt.
    Iraq's neighbors also understand they have a major interest 
in Iraq's future. Turkey hosted the second ministerial meeting 
of Iraq's neighbors in November, and Kuwait will host the third 
meeting later this month. In addition to all of Iraq's 
neighbors, these expanded Neighbor's Conferences also include 
the permanent five members of the Security Council, the Arab 
League, and the G-8.
    Support from Arab capitals has not been strong, and must 
improve for the sake of Iraq and the sake of the region. 
Bahrain's recent announcement that it will return an Ambassador 
to Baghdad is welcome, and other Arab States should follow 
suit. Iraq is a multi-ethnic state, but it is also a founding 
member of the Arab League and an integral part of the Arab 
world. Last month, Iraq hosted a meeting of the Arab 
Parliamentary Union, bringing the leaders of Arab parliaments 
and consultative councils to Iraq for the first major inter-
Arab gathering since 1990. It was noteworthy that the meeting 
was held in the Kurdish city of Irbil, under the recently 
redesigned Iraqi flag, highlighting both the remarkable 
prosperity and stability of Iraq's Kurdish region and the 
presence of the Iraqi Federal State.
    We hope that this event will encourage more active Arab 
engagements with Iraq, and we expect Prime Minister Maliki's 
effort against extremist Shiite militias in Basrah will receive 
Arab support.
    The presence of the Kurdistan Workers Party terrorist 
organization in the remote mountains of Iraq along the Turkish 
border has produced tension between Turkey and Iraq, and led to 
a Turkish cross-border operation in February, including 
movement of Turkish ground forces into Iraq.
    At the same time, both governments are working to 
strengthen their ties, and Iraqi President Talabani made a 
successful visit to Turkey in March.
    Syria plays an ambivalent role. We have seen evidence of 
efforts to interdict some foreign fighters seeking to transit 
Syria to Iraq, but others continue to cross the border. Syria 
also harbors individuals who finance and support the Iraqis 
insurgency. Iran continues to undermine the efforts of the 
Iraqi Government to establish a stable, secure state through 
the training of criminal militia elements engaged in violence 
against ISFs, coalition forces, and Iraqi civilians.
    The extent of Iran's malign influence was dramatically 
demonstrated when militia elements--armed and trained by Iran--
clashed with Iraqi Government forces in Basrah and Baghdad. 
When the President announced the surge, he pledged to seek and 
destroy Iranian-supported lethal networks inside Iraq. We know 
more about those networks, and their Quds Force sponsors than 
ever before, and we will continue to aggressively uproot and 
destroy them.
    At the same time, we support constructive relations between 
Iran and Iraq and are participating in a tripartite process to 
discuss the security situation in Iraq. Iran has a choice to 
make.
    Looking ahead, Mr. Chairman, almost everything about Iraq 
is hard. It will continue to be hard as Iraqis struggle with 
the damage and trauma inflicted by 35 years of totalitarian 
Baathist rule. But hard does not mean hopeless, and the 
political and economic progress of the past few months is 
significant.
    These gains are fragile, however, and they are reversible. 
Americans have invested a great deal in Iraq, in blood as well 
as treasure, and they have the right to ask whether this is 
worth it, whether it is now time to walk away and let the 
Iraqis fend for themselves. Iraq has the potential to develop 
into a stable, secure, multi-ethnic, multi-sectarian democracy 
under the rule of law. Whether it realizes that potential is 
ultimately up to the Iraqi people. Our support, however, will 
continue to be critical.
    I said in September that I cannot guarantee success in 
Iraq. That is still the case, although I think we are closer. I 
remain convinced that a major departure from our current 
engagement would bring failure, and we have to be clear with 
ourselves about what failure would mean. Al Qaeda is in retreat 
in Iraq, but it is not yet defeated. Al Qaeda's leaders are 
looking for every opportunity they can to hang on. Osama bin 
Laden has called Iraq ''the perfect base,`` and it reminds us 
that a fundamental aim of al Qaeda is to establish itself in 
the Arab world. It almost succeeded in Iraq, we cannot allow it 
a second chance.
    It is not only al Qaeda that would benefit. Iran has said 
publicly, it will fill any vacuum in Iraq, and extremist Shiite 
militias will re-assert themselves. We saw them try in Basrah 
and Baghdad 2 weeks ago. In all of this, the Iraqi people would 
suffer on a scale far beyond what we have already seen. 
Spiraling conflict could draw in neighbors with devastating 
consequences for the region and the world.
    Mr. Chairman, as monumental as the events of the last 5 
years have been in Iraq; Iraqis, Americans, and the world 
ultimately will judge us far more on the basis of what will 
happen, then what has happened. In the end, how we leave and 
what we leave behind will be more important than how we came. 
Our current course is hard, but it is working. Progress is 
real, although still fragile, and we need to stay with it.
    Mr. Chairman, in the months ahead, we will continue to 
assist Iraq as it pursues further steps towards reconciliation 
and economic development. Over time, this will become 
increasingly an Iraqi process, as it should be. Our efforts 
will focus on increasing Iraq's integration, regionally and 
internationally, assisting Iraqi institutions, locally and 
nationally, to strengthen the political process, promote 
economic activity, and support the U.N. as Iraq carries out 
local elections toward the end of the year.
    These efforts will require an enhanced civilian commitment 
and support from Congress and the American people.
    Finally, Mr. Chairman, I want to recognize and thank all of 
those who serve our country in Iraq--military and civilian. 
Their courage and commitment, at great sacrifice, has earned 
the admiration of all Americans. They certainly have mine, and 
it is my honor to be there with them.
    Thank you, sir.
    Chairman Levin. We're going to have a 6-minute round of 
questions.
    General, after the brigade combat teams added by the surge 
are removed in July, leaving somewhat more U.S. troops in Iraq 
than before the surge. Nonetheless, you've recommended at that 
time to your chain of command that there then be a 45-day 
period of evaluation.
    After that period, which takes us to September, you 
recommend commencing a process of assessment and then, over 
time, determine when you can make recommendations for further 
reductions. Now, that is a clear, open-ended pause.
    Forty-five days, first, to evaluate, and then you'll 
commence a process of assessment. I'm not sure what the 
difference between evaluation and assessment is, but then 
there's some open-ended process of assessment. Over time, there 
will be another determination.
    Now, it seems to me, what you've given to your chain of 
command is a plan which has no end to it. You do not use the 
word, which Secretary Gates used twice, which is that it would 
be a brief pause, and I assume that's intentional. Do you agree 
with Secretary Gates that it will be a brief pause, or not? Do 
you use the term brief?
    General Petraeus. What Secretary Gates has described, as I 
understand it, is a brief period of consolidation and 
evaluation.
    Chairman Levin. He used the term brief pause. He used the 
term brief pause, General. At any rate, without going into 
that; specifically, in February, he used the term brief pause. 
But, you're not using the term brief, is that correct?
    General Petraeus. Sir, I'm not using the word brief nor the 
word pause. What I stated was a 45-day period for consolidation 
and evaluation as to examine the situation on the ground, do 
the battlefield geometry, consult with Ambassador Crocker on 
what might be called the political-military calculus, and then 
conduct the assessments. When the assessment is at a point that 
the conditions are met to recommend reduction of forces, then 
that's what we would do.
    So, the bottom line, sir, is after this period in which we 
do the assessments, and as the conditions are met for further 
reductions, then we make those recommendations.
    Chairman Levin. Do you have any estimate at all as to how 
long that second period is going to take? Are you giving us any 
idea as to how long that will take? You say ``over time.'' 
Could that be a month? Could that be 2 months?
    General Petraeus. Sir, it could be less than that.
    Chairman Levin. Could it be more than that?
    General Petraeus. It could be more than that. Again, it's 
when the conditions are met.
    Chairman Levin. I understand.
    General Petraeus. Then we can make a recommendation for 
further reductions.
    Chairman Levin. Could it be 3 months?
    General Petraeus. Sir, again, at the end of the period of 
consolidation and evaluation, it could be right then or it 
could be longer. [Audience disturbance.]
    Chairman Levin. General, we're going to ask you this 
question again; could it be as long as 3 months?
    General Petraeus. Sir, it could be.
    Chairman Levin. Okay, that's all I'm asking.
    General Petraeus. It is when the conditions are met.
    Chairman Levin. I understand, but I just asked you a direct 
question; could that be as long as 3 months?
    General Petraeus. It could be, sir.
    Chairman Levin. Could it be as long as 4 months?
    General Petraeus. Sir, it is when the conditions are met, 
again.
    Chairman Levin. Now, next question; if all goes well, what 
would be the approximate number of our troops there at the end 
of the year? Let's assume conditions permitted things to move 
quickly. What, in your estimate, would be the approximate 
number of American troops there at the end of the year? Just 
say if you can't give us an estimate.
    General Petraeus. Right. Sir, I can't give you an estimate.
    Chairman Levin. All right. You're not going to give us an 
estimate on that.
    Next question. General, an April 3 article in the New York 
Times said that before the Iraqi Government's assault on the 
Mahdi Army in Basrah, you counseled Prime Minister Maliki, ``We 
made a lot of gains in the last 6 to 9 months that you'll be 
putting at risk.''
    The article also states that you advised him not to rush 
into a fight without carefully sizing up the situation and 
making adequate preparations. Now, did he follow your advice?
    General Petraeus. Sir, he laid out a plan that would, in 
fact, incorporate that advice.
    Chairman Levin. He followed your advice, then?
    General Petraeus. Once the forces got into Basrah, they 
ended up going into action more quickly than was anticipated.
    Chairman Levin. Would you say that Maliki followed your 
advice?
    General Petraeus. I would not. No, sir.
    Chairman Levin. In your professional judgment, was the 
Iraqi Government operation in Basrah properly and carefully 
planned, and were the preparations adequate?
    General Petraeus. Sir, there is no question but that it 
could have been better planned, and that the preparations could 
have been better. We've already done initial after-action 
reviews on that, in fact, there and also in Baghdad.
    Chairman Levin. I understand the report that came 
afterward. But, I wonder if we could get a direct answer to my 
question. Could you give me a direct answer? In your judgment 
was the Iraqi Government operation in Basrah properly and 
carefully planned, and were the preparations adequate? Could 
you give me a direct answer?
    General Petraeus. Sir, the answer is, again, it could have 
been much better planned. It was not adequately planned or 
prepared. Again, it was laid out to us, the objectives were 
described, and in fact, the process as it was laid out was 
logical, but I've not seen too many combat operations that have 
gone as they were planned, and this was not one either.
    The forces were deployed very rapidly, and before all 
conditions were set, as they might have been, they were in 
combat.
    Chairman Levin. General, to summarize in terms of where I 
think that testimony leads me to conclude--I will base my 
statement on your testimony--it was inadequately planned, it 
was inadequately prepared, it was followed by the use of 
American troops on that kind of planning, and that is totally 
unacceptable to me. I think that this open-ended pause that you 
have recommended takes the pressure off Iraqi leaders to take 
responsibility for their own country.
    Senator McCain.
    Senator McCain. I thank you, Mr. Chairman.
    General Petraeus, again, news reports said that Prime 
Minister Maliki only informed you shortly before the operation, 
is that correct? In Basrah?
    General Petraeus. It is, Senator. We had a heads up in a 
Friday night meeting where we, in fact, were planning to 
resource operations in Basrah on a longer-term basis. The 
following Saturday, we had a meeting during which he laid out 
the plan that he had to deploy forces. He laid out the 
objectives, the lines of operations that he was going to 
operate along, and stated that he was moving there on Monday, 
himself.
    Senator McCain. It was not something that you had 
recommended.
    General Petraeus. It was not something I recommended, no, 
sir.
    Senator McCain. News reports indicate that over 1,000 Iraqi 
Army and Police deserted or underperformed during that 
operation. This is 4 months after Basrah achieved provincial 
Iraqi control, meaning that all provincial security had been 
transferred to ISFs. What's the lesson that we're to draw from 
that? That 1,000 Iraqi Army and Police deserted or 
underperformed?
    General Petraeus. What happened was, in one case, a brigade 
that literally had just come out of Unit Set Fielding was 
pressed into operation. The other lesson is a recurring one, 
and that is the difficulty of local police operating in areas 
where there is serious intimidation of themselves and of their 
families.
    Senator McCain. Suffice it to say, it was a disappointment.
    General Petraeus. It was, although, it is not over yet, 
Senator. In fact, subsequent to the early days, they then took 
control of the security at the different ports, they continued 
to carry out targeted raids, the operation is still very much 
ongoing, and it is, by no means, over.
    Senator McCain. The Green Zone has been attacked in ways 
that it has not been for a long time, and most of that is 
coming from elements that leave Sadr City, or from Sadr City 
itself, is that correct?
    General Petraeus. That's correct, Senator.
    Senator McCain. What are we going to do about that?
    General Petraeus. We have already taken control of the area 
that was the principle launching point for a number of the 107-
millimeter rockets into Baghdad, and have secured that area. 
Beyond that, again, ISFs are going to have to come to grips--
politically as well as militarily--with the issue of the 
militia, and more importantly, the Special Groups.
    Senator McCain. What do you make of Sadr's declaration of a 
cease-fire?
    General Petraeus. As with the cease-fire that was 
proclaimed in the wake of the militia violence in Karbala in 
August of last year, it is both to avoid further damage to the 
image of the Sadr Movement which, of course, is supposed to 
care for the downtrodden and, obviously, is a religiously-
inspired movement, but which has been hijacked, in some cases, 
by militias. In fact, other elements have used it to cloak 
their activities, as well.
    If I could, Senator, also point out that along with the 
operations in Basrah, there were operations in a number of 
other provinces in Southern Iraq, all precipitated by this 
outbreak in militia violence. In Karbala, Najaf, Qadisiyah, 
Illa, Wasit, Dhi Qar and Muthanna, the ISFs actually did well, 
and in some cases did very well and maintained security.
    The same is true in Baghdad, although again, even there, 
the performance was uneven in some cases.
    Senator McCain. There are numerous threats to security in 
Iraq. Do you still view AQI as a major threat?
    General Petraeus. It is still a major threat, though it is 
certainly not as major a threat as it was, say, 15 months ago.
    Senator McCain. Certainly not an obscure sect of the 
Shiites, overall?
    General Petraeus. No, sir.
    Senator McCain. Or Sunnis, or anybody else. Al Qaeda 
continues to try to assert themselves in Mosul, is that 
correct?
    General Petraeus. It is, Senator. As you saw on the chart, 
the area of operation of al Qaeda has been greatly reduced in 
terms of controlling areas that it controlled as little as a 
year and a half ago, but clearly, Mosul and Ninawa Province are 
areas that al Qaeda is very much trying to hold on to. All 
roads lead through the traditional capital of the north.
    Senator McCain. They continue to be a significant threat?
    General Petraeus. They do, yes, sir.
    Senator McCain. Ambassador Crocker, in your statement, you 
talked about a long-term relationship with Iraq, such as a 
security arrangement, diplomatic, economic, et cetera, that we 
have with some 80 countries. You envision this after we succeed 
in this conflict, is that correct? Would you talk a little bit 
about that? Elaborate a little more?
    Ambassador Crocker. Yes, sir. I would actually envision it 
as helping us to succeed in the conflict.
    The effort will have two elements; one will be a Status of 
Forces Agreement (SOFA). That will be, as I said, approximately 
like what we have with 80 other countries. It will have some 
unique aspects to give our forces the authorities to continue 
operations after the end of 2008.
    There will also be a broader Strategic Framework Agreement, 
first called for by the Iraqi leadership last August, and then 
reflected in the Declaration of Principles that Prime Minister 
Maliki and President Bush signed in November. This will cover, 
in addition to security, the political, the economic, the 
cultural, and the whole spectrum of our relations.
    Senator McCain. Thank you.
    Finally, General Petraeus, Mosul continues to be a battle, 
is that correct?
    General Petraeus. It does, Senator.
    Senator McCain. Who are the major adversaries in Mosul? 
It's a mixed population?
    General Petraeus. The major adversaries are AQI, Ansar al-
Suna, Jaish al-Mahdi, and some related Sunni extremist 
organizations that all are allies of AQI.
    Senator McCain. It was once said that al Qaeda cannot 
succeed without control of Baghdad, and they can't survive 
without control of Mosul, is that an oversimplification?
    General Petraeus. A little bit, but not completely, sir. 
Again, it would be a significant blow to al Qaeda and in fact, 
the degree to which they're fighting reflects how much they 
want to retain the amount of presence that they do have in the 
greater Mosul area.
    Senator McCain. Finally, I hope in response, because my 
time is expired, could we talk a little bit more about the 
Iranian threat, particularly their stepped up support of 
various elements that are Shiite extremists in Iraq, 
particularly the role they've played in Basrah, as well as the 
southern part of the country? I've used up my time. I thank 
you, Mr. Chairman.
    Chairman Levin. Thank you, Senator McCain.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Thank you for your service.
    Ambassador Crocker, listening to you talk about this 
bilateral agreement with Iraq, I'm reminded that Secretary 
Gates told the Senate Armed Services Committee, ``the agreement 
will not contain a commitment to defend Iraq,'' but as long as 
America maintains 10,000 troops there, there's little 
distinction between a treaty.
    He has indicated that, of course, in 1953, Congress 
ratified the SOFA with the North Atlantic Treaty Organization 
(NATO) as a treaty. We have 140,000 men and women over there, 
so this isn't insignificantly different from those 84 other 
countries, and I think the record's very clear. Are you in 
agreement with what Secretary Gates has told this committee?
    Just quickly, if you would, please?
    Ambassador Crocker. I am, sir. It is our intention to 
negotiate the SOFA as an executive agreement. We do not intend 
to provide any binding commitments that would trigger the 
advice and consent process with the Senate.
    Senator Kennedy. Well, that's going to be another issue 
that we're going to have to come back to.
    So, you're not going to follow what has been done 
previously by President Eisenhower. Even under President 
Reagan, Congress approved agreements for the observer group in 
the Sinai Desert. You're not going to follow their precedent?
    Ambassador Crocker. We're going to keep Congress fully 
informed. I understand there are some briefings scheduled for 
the coming few days.
    Senator Kennedy. All right.
    In listening to the testimony this morning, General 
Petraeus, it seems clear that the administration describes one 
Iraq, while we see another. The President sees an Iraq in which 
Iraqis want to make political accommodations, if only the 
security would allow it, but most Americans see an Iraq in 
which the premise of the President's policy has been proven 
hopelessly wrong, and will continue to be wrong as long as the 
commitment of our military remains open-ended.
    The President sees an Iraq where progress is being made in 
neighborhoods, villages, towns, and cities across Iraq. But 
most Americans see an Iraq in which 4 million refugees have 
been displaced from their homes, their homes have been 
destroyed, neighborhoods ethnically cleansed, and overtaken by 
militia.
    The President and the Vice President describe an Iraq whose 
oil would pay for the needs of its people, but most Americans 
see an Iraq that is sitting on billions in oil revenues, while 
the American taxpayer spends billions to fund Iraq's 
reconstruction.
    A year ago, the President argued that we wouldn't begin to 
withdraw troops from Iraq because there was too much violence. 
Now, the President argues we can't begin to withdraw troops 
because violence is down. Whatever the conditions on the 
ground, the President's arrows always point in the same 
direction, to an open-ended commitment of our troops. American 
people deserve to know when the arrows will finally point to an 
exit from Iraq, and it's time to put the Iraqis on notice that 
our troops will not remain forever, so they will take the 
essential steps to resolve their differences.
    Just to come back to a question that was asked earlier, 
Americans want to know, after we have spent approximately $24 
billion in training Iraqi troops in 5 years, when are these 
forces going to be ready and willing to stand up and fight on 
their own so that the Americans don't have to fight for them, 
as we've seen with the 1,000 that effectively deserted or left 
their units?
    General Petraeus. Senator, they are fighting and, as I 
mentioned, dying for their country in substantial numbers. 
Their losses, again, are some three times our losses of late, 
and I might add that the Sons of Iraq losses are between two 
and a half and three times our losses in addition to that. So 
they're very much fighting, and they are very much dying for 
their country.
    They have, indeed, taken on the security tasks in a 
substantial number of provinces, and they are shouldering more 
of the burden in a number of the others.
    In Basrah, there were not just the units that didn't do 
well, there were also units that did do well, and there were 
also units that did do very well. This is tough, tough combat. 
When forces are new and go into it, they do bow at times before 
they steady. We saw that in Basrah and we saw that to some 
degree in Baghdad.
    Senator Kennedy. Well, of course, there's 4,000 Americans 
that have died, as well, and 30,000 that have been wounded, as 
well.
    Now, you mentioned that the battle in Basrah was to take on 
the criminals and extremists. Aren't we in there to battle al 
Qaeda?
    General Petraeus. Basrah, Senator, is a Shiite area, and it 
has a small Sunni community.
    Senator Kennedy. But we're over in Iraq to take on al 
Qaeda, and here we have the Maliki Government moving in here to 
battle inter-sectarian violence that's taking place, which many 
believe can enhance the possibilities of civil war.
    Let me ask you a question; were you at any meetings with 
the Vice President, Ambassador Crocker, where the issue of the 
Basrah invasion took place?
    Ambassador Crocker. It was not discussed.
    Senator Kennedy. It wasn't discussed at all during the Vice 
President's visit to Baghdad? The possibility of Maliki going 
into Basrah was not discussed? You were not at any meetings 
where the Vice President was present, or where this was 
discussed in his presence?
    Ambassador Crocker. It was not discussed in any meeting I 
attended, no, sir.
    Senator Kennedy. General?
    General Petraeus. Same, Senator.
    Senator Kennedy. Thank you, my time's up.
    Chairman Levin. Thank you so much.
    Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    Gentlemen, I commend you for your public service, and I 
mean that in a very sincere way. I've had the opportunity to 
meet with you and work with you, in-country, and back here in 
the continental limits of the United States.
    I also want to say that I felt your statements were very 
informative and strong and clear. It reflects your own 
compassion for our forces, and you added the civilians who are 
abroad, Mr. Ambassador, and their families here at home. I 
should also like to add a word for all of those thousands and 
thousands of Americans who are trying to care for the wounded, 
and to provide compassion for their families.
    I want to go back to your statements and frame a simple 
question.
    General, you said the following, ``With this approach, the 
security achievements of 2007 and 2008 can form a foundation 
for the gradual establishment of sustainable security in Iraq. 
This is not only important to the 27 million citizens of Iraq, 
it is also vitally important to the Gulf Region,'' and then you 
added, parenthetically, ``to the citizens of the United 
States.''
    Mr. Ambassador, you said the following, ``Americans have 
invested a great deal in Iraq, in blood, as well as treasure, 
and they have the right to ask whether it's worth it.''
    I would hope that you could frame a short message at the 
moment, both of you, to the American people, in response to the 
same question I asked of you last year, General. Is all of this 
sacrifice bringing about a more secure America?
    General Petraeus. I've thought more than a bit about that, 
Senator, since September, and though I continue to think it's a 
question perhaps best answered by folks with a broader view, 
and ultimately will have to be answered by history, I obviously 
have thoughts on it and on the importance of achieving our 
objectives in Iraq.
    Iraq has entailed a huge cost. Our men and women in uniform 
have made enormous sacrifices, over 4,000 of them, the ultimate 
sacrifice. The expenditure has been very substantial in 
numerous other respects, including the strain on the overall 
force and the opportunity costs in terms of not being able to 
focus more elsewhere.
    Having said that, there is no longer a ruthless dictator in 
Iraq who threatened and invaded his neighbors, and who 
terrorized his own people. Beyond that, the seeds of a nescient 
democracy have been planted in an Arab country that was the 
cradle of civilization. Though the germination of those seeds 
has been anything but smooth, there has been growth.
    All of this, again, has come at great cost. I recognize 
that the overall weighing of the scales is more than difficult, 
and believe it is best done at this point by someone up the 
chain with a broader perspective. Ultimately, it can only be 
answered by history once the outcome in Iraq is determined.
    Having said all of that, I believe the more important 
question at this point is how best to achieve our important 
interests in Iraq. Interests that do have enormous 
implications, as I mentioned, for the safety and security of 
our country, 27 million Iraqis, the Mid-East region, and the 
world with respect to al Qaeda, the spread of sectarian 
conflict, Iranian influence, regional stability, and the global 
economy.
    I do believe that we have made important progress in Iraq 
over the past year, and I believe the recommendations 
Ambassador Crocker and I have provided are the best course to 
achieve our important objectives in Iraq.
    Senator Warner. My time on the clock is moving very 
quickly, it was a fairly simple question. Does that translate 
into greater security for those of us at home? I pointed out 
this morning indications that up to 80 percent of the Americans 
just don't accept the premise at this point in time that it's 
worth it. Can you now, just in simple language, tell us, yes, 
it is worth it? It is making us safer here at home?
    General Petraeus. Senator, I do believe it is worth it, or 
I would not have, I guess, accepted it. You do what you're 
ordered to do, but you sometimes are asked whether you'd like 
to or are willing to take on a task. I took on the task--the 
privilege--of command of Multi-National Force-Iraq because I do 
believe that it is worth it, and I do believe the interests 
there are of enormous importance to our country, not just to 
the people of Iraq and the people of that region and the world.
    Senator Warner. Mr. Ambassador, how do you answer it? Is it 
providing a greater security here at home?
    Ambassador Crocker. Sir, I'll try and answer that at two 
levels.
    First, in the little over a year that I have been in Iraq, 
we have seen a significant degradation of al Qaeda's presence 
and its abilities. Al Qaeda is our mortal and strategic enemy. 
So, to the extent that al Qaeda's capacities have been lessened 
in Iraq, and they have been significantly lessened, I do 
believe that makes America safer.
    The second level at which I would try and answer that is 
that Iraq remains a work in progress. I said in my statement 
that I believe there has been significant progress. I believe 
that it is worth continuing our efforts there, and I believe 
very strongly that any alternative course of action to that 
which we have laid out deserves the most careful scrutiny by 
the American people and their representatives, because the 
consequences could be extremely grave.
    Senator Warner. Let me quickly ask a second question, if I 
may. On the Strategic Framework Agreement, and SOFA, both very 
important, you said, and I took this note, ``the strong 
interests and benefits that flow to Iraq.'' Are we utilizing 
this framework of negotiations to leverage a greater 
acceleration, a greater momentum by the Iraqi Government 
towards achieving the basic goals, be they legislative or 
military?
    Ambassador Crocker. I think the negotiations of the 
Strategic Framework Agreement, which is the broad agreement 
that covers political and economic and other aspects, will be 
an opportunity to have that kind of discussion. Those talks are 
not yet underway, we're awaiting the Iraqi decision on who 
their negotiators will be on that. But I certainly see that as 
an opportunity.
    Senator Warner. To advance the reconciliation that is 
needed, we all recognize that a military solution is not 
possible here. It's only through a political one, and I look 
upon these as an opportunity to say to the Iraqis, ``this is 
your chance, if we want a greater momentum towards political 
reconciliation.'' Can you tell us if that will be an element of 
the negotiations?
    Ambassador Crocker. It certainly would be my intention to 
make it so in the context of the Strategic Framework Agreement.
    Senator Warner. I thank you.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    General and Ambassador, thank you for your extraordinary 
service in the cause of freedom in Iraq.
    I must say, your testimony is encouraging and yet quite 
realistic, and in my opinion, not overstated. You've told us 
that the strategy associated with the surge is working, 
progress has been made, but it's entirely reversible, you've 
been very frank about some of the problems that we still face.
    I say what I'm about to say with respect to my colleagues 
who have consistently opposed our presence in Iraq. As I hear 
the questions and the statements today, it seems to me that 
there's a kind of hear no progress in Iraq, see no progress in 
Iraq, and most of all, speak of no progress in Iraq. The fact 
is there has been progress in Iraq, thanks to extraordinary 
efforts by the two of you, and all of those who serve under you 
on our behalf.
    I wish we could come to a point where we could have an 
agreement on the facts that you are presenting to us; the 
charts you've shown, the military progress, the extraordinary 
drop in ethno-sectarian violence, the drop in civilian deaths, 
the drop in American deaths, and the very impressive political 
progress in Iraq since last September.
    Hey, let's be honest about this, the Iraqi political 
leadership has achieved a lot more political reconciliation and 
progress since September than the American political leadership 
has. So, we have to give some credit for that.
    I repeat, I wish we could have an agreement on the facts 
which you've presented. You work for us. I don't distrust those 
facts, and I wish we could go from an agreement on those facts, 
to figure out how we can move to more success so we can bring 
more of our troops home. Now, that's apparently not going to 
happen in the near future.
    I want to ask you a question about Iran, because both of 
you have spoken with grave seriousness about the continuing 
Iranian threat. Senator Kennedy asked a question about the 
Iraqi Government initiative in Southern Iraq, and said there 
was no al Qaeda there, as you said, General Petraeus, there is 
no al Qaeda there. But there are Iranian-backed Special Forces 
that, from what you've told us today, continue to threaten what 
is our real goal, in Iraq, which is not just to defeat al 
Qaeda, it's to help stand up a self-governing, self-defending 
Iraqi Government.
    Let me ask you first, are the Iranians still training and 
equipping Iraqi extremists who are going back into Iraq and 
killing American soldiers?
    General Petraeus. That is correct, Senator. In fact, we 
have detained individuals, 4 of the 16 so-called master 
trainers, for example, are in our detention facility. You may 
recall that last year we detained the head of the Special 
Groups, and also the Deputy Commander of the Lebanese Hezbollah 
Department 2800, which is working with the Iranian Quds Force 
to train, equip, fund, and also direct these Special Groups.
    The Special Groups' activities have, in fact, come out in 
greater relief during the violence of recent weeks. It is they 
who have the expertise to shoot rockets more accurately, shoot 
mortars more accurately, and to employ some of the more 
advanced material--the explosively-formed projectiles and the 
like--that have not just killed our soldiers, and Iraqi 
soldiers, but also have been used to assassinate two Southern 
Governors in past months.
    Senator Lieberman. Right.
    General Petraeus. Two Southern Police Chiefs.
    So they are a serious concern. I believe that this was 
brought out in greater relief for the Iraqi Government, as 
well, because they have conveyed directly to their Iranian 
interlocutors their concerns about the activities of the Quds 
Force with the Special Groups, and recognize the very clear 
threat that they present to security in Iraq.
    Senator Lieberman. Is it fair to say that the Iranian-
backed Special Groups in Iraq are responsible for the murder of 
hundreds of American soldiers and thousands of Iraqi soldiers 
and civilians?
    General Petraeus. It certainly is, I do believe that is 
correct. Again, some of that also is militia elements who have 
then subsequently been trained by these individuals, but 
there's no question about the threat that they pose, and again, 
about the way that has been revealed more fully in recent 
weeks.
    Senator Lieberman. Ambassador Crocker, picking up on 
something General Petraeus just said, though we all have 
questions about the recent Iraqi Government initiative under 
Prime Minister Maliki's leadership in the south, in Basrah, is 
it not possible that there's something very encouraging about 
that initiative, which is that it represents a decision by the 
Maliki Government in Baghdad to not tolerate the Iranian-backed 
militias, essentially running wild, and trying to control the 
south of his country?
    Ambassador Crocker. Senator, that's an excellent question. 
As I look at the Basrah operation, I look at it through a 
political lens, obviously, more than I can a military lens.
    Senator Lieberman. Right.
    Ambassador Crocker. General Petraeus has described some of 
the military's perspectives of that. The political 
ramifications, I think, are distinctly more positive because 
that is exactly the signal that the operation has sent within 
Iraq and, one would hope, in the region, that this Iraqi 
Government is prepared to go after extremist militia elements, 
criminal elements, of whatever sectarian identity they may be.
    I know, for example, that ISFs are simultaneously engaged 
now in Basrah against Iranian-backed Shiite extremists, and are 
engaged in Mosul against al Qaeda and its Iraqi supporters. I 
think that is important.
    The reflection of that has been seen in the level of 
political unity behind the Prime Minister.
    Senator Lieberman. Right.
    Ambassador Crocker. I mean, there was the meeting of the 
Political Council of National Security on Saturday, and this 
brings together the President, the two Vice Presidents, the 
Speaker, the two Deputy Speakers of parliament, the Prime 
Minister, the Deputy Prime Minister, and the heads of all major 
parliamentary blocks. They unanimously developed a 15-point 
statement that included support for the Prime Minister in these 
efforts; it called for the disarming and an elimination of all 
militia elements, and it had a strong message, warning of 
outside interference in Iraq's affairs.
    So I think these are all highly positive developments that 
the government can continue to build on as it moves ahead with 
the other elements of the reconciliation agenda.
    Again, I can't predict that this will take us to a new 
level in Iraq, but it is, from a political perspective, 
distinctly encouraging.
    Senator Lieberman. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Inhofe.
    Senator Inhofe. Thank you, Mr. Chairman.
    All of us feel so strongly about the valor of our young 
troops. I will be attending a funeral at Arlington at 3 o'clock 
today for a Staff Sergeant, Christopher Hake, from Enid, OK. I 
just gave a tribute to him on the floor. There's so many others 
who are truly heroes. I think we need to keep repeating that, 
and reminding ourselves of the great service that they're 
performing.
    Let me just ask a couple of questions on the detainee 
issue, I don't think that's come up yet. I know that some on 
the far left are going to try to paint a picture that the 
United States of America and our troops are somehow brutal and 
torturing detainees, and I think this is something that is 
going to be coming back, and they're going to try to make 
people believe this, yet it's not true. I recognize, initially, 
like Abu Ghraib, there's some that did not perform well, but 
after that, that act has been cleaned up.
    I just got back from, I think my 14th trip in that area, 
but I was very careful to go to Camp Cropper and Camp Bucca, 
these are the largest detainee facilities that are there.
    Lieutenant General Stone, I think, has done an outstanding 
job there, General Petraeus, and he was good enough to let me 
have a free hand to go through both of these facilities.
    In doing so, I had an interpreter, and actually had 
interviews with some of these detainees, asking each one of 
them the question, ``Have you ever been abused, mistreated?'' I 
got nothing but positive answers. In fact, they were very, very 
positive toward us.
    I'd like to have you make any comments you might make 
concerning the progress that's been made in the way that the 
detainees are treated.
    General Petraeus. Well, Senator, there's been enormous 
change for the better in the detainee facilities. One focus, in 
fact, was to conduct counterinsurgency operations in the 
detainee facilities. In other words, you cannot allow the 
irreconcilables to be with the reconcilables. You have to get 
the talk fury out of these large compounds, which you saw, of 
hundreds of detainees, and not allow them to prosthelitize, 
intimidate, and to take out physical abuse of their fellow 
detainees who don't willingly go with them and in fact, to 
avoid a situation where you have a training ground for the 
terrorist camp of 2008 or 2009.
    We separated the irreconcilables, we are now providing 
education, there's always been good healthcare, good food, and 
good conditions. Also, in fact, to the point that there are 
over 100 who have actually requested to stay on in detention 
after their actual time was up, after their Reintegration 
Review Board, because they wanted to complete either job 
training or civilian education or some of the religious 
training that is offered in these facilities.
    Again, this has been an enormous change, and General Stone 
and his team have done wonderful work in this regard. It has 
resulted, most importantly, in a recidivism rate, a return to 
Bucca or Cropper, if you will, that is very, very small 
compared with what it used to be. We track that because we have 
the biometrics on each of the individuals who have been in our 
facilities.
    So, it's an enormous shift, it is something we are trying 
to capture in our doctrinal manuals so that we can continue to 
build on this, and to perform detainee operations in a much 
enhanced way over what was done before.
    Senator Inhofe. Yes, that was my observation.
    Ambassador Crocker, in your opening statement, you referred 
to, I believe, Ahmadinejad making the statement that, if 
something happens where we leave precipitously that there would 
be a vacuum, and he would fill that vacuum. You didn't take 
much time after that to say what would happen. Either one of 
you want to comment on what would happen if they were to fill 
that vacuum?
    Ambassador Crocker. Senator, I think the developments in 
Baghdad and Basrah over the last couple of weeks have been very 
instructive on a number of levels. I commented on one of them 
in response to Senator Lieberman's question. It is also very 
important in what it shows us of what Iran is doing. Because 
the general level of violence is down, we could see, I think, 
much more sharply defined, what Iran's role is in the arming 
and equipping of these extremist militia groups.
    What it tells me is that Iran is pursuing, as it were, a 
Lebanization strategy; using the same techniques they used in 
Lebanon to co-opt elements of the local Shiite community, and 
use them as basically instruments of Iranian force. That also 
tells me, sir, that in the event of a precipitous U.S. 
withdrawal, the Iranians would just push that much harder.
    Senator Inhofe. Yes, they said they would do that.
    Last question here, as you well know, down at Camp Bucca, 
that's real close to Basrah where all of this was taking place, 
and I was there right after that took place. I'm a little 
confused, there's a lot of criticism over the way they 
performed. According to our troops over there, they were real 
pleased that they came in when they did with their troops and 
demonstrated very clearly that they're willing to take on that 
responsibility.
    The impression I got from the troops that were there is 
that the Iraqis did what they should do, and they performed 
very well.
    General Petraeus. Sir, I don't want to overstate the 
performance. However, the Iraqi people down there, by and 
large, were grateful for the action by the ISFs, by the 
decision that Prime Minister Maliki took to, in fact, confront 
militia, criminals, gangs, or whatever it might be.
    In fact, as I mentioned, the operation is by no means 
complete. It is continuing, it continues to grow on a much more 
deliberate basis, instead of the fairly more rapid sudden basis 
in which it was started, and where there was some faltering at 
the beginning, as I mentioned.
    They now control the different ports, for example, they 
control some key areas through which smuggling of weapons, as 
well as other contraband used to go. So, again, I'm not 
surprised to hear that comment.
    Senator Inhofe. Yes, okay. My time's expired. But for the 
record, I'd like to kind of get your opinion as to where we are 
right now in the numbers, the sheer numbers of the ISFs. It's 
my understanding we're at about 140,000 now, we want to get up 
to around 190,000, but maybe a status, for the record.
    General Petraeus. I'd be happy to.
    [The information referred to follows:]

    The total number of assigned Iraqi security forces as of April 30, 
2008, is 561,963. This includes forces in the Ministry of Interior, the 
Ministry of Defense, and the Counterterrorism Bureau in the categories 
listed in the below table.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Inhofe. Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Inhofe.
    Senator Reed.
    Senator Reed. Thank you, Mr. Chairman.
    General Petraeus, do you believe that the Mahdi Army will 
voluntarily disband and disarm at the request of the Prime 
Minister?
    General Petraeus. Sir, some elements of the Mahdi Army 
could be incorporated into legitimate employment and other 
legitimate activities.
    Now, standing down at the direction of the Prime Minister 
is something that would undoubtedly result in violence. 
However, as you may have seen recently, Muqtada al-Sadr has 
said that he would stand down the force at the request of the 
marjiya, the senior Shiite clerics in Najaf. We're just going 
to have to see how that plays out in the months ahead.
    Senator Reed. But, unless he is instructed by the senior 
Shiite clergy, he would likely resist that which would lead, in 
your words, to accelerated violence within the Shiite 
community.
    General Petraeus. It depends, again, how it's done, 
Senator. If you can do this gradually over time, with the force 
in the background that is capable of taking out action and 
providing alternatives.
    The key here is actually providing some other means of 
livelihood. The same problem that we had in a number of the 
different Sunni communities that were in the grip of al Qaeda.
    Senator Reed. Well, after the attack in Basrah, where the 
Prime Minister committed to destroy these elements, and then he 
had to withdraw, I think this is less of an employment problem 
than an existential problem of political survival, one or the 
other. In those terms, unless there's a voluntary compliance by 
the Mahdi Army, the alternatives for violence seem to be quite 
significant.
    Let's assume that's the case; will you participate with 
your military forces in supporting the government?
    General Petraeus. First of all, there is some voluntary 
standing down already, Senator. A number of the Sadr political 
leaders, in fact, have been engaging, and do not want to bring 
the violence.
    Everyone has looked into the abyss and said, ``This does 
not look good, let's step back and let's see if there is some 
alternative that can be followed.''
    Senator Reed. What's the alternative?
    General Petraeus. The alternative is the incorporation in 
the political process, and over time, providing some avenue for 
these young men to participate in the economy, and so forth. 
That has actually worked in a number of neighborhoods.
    Senator Reed. Like?
    General Petraeus. Like West Rasheed and a variety of 
southern communities.
    Senator Reed. I think that's the same dilemma, and it's 
been a dilemma now for a year or more with respect to the Sons 
of Iraq where they're still being paid by us, and they're now 
being assumed, at least 60,000 of them, into the apparatus of 
the state of Iraq.
    General Petraeus. Over, actually, it's well over 20,000 
now, Senator.
    Senator Reed. Sixty thousand have still not been?
    General Petraeus. I believe it's over 90,000 actually that 
are on the rolls right now, and that will either be 
transitioned between 20 and 30 percent to the ISFs, and the 
issue there is often illiteracy and/or physical disability.
    Then the Iraqi Government has pledged funds, as I mentioned 
in my opening statement, to retraining programs, to education 
programs, and to other job employment programs.
    Senator Reed. So I can assume you and the Ambassador are 
giving advice to Maliki to go slow, to incorporate the Mahdi 
Army into the economy and political life of Iraq over many 
months. Is that the advice you're giving him? Or are you giving 
him any advice at all that seems to contradict what he tried to 
do in Basrah?
    General Petraeus. Basrah did go much more suddenly than we 
expected, Senator. There's no two ways about it.
    Senator Reed. Okay.
    General Petraeus. In fact, the report is a good account, I 
think that it is accurate to say that he thought perhaps it 
would be a bit more like when he went to Karbala back last year 
and the sheer presence and so forth would be adequate. That was 
clearly not the case in Basrah.
    Now, in Basrah what has to be done, and they have just 
announced, for example, a $100 million program to begin 
addressing these kinds of issues and to get some alternatives 
to the young men down there to toting a gun on a street corner.
    Senator Reed. It seems to me that Basrah illustrated the 
ultimate conflict between Sadr and Maliki, and the elected 
government. That's a conflict they tried to resolve militarily. 
They failed because the military forces failed, and because 
people got very nervous that it was spinning out of control. 
But that ultimate conflict is still there, it's the existential 
conflict with respect to the Shiite community, and the 
potential violence in my mind, it's very real, and we'll be 
engaged somehow, either on the sidelines watching or swept up 
in it.
    Let me switch to the Ambassador for a moment.
    Mr. Ambassador, is the Mahdi Army the only Shiite 
organization that is receiving assistance, cooperation, and has 
significant contacts on a routine basis with the Iranians?
    Ambassador Crocker. I don't think so, Senator.
    Senator Reed. Who else might be having that kind of 
contact? If not military training, then a dialogue, money 
moving back and forth for other reasons?
    Ambassador Crocker. Those are two different aspects, and 
I'll address them separately.
    There are other militia groups down in Basrah. One militia 
organization is called Thar-Allah, The Vengeance of God, whose 
leader, incidentally, is now in detention. They almost 
certainly get support from Iran, as does something called Iraqi 
Hezbollah. That does not necessarily imply a connection to 
Lebanese Hezbollah, but again, an extremist militia.
    Iran has used the tactic as we've seen in Lebanon.
    Senator Reed. Would that include the Isqi elements, Badr 
Brigade?
    Ambassador Crocker. I'd put that in the second category.
    Iran has a dialogue with----
    Senator Reed. Everyone?
    Ambassador Crocker. Everyone.
    Senator Reed. In the Shiite community.
    Ambassador Crocker. Right.
    Senator Reed. It's a mutual dialogue.
    Ambassador Crocker. Not just the Shiite community.
    Senator Reed. No.
    Ambassador Crocker. What has happened with the Supreme 
Council and Badr is that they've basically gotten out of the 
overt militia business, it's now the Badr Organization. Many of 
its elements did integrate with the ISFs.
    Senator Reed. Thank you, my time's expired. Thank you.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I'd like to thank both of you for your service. General 
Petraeus, I know this is your third year in Iraq. You've given 
your great abilities and commitment to our country because you 
were asked to serve, and you've done so excellently and 
progress has been made. When, a little over a year ago, you 
were confirmed here to go there, I think there was a feeling 
that we needed to give General Petraeus a chance one more time. 
The numbers show that you have made extraordinary progress, it 
seems to me.
    I asked you at that time, when things looked rather grim, I 
asked you, did you believe that we had a realistic chance to be 
successful in Iraq, and you said you did, or you wouldn't take 
the job.
    After this period of time there, now, a little over a year, 
how would you evaluate our prospects for success today?
    General Petraeus. As I said, Senator, in my statement, 
there are innumerable challenges in Iraq in the way ahead, but 
I do believe that we have made progress, and I also believe 
that we can make further progress if we are able to move 
forward, as I've recommended.
    Senator Sessions. I just wanted to thank you for an 
extraordinary demonstration of military leadership, and also I 
think we would share an affirmation of the American military 
who, under difficult circumstances, have performed so 
magnificently. To see us move from a time when I think this 
country was deeply concerned about our prospects in Iraq, to a 
period where we're seeing real progress, and I think we should 
listen to you about how to enhance that progress. Because this 
is a policy of the United States of America, it's a policy we 
voted on by three-fourths of both Houses of Congress, and we're 
making progress towards success, and we need to listen to those 
who helped get us there, about how we can maintain it.
    Ambassador Crocker and General Petraeus, I am curious about 
this activity, the action in Basrah and the south, when Prime 
Minister Maliki sent troops there. I appreciate your comments 
to Senator Lieberman, Ambassador Crocker, about the fact that 
there seems to be in that action a demonstration that the 
central government is willing to take on Shiite extremists, 
even though they are, at base, a Shiite-supported government. 
So, they're taking on, in some sense, some of their own base 
support, that many on this panel, over the months, have 
complained they're not willing to do. It seems to me that they 
did do that.
    Now, it does appear that they could have been more 
effective, perhaps, with better planning. But does this suggest 
that a significant event has occurred? Is Prime Minister Maliki 
developing some confidence now? Does his government see itself 
as a national Government of Iraq and is prepared to use 
military force to defend the concept of the country of Iraq? Is 
that an important thing that's happened here?
    Ambassador Crocker. Senator, I believe it is. That 
certainly is the reaction that we're seeing from Iraq's 
political leadership. I was in intensive contact with them 
during this period before our departure, as was General 
Petraeus, and the change in tone from other leaders toward the 
Prime Minister and his government is marked. They do see him as 
taking a strong stand against illegal elements without regard 
to their sectarian identity, and that has had enormous impact 
on the Sunnis, on the Kurds, as well as other Shiites.
    So, I'm pretty cautious about labeling defining moments or 
watersheds. In fact I'm real cautious, and I certainly won't 
call what we've seen there, that. That will be visible only in 
retrospect. But, I do think it is important.
    Senator Sessions. General Petraeus, the American military 
is just magnificent in after-action reports, analyzing what 
went wrong brutally honestly. Are the Iraqis actually 
evaluating what they did in Basrah, and do you think there's 
any prospects that they've learned from that?
    General Petraeus. In fact, we've already run an after-
action review, or they ran an after-action review, actually, in 
Baghdad, based on the actions in Baghdad at the same time.
    Most of the participants in Basrah are still engaged in 
operations, and we will get to an after-action review with 
them, although we've done a macro-level one, obviously, with 
some pretty basic conclusions about the need for a more 
deliberate setting of conditions. That's the kind of approach 
that we take to set conditions, if you will, before you conduct 
an operation, and those conditions, in this case, were not as 
deliberately set as they might have been.
    Senator Sessions. Finally, with regard to Iranian 
influence, how would you describe the situation in Basrah, in 
the south, in the Shiite community? How is that influenced by 
Iran, and to what extent has Iran been strengthened or weakened 
as a result of this military action?
    General Petraeus. The bulk of the weaponry certainly came 
from Iran Senator. Again, they're very signature items that you 
see in the hands of the Special Groups, and of some of their 
militia allies; the explosively-formed projectiles, 107-
millimeter rockets, and a variety of other items. We have seen 
those all repeatedly.
    As to Iran's strengthening, or not, I think again, this is 
still very much ongoing. At the end of the day, Iran clearly 
played a role as an arbiter, if you will, for talks among all 
of the different parties to that particular action. Whether 
that strengthened them, or also made them realize that their 
actions have been destructive in helping a country they want to 
succeed, presumably the first Shiite-led democracy, whether 
that gives them a good sense, or causes them also to draw back, 
I think, is very much in question right now.
    The Ambassador might have a view on that.
    Ambassador Crocker. It's not something I could really give 
a definitive response to, but I would point out some things 
that are important to watch.
    The militia actions, by and large, were very unpopular 
among Iraqis, and that is why the Prime Minister has gotten 
such broadbased political support. It is universally known or 
believed that the Iranians were behind them, so that 
unhappiness descends on them a bit, too.
    I think one might look for a reconsideration in Tehran, as 
to just where they want to go in Iraq, because over the long 
term, as General Petraeus suggests, their interests, I think, 
are best served by the success of this state and this 
government. No country, other than Iraq itself, suffered more 
under Saddam Hussein than did Iran with that brutal 8-year war. 
So, they should be thinking strategically, and the reaction to 
the militias they support, I would hope would lead them to do 
that.
    I note the statement by the Iranian government today 
actually condemning the indirect fire attacks on the 
international zone. I'm not sure what to make of it at this 
point, but it does underscore that Iranian influence in Iraq, 
while malign and destabilizing, is limited. Iraq is, in its 
essence, an Arab nation. Iraqi Shiite, Arab Shiite, died by the 
hundreds of thousands in the Iran/Iraq war defending their Arab 
state of Iraq against an Iranian enemy.
    So there are some constraints on Iran, and this would be an 
excellent time for them to reassess what is ultimately in their 
own long-term interests.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    General and Mr. Ambassador, I want to express my deep 
gratitude and appreciation for your service to our country, and 
also that of our military personnel who have served so well 
there.
    General, the Army has been operating with a 15-to-12 
deployment to home station ratio for some time now, and has 
indicated its desire to immediately shift to a 1-to-1 ratio, 
and if possible to a 1-to-2 ratio.
    Part of the effort to achieve these numbers has been the 
increase in Army end strength. But these forces will not be 
available for deployment for some time. In the new to medium 
term, especially if a decision is made to freeze further troop 
withdrawals, the strain on equipment, on our forces, and on 
their families, as well, will continue.
    My question to you, General, is it your understanding that 
most of the soldiers that will return for subsequent 
deployments to Iraq are getting about 6 months quality time 
with their families over a 3\1/2\ year period?
    General Petraeus. My expectation would have been that it 
would be more than that, Senator. There's no question that 
there are individuals who are in their third tour in Iraq since 
it began, but they happen to be individuals that either stayed 
in a unit that did just cycle back through, did not go off to 
another assignment in the Army somewhere, didn't go off to a 
school, or what-have-you.
    Again, the Army would be the one best to answer what the 
average dwell time is across the force. There's no question 
that certain individuals in certain units, if they have stayed 
in those units over time, may now be on their third tour in 
Iraq. There's no question, as well, that a 15-month tour is 
very, very difficult on a soldier and on a family. As I 
mentioned, the strain on the force is something that I very 
much took into account when I recommended the continuation of 
the drawdown of the surge, and the way ahead, as well.
    I might note that there is something very special to 
soldiers about doing what they are doing, however. The 3rd 
Infantry Division in Iraq right now on its third tour. You'll 
recall that it spearheaded the advance to Baghdad in the very 
beginning, in the liberation of Iraq, and is now back for its 
third tour. That division just met its reenlistment goal for 
the entire year at about the halfway mark in this fiscal year.
    So, despite how much we are asking of our young men and 
women in uniform, they do recognize both the importance of what 
they're doing, and I guess this very intangible of being part 
of the brotherhood of the close fight, if you will, which is 
truly unique and special. They have continued to raise their 
right hand to volunteer.
    We are very concerned about one subset of the population, 
and that is the young captains, of whom we've asked a great 
deal, as well, and that is one that the Army is looking very 
hard at.
    I'm personally keenly aware of the stress. I have actually, 
with respect, been deployed now for 4\1/2\ years, since 2001, 
on operations alone, not to mention training and other 
activities. There's no question about the toll that it takes, 
and the challenges that it presents, not just to the soldiers, 
but to their families.
    Senator Akaka. General, given your perception of the 
security conditions in Iraq, how long before you feel we will 
be able to meet the Army's desired dwell ratio?
    General Petraeus. Sir, again, that has to be a question for 
the Army. I don't know their force generation plans, what their 
projections are for the bringing on of additional brigade 
combat teams. I know that their initial goal is to try to get 
back to a 12-month deployment. I'd certainly support that, but 
they're the ones that are the generators of the force, not me.
    Senator Akaka. General, as chairman of the Readiness and 
Management Subcommittee, I am especially concerned that 
testimony that comes from combatant commanders outside of the 
U.S. Central Command (CENTCOM) indicate that operations in Iraq 
are affecting the readiness of their forces to be able to both 
train for and meet potential crises in their respective areas 
of operation.
    A recent deterioration of relations between North and South 
Korea highlight the increased risks borne by the United States, 
should that situation continue to worsen to the point that 
military involvement is required.
    Additionally, the Commission on the National Guard and 
Reserves testified that due to the high operations tempo of our 
Reserve Forces there is an ``appalling gap'' in readiness for 
Homeland Defense. Clearly there is widespread agreement in the 
Defense Department that this level of U.S. troop commitment is 
unsustainable.
    In your view, General, at what point must the military, in 
effect, hand over the majority of security responsibilities to 
the Iraqis so that the burden can be more equitably shared 
between our two countries, so that we can begin the reset of 
our forces, that is so long overdue?
    General Petraeus. Senator, as I mentioned in my opening 
statement, there are already many multiples of ISFs serving in 
the Iraqi Police, Border Police, Army, small Air Force, Navy, 
and so forth. In fact, it is ISFs who are the cops on the beat, 
who are performing a vast number of tasks.
    To be sure, our forces still have the unique capabilities 
in certain areas, when going against al Qaeda and other 
extremist elements, and obviously we have the enablers; air 
support, and some logistical capabilities and others, that the 
Iraqis do not yet have, but are working on.
    In fact, one item during Basrah was that their C-130 fleet 
ferried an awful lot of the supplies and casualties to and from 
Baghdad and Basrah. So, again, they are gradually, slowly 
expanding.
    By the way, they want to buy U.S. C-130s, and have asked to 
be able to buy the C-130J more quickly than, I think, the 
original response has been that it would be available.
    So they are already shouldering an enormous burden. It is 
being handed to them, more all the time. But clearly, as we 
have seen, they need assistance in a number of different areas, 
and that's what we are providing.
    Senator Akaka. Thank you for your responses, General.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Collins.
    Senator Collins. Thank you.
    General, 4\1/2\ years of deployment truly represents 
extraordinary sacrifice, and I want to begin my comments by 
thanking you and Ambassador Crocker for your service. It's been 
courageous, it's been extraordinary.
    General, for years this committee has heard that progress 
is being made in the training and equipping of Iraqi forces. 
Each year, military commanders come before us, and they tell us 
that Iraqi troops are becoming more and more capable. Today, 
for example, you testified that the number of combat battalions 
capable of taking the lead in operations has grown to well over 
100.
    Success always seems to be just around the corner when it 
comes to training and equipping of Iraqi forces. Yet, when put 
to the test, the Iraqi forces have performed very unevenly, and 
it's very disturbing to me to read the press reports that more 
than 1,000 Iraqi soldiers refused to fight, fled, or abandoned 
their positions during the battle in Basrah.
    Ultimately, as the Ambassador has said this morning, the 
fate of Iraq is up to the Iraqi people. My concern is, as long 
as we continue to take the lead in combat operations, rather 
than transitioning to more limited missions, the Iraqis are 
never going to step up to the plate and fight for their 
country.
    So my question to you is, why should American troops 
continue to take the lead in combat operations at this point, 
after years of training and equipping the Iraqi forces? After 
spending tens of billions of dollars on training and equipping 
of Iraqi forces?
    General Petraeus. First of all, Senator, in Basrah, we did 
not take the lead. Basrah is a Province that is under Iraqi 
control, the sovereign Iraqi Prime Minister made a decision to 
confront a challenge. It was not just a political challenge, 
this is a militia gang--criminals who were threatening the 
population. He then deployed forces very rapidly, frankly, more 
rapidly than we thought they could deploy. Over the course of a 
week, the Iraqis deployed the combat elements of a division.
    Then they moved very rapidly into combat operations, again, 
too rapidly, most likely, without setting all of the proper 
conditions and so forth.
    But they were in the lead. We did provide some close air 
support, attack helicopters. We augmented their C-130 fleet, 
their helicopters were also ferrying in and out of Basrah, as 
well, but we clearly did provide a number of enablers. They do 
not yet have ISR platforms, they don't have counter-fire radar, 
they don't have a sufficiently robust expeditionary logistics 
structure, they do now provide their own logistics at their own 
bases, at their own police academies, and all of the rest of 
that. But again, taking the next step is doing it after you've 
deployed the better part of a division's worth of combat 
forces; two brigades within about 36 hours of notification, 
another later in that week.
    They are actually taking the lead in Anbar Province in a 
number of different places. There's a guiding hand there, but 
one of the largest reductions in the reduction of surge forces 
will come in Anbar, which you'll recall, of course, in the fall 
of 2006 was assessed as lost, and then through the awakening, 
through the combat operations, additional forces, and so forth, 
Iraqi, as well as coalition, over time, it has become the 
province that is actually relatively peaceful, and actually on 
the road toward prosperity.
    Again, it is a process, rather than a light switch, and 
when the going has gotten tough, or where it requires more 
sophisticated application of force, we have had to help them 
out.
    Senator Collins. But 1,000 troops?
    General Petraeus. It's 1,000 out of I don't know how many 
tens of thousands, actually, were there. Confronted by very, 
very tough militia elements, and in fact, because of the 
position into the forces where they were able to get 
overwhelmed by larger groups of the militia, put them into an 
untenable situation. So, I'm not in the least bit apologizing 
for them, but I do see the situation they were confronted with, 
because of the speed with which they went into action, was 
very, very difficult for any troopers.
    What I would point to is that in other provinces where we 
have virtually no presence, or perhaps a Special Forces A Team, 
such as in Karbala Province, in Najaf, in Illa, in Nasiriyah, 
and others in the south where, because of the operations in 
Basrah, there were also outbreaks of militia violence. In those 
areas the Iraqis proved equal to the task, and in fact, were 
able to maintain security.
    The same with varying levels in certain areas of Baghdad.
    Senator Collins. Ambassador, in 2003, several of us 
proposed that the reconstruction aid to Iraq be structured as a 
loan rather than a grant. You may recall that debate. We didn't 
prevail. Now, we look at $100 a barrel oil, an Iraqi budget 
that was predicated on $50 a barrel oil, and the Iraqis, sir, 
are clearly reaping a windfall from the higher oil prices.
    You mentioned that the era of our paying for major 
reconstruction is over. But we're continuing to pay the 
salaries of the Sons of Iraq, in many cases, we're continuing 
to pay for the training and equipping of Iraqi forces. I'm told 
that we're even continuing to pay for fuel within Iraq.
    Isn't it time for the Iraqis to start bearing more of those 
expenses, particularly in light of a windfall of revenues, due 
to the high price of oil?
    Ambassador Crocker. Senator, it is. That is something that 
both General Petraeus and I are engaged on.
    We've had several discussions with the Prime Minister, for 
example, on the importance or the need for the Government of 
Iraq to pick up the funding for employment projects, and he 
agrees. So, we're working out the ways to do this.
    I think what we have to focus on in the period ahead is 
transitioning. It will be, like everything else in Iraq, a 
complex process. What do they have the capacity to do, how do 
they get the capacity to do it? But, I think that's clearly the 
direction, not only should we move in, but that we are moving 
in.
    Senator Collins. Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Bill Nelson.
    Senator Bill Nelson. Thank you, Mr. Chairman.
    Gentlemen, I have a series of questions. If I don't finish 
them now, I will have an opportunity to continue this afternoon 
in the Senate Foreign Relations Committee. Please understand my 
comments, my questions, it is with a great deal of respect and 
deference to the two of you, and appreciation for your service 
to our country.
    Now, I want to frame my questions within the context of 
more than a year ago. Because the whole idea that you all 
presented to us was that the military surge would stabilize the 
situation so that the environment would be created in order for 
us to have political reconciliation over there.
    Indeed, January a year ago, in 2007, Secretary Gates said 
that he thought that by March 2007, or about 3 months after he 
testified, he said that he would know whether or not the surge 
was working. Well, of course, that time came and went. Then, 
one of those times you were in front of us, General, I don't 
remember if it was in your confirmation hearing or if it was 
one of the reports that you gave back to us, you testified that 
the surge was necessary for political reconciliation.
    Now, I heard some disturbing testimony last week in the 
Senate Foreign Relations Committee from two retired generals. 
One, retired Lieutenant General Odom, who said, ``Violence has 
been temporarily reduced, but today there is credible evidence 
that the political situation is thus far more fragmented.'' 
Then he went on to talk about Basrah, and so forth.
    Then retired four-star General McCaffrey; in response to my 
question about what's your degree of optimism or pessimism, 
this is what he says, ``It's a hell of a mess. I mean, there's 
just no way about it. It's a $600 billion war, 34,000 killed 
and wounded. We've alienated most of the global population, the 
American people don't support the war, and the Iraqi 
Government's dysfunctional. The ISFs are inadequate, ill-
equipped, and we have very little time--by the way, I'm not 
recommending that we come out of Iraq in a year or 3--but 
that's what's going to happen. This thing is over. So, the 
question is how do we stage as we come out.'' Continuing, this 
is General McCaffrey, ``and you have to, at some point, hit the 
civil war in the direction of somebody who's more likely to 
govern Iraq effectively than the current, incoherent, 
dysfunctional regime that's in power.''
    So, I go back to the original predicate with which we 
talked about the surge. Has the political reconciliation 
happened?
    General?
    General Petraeus. As the Ambassador laid out, there has 
been agreement among the different political parties on a 
number of pieces of important reconciliation, if you will, laws 
that represent reconciliation. Among them is, in fact, the de-
Baathification reform, there's also the Provincial Powers Law, 
there is a Pensions Reform bill that is little noticed, but 
actually extends pension rights to tens of thousands of Iraqis 
who were shut out because of de-Baathification.
    Senator Bill Nelson. That's a step in the right direction. 
Now, the question is: have those laws been implemented?
    General Petraeus. I believe that the Pensions Law is, 
again, in the process of being implemented. Again, de-
Baathification, they're collecting the information for that.
    Senator Bill Nelson. Have those laws been implemented to 
the point that we can see in Iraq that there is this political 
reconciliation which is the goal in the first place, coming 
back to over a year ago, of the surge?
    Ambassador Crocker. Senator, if I might, I noted in my 
testimony when I talked about these laws, that obviously how 
they are implemented is going to be key. The Amnesty Law, part 
of the legislative package passed in the middle of February, is 
being implemented 24,000 applications for amnesty received, and 
about 17,000 approved. That's actually moved out at pretty 
impressive speed.
    The Provincial Powers Law comes into effect after the 
forthcoming provincial elections. It does not apply to the 
current provincial councils. The one important step it did 
foreshadow is an electoral law to set the conditions for those 
elections, that is actively being pursued within the Council of 
Ministers, and it's a process, incidentally, where we're 
involved at Iraqi Government request, as well as the U.N., to 
help them get it right, particularly with respect to the role 
of women in these elections.
    So there is a lot to be done, Senator, but they have passed 
the laws, and in several cases, particularly the amnesty law, 
we see them moving out pretty rapidly.
    Senator Bill Nelson. So you think we are moving toward 
political reconciliation?
    Ambassador Crocker. I think the various elements I 
mentioned in my statement--both the national-level legislation, 
the way parliament works, because there was a lot of cross-
block horse-trading going on, particularly in that February 
package, that gives and takes from all over the political 
groups, which of course, in many respects are sectarian 
organized--are as encouraging as the results.
    So, yes, I think they're moving in the right direction. 
But, yes, I also believe they have an awful lot more in front 
of them.
    Senator Bill Nelson. I look forward to continuing this this 
afternoon.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, both of you, well done. 
According to some, we should fire you, it sounds like, that 
just--really nothing good has happened in the last year, and 
this is a hopeless endeavor. Well, I beg to differ. If I could 
promote you to five-stars, I would.
    I don't know where to send you, you've been in every bad 
place there is to go, so I'd send you to a good place, 
Ambassador Crocker.
    I cannot tell you how proud I am of both of you. Let's 
start this with kind of a 30,000-foot assessment.
    The surge, General Petraeus, was a corrective action, is 
that fair to say?
    General Petraeus. That's correct, Senator.
    Senator Graham. The reason it was a corrective action is, 
between the fall of Baghdad in January 2007, all of the trend 
lines were going in the wrong way--economic stagnation, 
political stagnation, increased proliferation of violence--
therefore, something had to be done. That something was called 
the surge.
    Now, I just ask the American people and my colleagues to 
evaluate fairly from January 2007 to July 2008 and see what's 
happened. The challenges are real, but there are things that 
have happened in that period of time that need to be understood 
as being beneficial to this country, they came at a heavy 
price, and al Qaeda cannot stand the surge. If you put a list 
of people that wanted us to leave, the number one group would 
be al Qaeda, because you've been kicking them all over Iraq.
    Now, the reason they came to Iraq is why, General Petraeus?
    General Petraeus. That al Qaeda came to Iraq, sir?
    Senator Graham. Yes.
    General Petraeus. To establish a base in the heart of the 
Arab world, in the heart of the Middle East.
    Senator Graham. Are they closer to their goal after the 
surge or further away?
    General Petraeus. Further away, Senator.
    Senator Graham. Okay. If you had to pick one thing to tell 
the American people that was the biggest success of the surge, 
what would it be?
    General Petraeus. Probably Anbar Province and/or just the 
general progress against al Qaeda.
    Senator Graham. Would it be the fact that Muslims tasted al 
Qaeda life in Iraq and Iraqi Muslims joined with us to fight al 
Qaeda?
    General Petraeus. I think the shift in Sunni Arabs against 
al Qaeda has been very, very significant. The rejection of the 
indiscriminate violence, the extremist ideology, and really, 
even the oppressive practices associated with al Qaeda is a 
very, very significant change.
    Senator Graham. Is it fair to say that when Muslims will 
stand by us and fight against bin Laden, his agents, and 
sympathizers, we're safer?
    General Petraeus. Absolutely.
    Senator Graham. Ambassador Crocker, what is Iran up to in 
Iraq?
    Ambassador Crocker. Senator, I described what I believed to 
be an effort at Lebanization through the backing of different 
militia groups.
    Senator Graham. Okay, let's stop there. Lebanon kicked 
Syria out a few years ago, and they tried to create some form 
of a democracy. Hezbollah, backed by Iran, had a say in that 
endeavor. Is that correct?
    Ambassador Crocker. That is correct, sir.
    Senator Graham. They launched an attack from Lebanon 
against Israel at the time the U.N. was about to sanction Iran 
for their nuclear endeavors. Is that correct?
    Ambassador Crocker. I believe so, sir.
    Senator Graham. So, is it fair to say that from an Iranian 
point of view, one of their biggest nightmares would be a 
functioning democracy in Lebanon, and a functioning 
representative government in Iraq on their borders?
    Ambassador Crocker. Certainly their behavior would indicate 
that that may be the case.
    You make an important point. We look at Iraq as a nation in 
its own terms. The region looks at it a little bit differently. 
Iran and Syria have been cooperating over Lebanon since the 
early 1980s, over a quarter of a century. They have worked 
together against the Lebanese and against our interests.
    They're using that same partnership in Iraq, in my view, 
although the weights are reversed, with Iran having the greater 
weight, Syria the lesser. But they are working in tandem 
together against us and against a stable Iraqi state.
    Senator Graham. If I can walk through what I think these 
laws mean to me, and this is just my opinion.
    Provincial elections in October are important to me because 
it means that the Sunnis understand that participating in 
representative government seems to be in their interest, 
therefore they're going to vote in October 2008, and they 
boycotted in 2005. Is that correct?
    Ambassador Crocker. That's one reason they're important, 
yes.
    Senator Graham. Okay, so the Sunnis are going to come out, 
by the millions, we anticipate, to send representatives to 
Baghdad or to the Provinces rather than sending bombs. Is that 
correct?
    Ambassador Crocker. That is what I would expect, yes.
    Senator Graham. Okay, now the reason the surge has been 
successful to me, General Petraeus, is that the Anbar Province 
has been liberated from al Qaeda, but we've had a reduction in 
sectarian violence. Is that true?
    General Petraeus. That is true.
    Senator Graham. Okay, now this breathing space that we've 
been urging to have happen by better security, by my opinion 
has produced economic results not known before January 2007. Is 
that correct? The economy is improving?
    General Petraeus. That is correct.
    Senator Graham. The Iraqis will be paying more over time to 
bear the burden of fighting for their freedom.
    General Petraeus. That's correct.
    Senator Graham. They will be fighting more to bear the 
burden of their freedom. Is that correct?
    General Petraeus. Correct.
    Senator Graham. Is there any way that Iraq could be a 
failed state, and it not affect our national security?
    General Petraeus. No, sir.
    Senator Graham. What would happen if the United States 
began to remove a brigade a month out of Iraq? What would be 
the military consequences of such an endeavor, in your opinion, 
if we announced, as a nation, we're going to withdraw a brigade 
out of Iraq every month?
    General Petraeus. Sir, it clearly would depend on the 
conditions at that time. If the conditions were good, quite 
good, then that might be doable.
    Senator Graham. At this point in time, does that seem to be 
a responsible position to take, given what you know about Iraq, 
to make that announcement now?
    General Petraeus. Senator, I have advocated conditions-
based reductions, not a timetable. War is not a linear 
phenomenon, it's a calculus, not arithmetic. That is why I have 
recommended conditions-based reductions following the 
completion of the surge forces drawdown.
    Chairman Levin. Senator Graham, thank you.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Petraeus, Ambassador Crocker, first I thank you for 
your service, and say how proud I am of the American men and 
women who are serving in the military in Iraq and elsewhere 
around the world.
    I might add that, as a proud Nebraskan, a proud American, I 
witnessed on one of the national news channels, an American--
Captain Logan Veath--embedded with the Iraqi Army in Sadr City, 
leading forth the challenge and doing a remarkable job. We're 
all proud of him and those who he represents, as well.
    In 2003, as Senator Collins mentioned, Senator Bayh and I 
and others introduced legislation to require that at least part 
of the money that was going for reconstruction in that 
supplemental be considered a loan forgivable to a grant--part 
of a loan, but part of it also a loan to be forgivable to a 
grant--if the rest of the countries would forgive the IOUs of 
Iraq that they held. The administration blocked it, even though 
it passed the Senate, because they said that they were going to 
the donor's conference and this would impair their ability to 
get the other countries, as part of the coalition, to be 
donors.
    It turned out to be a lender's conference, in general, 
because the others did loan the money. Now we have an 
opportunity to go back and look at what Secretary Wolfowitz 
said in 2003, ``We really ought to be able to get our money 
back from Iraq because through their oil revenues, they're 
going to be able to pay for the war themselves, finance it 
themselves.'' That was reconstruction, not the war, but the 
reconstruction.
    We have your comment, Ambassador Crocker, that they're in a 
position soon, or something, to be able to take on that 
responsibility. Soon, to me, means now. What I think we should 
do is in this supplemental, and I'll introduce legislation with 
others to make any further reconstruction money a loan. Purely 
and simply, to be repaid, not forgiven. Any other money that 
has been appropriated, but unspent, to date, a loan, as well.
    When Iraq is today on the basis of $111 barrel oil, and 
$3.25 and upwards gas at the pump here in the United States, it 
just does not seem responsible for us to continue to borrow 
from our grandchildren and China and other places around the 
world to be able to finance, in effect, what is their future 
opportunity. It seems to me that now is the time.
    You also, Ambassador Crocker, said that you think they 
should be doing this soon. Will there be a change in the 
thinking of the administration on this? Will they now support 
legislation that could be worked out to make that now, make 
soon now, into the future, on these future appropriations and 
past appropriations that are unspent?
    Ambassador Crocker. Senator, there is very much an interest 
in moving the financing from us to the Iraqis.
    Senator Ben Nelson. Well, I think you answered my question, 
but there was an interest back in 2003 when Secretary Wolfowitz 
said that they ought to be able to finance their own 
reconstruction. I'm trying to find out when the soon can be 
now.
    Ambassador Crocker. Senator, with respect to 
reconstruction, soon basically is now.
    Senator Ben Nelson. In terms of a loan?
    Ambassador Crocker. In terms of the United States no longer 
being involved in the physical reconstruction business.
    Senator Ben Nelson. What about the money that's in the 
current supplemental that's there for reconstruction, is that 
structured as a loan?
    Ambassador Crocker. Sir, that is not, in my definition, it 
is not for reconstruction. These are, for example, some USAID 
programs that we think are very important to stabilization. In 
conjunction with the military's CERP spending, we will move 
into immediate post-kinetic situations and get people going 
with jobs and things like that.
    Senator Ben Nelson. Well, then let's call it post-kinetic 
aid, as well. It seems to me that if we're paying for what is 
not, let's say, military hardware, because they're picking up 
more of the cost, we ought to be looking at training costs that 
we're engaged in. I just think that there's a point in time, 
and it's now, when we need to find a way to make sure that Iraq 
is financing more of its own present and future, rather than 
incurring those costs ourselves. When they're adding $50 to $60 
billion to surplus, at a time when we're developing hundreds of 
billions of dollars of deficit, it just doesn't make sense for 
us to be the financier of first resort.
    Ambassador Crocker. Sir, as I said, I'm committed to that. 
At the same time, I don't think you have a one-size-fits-all 
situation here. A number of our programs, particularly those 
that get down to the local level, that our PRTs, for example, 
identify and execute, the Iraqi Government is really not going 
to be positioned to pick that up, or even identify it.
    Senator Ben Nelson. I don't care whether they can do that, 
we can pay it. Whether they can get the money out of their 
treasury or not is secondary. If we can do it, we should do it, 
and then they should repay us.
    What about the money that's already been appropriated but 
unspent? Will that now not be spent?
    Ambassador Crocker. If you're talking about 
reconstruction----
    Senator Ben Nelson. Reconstruction.
    Ambassador Crocker. We're down to like the last 2 or 3 
percent of the Iraq Relief and Reconstruction Fund projects. 
These are things that are underway that we're going to be 
bringing to completion.
    Senator Ben Nelson. Well, I think there are billions and 
billions of dollars that would fall into that category, and for 
me, a billion dollars is not pencil dust.
    Ambassador Crocker. I understand your point, Senator, but 
at the same time, again, these are projects that are underway. 
I think we'd have to think very carefully if we want to risk a 
halt in ongoing completion while we try and negotiate with the 
Iraqis on----
    Senator Ben Nelson. Well, I think that's all well and good, 
but I wish we'd thought more carefully earlier, and got this 
set, such as, back in 2003.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    General, Ambassador, thank you very much for your 
extraordinary service to our country, and thank you for your 
very candid assessment of how things are going. As always, 
you've been very forthright in your testimony, and we 
appreciate that, because I think it's important that we have a 
good understanding of conditions as you understand them to be 
on the ground. We make decisions on funding both on the 
military level and the other benchmarks that we're trying to 
achieve in regard to economic and political progress in the 
region.
    I'm wondering if you might be able to elaborate a little 
bit on the whole issue of the Shiite militias and the Iranian 
influence there. It seems to me, at least, that a lot of our 
success these past several months has been because of the 
cease-fire that the Mahdi Army has observed, and my question, I 
guess, gets at the point of whether or not Sadr really is in 
control, or whether the Iranians are pulling the strings there. 
If we're going to continue to see reduction in violence and a 
lessening of American casualties and civilian casualties there, 
that's going to be a big factor.
    I guess I'd be interested in knowing, General, what your 
impressions are about who really is in charge of these Shiite 
militias and the Mahdi Army; is it Sadr or is it the Iranians?
    General Petraeus. Senator, let's go back to when the 
original cease-fire was put in place in August, and that was 
directed by Muqtada al-Sadr. It was because of violence that 
was precipitated in the Holy City of Karbala by militia 
elements that refused to surrender their weapons before going 
into the shrine area. That did a great deal of damage to the 
reputation of the overall Sadr Movement, which is first and 
foremost a political movement, and then also has the associated 
militia.
    Added to that, over time, were connections between the 
militia and/or the Special Groups, which are these elements 
that are affiliated with or associated with the Sadr militia, 
but have been selected carefully, and then typically are paid 
for, trained by, and armed by Iran, by the Quds Force, in 
particular, and which do take direction from the Quds Force.
    The hand of Iran was very clear in recent weeks. There was 
a recognition, we think, in Iran based on people who talked to 
some of the leaders there, that in fact what was transpiring 
was very damaging not just to Iraq, not just in the violence to 
the Iraqi people, and not just to the reputation of the 
militia, but also was backfiring on Iran itself.
    In fact, I think arguably it did generate a unification in 
concern among Iraqi political leaders about Iranian activity in 
Iraq that was nowhere near as great--I would argue--just a 
month or so ago.
    As we mentioned earlier, both of us have said that it sort 
of brought out in higher relief, the activities of Iran, of the 
Quds Force in particular, and its involvement with these 
Special Groups, and with the weapons and training that they 
provided to them.
    Senator Thune. Let me ask you, General, there have been 
some here who have talked about putting restrictions on or 
limiting funding for the CERP. Could you describe that program 
and it's value to commanders in the field?
    General Petraeus. Senator, a number of us at different 
times have stated that there's a point in operations where 
money becomes your most important ammunition. Typically, it's 
small amounts of money at local levels where, when you have all 
of a sudden the opportunity because of security improvements, 
you can very rapidly commit it again in small amounts.
    We have also used it to fund the so-called Sons of Iraq. As 
I had on one of the charts, I think about $16 million a month 
is the payroll for those individuals, on average, and I can 
tell you the savings that we have had in vehicles not lost in 
areas where they used to be lost. There's an area south of 
Baghdad, southwest, that used to be called the ``Triangle of 
Death.'' That area has actually been very, very quiet over the 
course of the last 6 months, since our forces and Iraqi forces 
cleared it of al Qaeda, and then Sons of Iraq stood up to help 
secure a local community.
    It's a big reason why we have the enormous numbers of 
caches being found. Most of them are being identified by these 
local individuals or by local citizens who have benefited from 
various projects done by the CERP. They have seen the benefits 
of improved security and started to see some economic growth. 
Oftentimes, the pump is primed with small amounts of CERP very 
early in that process, before the Iraqi Government can 
reconnect to these communities, and get the different ministry 
activities out there helping them.
    By the way, this is the reason Iraq has committed some of 
its money--$300 million is its initial amount--to fund 
something called Iraqi CERP, which will help enormously and can 
greatly expand the impact of the overall program.
    We have a capacity out there in a lot of these communities, 
particularly the ones that over the course of the last year 
were recently cleared of al Qaeda or other extremists. We have 
an ability to spend that money, that they do not. They are now 
very much our partners in that and very much doing a cost-
sharing approach, and beyond, over time.
    Senator Thune. Last week the Readiness and Management 
Support Subcommittee received testimony from the Service Vice 
Chiefs on the current readiness of the forces, and they all 
testified that military units that are deploying to you in 
theater are currently adequately trained, equipped, and ready 
to carry out the missions that you've assigned. As the 
combatant commander, is that your perception as well?
    General Petraeus. Senator, I would say that this is the 
best Army that I've ever seen in 34 years of service. Now, it 
is an Army that is capable of what we might call full spectrum; 
in fact, what our doctrine does call full spectrum operations. 
Counterinsurgency operations include not just the stability and 
support operations but also offense and defense.
    We have, in the last year, for example, done major 
operations in places like Ramadi, Baqubah, South Baghdad, and a 
variety of other locations that have involved all of our 
different capabilities in the military, not just the soft side 
of stability and support operations.
    I've said on a number of occasions that there were two 
enormous changes that I found when I got back to Iraq in 
January 2007. The first, in February 2007, was the damage done 
by sectarian violence which tore the fabric of society; the 
second was how much our leaders ``get it'' about what it is 
that we're trying to do over there as a result of all the 
changes made by the Services in terms of doctrine, education, 
preparation of units, and so forth.
    So the units are exceedingly well-trained, and they are the 
best equipped. When I look back at the fact that as a division 
commander, when we crossed the berm and went into Iraq, we had 
one unmanned aerial vehicle that we were all fighting over 
within the entire Corps. Now look at the enormous proliferation 
of ISR platforms, the enormous tools that the different 
intelligence agencies have now provided to us, the fusion of 
intelligence, in the way that Special Forces, Special Mission 
Elements, and conventional forces all work together, and 
literally have fusion cells, the proliferation of real-time 
situational awareness tools, just on and on and on, satellite 
tracking and communications. We are vastly better than where we 
were in 2003 when we went through the berm and especially in 
terms of so-called full spectrum operations, which is what most 
of us think we'll be involved in in the future. There are not 
too many peer competitors, as they say, out there that want to 
take us on toe-to-toe out in the desert somewhere in open tank 
warfare.
    Senator Thune. Thank you all, again, very much for your 
service to our country, and please convey to those who serve 
under your command our deep appreciation for their service and 
sacrifice, as well.
    General Petraeus. I will, Senator.
    If I could just thank the committee for one thing, in 
particular, and that is the mine-resistant, ambush-protected 
(MRAP) vehicles. These have been lifesavers. Countless 
soldiers, sailors, airmen, and marines have been saved by these 
vehicles, and by the additional protection that they provide to 
the occupants.
    Senator Thune. Thank you, Mr. Chairman.
    Chairman Levin. Thank you for that, General.
    Thank you, Senator Thune.
    Senator Clinton.
    Senator Clinton. Thank you very much.
    Thank you, General Petraeus and Ambassador Crocker, for 
your long and distinguished service to our Nation.
    Before I ask you any questions, I just wanted to respond to 
some of the statements and suggestions that have been made 
leading up to this hearing, and even during it, that it is 
irresponsible or demonstrates a lack of leadership to advocate 
withdrawing troops from Iraq in a responsible and carefully-
planned withdrawal. I fundamentally disagree.
    Rather, I think it could be fair to say that it might well 
be irresponsible to continue the policy that has not produced 
the results that have been promised, time and time again, at 
such tremendous cost to our national security and to the men 
and women who wear the uniform of the United States military.
    Our troops are the best in the world, and they have 
performed admirably and heroically in Iraq. However, the 
purpose of the surge--let's not forget--as described by the 
Bush administration was to create the space for the Iraqis to 
engage in reconciliation and make significant political 
progress.
    However, since General Petraeus and Ambassador Crocker last 
testified in September, even General Petraeus, as recently as 
3\1/2\ weeks ago, has acknowledged that the Iraqi Government 
has not made sufficient political progress.
    Our current strategy in Iraq has very real costs. We rarely 
talk about the opportunity costs, the opportunities lost 
because of the continuation of this strategy. The longer we 
stay in Iraq, the more we divert resources, not only from 
Afghanistan, but other international challenges, as well.
    In fact, last week, Admiral Mullen said that the military 
would have already assigned forces to missions elsewhere in the 
world were it not for, what he called, ``the pressure that's on 
our forces right now.'' He admitted that force levels in Iraq 
do not allow us to have the force levels we need in 
Afghanistan.
    The Vice Chief of Staff of the Army, General Cody, 
testified last week that the current demands for forces in Iraq 
and Afghanistan limits our ability to provide ready forces for 
other contingencies.
    Finally, the cost to our men and women in uniform is 
growing. Last week, the New York Times noted the stress on the 
mental health of our returning soldiers and marines from 
multiple and extended deployments. Among combat troops sent to 
Iraq for the third or fourth time, more than one in four shows 
signs of anxiety, depression, or acute stress according to an 
official Army survey of soldiers' mental health.
    The administration and supporters of the administration's 
policy often talk about the cost of leaving Iraq, yet ignore 
the greater costs of continuing the same failed policy. The 
lack of political progress over the last 6 months, and the 
recent conflict in Basrah, reflect how tenuous the situation in 
Iraq really is, and for the past 5 years, we have continually 
heard from the administration that things are getting better, 
that we're about to turn a corner, that there is finally a 
resolution in sight. Yet, each time, Iraqi leaders fail to 
deliver.
    I think it's time to begin an orderly process of 
withdrawing our troops, start rebuilding our military, and 
focus on the challenges posed by Afghanistan, the global 
terrorist groups, and other problems that confront America. I 
understand the very difficult dilemma that any policy, with 
respect to Iraq, poses to decisionmakers. If there were an easy 
or very clear way forward, we could all, perhaps, agree on the 
facts about how to build toward a resolution that is in the 
best interest of the United States, that would stabilize Iraq, 
and would meet our other challenges around the world.
    With respect to our long-term challenges, Ambassador 
Crocker, the administration has announced that it will 
negotiate an agreement with the Government of Iraq by the end 
of July that would provide the legal authorities for U.S. 
troops to continue to conduct operations in Iraq. Let me ask 
you, do you anticipate that the Iraqi Government would submit 
such an agreement to the Iraqi parliament for ratification?
    Ambassador Crocker. The Iraqi Government has indicated it 
will bring the agreement to the Council of Representatives. At 
this point, it's not clear to me whether that will be for a 
formal vote or whether they will repeat the process they used 
in November with the Declaration of Principles, in which it was 
simply read to the members of the parliament.
    Senator Clinton. Does the administration plan to submit 
this agreement to our Congress?
    Ambassador Crocker. At this point, Senator, we do not 
anticipate that the agreements will have within them any 
elements that would require the advice and consent procedure. 
We intend to negotiate this as an executive agreement.
    Senator Clinton. Ambassador Crocker, it seems odd, I think, 
to Americans who are being asked to commit for an indefinite 
period of time, the lives of our young men and women in 
uniform, the civilian employees who you rightly referenced and 
thanked, as well as billions of dollars of additional taxpayer 
dollars, if the Iraqi parliament may have a chance to consider 
this agreement that the United States Congress would not.
    I currently have legislation requiring Congress to have an 
opportunity to consider such an agreement before it is signed, 
and I would urge you to submit such an agreement to Congress 
for full consideration.
    General Petraeus, I know that in this March 14 interview 
with the Washington Post, you stated that no one--and those are 
your words--no one in the United States or Iraqi Governments 
feels there has been sufficient progress, by any means, in the 
area of national reconciliation, or in the provision of basic 
public services. Those are exactly the concerns that my 
colleagues and I raised when you testified before us in 
September.
    I remember well your being asked how long would we continue 
to commit American lives and treasure if the Iraqis fail to 
make political gains. In response, you said that if we reach 
that point in a year, you would have to think very hard about 
it. It would be difficult to recommend the continuation of this 
strategy, and there clearly are limits to the blood and 
treasure we can expend in an effort. Well, we're halfway 
through the year, and as many of us predicted, and as you 
yourself stated, we still do not see sufficient progress.
    What conditions would have to exist for you to recommend to 
the President that the current strategy is not working? It 
seems apparent that you have a conditions-based analysis, as 
you set forth in your testimony, but the conditions are 
unclear. They certainly lack specificity, and the decision 
points, with respect to these conditions, are also vague.
    So how are we to judge, General Petraeus, what the 
conditions are, or should be, and the actions that you and the 
administration would recommend pursuing based on them?
    General Petraeus. First of all, Senator, if I could just 
comment on that Washington Post article. What I said was that 
no one was satisfied with the progress that had been made, 
either Iraqi or American. I then went on and actually ticked 
off a number of the different areas in which there had been 
progress, and talked about the different laws that Ambassador 
Crocker has rightly identified in a number of other areas that 
there's been progress, although not satisfactory progress, as I 
mentioned, in the eyes of either Iraqis or Americans.
    So, that was the thrust of what I was getting at there, 
because there has indeed been progress in the political arena, 
and there actually has been progress in a variety of the other 
arenas, as Ambassador Crocker laid out in his opening 
statement.
    With respect to the conditions, Senator, what we have is a 
number of factors that we will consider, by area, as we look at 
where we can make recommendations for further reductions beyond 
the reduction of the surge forces that will be complete in 
July. These factors are fairly clear. There's obviously an 
enemy situation factor. There's a friendly situation factor 
with respect to Iraqi forces, local governance, even economic 
and political dynamics, all of which are considered as the 
factors in making recommendations on further reductions.
    Having said that, I have to say, it's not a mathematical 
exercise, there's not an equation in which you have 
coefficients in front of each of these factors. It's not as 
mechanical as that. At the end of the day, it really involves 
commanders sitting down, also with their Iraqi counterparts and 
leaders in a particular area, and assessing where it is that 
you can reduce your forces, so that you can make a 
recommendation to make further reductions.
    That's the process, there is this issue and in a sense this 
term of battlefield geometry. As I mentioned, together with 
Ambassador Crocker and Iraqi political leaders, there's even 
sort of a political-military calculus that you have to consider 
in establishing where the conditions are met and make further 
reductions.
    Senator Clinton. If I could just ask one follow-on 
question, Mr. Chairman?
    In response to a question by Senator Levin regarding when 
you knew of Prime Minister Maliki's plans to go into Basrah, 
you said, and I was struck by it so I wrote it down, that you 
learned of it in a meeting where the meeting's purpose was 
planning to resource operations in Basrah on a longer-term 
basis.
    Clearly, until relatively recently, Southern Iraq has not 
been within our battlefield geometry. Southern Iraq was 
originally the responsibility of the British. They have clearly 
pulled back and were not, so far as I can glean from the press 
reports, very actively involved in the most recent operations.
    What did you mean by the resources you were planning to 
deploy, and over what length of time?
    General Petraeus. Senator, what we had been working on with 
the Iraqi National Security Advisor, Ministers of Defense and 
Interior, was a plan that was being developed by the commander 
of the Basrah Operational Command, General Mohan, which was a 
fairly deliberate process of adding to the resources there on 
the military side and other areas. Then there was a phased plan 
over the course of a number of months, during which different 
actions were going to be pursued.
    Prime Minister Maliki assessed that that plan was taking 
too long, determined that the threats that had emerged since 
provincial Iraqi control, in terms of the criminal elements 
connected to the militia and so forth, were such that more 
immediate action was taken. As a sovereign country's leader, 
commander in chief of his armed forces, he decided to direct 
the much more rapid deployment of forces from other locations 
to Basrah. That is what he did. He moved up the timetable and 
compressed the different activities that we had been planning 
to resource over time.
    Senator Levin. Thank you, Senator Clinton.
    Senator Martinez.
    Senator Martinez. Thank you, Mr. Chairman.
    Gentlemen, thank you very much for your excellent service 
to our country. I also want to remark how dramatic a difference 
it is today, and the reports that you bring us, General 
Petraeus, from what we had seen when we were last together here 
in September.
    I think it's undeniable that dramatic, significant progress 
has been made, particularly as it relates to al Qaeda. For that 
I think you both should be strongly commended, and we thank 
you.
    Ambassador Crocker, if I may follow up on the SOFA, I would 
like to just have you explain to the committee, first of all, 
it isn't your prerogative about what course this follows in 
terms of whether it comes to Congress or not. Is that not 
correct?
    Ambassador Crocker. Senator, it would depend on the 
elements of the agreement.
    Senator Martinez. In fact, these are routinely done between 
the United States and allied countries where we may have forces 
stationed?
    Ambassador Crocker. Yes, sir. There are more than 80 of 
them, and as the chairman noted, only the NATO SOFA has gone 
before the Senate because of the special commitments that we 
undertook in that.
    Senator Martinez. So other than NATO, these do not 
necessarily, or ever, come before the Senate? So, in other 
words, it's nothing unusual for this one not to come before the 
Senate, because others do not, as well?
    Ambassador Crocker. That is correct, sir.
    Senator Martinez. Let me ask you, if I may, about the 
diplomatic interaction with Iran. I know that I continue to be 
concerned, as I know you are, about their involvement. The 
December 18 talks have been suspended or postponed; can you 
tell us about the status of those potential conversations with 
Iran going into the future?
    Ambassador Crocker. Several days ago, the Iraqi Foreign 
Ministry announced that they were working on arrangements for 
another round of talks. We have indicated to the Iraqi 
Government previously that we would be prepared to participate 
in such talks, at the request of the Iraqi Government, and if, 
in the judgment of the Iraqi Government, they might possibly 
improve the security situation.
    So, as it stands now, the Government of Iraq is making 
efforts to see if it can schedule something, and if they can, 
we'll be there.
    Senator Martinez. But the Government of Iran seems to be a 
little reticent to engage in these talks. Is that what I hear 
from you?
    Ambassador Crocker. Yes, sir. We've been through a number 
of efforts since December, as you point out, and each time 
something seems to get in the way of the Iranian schedulers.
    Senator Martinez. I know for a long time we've talked about 
the need for us to engage and talk to Iran. I guess it's 
difficult to talk to someone who doesn't want to talk back, or 
whose actions may not be in good faith. In that regard, General 
Petraeus, you mentioned earlier about 107-millimeter rockets 
that were being fired upon the international zone in Baghdad. 
Do we have any idea where the insurgent groups in Iraq are 
getting these 107-millimeter rockets to fire?
    General Petraeus. They come from Iran, Senator. As I 
mentioned, we have found large numbers of them in weapons 
caches. We recently, in fact, just south of Baghdad found 45 
more in a single weapons cache that also had several thousands 
of pounds of explosives in it.
    They have come from Iran, there's no question about it, and 
we have individuals in detention who have explained the entire 
process that goes on with the Special Groups--how they are 
brought over there, how they are recruited, trained, how they 
are funded--and we've captured one of the senior heads of the 
Special Groups, and a number of other of their leaders and 
financiers, all of whom were supported by the Iranian Quds 
Force. We also have members of the Quds Force in detention.
    Senator Martinez. So they are participating--the Quds Force 
from Iran--in recruitment, training, and financing, all but the 
execution, and I suppose even in some instances, maybe, the 
execution of attacks upon our forces, as well?
    General Petraeus. I can't speak to the execution directly, 
there's a clear sense that there has been direction of attacks, 
and of dialing up and dialing down at different times.
    Senator Martinez. Now, we've heard some discussion recently 
in the media that perhaps Iran had a role in the truce, as it 
was called, in Basrah in recent days. Can you comment on that?
    Ambassador Crocker. Senator, there has been speculation I 
would have to say, honestly, I simply don't know. I think the 
statement by Muqtada al-Sadr can be explained in Iraqi terms, 
just as his original cease-fire announcement in August and its 
renewal in February were.
    I think that he and the other members of the Sadr political 
trend are as aware as anyone that the Jaish al-Mahdi Special 
Groups activities, politically, did not play to their advantage 
at all. What we've maybe seen through this statement, and 
through some of his subsequent actions and statements, is an 
effort to distance himself from those extremist elements. I 
think that would make sense.
    The Sadr movement, in its inception, touched a deep vein in 
Iraq. It was populist, it was Iraqi nationalists, and it was 
Arab nationalists. It's kind of lost its moorings somewhat in 
recent years, with this gravitation toward Iran. What we may be 
seeing now--if you're explaining this in Iraqi terms--is an 
effort to move away from the Iranian-backed, and I would say 
controlled, Special Groups and move back into the Iraqi 
political forum. I would certainly hope that's the case.
    Senator Martinez. My time is up, but I would like to just 
close with a comment that some would suggest that we should 
withdraw troops from Iraq so that we might send them to 
Afghanistan. I would really prefer to see our NATO partners 
pick up their share of the load in Afghanistan, rather than 
just shift our troops from one country to another.
    Thank you both very much. I admire greatly the work that 
you're doing.
    Chairman Levin. Thank you, Senator Martinez.
    Senator Pryor.
    Senator Pryor. Thank you, Mr. Chairman.
    Let me start, if I may, General Petraeus with one of your 
charts. We have it on page 10 of our packet, where you show 
several bar graphs here. One thing I noticed immediately is the 
national police do not have any operational readiness 
assessment 1 (ORA-1) units. Also, I noticed that with the 
military, really, if you look at it, the green, the Level 1 and 
Level 2 areas have not grown much, maybe a little bit. In fact 
it looks like the green maybe is a little smaller, and the 
yellow is a little larger than it was as little over a year 
ago.
    I would expect that we would see more progress on the 
military front in these categories. Why haven't we seen more 
progress?
    General Petraeus. There's actually a very simple 
explanation for that, Senator. When a unit gets to ORA-1 level, 
which means that it meets certain goals in terms of personnel 
fill, leader fill, vehicles, maintenance, training, and a 
variety of other categories, the Iraqis tend to take leaders 
from these organizations and use them to form new 
organizations. Mathematically, then, they just fall below the 
level that is required to meet the criteria for ORA-1.
    That does not mean that unit may not be in the lead. The 
fact that a unit may not have entire fill of its leaders is not 
at all uncommon in Iraq because there is a shortage of 
commissioned and noncommissioned officers, in particular. 
That's the toughest part of growing a force as rapidly as they 
have, is finding qualified commissioned and noncommissioned 
officers.
    Senator Pryor. Is that how you would recommend to them that 
they do, that they peel their leaders off of their best units?
    General Petraeus. I actually think it does make sense, 
Senator. They're not trying to mathematically get to ORA-1, 
they're trying to get as many units as they can that are 
reasonably capable. I think that is a sensible way to do that.
    Now, they do have very high-end units that are exceedingly 
capable, arguably the best counterterrorist forces in the 
region, certainly the most experienced. I'm not sure, by the 
way, all of them meet ORA-1. They may not meet all of the 
mathematical criteria, but they are certainly extremely good. 
They as well will take leaders from that to form other new 
elements.
    Senator Pryor. Let me ask about another one of your charts. 
This is the caches found and cleared, which I think is a great 
chart. Generally, I think that's very good news, however, I do 
have a question. When you see this big up-tick in the number of 
caches found and cleared, it's great that we're finding them, 
that's great--but does it also mean that there's just more 
weapons flooding into Iraq than we've ever seen before?
    General Petraeus. That may be a factor, but I think the 
bigger factor, Senator, is that we were in areas where we were 
not present before. If you look at that chart, you can see the 
progression, as we cleared certain areas, for example, 
southeast, southwest of Baghdad, Anbar Province, Diyala 
Province, and a number of areas where we had either little 
presence or no sustained presence and there was no ISF 
presence.
    As we have gone into those areas, as we have, in a sense, 
reliberated some of these areas from al Qaeda or other 
extremist elements, the people have actually told us where 
these weapons were, because they don't want them in their 
communities.
    Senator Pryor. Let me ask you about Iran. Iran's come up in 
several contexts here at this hearing, one of those is 
providing weapons. We've heard about them providing training, 
even training trainers who can go in and be insurgents or be 
terrorists inside Iraq. Iran should be a concern to all 
Americans, because Iran is not our friend. If Iran continues to 
have a great influence in Iraq, we may end up at the end of the 
day with an Iraq that is not our friend, as well. So, I think 
we need to be very, very careful about Iran.
    Let me ask about Muqtada al-Sadr. I understand he has very 
close ties inside Iran. I've read somewhere where he's trying 
to attain the status of Ayatollah, and he's been doing some 
study in Iran. I read recently where, when the Iraqi Government 
asked him to disband his militias if they wanted to participate 
in the political process there, he said he would have to talk 
to clerics. I got the impression those were clerics inside Iraq 
and inside Iran.
    General Petraeus. In Iraq, sir. In Najaf.
    Senator Pryor. My concern with him--and maybe I'm reading 
too much into some of these stories I've been reading--but is 
he trying to set himself up as the future Ayatollah of Iraq?
    Ambassador Crocker. Senator, virtually the entire year that 
I've been in Iraq, he has been in Iran. It's one of the reasons 
I spoke earlier about some confusion, it seems to me, within 
the Sadr Trend, as to what it actually stands for and where 
it's going.
    He has clearly a very concrete association with Iran now 
through his presence there, and his religious studies in the 
city of Qom. Then of course the Iranian connection to the Jaish 
al-Mahdi Special Groups is now undeniable.
    None of this, as I look at it, contributes at all to the 
receptivity within Iraq of the Sadr Trend. So, it would seem to 
me that if he is seeking a future in Iraq, given the roots of 
this movement, going back to the 1990s, as I said, as a 
populist Iraqi and Arab nationalist movement, he certainly 
doesn't seem to be going about it in the right way.
    Senator Pryor. General Petraeus, one last question. You've 
requested that Congress support a supplemental appropriation 
for Iraq, and I will do that, by the way. Hasn't Congress given 
you everything you've asked, and the military everything you've 
asked, for Iraq?
    General Petraeus. It certainly has, Senator. As I made a 
point, earlier, of specifically thanking you for the MRAP 
vehicles, especially, for the ISR and for a number of other 
cases. With respect to the CERP, it was merely the urgency of 
having that by June, because that is a hugely important enabler 
for our commanders and troopers on the battlefield.
    Senator Pryor. Thank you.
    General Petraeus. Thank you, sir.
    Senator Pryor. Mr. Chairman, thank you.
    Chairman Levin. Thank you, Senator Pryor.
    Senator Wicker.
    Senator Wicker. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony.
    It's been pointed out by previous questioners, the dramatic 
difference that has occurred in Iraq since the surge began, and 
since you last made your presentation to Congress. There's no 
question that the situation is better now. It's better than 
when the surge began, and it's better than in September. It 
would take a major suspension of disbelief to conclude 
otherwise, to conclude that things are not much improved.
    Your testimony has been very measured and honest. According 
to what we're told, progress is fragile but it is undeniable 
and in large part, I would say to the efforts of you two 
gentlemen who have testified today.
    The question now before this Congress and this country is, 
do we proceed with this proven strategy of success? Or, on the 
other hand, in the face of this demonstrated progress, do we 
leave with our goals still not yet attained and secured?
    I think history would view this Congress as very foolish if 
we leave now and refuse to embrace the success that we've seen.
    I appreciate, General Petraeus, that you emphatically said 
that our efforts in Iraq are worth it. I think the American 
people need to be told that. As Senator Warner put the question 
in a somewhat different nuance; is our effort in Iraq helping 
to provide security for Americans where we live today?
    I understood your answer to be yes, yes it is. I would 
simply point out that depriving al Qaeda of a major victory 
indeed does promote the security of Americans here at home. 
Protecting American credibility also protects American security 
here at home. It is very much in our national security interest 
to show that America stands behind its friends and that America 
stands behind its word.
    So we're unanimous, also, in our appreciation and thanks 
for the troops. I appreciate the chairman and the ranking 
member starting off in that vein, and I think that's been 
echoed by every member of the committee.
    I was told that the average age of a combat soldier in Iraq 
is about 20 years old. General, is that pretty much correct?
    General Petraeus. That sounds about right to me, yes, 
Senator.
    Senator Wicker. When I was given that fact, it struck me 
what that means. That means that basically, most of these 20-
year-olds made the decision to participate in this war around 
2006. That was at a time when our prospects in Iraq were at 
their lowest. That was at a time when public opinion and public 
support for our involvement in this effort were at their 
lowest.
    So it makes it all the more remarkable that these young 
people would step forward and volunteer during that timeframe. 
It just makes me consider them actually, in the tradition of 
Abraham Lincoln, who persevered with the war effort at a time 
when public opinion was against him, or in the tradition of 
George Washington, who never really had more support than one-
third of the colonists during our effort for American 
independence. It makes me really proud of the sense of history 
that these young Americans must have, if they're willing--at a 
time when public opinion is really against it--to step forward 
and say, ``We believe in this effort.''
    So, if you could--and this will be, I think, the only 
question I'll have time to ask you in light of the time I've 
taken as a preface--please give us a profile of these troops, 
General? What motivates them to enlist? After they've been over 
there, and they have an opportunity to get out, what motivates 
them to reenlist? Are they watching us today? Do some of them 
have an opportunity to listen to this telecast? What do they 
want to hear from us? What do they want to hear from the 
elected representatives of the American people?
    General Petraeus. Senator, first I've mentioned on a number 
of occasions that I believe Tom Brokaw had it right when he was 
with us one day in the early part of Iraq when, after spending 
some time out seeing the myriad tasks that our troopers are 
performing, he said that, ``This is surely the new greatest 
generation.'' I think that subsequent deployments and 
deployments and deployments have underscored the validity of 
that assessment.
    I think the members of this force enlist for the usual 
reasons that soldiers, sailors, airmen, marines, coast 
guardsman have raised their right hand as civilians to become 
servicemembers. They enlist to do something that's bigger than 
self. It's certainly a sense of patriotism, the desire to 
better themselves, to seek opportunities that are possible to 
them serving in uniform.
    In combat, I think that they serve most of all for the 
trooper on their left and right, and feel very privileged that 
that individual is a fellow American soldier, coalition 
soldier, and in some cases, Iraqi soldier.
    But this concept of the brotherhood of the close fight is a 
very, very special feeling. It's a very unique fraternity, if 
you will, and it is something that all who have experienced, I 
think, are changed in a way for it.
    It is one of the reasons that they have raised their right 
hand again. As I mentioned, the 3rd Infantry Division there 
right now on its third tour in Iraq, has already achieved its 
reenlistment goal for the entire fiscal year.
    So, for all of those reasons, you find the explanation of 
why someone originally raises his or her right hand, and why 
they do it again. Knowing the sacrifice, knowing the idea that 
you enlist the soldier and reenlist the family, the families do 
sacrifice very, very much.
    It's not just our troopers who are watching, and they do 
have an opportunity to watch, and they do, by the way, watch 
this, I guess more than I thought they would. Because in an 
email world, you'd be amazed at the number of emails that you 
get--you probably would not--but I get emails from a number of 
members of the Multi-National Force-Iraq of all ranks. There's 
feedback, oftentimes, from these kinds of sessions.
    You ask, what do they want? They just want the American 
people to appreciate what they're doing, to support their 
service, and to ensure that they and their families will be 
looked after in an adequate fashion.
    As I mentioned in my opening statement, the support of the 
American public has been absolutely wonderful, and we are all 
very grateful to all American citizens, to Congress, to the 
executive branch, and others for repeatedly showing how much 
they do appreciate the great service of these young men and 
women of what I think really is the new greatest generation.
    Thank you.
    Senator Wicker. Please convey to them our heartfelt 
appreciation, and also to their families.
    General Petraeus. I will, sir.
    Senator Wicker. Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Wicker.
    Senator McCaskill.
    Senator McCaskill. Thank you, Mr. Chairman.
    Let me, obviously, comment on the sacrifice that both of 
you are making and the thousands other men and women like you 
that are working on behalf of our country in Iraq. Let me also 
mention the 76 Missourians and their families who have paid the 
ultimate sacrifice.
    I'd like to focus a minute on the financial sacrifice of 
our country. It is a burr in the saddle of the American people 
that the Iraqi Government has a budget surplus, and we have a 
massive budget deficit. Yet we are paying and they are not.
    I'd like to focus in on the SOFA for you, Ambassador 
Crocker.
    For you, General Petraeus, I'd like to focus in on the Sons 
of Iraq. The Sons of Iraq is one of your charts today, and the 
success that you have had related to employing some 90,000 
Sunnis with American tax dollars----
    General Petraeus. Shiite and----
    Senator McCaskill. Excuse me, Shiite and Sunni, but 
primarily Sunni.
    General Petraeus. It's about 20 percent Shiite, and about 
80 percent, or so, Sunni.
    Senator McCaskill. Okay. The 80 percent, they are viewed as 
primarily a Sunni group, in regards to the politics in Iraq, 
and that's the point I want to make is that we're spending 
about $200 million a year, paying these people twice the 
average salary you would make in Iraq, and I'm trying to figure 
out how we get the Iraqi Government to pay that price, as 
opposed to the American taxpayer.
    Obviously, there was a quote in the Washington Post not 
long ago from one of these Sons of Iraq that said that they 
were late in getting their money. They're going to be patient, 
but if they don't get their money quickly, they'll suspend and 
quit, and then they'll go back to fighting Americans.
    So, we have paid these folks and they are not fighting us, 
but the question is, how long are we going to be paying them in 
order to keep them from fighting us? What chances do we have of 
making the Iraqi Government use some of their budget surplus to 
fight them?
    For you, Ambassador Crocker, in Japan, Korea, and Germany, 
which has been referenced in political circles as to our 
involvement in Iraq long-term, in our agreements there, they 
are offsetting the costs of our bases. Those countries are 
paying the American Government to offset some of the costs of 
our bases. Are you going to negotiate in the SOFA, that the 
Iraqi Government start offsetting some of the costs of our 
temporary bases, that is envisioned that are going to become 
theirs, if and when we ever get out of there?
    General Petraeus. Senator, on the Sons of Iraq, as I 
mentioned in my opening statement, we actually fund those with 
the CERP, and in fact, the Iraqi Government just allocated $300 
million for us to manage as Iraqi CERP. That will offset a 
number of our other projects and allow us to focus more on the 
Sons of Iraq, for which they have committed now $163 million to 
gradually assume their contracts, over $500 million for small 
business loans that can be applied to some of these, and nearly 
$200 million for training and education and reintegration 
programs.
    So there are a number of initiatives ongoing with the Iraqi 
Government, in addition to the absorption of 20, 30 percent--
we'll have to see how much it is over time--of the Sons of Iraq 
into the legitimate ISFs, either into local police, or in some 
cases into the Iraqi Army.
    This started in Anbar Province and that's where we have 
been most advanced in terms of moving them into the roles. It 
is much more challenging, I think understandably so, as you 
mentioned, primarily a Sunni organization particularly at the 
outset because, of course, we needed them in areas where al 
Qaeda was originally, which were Sunni areas. When they moved 
into locations such as in Baghdad neighborhoods, where we saw 
the Awakening take place in some of those neighborhoods, then 
you're near Shiite/Sunni fault lines. Then you have much more 
concern, I think, legitimately on the part of a Shiite-led 
government.
    They've worked their way through that, there were recently 
several thousand who were picked up on contract and then 
transitioned into the ISFs.
    So, that process is underway and I think we're seeing more 
and more burden-sharing, cost-sharing, if you will, and they 
have committed that they would provide more, as their own 
supplementals are addressed over the course of the next several 
months.
    Ambassador Crocker. Senator, the SOFA talks are just 
getting underway, and I believe this committee, among others, 
will be receiving a briefing in the near future.
    It's an interesting point. We'll need to take that aboard 
and see what might be possible.
    Senator McCaskill. I think it's tremendously important, 
Ambassador, that we make a good-faith effort to begin to force 
the Iraqi Government to start spending their money to support 
the temporary bases that we have in Iraq. There's no excuse 
that the people of Japan and Germany and Korea are helping pay, 
and the people of Iraq need to be doing the same thing.
    If they refuse to, I think that would be a very 
illuminating point for the American people. If they're not 
willing to pay for that which we have said will be theirs when 
we leave, then I think that would be a very interesting moment 
of recognition for Americans as to how we are actually viewed 
in the country of Iraq.
    Let me also, just briefly, get your take on the Basrah 
situation. It is my understanding, and I don't think this has 
really been distilled down for most Americans, that really, 
Sadr won politically, in terms of the confrontation in Basrah, 
that their willingness to do reconciliation was being played 
from a winning hand, not from a losing hand. This was about the 
political power of Maliki versus Sadr, and that he won; not 
Maliki. That it was really one of these moments where Maliki 
could not deliver any kind of crushing blow to Sadr, and that 
they really, the Mahdi Army stood down because they had done 
the political damage they needed to do to Maliki. Is that 
incorrect?
    Ambassador Crocker. Senator, I would actually give it a 
different reading.
    What we've seen since the events in Basrah is very broad-
ranging political support in Iraq for Maliki. I had mentioned, 
in response to a previous question, that last Saturday a group 
called the Political Council for National Security--this is a 
body that includes the President, the two Vice Presidents, 
Prime Minister, Deputy Prime Minister, Speaker and Deputy 
Speakers of parliament, and leaders of all of the parliamentary 
blocks--met and came out with a strong statement of support for 
the government. There were 15 points, but the most important 
were: support for the government in its fight against extremist 
militia groups; a call for the disbanding of all such groups; 
and a strong statement calling on outsiders to cease 
interfering in Iraq's affairs, a clear reference to Iran.
    So this is still a process in evolution. But, the way I 
would read it right now is that it has definitely strengthened 
support for Maliki, as he is perceived as prepared to go into 
action against extremist Shiite, as well as al Qaeda and 
others.
    Senator McCaskill. I appreciate that there is some support 
for Maliki. Is it completely wrong to say that in terms of the 
actual incidents that occurred in Basrah, that Sadr ended up 
with a stronger hand than Maliki at the end of the day?
    Ambassador Crocker. Again, Senator, it's a complex 
situation that still has to play out. My read at this time of 
the positions that Muqtada al-Sadr has taken is that he is 
trying to put some distance between himself and these Jaish al-
Mahdi Special Groups.
    Senator McCaskill. Right.
    Ambassador Crocker. Because, there has been a pretty sharp 
negative--not only political, but popular--reaction against 
these militia groups. So I think he's motivated, trying to say, 
``it isn't us.''
    Senator McCaskill. Okay, thank you.
    Chairman Levin. Thank you, Senator McCaskill.
    Senator Chambliss.
    Senator Chambliss. Thank you very much, Mr. Chairman.
    Gentlemen, again we just can't overstate the fact of how 
much we appreciate your service to America.
    General Petraeus, I've had the privilege of visiting with 
you any number of times in theater, and each time, irrespective 
of what the challenge that is ahead of you, you've responded in 
a very professional way, a way in which makes us all proud to 
be an American.
    Ambassador Crocker, it's refreshing to know that there are 
folks like you who are career diplomats, and you have a number 
of them under your leadership, that are performing such a 
valuable service in this particular time of crisis.
    To both of you and your families, we just thank you for a 
great job.
    I'm particularly impressed, too, General Petraeus, at your 
comments on the 3rd Infantry Division. We're obviously looking 
forward to those folks returning to Fort Stewart and to Fort 
Benning, and what a great job they've done over there. From the 
very first day of the beginning of this conflict, they were 
there and they continue to perform magnificently.
    I noticed in your statements, compared to what you talked 
about when you were here in September, the percentage of time 
that you've spent on military operations versus the time that 
you spend on what's happening on the governmental side and the 
civilian side is remarkably different.
    When you were here in September, we were primarily talking 
about an update on the military perspective, and what had 
happened, and where we're going.
    Now, thank goodness, we're here listening to you talk about 
the improvements that have been made on the Iraqi civilian 
side. If that's not encouraging to every American, then they 
just have not been listening to what's been going on in this 
conflict.
    I want to focus for a minute, General Petraeus, on a 
particular project that you have had under your jurisdiction, 
and it's the project where the commanders that are underneath 
you have had the opportunity to engage with proprietors all 
across Iraq, and to make grants to those individuals, or loans, 
however you may want to characterize them, of up to, I think, 
$2,500 to put those folks back in business.
    Would you talk a little bit about how that program has 
worked, the success of that program, and what's been the 
reaction, which I personally have seen from Iraqi proprietors, 
but what's been the overall reaction of Iraqis to the American 
military as a result of that program?
    General Petraeus. Sir, it has been very positive. The small 
business grants--USAID does small business loans--have really 
primed the pump in a number of areas. As you can achieve 
security in an area, a lot of these are in the Multi-National 
Division Center area that the 3rd Infantry Division is the 
headquarters of. As they have cleared and then held areas, the 
way to start the building again, as quickly as possible, 
oftentimes is these very small business grants or loans.
    They have been very, very successful. They obviously 
engender enormous goodwill, because we are already there well 
before the Iraqi Government can get in there and start to prime 
the pump with basic services, and this just starts the whole 
process, and it does it very, very rapidly. It is, yet again, 
another reason why there have been so many weapons caches found 
in so many different areas. They are grateful for what our 
soldiers are doing, and they show their gratitude in, among 
other ways, pointing out where IEDs are, in some cases and 
showing them where weapons caches are in others.
    Senator Chambliss. There's been some comments here this 
morning, and comments in the press of late by some folks, 
regarding whether or not this truly has been a success, this 
surge or the new strategy, whatever we call it, that began 
under your leadership a little over a year ago.
    But I would note that AQI certainly is our primary enemy, 
they have been the focus of our attention in Iraq. What 
percentage of Iraq was AQI located in 2006, compared to where 
they are today?
    General Petraeus. As I showed in the one slide during the 
opening statements, Senator, in late 2006, AQI had substantial 
presence, and even control in significant areas of the 
Euphrates River Valley through Anbar Province, in a number of 
the areas for which 3rd Infantry Division assumed 
responsibility in Multi-National Division Center, in the so-
called throat of Baghdad, just south and southeast of Baghdad.
    Several different major neighborhoods in Baghdad extended 
up the Diyala River Valley to Baqubah, beyond that, and then a 
variety of areas in the Tigris River Valley and then on up to 
Mosul in Ninawa.
    Over time, the grip of AQI in a number of those areas has 
been reduced, and in fact, the violence in those provinces then 
came down very substantially, with the one exception, and that 
exception is Ninawa Province in the far north. That is the 
attention of the main effort, if you will, of the effort 
against AQI by conventional and Special Operations Forces on 
the Iraqi and the coalition side.
    Senator Chambliss. Another measuring stick, I think, is the 
participation of Iraqi citizens alongside our coalition forces 
in defending their country and prosecuting attacks against AQI.
    Have we seen an increase in the percentage of Iraqi 
citizens participating in the prosecution of the conflict 
against AQI versus where we were in 2006?
    General Petraeus. We have very much, Senator. Again, a lot 
of this started in late 2006, with the first Sheikh and tribe 
sort of courageously saying, ``Will you stand with us if we 
decide to stand against al Qaeda? We've had enough of the 
damage that they have done, we don't believe in the extremist 
ideology that they offer.'' The indiscriminate violence wrecked 
havoc in the Euphrates River Valley and other locations.
    That was the first manifestation of this. Then over time, 
that built. It arguably reached critical mass in the Euphrates 
River Valley and the Ramadi Region. It rippled up and down 
that. In early to mid-2006 or 2007, Ramadi was cleared in a 
very substantial operation mid-March to mid-April. That just 
kept moving around.
    It was a willingness to reject al Qaeda on the part of 
Sunni communities because of the damage that they had done, and 
a recognition that they could not share in the bounty that is 
Iraq. You can't win if you don't play. You can't share in the 
enormous resources that Iraq has, if you're not participating.
    That, of course, also is why they so keenly want to see 
provincial elections in so many of these different communities 
where Sunni Arabs boycotted the vote in 2005.
    Senator Chambliss. My time is up, Mr. Ambassador, but could 
you give me a quick answer as to whether or not the Iranians 
are participating in the economy of Iraq, as well as from a 
standpoint of participating militarily?
    Ambassador Crocker. Senator, yes they are. A lot of goods 
move from Iran into Iraq, foodstuffs, consumer goods, and 
Iranians are also involved in some project development, 
particularly in different cities in the south.
    Senator Chambliss. Thank you.
    Chairman Levin. Thank you.
    After we complete the first round, we will excuse our 
witnesses and not have a second round so that our witnesses 
have at least a little break before their afternoon hearing.
    Senator Chambliss. Mr. Chairman, may we thank you, on our 
side, for again, their appearance, in a very thorough hearing 
this morning.
    Chairman Levin. I think we have three or four more 
Senators.
    First, Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    For the record, I would like to point out then when we talk 
about the success in al-Anbar being sort of the greatest event 
from the surge, for purposes of history, we should remember 
that that Awakening began before the surge was announced. I 
know that for a fact, because my son was there as a Marine 
rifleman through the period of September 2006 through May 2007, 
and was following it with some interest as it was moving 
forward.
    I hope I can get two questions in here during this period, 
but gentlemen, I'm on the Foreign Relations Committee, so we'll 
see how far we can go and we'll all take a lunch break and come 
back.
    General, I'd like to thank you for the way that you 
characterized the service of our people in the military today. 
I think there's been far too much politicizing of what our 
people have done. As someone who grew up in the military, 
served in it, and has more than one family member in it right 
now, I think it's fair to leave politics out of what our people 
are doing. There are people in the United States military today 
who feel one way, people that feel another way, and people who 
have no political views at all. Quite frankly, combat was the 
most apolitical environment I've ever been in. People want to 
work together and do their job, and I think it was really 
refreshing to hear you take that approach today.
    I'm very concerned about the strain on the force. It isn't 
reflective, so much, of motivation. As you indicated, we have 
great people and we have a career force that continues to 
reenlist. It goes more to the stewardship of all of us who are 
making these policies, in terms of how we're using people, and 
how these experiences are going to impact them downstream in 
their lives.
    On the one hand, we have reenlistment rates that are high. 
On the other hand, we have articles such as the one that came 
out in the New York Times the other day with 27 percent of the 
career noncommissioned officer force, that has had multiple 
deployments, having difficulties at some level.
    That's one of the reasons that I introduced the dwell-time 
amendment last year, to try to put some perspective, just to 
put a safety net under this, while the politics of the war were 
being discussed. It's another reason I have introduced, and 
pushed so hard, this GI Bill. You mentioned, General, Tom 
Brokaw visiting and saying this was the next greatest 
generation. I think the least we can do is to give these people 
the same shot at a true future as we gave the so-called 
greatest generation, by giving them the ability to pursue 
education of their choice and to really have a future.
    When I'm thinking about all of that and I'm looking at the 
numbers that we're seeing, where it looks like after this next 
increment of troops are allowed to go home, we're going to 
probably be having 10,000 more people remain in Iraq than were 
there at the beginning of the surge; that's what I'm seeing, 
anyway. We're going to have like 141,000 until this next 
increment is brought into place.
    I start wondering how we're going to do that and still meet 
the demands that are outside of Iraq. When I look at the 
situation inside Iraq, I know, Ambassador Crocker, you 
mentioned that al Qaeda's capabilities in Iraq have been 
significantly degraded over the past year. Al Qaeda is a part 
of an international terrorist movement that is, by its 
definition, mobile. I don't think we can say that the situation 
with international terrorism has improved in Pakistan and 
Afghanistan and those areas.
    You mentioned, quite correctly, that many Iraqi Shiites, in 
the hundreds of thousands, as you commented, stood up and 
fought against Iran when called upon to do so during the Iran/
Iraq war. We should consider that when we work through Iranian 
influence in Iraq, in fact, Iraq seems well ahead of us, in 
terms of seeking a fuller relationship with Iran. Part of the 
problem from my perspective, quite frankly, has been this 
administration, the way that it has approached possible 
aggressive diplomatic relationships with Iran.
    But when you look at all of that, the concern that I have 
is that keeping that level of force in Iraq and looking at the 
other situations, particularly Afghanistan; where are we going 
to get these people?
    I'm curious, General, as to the level of agreement that you 
have in this plan from the Chairman of the Joint Chiefs of 
Staff?
    General Petraeus. Both Admiral Fallon, the then-CENTCOM 
commander, and the chairman were fully supportive of the 
recommendations that I made, and of course made through them, 
to the Secretary and ultimately to the President.
    Senator Webb. Thank you.
    We'll be having a hearing with Admiral Mullen this week, 
and I would like to be able to pursue that with him.
    Ambassador Crocker, with respect to the Strategic Framework 
Agreement, we've had two different documents that have been 
kind of discussed almost in a way in this hearing that people 
may think that it's one document, when clearly it is not.
    I have a couple of questions on that. One is, I read your 
testimony where you say this is clearly no permanent basis, but 
I'm not sure, really, what that term means anymore.
    Can you tell us what would have been in this document that 
would have elevated it to the point, that from the 
administration's perspective, it would have required 
congressional approval?
    Ambassador Crocker. Senator, I'm not a lawyer or a 
constitutional specialist. I am advised by those individuals, 
so I can't give you the whole universe of issues that might be 
involved, but some of them are obvious.
    The kind of provision that is in the NATO SOFA, the formal 
security commitment, that raises that particular SOFA to the 
level of advice and consent by the Senate. That is not what we 
intend in this current exercise.
    Senator Webb. We've been trying to look at what the 
specific wording in the document is, and to this point, it has 
not been shared with us. But it's been my understanding that 
there is a security commitment in the agreement.
    Ambassador Crocker. No, sir, there isn't. The SOFA 
negotiation itself is still in its very early stages. Although 
we have briefed the Strategic Framework Agreement to the Iraqi 
leadership, we have not yet sat down for a formal discussion.
    Senator Webb. Well, that would be the document that we, in 
Congress, would be initially concerned with, rather than the 
SOFA.
    I'll save this for the afternoon, because my time has run 
out.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Webb.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Ambassador Crocker and General Petraeus, it's good to see 
you again. I had the honor of visiting you and many of the 
Texas troops and many other men and women in uniform in 
January, and good to see you then, and good to see you here 
today.
    I want to start by asking, General, the purpose of the 
counterinsurgency strategy, sometimes now called the surge, was 
to give the Iraqis the basic protection--to protect the Iraqi 
population and to give the Iraqi Government and the Iraqi 
people the chance to develop their own political arrangements, 
so that, as in the words of the Iraq Study Group, we would 
leave them with the capacity to govern and to defend 
themselves.
    Would you accept my summary?
    General Petraeus. I would, Senator.
    Senator Cornyn. Or maybe state it better than I did.
    General Petraeus. No, I think that's fine, sir.
    Senator Cornyn. That leads me to Ambassador Crocker, to the 
benchmarks. I know there's been a lot of debate, and I seem to 
recall some of your writing, about whether the benchmarks that 
the United States Government laid down in 2007 were really the 
appropriate measures, but let's just set that argument aside 
for a minute and just talk about what sort of success the Iraqi 
Government has had in meeting those 18 benchmarks that we 
identified in 2007.
    It's my recollection that they have successfully completed 
12 of those 18 benchmarks. Can you either correct me, or 
clarify and expand upon the developments in that area?
    Ambassador Crocker. I think that's about right, Senator. 
We're actually just going through a process now, between us out 
in Baghdad and folks back here, in reevaluating the status of 
the benchmarks. But clearly they have gained some real momentum 
after an admittedly slow beginning.
    Amnesty is a benchmark, for example, accountability and 
justice, de-Baathification reform is a benchmark, provincial 
powers in its election dimension is a benchmark. So in the 
space of just a little over 1 month, we saw them achieve three 
really significant new benchmarks.
    Senator Cornyn. General Petraeus, I remember General 
Odierno who, of course, has served with you in Iraq, and is 
Commander of III Corps in Fort Hood. Pending his nomination as 
Vice Chief of Staff of the Army, I remember him saying what he 
thought the American people wanted to see out of Iraq was 
progress. Progress.
    Would both of you characterize what we have seen over the 
last year in Iraq, both from a military and security 
standpoint, as well as from a political reconciliation 
standpoint, as progress?
    General Petraeus. I would, Senator.
    Ambassador Crocker. Yes. Yes, very much, Senator.
    Senator Cornyn. I want to just ask a question about the 
consequences of failure in Iraq, because of course, we all want 
our troops to come home as soon as they can. I think, giving 
both sides the benefit of the doubt, I would say the 
disagreement is over whether it's based on a political or a 
timetable, which I would call political, without regard to 
conditions, and those of us who believe that it ought to be 
conditions-based reduction in our troops.
    You touched on this, I believe a little bit, both of you 
did, in your opening statement, but I think it's worth 
repeating because I think the connection that, as you pointed 
out, General Petraeus, our troops not only want to know that we 
appreciate them, but I think their families and they want to 
understand how their sacrifice is directly connected with our 
safety and security here at home. Sometimes, I think that gets 
lost in the debates here on Capitol Hill.
    Traveling to Afghanistan, as I did in January before I came 
to Iraq, I of course was reminded of what happened in that 
failed state after the Soviet Union left, where the Taliban and 
al Qaeda basically used that as an opportunity to organize, 
train, and launch attacks, most notoriously on September 11, 
2001.
    So you see the consequences of a failed state in Iraq, were 
we to withdraw before conditions would allow it, before Iraqis 
could govern and defend themselves, increasing the probability 
that Iraq could, in fact, become a similar failed state to 
Afghanistan from the standpoint of allowing space, time, and 
opportunity for al Qaeda and other terrorist organizations to 
reorganize and plot and potentially export similar attacks 
against the United States or our allies?
    General Petraeus. Senator, as I mentioned, not achieving 
our goals, our interests in Iraq indeed could lead al Qaeda to 
regain lost territory, we could see a resumption of the kind of 
ethno-sectarian violence that tore the country apart in 2006 
and into early 2007.
    No telling what can happen in terms of the Iranian 
influence piece, and then just general regional stability 
challenges, not to mention the connection with the global 
economy.
    So there are enormous interests at stake, and that was why 
I sought to lay those out earlier.
    Senator Cornyn. We recently hit 4,000 dead in Iraq as a 
result of armed combat, 373 of those have called Texas home, my 
home State. I recently went to a memorial service for a young, 
24-year-old soldier named Jose Rubio, who lost his life in 
Iraq.
    At that memorial service, as you would expect, everyone in 
the family was sad, and of course we all grieve with them for 
their loss.
    But, I think his family took considerable comfort in 
knowing that Jose Rubio was doing something he believed in, 
something important, and something that contributed to the 
safety and security of his family back here, at home, as well 
as the rest of the American people.
    Do you believe that young soldiers like Jose Rubio are 
making such a contribution to the safety and security of their 
families back home and the American people?
    General Petraeus. I do, Senator.
    Senator Cornyn. I thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Bayh.
    Senator Bayh. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your patience and your testimony 
here today, and most of all, for your service to our country. 
We may have some differences of opinion about the way forward 
in Iraq, but none us questioned your service to our country, or 
the candor of your testimony today. So, I'm grateful to you for 
that.
    I have the privilege of serving on the Select Committee on 
Intelligence as well as the Senate Armed Services Committee, 
and I'm struck, when reading the most recent National 
Intelligence Estimate--which we can't discuss here in detail 
today, but both reading that and listening to your testimony 
here today and listening to some of the dialogue about how all 
of this is subject to differing interpretations.
    I would just ask you the question; isn't it true that a 
fair amount of humility is in order in rendering judgments 
about the way forward in Iraq, that no one can speak with great 
confidence about what is likely to occur? Is that a fair 
observation?
    General Petraeus. It's very fair, Senator, and it's why I 
have repeatedly noted we haven't turned any corners, we haven't 
seen any lights at the end of the tunnel. The champagne bottle 
has been pushed to the back of the refrigerator, and the 
progress, while real, is fragile and is reversible.
    Senator Bayh. In fact, reasonable people can differ about 
the most effective way forward. Is that not also a fair 
observation?
    General Petraeus. I don't know whether I would go that far, 
sir. Obviously, I think there is a way forward, I've made a 
recommendation on that, and so----
    Senator Bayh. General, you would not mean to say that 
anyone who would have a different opinion is, by definition, an 
unreasonable person?
    General Petraeus. Senator, lots of things in life are 
arguable, and certainly there are lots of different opinions 
out there. But again, I believe that the recommendations that I 
have made are correct.
    Senator Bayh. Here's the reason for my question, gentlemen. 
Just as I acknowledge your honor and patriotism, which I think 
is absolutely appropriate, I hope you would acknowledge the 
honor and patriotism of those who have a look at this very 
complex set of facts, and simply have a different point of 
view. As you both are aware, some argue that, to not embrace 
the assessment that you're giving us, is, in fact, to embrace 
defeat or to embrace failure in Iraq. I simply would disagree 
with those characterizations, and that was the reason for my 
question to you.
    General Petraeus. Senator, we fight for the right of people 
to have other opinions.
    Senator Bayh. As we should, and so I appreciate your candor 
with regard to that.
    So, let me ask you about some of the policies that may be 
subject to differing interpretations. You've been asked about 
all of them, I think, here.
    Chairman, I've never seen so many people be glad to see me 
before, here, I'm the last one. I guess there's some benefits 
to being last.
    The question of opportunity costs was raised, and in the 
intelligence world, at least for the foreseeable future, they 
tell us that we are much more likely to be subject to a 
terrorist strike emanating from Afghanistan, or possibly the 
tribal regions of Pakistan, than we are Iraq.
    Yet, we are currently spending five times as much in Iraq 
as we are in Afghanistan on a monthly basis, we have five times 
as many troops stationed in Iraq as we do in Afghanistan 
currently. How do you square that when the threat, currently, 
is greater in terms of terrorist strike from one place, and yet 
we're devoting five times the amount of resources and troops to 
a different place? Some might look at that and argue that our 
resources are being misallocated.
    Ambassador Crocker. I'd just make a couple of observations 
on that, Senator, and again, as you know because you visited 
me, I am former Ambassador to Pakistan. I am not really in a 
position to speak authoritatively about conditions there, but 
again, the circumstances in Pakistan are such that it's not 
going to be a question of U.S. troops in Pakistan. The al Qaeda 
threat out of that border area is indeed significant.
    Senator Bayh. Afghanistan and Pakistan are subjects for 
another day, but since this is all tied up in the global effort 
against extremism and terror, things have not been going as 
well as we would hope in Afghanistan. We're not going to have 
troops in Pakistan. Still, resources are finite, and they do 
have an impact. Some might look at this and say, ``Why are we 
devoting five times the amount of resources to a place that is 
not, at this point, the principal threat?''
    Ambassador Crocker. In part, Senator, to be sure that it 
doesn't become that.
    I noted in my testimony that Osama bin Laden fairly 
recently referred to Iraq as the perfect base for al Qaeda. It 
is a reminder of that, for al Qaeda, having a safe base on Arab 
soil is extremely important. They got close to that in 2006.
    Senator Bayh. They apparently have one now in the tribal 
areas in Pakistan.
    But in any event, Ambassador, I appreciate your responses, 
and I would only caution us to not take our marching orders 
from Osama bin Laden, and it might occur to some that he says 
these things because he wants us to respond to them in a 
predictable way, and we should not do that for him. But, that's 
another subject.
    Just two or three other things, gentlemen. Again, thank 
you.
    Ambassador, I have high regard for you. On the subject of 
political reconciliation, I think it is a fair comment, on my 
part, that the balance of the opinion in the intelligence world 
would not be quite as optimistic as some of the observations 
that have been given to us here today.
    My question is; does not that, and I use the word open-
ended commitment and I know that you would say our commitment 
is not open-ended, and yet without any sort of estimate of any 
kind of endpoint, I don't know how else you define it, in some 
ways, enable some of the political dysfunction we have in Iraq, 
by basically saying, ``We're there as long as it takes, we're 
going to invest as much money as it takes.'' Does that not take 
some of the impetus off of them to make the hard compromises 
that only they could make?
    Ambassador Crocker. Again, I am the first to say, going 
back to your initial comments, that Iraq is both hard and it's 
complicated. In this particular aspect, it's my judgment based 
on the year that I've been there, that we get political 
progress when Iraqi political leaders and figures are feeling 
more secure, rather than less, that they are more likely to 
make the kinds of deals and compromises that we saw in February 
with that legislative package, when they and their communities 
do not feel threatened.
    It would be my concern that, if they were to sense that 
we're moving away from a conditions-based approach in our 
presence and our actions, that they would then be kind of 
looking over our heads to what might possibly happen next 
without us there. They'd be moving away from compromise, not 
toward it.
    Senator Bayh. Chairman, I just have two brief questions if 
I could be permitted.
    General, my question to you is, I've asked this directly of 
some of our leading experts in the intelligence arena, and my 
question was, on a global net basis, is our presence in Iraq 
creating more extremists and terrorists than we are eliminating 
within Iraq?
    The answer they have given me is that they believe that we 
are actually creating more than we are eliminating. Creating 
more on a global basis then we're eliminating in Iraq. What 
would your response to that be?
    General Petraeus. I'm not sure I would agree to that, 
Senator, but my responsibilities are Iraq, not the greater 
global responsibilities. Obviously, I'm a four-star general, I 
have strategic thoughts, and again, I would just differ with 
that particular assessment.
    I think at this point that we have rolled back, as I 
mentioned, AQI in a number of different areas. The Ambassador 
rightly pointed out that Osama bin Laden and Zawahiri have 
repeatedly pointed out in various forms of communication, not 
just those for the open world, that Iraq is the central front 
of their global war of terror. In that regard, I think that is 
where we must roll them back.
    Senator Bayh. My final question, gentlemen, is this. I 
noticed, and Senator McCain is no longer here, it was his 
opinion that success, I think, in his words, ``was within 
reach.'' Another quote was, ``success would come sooner than 
many imagine.''
    Now, I don't want to get you sucked into the Presidential 
campaign and ask you to respond to that directly, but many 
Americans are going to look at your testimony here today and 
all of this proceeding in these questions. They're asking 
themselves, ``What does all this mean about the way forward? Is 
success truly almost at hand, or is this a commitment without 
end?''
    So, my final question to you would be, is it not possible 
to at least offer some rough estimate about when we will be 
able to, after this brief pause, recommence extricating 
ourselves by withdrawing more troops from Iraq, down to some 
longer-term level? Is it just impossible to offer any rough 
estimate?
    General Petraeus. Senator, if you believe as I do, and the 
commanders on the ground believe that the way forward on 
reductions should be conditions-based and it is just flat not 
responsible to try to put down a stake in the ground, and say, 
``this is when it will be or that is when it will be,'' with 
respect.
    Senator Bayh. I understand that, General. Many Americans 
will listen to that and believe this to be an open-ended 
commitment because by definition, we won't know until we get 
there, and there have been so many ups and downs in this thing. 
I think it's a fair estimate to say that when this began, most 
did not assume that we'd be sitting here 5 years on with the 
conditions that we currently have.
    So, again, I'm just trying to give the American people a 
fair judgment about where we stand and what the likely way 
forward is, and I guess the best answer to that is, we'll know 
when we get there and we don't know when we're going to get 
there.
    General Petraeus. Senator, as I just said, we have, we 
believe the appropriate way, based on the military commanders 
on the ground, to sustain and build on the progress that has 
been achieved over the course of the last 12 or 15 months, is 
to make reductions when the conditions allow you to do that, 
without unduly risking all that we've fought so hard to 
achieve.
    Senator Bayh. We don't know when that point will be.
    General Petraeus. Senator, when the conditions are met is 
when that point is. Again, that's the way that lays out. Unless 
you want to risk and jeopardize what our young men and women 
have fought so hard to achieve over the last 12 or 15 months, 
then we need to go with a conditions-based approach. That's why 
I made that recommendation, obviously.
    Senator Bayh. Thank you, Mr. Chairman.
    General, I would just conclude by, I understand your 
position, I know why you take the position you do. You can 
understand the position that leaves the American people in as 
they try and assess the way forward.
    Thank you, gentlemen.
    Chairman Levin. Thank you, Senator Bayh.
    Gentlemen, it's been a long morning for you. We appreciate 
your service and your appearance here today.
    We will stand adjourned.
    [Questions for the record with answers supplied follow:]

               Questions Submitted by Senator Carl Levin

                         TREATMENT OF DETAINEES

    1. Senator Levin. General Petraeus, in a letter to the military 
personnel in Multi-National Force-Iraq on May 10, 2007, you wrote in 
part that ``Some may argue that we would be more effective if we 
sanctioned torture or other expedient methods to obtain information 
from the enemy. They would be wrong.''
    If a soldier in Iraq had reason to believe that a detainee in his 
custody had information about an impending attack on the soldier's 
unit, and the soldier thought that gaining that information could save 
the lives of his fellow soldiers, would military necessity allow him to 
use interrogation techniques that would otherwise not be permitted 
under the Geneva Conventions?
    General Petraeus. Military necessity does not allow a soldier to 
use interrogation techniques not authorized by the Geneva Conventions. 
Article 27 of Geneva Convention IV requires that Protected Persons/
Civilian Internees ``shall at all times be treated humanely'' by the 
Protecting Power. This requirement is an extension of the standards 
that must be applied to an Enemy Prisoner of War under Article 13 of 
Geneva Convention III.
    While the Geneva Conventions does not detail an explicit list of 
what constitutes humane or inhumane treatment, the Department of the 
Army Field Manual 2-22.3 details approved interrogation approaches that 
do not violate the humane treatment standard. Soldiers must follow this 
field manual under all circumstances.

        AIRBORNE INTELLIGENCE, SURVEILLANCE, AND RECONNAISSANCE

    2. Senator Levin. General Petraeus, in your statement you mentioned 
shortfalls in airborne intelligence, surveillance, and reconnaissance 
(ISR) capabilities. Are these capabilities urgently needed?
    General Petraeus. ISR platforms are essential to our operations, as 
persistent surveillance is required to identify, track, target, and 
kill or capture insurgents, and to minimize friendly force and civilian 
casualties. Congress and Secretary Gates have been staunch supporters 
of our ISR requirements, and the resources we have received have been 
critical to the success of our commanders.
    Despite this support, however, we still have unmet requirements and 
additional capabilities are urgently needed. Shortfalls in ISR decrease 
our ability to conduct multiple, simultaneous operations and therefore 
may diminish our ability to maintain our hard-won momentum. We also 
expect ISR requirements in Iraq to increase rather than decrease in the 
near-term as Iraqi forces assume more responsibility for security and a 
smaller coalition force continues to transition from leading, to 
partnering, to an ISR-intensive overwatch role. Despite the growing 
capability of the Iraqi security forces (ISFs), the Iraqis do not yet 
have the ISR platforms they would need to be able to conduct fully 
independent operations across Iraq. I am working closely on these 
issues with Program Analysis and Evaluation Director Brad Berkson who 
directs the ISR Task Force for Secretary Gates. Director Berkson's most 
recent set of recommendations of actions to increase ISR is very 
encouraging. I am also working with another ISR Task Force overseen by 
Director Berkson to help identify and prioritize the needs in the ISR 
arena to support conventional forces over the longer term.

    3. Senator Levin. General Petraeus, the Department of Defense (DOD) 
has taken many actions to accelerate and surge all available unmanned 
aerial vehicle (UAV) systems to meet Central Command's (CENTCOM) 
requirements for additional surveillance aircraft. Despite this surge, 
a substantial shortfall remains, which will not be filled for some 
time. From your perspective, is it necessary to wait until the UAV 
systems, such as Predator, Warrior, and Shadow, can meet the expanded 
requirement or would CENTCOM prefer that the requirement be met as soon 
as possible with small manned aircraft?
    General Petraeus. Our desire is to meet ISR shortfalls as quickly 
as possible. Together with CENTCOM, we are approaching the ISR problem 
from a holistic point of view and are concerned less with the air 
vehicle itself than with how the air vehicle fits into the larger ISR 
system-of-systems to achieve desired effects. Comprehensive solutions 
are required, and these must take into account the platform's support 
infrastructure; sensor capabilities; communications bandwidth; and 
processing, exploitation, and dissemination architectures. It is also 
valuable to have a variety of systems which enable the flexibility in 
employment our operations require.
    Small manned aircraft acquired from the commercial sector are 
already being employed to help fill the ISR platform shortage, and we 
will continue to take advantage of such options where they make sense. 
They are not, however, the complete answer to our ISR shortfalls, and 
we are working with the Office of the Secretary of Defense ISR Task 
Force to determine which platforms are most effective in meeting our 
ISR needs.

    4. Senator Levin. General Petraeus, if a large number of small 
manned aircraft were acquired to temporarily fill this operational need 
until the UAV systems become available, what might be done with the 
manned aircraft when CENTCOM no longer needs them?
    General Petraeus. Although we currently have a shortfall in ISR 
assets in Iraq, should we reach the point when particular assets become 
unnecessary, I would advise my chain of command regarding the 
availability of those assets. Though I understand that there are also 
shortfalls in ISR elsewhere in CENTCOM's area of responsibility, 
decisions on the employment of ISR assets outside of Iraq are beyond my 
brief as the Multi-National Force-Iraq Commander. I would defer to 
those who have better visibility on, and the responsibility for, our 
worldwide ISR requirements.

    5. Senator Levin. General Petraeus, might the manned aircraft be 
good candidates to provide to Iraqi forces for intelligence support?
    General Petraeus. As we advise and support the development of ISR 
capability in the ISFs, we seek to focus on Iraqi requirements rather 
than specific platforms. As with our own posture, comprehensive 
solutions are required. Given the nascent state of Iraqi ISR 
capabilities, issues of particular concern include a given platform's 
support infrastructure and training requirements.
    Small, manned aircraft may be part of the solution to Iraq's ISR 
needs, and, in fact, the ISR platforms currently in use by the Iraqis 
are of this type. In decisions about the procurement of additional 
capabilities, much will depend on the characteristics of specific 
systems and the extent to which these characteristics meet Iraqi needs.
                                 ______
                                 
             Questions Submitted by Senator Daniel K. Akaka

                            MUQTADA AL-SADR

    6. Senator Akaka. General Petraeus, the recent violent activity in 
Basra under the direction of Shiite leader Muqtada al-Sadr, and the 
apparent inability of ISFs to confront his militias effectively, are of 
great concern to me. Of even greater concern is how quickly the 
violence was reduced once al-Sadr ordered them to lay down their arms. 
To what degree does al-Sadr control the overall level of violence in 
the country, since it would appear to most of us that his word, and not 
the presence of increased numbers of U.S. forces on the ground, is what 
defines a week of increased bloodshed and insecurity?
    General Petraeus. The Sadrist ceasefires have indeed contributed to 
a reduction in violence in Iraq, but they came after their militia took 
serious losses from combat with the ISFs and coalition forces. Of 
greater long-term importance than al-Sadr's decisions themselves, 
therefore, are the factors that led him to declare the ceasefires. One 
of the primary factors has been the intense pressure on Jaysh al-Mahdi 
(JAM) and the Special Groups (SG). Iraqi-led, coalition-enabled forces 
have targeted criminal militias and their mafia-like activity, and 
Iraqi leaders have demonstrated their willingness to take on militias. 
Recent, ongoing operations in Basra and Sadr City have proven 
exceedingly lethal to JAM/SG members; over 770 JAM/SG members were 
killed in and around Sadr City alone. Iraqi and coalition forces' 
activity in large part compelled Sadr's decision to lay down arms. 
Another important factor in Sadr's decisions is his need for support 
from the base of the Shiite Sadrist movement. Atmospherics in Basra and 
Sadr City indicate that most residents were tired of the violence and 
of the militia's mafia-like activities and desired a return to 
normalcy. Sadr's decisions to lay down arms in both locales were in 
part acknowledgments of this trend toward the popular rejection of 
violence (a trend that Iran, whose Qods Force funds, trains, and equips 
the militia Special Groups, also recognized). Indeed, many leaders of 
the Sadrist movement are increasingly leaning toward participation in 
the political process as a way to give voice to the legitimate concerns 
of the poor, urban, disenfranchised Shiite that they represent.

                            IRAQI GOVERNMENT

    7. Senator Akaka. Ambassador Crocker, there has been a lot of 
criticism of the Iraqi Government for not doing enough in terms of 
taking responsibility for the future of their country. Their 
demonstrated inability to effectively allocate their budget resources 
to address reconstruction and provide essential services, and their 
failed efforts to diplomatically engage the various factions within the 
country and bring about reconciliation, are two of the major concerns. 
Given what we did not fully understand prior to the 2003 invasion about 
the cultural divides within Iraq, would you say that we have expected 
too much from the Maliki Government?
    Ambassador Crocker. Iraq's leaders have many difficult problems to 
tackle, and it will take time to resolve them. We must not 
underestimate the ongoing challenges posed by the gravity of the 
circumstances and the fragility of the security environment. 
Nevertheless, we believe that the Iraqi political leadership is now on 
the right track and has the ability to achieve the needed results. They 
are making important progress on national reconciliation that will be 
essential if Iraq is to become a stable, united, and democratic 
country. They can attain this goal with continued support and 
encouragement from us and the international community.
    In the last few months, there have been significant political and 
security accomplishments that greatly advance the prospects for real 
national reconciliation. Regular meetings of the recently established 
Executive Council (President, Prime Minister, and both Vice Presidents) 
have expanded discussions on and improved prospects for consensus on 
key issues. There have been active efforts to bring Sunni ministers 
from the Tawafuq Party back into the cabinet. Prime Minister al-
Maliki's security campaigns in Basrah and Sadr City garnered widespread 
political and popular support in Iraq--and also sent a positive signal 
to regional countries concerned about the Maliki Government's 
willingness to confront Shia extremists who had operated with relative 
impunity. The central government has channeled some $3.5 billion to the 
provinces, addressing a key source of sectarian tension--a fair 
distribution of Iraq's vast resources, including petroleum revenue--
thereby strengthening provincial-central government ties.
    The Iraqi Government is moving ahead on other fiscal decisions 
necessary to meet the Iraqi peoples' needs and improve the country's 
economic situation. The passing of the budget law in February, 
following extensive debate and compromises in the Council of 
Representatives, was an important milestone. The government's ability 
to provide essential services is improving, and we have seen 
improvements in the Government of Iraq's ability to allocate and spend 
its own financial resources on Iraq's reconstruction and security. In 
2005, for example, Iraq's capital budget was $5 billion. In 2008 it is 
$13.1 billion with the possibility of up to $5 billion more in 
supplemental funds. Similarly, the Iraqi Government has increased 
allocations for security ministries from $2.1 billion in 2005 to 
approximately $9 billion in 2008. There have been improvements in 
capital and security budget execution at all levels of the government.
    Challenges remain and Iraqi political leaders still need to make 
some difficult compromises to advance the stability and prosperity 
essential for democracy in Iraq. Among the most important of these 
compromises is a package of national hydrocarbons legislation that will 
establish mechanisms to regulate Iraq's oil and gas sectors, as well as 
guidelines by which oil revenue is equitably shared. Agreement on this 
legislation would open the way for further reconciliation and economic 
development. Other complex problems that the Iraqis must tackle include 
resolution of the status of Kirkuk, decisions on Iraq's federal 
structure, and the future of refugees and internally-displaced persons.
    The Iraqi Government and the people of Iraq have great expectations 
for their future. We and Iraq's other international partners will 
support them in their endeavors.

    8. Senator Akaka. Ambassador Crocker, assuming they are capable of 
achieving some sort of real political progress, where is the plan to 
put conditions on U.S. and coalition assistance and hold the Iraqis 
accountable for failure to reconcile their differences?
    Ambassador Crocker. We are pressing Iraqi political leaders across 
the board to accelerate actions necessary to promote national 
reconciliation--by passing legislation in key areas, completing 
constitutional reform, broadening participation by all of Iraq's 
communities in the political process, and improving the delivery of 
basic services. The United States and Iraq are negotiating a Strategic 
Framework, intended to reflect shared United States and Iraqi 
political, economic, and security interests going forward. 
International agreements like the International Compact with Iraq (ICI) 
promote Iraqi progress in key reconciliation-related areas like 
economic self-reliance, good governance, rule of law, and civil 
society.
    Iraqi steps to promote national reconciliation are indeed essential 
if Iraq is to become a stable, united and democratic country. The goals 
are attainable with continued support and encouragement from us and the 
international community.
    In fact, we believe that the Iraqi political leadership is now 
largely on the right track and that there have been significant 
accomplishments that greatly advance the prospects for lasting national 
reconciliation; specifically, these include the passage of key 
legislation on amnesty, the budget, de-Baathification reform, 
provincial powers (including setting a date for provincial elections), 
as well as Prime Minister al-Maliki's recent moves against illegal 
armed groups in Basrah and Baghdad.
    In the end, the Iraqi Government is accountable to the Iraqi 
people, not to us. Provincial elections later this year and national 
elections to follow will test the government's standing with the Iraqi 
people. Iraq's leaders understand the urgent need to show their fellow 
citizens that they can govern effectively and that conditions of daily 
life will improve. We will continue our efforts to assist Iraqis to 
build the united, stable, and prosperous country they want while we 
recognize that progress toward this end must be made by the Iraqis 
themselves.
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                            TROOP WITHDRAWAL

    9. Senator Pryor. General Petraeus, the war in Iraq has resulted in 
numerous pieces of legislation calling for the withdrawal of U.S. 
troops from Iraq. However, one thing has remained constant in the 
language used by both parties: ``except for military personnel needed 
for: (1) force protection, (2) counterinsurgency operations, and (3) 
training of ISFs.'' As the commander of the Multi-National Force-Iraq, 
how many troops do you think satisfy this language?
    General Petraeus. At the present time, we have achieved the 
conditions to enable us to support current policy goals while drawing 
down to 15 U.S. Brigade Combat Teams by July 2008. Indeed we have, with 
our Iraqi counterparts, helped reduce the number of security incidents 
to levels not seen since 2004. If there were a change in policy, such 
that the only goals were those listed in the language above, we would 
undertake a comprehensive planning effort and make recommendations on 
appropriate force levels given the situation at that time. This 
planning effort would require dialogue and clarification with regard to 
policy objectives and acceptable risk. This planning effort would also 
need to take into account operational and strategic considerations.
    As I stated in my testimony, operational considerations include 
recognition of the following: the military surge has achieved 
significant progress, but that progress remains fragile and uneven; 
ISFs have strengthened their capabilities, but still must grow further; 
provincial elections are expected to occur this fall; refugee returns, 
detainee releases, and efforts to resolve provincial boundaries 
disputes and Article 140 issues will be challenging; the transition of 
Sons of Iraq (SOI) into the ISFs or other pursuits will require time 
and careful monitoring; and withdrawing too many forces too quickly 
could jeopardize the progress of the past year.
    A number of strategic considerations would also affect the planning 
process. These would include recognition that a number of the security 
challenges inside Iraq are also related to significant regional and 
global threats, and that a failed state in Iraq would pose serious 
consequences for the greater fight against al Qaeda, for regional 
stability, for the already existing humanitarian crisis in Iraq, and 
for efforts to counter malign Iranian influence. An additional 
strategic consideration is the fact that the strain on the U.S. 
military, especially on its ground forces, has been considerable in 
recent years.
    Without dialogue and clarification regarding policy objectives and 
acceptable risk, and without an assessment of the relevant operational 
and strategic considerations at the time, only a rough estimate of 
force levels is possible. Nevertheless, the language above still 
suggests a requirement for sizable conventional forces, Special 
Operations Forces, and adviser elements.

           FRAMEWORK AGREEMENT AND STATUS OF FORCES AGREEMENT

    10. Senator Pryor. Ambassador Crocker, in March, Admiral Fallon 
provided his written testimony to Congress in advance of his appearance 
before the committee. He stated ``the United States is planning to 
normalize long-term bilateral relations through a framework agreement 
that reflects our shared political, economic, cultural, and security 
interests, as well as a Status of Forces Agreement (SOFA). The 
documents will allow us maximum flexibility to assist the Government of 
Iraq in the fight against al Qaeda, develop its security forces, and 
combat harmful influences inside Iraq while, at the same time, protect 
our own forces.'' What is the status of those two agreements, the 
framework agreement and the SOFA? Do you anticipate that they will be 
sent to the Senate for advice and consent?
    Ambassador Crocker. We continue to negotiate the terms of our 
bilateral strategic and security relationship so as to address both 
United States and Iraqi interests. Specific texts remain in flux and 
continue to evolve. We intend to share text with the congressional 
committee leadership before any agreement is concluded. In the interim, 
we will continue to provide briefings to members and staff to update on 
the progress of negotiations and the process by which agreements will 
be reached.
    We expect to conclude the framework agreement and agreement on 
status of forces as executive agreements, and do not anticipate that 
they will be sent to the Senate for advice and consent.
                                 ______
                                 
             Questions Submitted by Senator Elizabeth Dole

                     OVEREXTENSION OF THE MILITARY

    11. Senator Dole. General Petraeus, I think that it is necessary to 
step back for a moment and place the war in Iraq within the context of 
projected long-term defense spending. I am increasingly concerned that 
because long-term defense spending is projected to be profoundly 
inadequate, we may lack the funds to complete the planned expansion of 
the Army and Marine Corps.
    If we are serious about fielding an adequately-sized force, then 
let us not simply agree that the current situations in Iraq and 
Afghanistan are difficult. Let us speak with a clear voice to the 
American people and to this administration and the next that our forces 
must be expanded, and let us agree not to pursue these objectives at 
the expense of other important areas within future defense budgets. If 
we are to actually address this problem, then we must ensure that the 
overall defense budget is adequate rather than merely acknowledge the 
problems that our troops confront when defense spending is 
insufficient. In such cases, rhetoric is a poor substitute for action.
    But I want to take this larger point and put it into the context of 
Iraq and get to the bottom line of whether or not in your opinion, our 
forces are overextended. Specifically, let's focus on what Admiral 
Mullen stated last week, that current force levels in Iraq prevent us 
from deploying a sufficient number of troops to Afghanistan. In your 
opinion, how much longer can the surge be sustained before it does 
irreparable harm to the force?
    General Petraeus. I am grateful for Secretary Gates' efforts and 
Congress' support to ensure we have had the forces and resources we 
need for what have been very intensive operations. Clearly, the surge 
and multiple overseas deployments have strained the Active and Reserve 
components. Operations in Iraq and Afghanistan have been particularly 
demanding on our ground forces, and many servicemembers have completed 
or are in the midst of second or third deployments. This is obviously 
difficult for them and their families. My own family is well acquainted 
with this challenge, as I have now been deployed for more than 4\1/2\ 
years since 2001. Reset of equipment also remains a challenge. Although 
it is beyond my brief to assess the overall health of the Services, 
this remains a subject about which I am concerned and on which I will 
continue to engage in dialogue with the Chairman of the Joint Chiefs of 
Staff and the Service Chiefs. Despite the challenges, our soldiers 
continue to display incredible resilience. The annual Mental Health 
Assessment Team survey completed last fall indicated that morale in 
Iraq improved this past year, and the 3rd Infantry Division, which is 
completing its third tour in Iraq now, has already met its reenlistment 
goal for the entire year. We can anticipate that these positive trends 
will continue as force levels in Iraq come down to pre-surge levels. 
Already we have withdrawn without replacement three Army brigades, two 
Marine battalions, and the Marine Expeditionary Unit; a fourth Army 
Brigade has transferred responsibility for its sector and is in the 
process of redeploying.

                            TROOP WITHDRAWAL

    12. Senator Dole. Ambassador Crocker, many of the major decisions 
made concerning our military and political efforts in Iraq, or any war, 
are based on best professional assessments. What is your best 
assessment of the consequences, both for Iraq and for the region, if we 
withdraw before ISFs possess the capability to maintain stability in 
the country?
    Ambassador Crocker. A premature drawdown of our forces would have 
devastating consequences. This could include a rapid deterioration of 
local security initiatives and the disintegration of ISFs resulting in 
a marked increase in violence, further ethno-sectarian displacement and 
refugee flows, and alliances of convenience by Iraqi groups with 
internal and external forces to gain advantages over their rivals. Such 
a drawdown would exacerbate already challenging regional dynamics, 
especially with respect to Iran. Ultimately, a precipitous withdrawal 
could increase the probability that coalition forces would have to 
return to Iraq to confront an even more dangerous enemy.

                        ADVISOR PROGRAM IN IRAQ

    13. Senator Dole. General Petraeus, we had an extensive advisor 
program in Vietnam. After much effort, we've realized that a similar 
program in Iraq would yield profound benefits, especially in terms of 
maximizing our limited number of personnel and their value in training 
Iraqi forces. An experienced group of advisers embedded in an Iraqi 
battalion, for example, is a profoundly valuable combat multiplier. In 
your professional opinion, why is there opposition to establishing and 
sustaining a dedicated training cadre--at least for the duration of the 
war?
    General Petraeus. There is fairly widespread agreement in our 
military today regarding the importance of advisory work in our 
counterinsurgency operations, and our Services have made significant 
efforts to prepare servicemembers for this role. As an example, our 
Military Training and Transition Teams are composed of 10-15 personnel 
who undergo significant training prior to their arrival in Iraq. Teams 
that are separately sourced by the Army, Navy, and Air Force attend 2 
months of training at Fort Riley, KS, and then 10 days of training at 
Camp Buehring, Kuwait, while Marine teams train at Twentynine Palms, 
CA. Teams that deploy as parts of units conduct training at their home 
station, and also participate in training exercises to include Combat 
Training Center rotations and Mission Readiness Exercises. All teams, 
regardless of how they are resourced, also attend an additional week's 
training at the Phoenix Academy in Taji, Iraq before conducting a 10-
day transition with outgoing teams. The advisory effort is overseen by 
the Iraqi Advisory Group, commanded by a brigadier general, which 
supports transition teams through their arrival in Iraq, in-theater 
training, and redeployment. This extensive training and integration 
process augments team members' tactical expertise and relevant 
experience and allows them to best pass on that expertise to Iraqi 
forces. Significant energy and funds have also been invested in 
implementing a robust and rapid lessons learned processes.
    As we assist in the development of ISFs, our troopers play a 
critical role in teaching, coaching, and mentoring their Iraqi 
counterparts. They do this as part of transition teams, but also as 
their units partner with Iraqi units in operational, training, and 
mentoring relationships.
    The advisory efforts currently underway in Iraq are having the 
desired effect. Transition teams have significantly assisted Iraqi 
units in action, helping in planning and other staff functions while 
providing access to key coalition combat enablers. Together with unit 
partnerships, advisory teams have helped to move over 100 ISF 
battalions into an ``in the lead'' role. As Iraqi forces continue to 
develop, coalition forces will continue to transition into more 
advisory roles; at some point, as one of my brigade commanders recently 
told me, ``We will all be advisors.''
    It is not clear that the creation of a dedicated training cadre, or 
advisory corps, would produce results better than those being achieved 
by our current efforts. In general, the best advisors are those with 
recent, relevant experience in units similar to the units they seek to 
develop. Instead of creating a separate force, it may be preferable to 
incentivize and reward critical advisory work. To that end the Chief of 
Staff of the Army recently announced several important personnel 
actions that reflect the importance attached to the advisory effort.

                         PRIVATE SECURITY FIRMS

    14. Senator Dole. General Petraeus, private security firms have 
attracted more than their share of controversy over the past year. The 
largest private firm, Blackwater, is located in North Carolina. I agree 
entirely that private security personnel must operate under the control 
of our military. But my point is to ask for your opinion of the 
contributions that these firms and their people make to the overall 
effort. How important of a role do these firms play in maintaining 
security across Iraq?
    General Petraeus. Private Security Contractors (PSCs) and their 
employees make critical contributions to the overall effort in Iraq. 
These contractors provide static security for coalition facilities, key 
infrastructure, and reconstruction projects, and they provide mobile 
security for large convoys, work details, and individual high-ranking 
officials. The use of PSCs to meet these defensive security needs 
enables more of our military forces to focus on active 
counterinsurgency and combat operations.
    An inability to continue to use PSCs would be enormously disruptive 
to our effort to achieve U.S. goals in Iraq. Replacing DOD contractors 
with military personnel would require approximately 7,300 additional 
military personnel to be trained and deployed to Iraq, plus additional 
forces to provide the expanded logistical support required. These 
figures do not include the requirements for the dedication and training 
of additional military personnel to support rotational requirements, 
nor the addition of equipment and vehicles such as MRAPs used by 
contractors, which are needed by our combat forces. The loss of PSCs 
would delay the drawdown of U.S. forces, could delay the ability of the 
Army to reduce combat tours from 15 months to 12 months, and would 
require a special training and certification program to be developed 
and implemented. The continued use of PSCs can help us sustain the 
significant security progress that has been made in Iraq as the level 
of security incidents across Iraq for the past month is the lowest it 
has been for more than 4 years, and we continue to transition 
additional responsibilities to the Iraqi Government and ISFs.

                            ETHNIC CONFLICT

    15. Senator Dole. General Petraeus, we are receiving mixed reports 
on the progress of ISFs during recent fighting in Basra, around Sadr 
City, and elsewhere. Some number of Iraqi soldiers, and a great number 
of Iraqi police, threw down their weapons, refused to fight, or 
actually fought alongside militia forces. In some instances, these men 
refused to fight against neighbors, as they were from the same 
communities. In some instances, ethnic allegiances still hold. In some 
cases, soldiers received calls on their cell phones from old colleagues 
telling them that if they fought, their families would be murdered. I 
appreciate that it takes years to create a national army, and that many 
of the recent problems were rooted in planning problems. That said, 
what is your response to these recent events, and what would you 
recommend to further ensure that soldiers and police think like Iraqis 
and less like members of one of the various ethnic groups? Is that even 
doable given Iraq's ethnic makeup and the long history of conflict 
between Sunnis and Shia?
    General Petraeus. Although many Iraqi units performed very well 
during operations in Basra and Sadr City, some others performed poorly 
in the initial stages, especially in Basra. Some of those who failed to 
fight adequately did so as a result of inexperience, while others did 
so as a direct result of ethnic/sectarian allegiance or pressure. The 
52nd Brigade of the 14th Division, which was a new unit just out of 
initial training, had the most widespread difficulties. That unit has 
since been provided replacement leaders and troopers and been 
retrained, and it is now back in the fight in Basra and doing well. The 
strong performance of other, more experienced units suggests that 
ethnic/sectarian allegiances can be overcome through the training and 
professionalization of security forces. Toward this end, we are 
partnering with Iraqi leaders to institutionalize norms of 
professionalism, including non-sectarianism. For example, the Iraqi 
National Police just instituted a Code of Ethics for its forces, and 
the Ministries of Interior and Defense have not hesitated to remove 
leaders and troopers who did not measure up in combat operations.
    ISF have demonstrated their growing capability and capacity in 
recent operations. In Basra, Mosul, Sadr City, and other locations in 
Iraq, ISF are conducting clearance operations as well as intelligence-
driven raids, successfully extending the Iraqi Government's presence 
and control, removing huge amounts of arms, munitions, and explosives 
from circulation, and capturing key militant leaders. Iraqi forces 
have, for example, found over 170 caches in Sadr City alone in the past 
month or so. These operations have demonstrated increased planning 
capability, mobility, and tactical competence, as well as an ability to 
conduct simultaneous major operations throughout the country. Thanks to 
improved security and ISF capability, 8 of 16 Iraqi provinces are under 
Provincial Iraqi Control and 2 more provinces are due to transition by 
the end of June 2008.
    Professionalization of armed forces alone, however, will not 
eliminate ethno-sectarian tension and conflict in Iraq. Ultimately, the 
Iraqi people must decide to move beyond the use of violence to address 
their concerns, including ethnic-sectarian concerns. In large part, 
this is already happening. Ethno-sectarian violence has fallen 
dramatically in Iraq over the last year, signifying that Iraqis have 
decided to step back from the brink of civil war. This reduction in 
ethno-sectarian violence is attributable not just to the increased 
Iraqi and coalition force presence and decreased al Qaeda in Iraq and 
militia capabilities, but also to the increasing rejection of violence 
by the Iraqi people. This progress has shown us that ethnic conflict in 
Iraq is not inevitable and progress is possible.

                   FUNDING FOR SUNNI SECURITY FORCES

    16. Senator Dole. Ambassador Crocker, I cannot stress enough how 
important it is that Iraqi political reconciliation must proceed with a 
decidedly greater sense of urgency than we have observed to date. 
Furthermore, I find it appalling that Prime Minister Maliki refuses to 
adequately fund the Sunni security forces recently formed in Anbar 
province and elsewhere, while tens of billions of dollars in Iraqi oil 
revenue sit in a New York bank. I find it nearly impossible to 
understand that Mr. Maliki would subordinate to some other concern the 
fact that instability in Anbar and elsewhere jeopardizes the safety of 
the Shiite population. His failure in this area jeopardizes all that 
has been achieved. Please share your thoughts on the subject.
    Ambassador Crocker. We are pressing Iraqi political leaders across 
the board to accelerate actions necessary to promote national 
reconciliation--by passing legislation in key areas, completing 
constitutional reform, broadening participation by all of Iraq's 
communities in the political process, improving the delivery of basic 
services, and imposing order evenhandedly. International agreements 
like the ICI elicit Iraqi progress in key reconciliation-related areas 
like economic self-reliance, good governance, rule of law, and civil 
society.
    Extremists and criminal groups are resisting government control in 
several provinces, including Mosul, Basra, and Baghdad. As of April 
2008, the Government of Iraq was conducting operations to suppress the 
extremists and criminal groups in each of those provinces. Such 
operations open the door for rapid progress towards national 
reconciliation. Iraqi security operations against predominantly Shia 
groups encourage former Sunni oppositionists to see the Government of 
Iraq as evenhanded in the application of the law. The main Sunni 
political coalition, Tawafuq, has boycotted the government for several 
months, but Prime Minister Maliki's moves against Shia groups should 
facilitate the end of this boycott.
    At the same time, the Government of Iraq's ability to eliminate the 
Shia criminal groups' sanctuaries can reduce those groups' capacity to 
resist government control. Given the close ties between these criminal 
groups and Shia political opposition to the Government of Iraq, 
suppression of the criminal groups could then lead to submission of 
Shia oppositionists.
    The Government of Iraq, under Prime Minister Maliki's direction, 
has in fact taken many steps to fully fund ISFs in Anbar and elsewhere. 
For example, the Ministry of Interior is now fully funding the Anbar 
police payroll. Likewise, equipment shortages for the Anbar police are 
being resolved. At the grass roots level, the Iraqi Government and the 
coalition are working with thousands of members of the ``SOI''--
locally-hired, community-based auxiliaries--who reject extremism and 
work with established authorities to stabilize Iraq. The SOI program 
enhances the ability of Iraqi and coalition forces to interact with 
local residents and obtain information on insurgents and illegal 
militia activity, and protect key infrastructure.
    The Government of Iraq certainly understands that security in one 
province affects the security in other provinces. As noted above, Prime 
Minister Maliki's Government is undertaking security operations to 
reduce instability and increase the rule of law throughout Iraq, and 
the Government of Iraq is performing these operations in a non-
sectarian manner which facilitates national reconciliation.

    [Whereupon, at 1:55 p.m., the committee adjourned.]


 THE SITUATION IN IRAQ AND PROGRESS MADE BY THE GOVERNMENT OF IRAQ IN 
          MEETING THE BENCHMARKS AND ACHIEVING RECONCILIATION

                              ----------                              


                        WEDNESDAY, APRIL 9, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:33 a.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, E. Benjamin Nelson, Webb, McCain, Warner, 
Sessions, Collins, Chambliss, Graham, and Thune.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; Michael J. Noblet, professional 
staff member; and William K. Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, research assistant; David M. 
Morriss, minority counsel; Lynn F. Rusten, professional staff 
member; and Dana W. White, professional staff member.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Brian F. Sebold.
    Committee members' assistants present: Bethany Bassett and 
Sharon L. Waxman, assistants to Senator Kennedy; Colleen J. 
Shogan, assistant to Senator Lieberman; Elizabeth King, 
assistant to Senator Reed; Andrew R. Vanlandingham, assistant 
to Senator Ben Nelson; Jon Davey, assistant to Senator Bayh; 
Gordon I. Peterson, assistant to Senator Webb; Richard H. 
Fontaine, Jr., assistant to Senator McCain; Sandra Luff, 
assistant to Senator Warner; Todd Stiefler, assistant to 
Senator Sessions; Meghan Simonds and Mark J. Winter, assistants 
to Senator Collins; Clyde A. Taylor IV, assistant to Senator 
Chambliss; Andrew King, assistant to Senator Graham; Lindsey 
Neas, assistant to Senator Dole; and Jason Van Beek, assistant 
to Senator Thune.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good morning, everybody.
    Let us first welcome our panel of witnesses to continue our 
committee's series of hearings this week on the situation in 
Iraq.
    Yesterday, we heard from General Petraeus and Ambassador 
Crocker. Tomorrow afternoon we will hear from Secretary of 
Defense Gates and Admiral Mullen, Chairman of the Joint Chiefs 
of Staff.
    Today, we're going to hear from three distinguished 
witnesses:
    Dr. Andrew Bacevich, professor of international relations 
and history at Boston University, has written extensively on 
U.S. national and military strategies and on the situation in 
Iraq. He is a retired Army officer and a Vietnam veteran.
    General Jack Keane is a former Vice Chief of Staff of the 
Army who has visited Iraq several times. He has testified 
before the committee previously on this very subject, and is 
surely an expert on the subject.
    Dr. Robert Malley has also written on the situation in Iraq 
from his position as Middle East and North Africa Program 
Director at the International Crisis Group. He is a former 
member of the staff of the National Security Council (NSC).
    It's clear from General Petraeus's testimony yesterday that 
the administration's open-ended commitment in Iraq is going to 
continue, now reinforced by an open-ended pause. General 
Petraeus has recommended to his chain of command that there be 
a 45-day period of consolidation and evaluation, in his words, 
which will then be followed by a ``process of assessment,'' 
which will determine, over time, when he can make 
recommendations for further reductions.
    General Petraeus was unwilling to estimate how long this 
period of assessment would last, and would not even agree that 
it could be concluded in 3 or 4 months and then redeployment 
would recommence. This is a far cry from what Secretary Gates 
described in February as a projected ``brief pause.'' Moreover, 
General Petraeus was unwilling to venture an estimate of U.S. 
troop strength in Iraq at the end of the year, even if all goes 
well.
    It was also clear from General Petraeus's testimony that 
Prime Minister Maliki's action in Basrah once again 
demonstrated Prime Minister Maliki's incompetence. I asked 
General Petraeus about an April 3 article in the New York Times 
which said that, before the Iraqi Government's assault on the 
Mahdi army in Basrah, that he, General Petraeus, had counseled 
Prime Minister Maliki, saying, ``We made a lot of gains in the 
past 6 to 9 months that you'll be putting at risk.'' I also 
asked General Petraeus about that same article's statement that 
he advised Prime Minister Maliki not to rush into a fight 
without carefully sizing up the situation and making adequate 
preparations. General Petraeus acknowledged that Prime Minister 
Maliki did not follow his advice, that the operation was not 
adequately planned or prepared. In effect, U.S. troops, with no 
control over an Iraqi operation in a province which had already 
been turned over to Iraqi control, were drawn into the fight 
when that operation went bad.
    It is also clear from Ambassador Crocker's testimony that, 
after 5 years of training and equipping the Iraqi security 
forces (ISFs), and after 5 years of reconstruction, it is still 
the American taxpayer who is shouldering the greatest economic 
burden in Iraq, while tens of billions of dollars in Iraqi 
money sit in bank accounts around the world.
    There is a vast agreement--I believe there is a consensus--
that there is no military solution to the situation in Iraq, no 
matter how dedicated our troops may be, and no matter how much 
military success they achieve. To maximize success in Iraq, the 
Iraqi Government must take control--politically, economically, 
and militarily. The Iraqis must make the political compromises 
to bring all factions into the political system and effect 
political reconciliation. They must spend their own oil 
revenues to improve the lives of all Iraqi citizens. They must 
take the military initiative, using the training and equipment 
that we've provided them, to subdue the politically 
irreconcilable and criminal elements in Iraqi society. We 
cannot do for the Iraqis--what they must do for themselves. The 
open-ended commitment that the administration maintains, now 
reinforced by a suspension of further U.S. troop reductions 
beginning in July, works against getting the Iraqis to take 
responsibility for their own country.
    We look forward to hearing our witnesses' assessment of the 
security situation in Iraq, the political progress in Iraq, and 
any recommendations that they may have with respect to a future 
U.S. military, political, diplomatic, and economic strategy for 
Iraq and the larger region.
    Senator McCain.

                STATEMENT OF SENATOR JOHN McCAIN

    Senator McCain. Thank you very much, Mr. Chairman.
    I join you in welcoming our distinguished panel this 
morning, and I want to thank them for their presence here and 
their willingness to share their views about U.S. policy and 
strategy in Iraq.
    Yesterday, we heard from Ambassador Crocker and General 
Petraeus on progress in Iraq and their views of the way 
forward. We still have difficulties, as demonstrated by the 
recent fighting in Basrah and Baghdad. Yet, the gains outlined 
yesterday, in security, political, and economic terms, are 
real.
    Tomorrow, the President will address the Nation to provide 
further information on his decisions about the way ahead in 
Iraq, to be followed soon thereafter by the testimony before 
this committee by the Secretary of Defense and the Chairman of 
the Joint Chiefs of Staff.
    With all of these inputs into our policymaking process, 
Congress will face, again, the choice it confronted last year. 
We can build on the progress we have seen, acknowledging that 
there will be setbacks and new difficulties, and give our men 
and women in uniform the time and support necessary to carry 
out their mission, or we can choose to set a timetable for the 
withdrawal of U.S. troops from Iraq, leading to our failure 
there, and presenting us with the terrible consequences that I 
believe will ensue.
    As our witnesses no doubt recall, last year many observers 
predicted that the surge would fail. Yet, since the middle of 
last year, sectarian and ethnic violence, civilian deaths, and 
deaths of coalition forces have all fallen dramatically. This 
improved security environment has led to a new opportunity, one 
in which average Iraqis can, in the future, approach a more 
normal political and economic life. Reconciliation has moved 
forward, and over the weekend Sunni, Shiite, and Kurdish 
leaders backed the Prime Minister in a statement supporting his 
operation in Basrah and urging the disbarment of all militias. 
Much, much more needs to be done, and Iraq's leaders need to 
know that we expect them to show the necessary leadership to 
rebuild their country, for only they can. But, today it is 
possible to talk with real hope and optimism about the future 
of Iraq and the outcome of our efforts there.
    Success--the establishment of a peaceful, stable, 
prosperous, democratic state that poses no threat to its 
neighbors and contributes to the defeat of the terrorists--I 
believe is within reach. With success, Iraqi forces can take 
responsibility for enforcing security in their country, and 
American troops can return home with the honor of having 
secured their country's interests, at great personal cost, and 
of helping another people achieve peace and self-determination.
    I hope our witnesses this morning will address the ways in 
which America can best achieve success in Iraq, and articulate, 
as well, the likely costs of our failure there.
    My view has been clear. Should the United States choose to 
withdraw from Iraq before adequate security is established, we 
will exchange for victory a defeat that is terrible and 
longlasting. Al Qaeda in Iraq (AQI) would proclaim victory and 
increase its efforts to provoke sectarian tensions, pushing for 
a full-scale civil war that would descend into genocide and 
destabilize the Middle East. Iraq would become a failed state 
that could become a haven for terrorists to train and plan 
their operations. Iranian influence would increase 
substantially in Iraq and encourage other countries to seek 
accommodation with Tehran at the expense of our interests. An 
American failure would almost certainly require us to return to 
Iraq or draw us into a wider and far costlier war.
    If, on the other hand, we and the Iraqis are able to build 
on the opportunity provided by recent successes, we have the 
chance to leave in Iraq a force for stability and freedom, not 
conflict and chaos. In doing so, we will ensure that the 
terrible price we have paid in the war, the price that has made 
all of us sick at heart, has not been paid in vain. Our troops 
can leave behind a successful mission. Our Nation can leave 
behind a country that contributes to the security of America 
and the world.
    I know the witnesses this morning will have a great deal of 
insight to impart on these vitally important issues, and I look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you very much, Senator McCain.
    Again, let us thank our witnesses for being here, for their 
work on this and so many other issues, for their long histories 
of good important advice to this Nation in many, many different 
fora.
    First, we'll call on Dr. Bacevich. I think it would be good 
if you could limit your testimony to 10 minutes or less so that 
there will be plenty of time for questions. I'm referring to 
all three witnesses, not just you, Dr. Bacevich.
    Thank you for being here. Dr. Bacevich?

  STATEMENT OF ANDREW J. BACEVICH, PROFESSOR OF INTERNATIONAL 
            RELATIONS AND HISTORY, BOSTON UNIVERSITY

    Dr. Bacevich. Thank you for the opportunity to present my 
views to this committee.
    I'll focus my remarks on two issues: first, near-term 
prospects in Iraq; and then, second, the war's larger strategic 
implications.
    The bottom-line assessment to which I will return is this: 
The United States today finds itself with too much war and too 
few warriors. We face a large and growing gap between our 
military commitments and our military capabilities, and 
something has to give.
    Let me begin with the current situation in Iraq. Although 
violence there has decreased over the past year, attacks on 
coalition and ISFs continue to occur at an average rate of 500 
per week. This is clearly unacceptable. The likelihood that 
further U.S. efforts will reduce the violence to an acceptable 
level, however one might define that term, appears remote.
    Meanwhile, our military capacity, especially our ability to 
keep substantial numbers of boots on the ground, is eroding. If 
the surge is working, as some claim, then why not sustain it? 
Indeed, why not reinforce that success by sending another 
30,000 or 60,000 or 90,000 reinforcements? The answer to that 
question is self-evident: because the necessary troops don't 
exist. The cupboard is bare.
    Furthermore, recent improvements in security are highly 
contingent. The Shiite militias, Sunni insurgents, and tribal 
leaders who have agreed to refrain from violence in return for 
arms, money, and other concessions, have by no means bought 
into the American vision for the future of Iraq; their 
interests do not coincide with our own, and we should not 
delude ourselves by pretending otherwise.
    It is as if, in an effort to bring harmony to a fractious, 
dysfunctional family, we have forged marriages of convenience 
with as many of that family's members as possible. Our 
disparate partners will abide by their vows only so long as 
they find it convenient to do so.
    Unfortunately, partial success in reducing the level of 
violence has not translated into any substantial political 
gains. Recall that the purpose of the surge was not to win the 
war, in a military sense. General Petraeus never promised 
victory. He and any number of other senior military officers 
have assessed the war as militarily unwinnable.
    On this point, the architects of the surge were quite 
clear: the object of the exercise was not to impose our will on 
the enemy, but to facilitate political reconciliation among 
Iraqis.
    A year later, signs of genuine reconciliation are few. In 
an interview with the Washington Post less than a month ago, 
General Petraeus said that, ``No one in the U.S. Government 
feels that there has been sufficient progress by any means in 
the area of national reconciliation.''
    While it may be nice that the Kurds have begun to display 
the Iraqi flag alongside their own, to depict such grudging 
concessions as evidence of an emerging national identity is 
surely to grasp at straws.
    So, although the violence has subsided somewhat, the war 
remains essentially stalemated. Iraq today qualifies only 
nominally as a sovereign nation-state. In reality, it has 
become a dependency of the United States, unable to manage its 
own affairs or to provide for the well-being of its own people.
    The costs to the United States of sustaining this 
dependency are difficult to calculate with precision, but 
figures such as $3 billion per week and 30 to 40 American lives 
per month provide a good approximation.
    What can we expect to gain in return for this investment? 
The Bush administration was counting on the Iraq war to 
demonstrate the viability of its freedom agenda and to affirm 
the efficacy of the Bush doctrine of preventive war. Measured 
in those terms, the war has long since failed. Rather than 
showcasing our ability to transform the greater Middle East, 
Operation Iraqi Freedom (OIF) has demonstrated just the 
opposite. Using military power as an instrument for imprinting 
liberal values in this part of the world has produced a failed 
state while fostering widespread antipathy towards the United 
States. Rather than demonstrating our ability to eliminate 
emerging threats swiftly, decisively, and economically, the 
Iraq war has revealed the limits of American power and called 
into question American competence. The Bush doctrine hasn't 
worked. Saddam is long gone, but we're stuck. Rather than 
delivering decisive victory, preventive war has landed us in a 
quagmire.
    The abject failure of the freedom agenda and the Bush 
doctrine has robbed the Iraq war of any strategic rationale. 
The war continues, in large part because of our refusal to 
acknowledge and confront this loss of strategic purpose.
    Now, there are members of this committee who have written 
of their admiration for Reinhold Niebuhr. I happen to share in 
that admiration. Perhaps not surprisingly, Niebuhr has much to 
say of relevance on this issue. He once observed that, ``Even 
the wisest statecraft cannot create social tissue. It can cut, 
sew, and redesign social fabric to a limited degree, but the 
social fabric upon which it works must be given.''
    In Iraq, to the extent that any meaningful social fabric 
has ever existed, events have now shredded it beyond repair. 
Persisting in our efforts to stitch Iraq back together will 
exhaust our Army, divert attention from other urgent problems 
at home and abroad, and squander untold billions, most of which 
we are borrowing from foreign countries.
    Therefore, the best way to close the gap between too much 
war and too few warriors is to reduce our commitments. That 
means ending the U.S. combat role in Iraq. It means exerting 
ourselves primarily through diplomatic means to limit the 
adverse consequences caused by our ill-advised crusade in Iraq. 
It means devising a new strategy to address the threat posed by 
violent Islamic radicalism to replace the failed strategy of 
the freedom agenda and the Bush doctrine.
    Now, there are people of goodwill, I know, who will 
disagree with this assessment. They will insist that we have no 
choice but to persevere in Iraq. They will further insist that 
restoring the social fabric of Iraq remains an imperative. To 
the extent that this counsel carries the day, then the 
predictable result will be to exacerbate even further the 
problem of having too much war for too few warriors.
    Now, war is the realm of uncertainty. There's always the 
chance of catching some lucky break. Perhaps next year the 
Iraqis will get their act together and settle their internal 
differences. Such developments are always possible. They are 
also highly unlikely.
    When it comes to Iraq, a far more likely prospect is the 
following. If the United States insists on continuing its war 
there, the United States will get what it wants: the war will 
continue indefinitely. According to General Petraeus, a 
counterinsurgency is typically a 10- to 12-year proposition. 
Given that assessment, and with the surge now giving way to a 
pause, U.S. combat operations in Iraq could easily drag on for 
another 5 to 10 years. In that event, the conflict that already 
ranks as the second longest in our history will claim the title 
of longest. Already our second most expensive war, it will 
become, in financial terms, the costliest of all. On one point, 
at least, Donald Rumsfeld will be able to claim vindication: 
Iraq will, indeed, have become a long slog.
    Now, for the United States to pursue this course would, in 
my judgment, qualify as a misjudgment of epic proportions. Yet, 
if our political leaders insist on the necessity of fighting 
this open-ended war, then they owe it to those who have already 
borne 5 years of combat to provide some relief. Bluntly, if 
those in Washington are unable or unwilling to reduce the 
number of wars in which U.S. forces are engaged, then surely 
they ought to increase the number of warriors available to 
fight them.
    Today, in a nation that, according to President Bush, is 
``at war,'' approximately one-half of 1 percent of the 
population is in uniform. Double that figure, and the problem 
of too much war for too few warriors goes away. The United 
States will then have the troops necessary to sustain Iraq and 
also Afghanistan for years to come.
    Now, I do not want to minimize the challenges, political as 
well as economic, inherent in any such effort to expand our 
military, because they would be large. But, I will insist that 
continuing on our present course, in which soldiers head back 
to Iraq for their third and fourth combat tours while the rest 
of the country heads to the mall, will break the Army before it 
produces policy success. Worse, our present course, in which a 
few give their all while most give nothing, is morally 
indefensible.
    If the Iraq war is as important as some claim, then 
sustaining the war merits a commitment on the part of the 
American people both to fight the war and to pay for it. If 
neither the American people nor their political leaders are 
willing to make such a commitment, then the war clearly does 
not qualify as genuinely important, and our loudly proclaimed 
determination to support the troops rings hollow. The choice is 
one that we can no longer afford to dodge. It's either less war 
or more warriors.
    I urge the members of this committee to give this matter 
the attention it deserves. I thank you.
    [The prepared statement of Dr. Bacevich follows:]

              Prepared Statement by Dr. Andrew J. Bacevich

    Thank you for the opportunity to present my views to this 
committee. I will focus my remarks on two issues: near-term prospects 
in Iraq and the war's larger strategic implications.
    The bottom line assessment to which I will return is this: the 
United States today finds itself with too much war and too few 
warriors. We face a large and growing gap between our military 
commitments and our military capabilities. Something has to give.
    Let me begin with the current situation in Iraq: Although violence 
there has decreased over the past year, attacks on coalition and Iraqi 
security forces continue to occur at an average rate of 500 per week. 
This is clearly unacceptable. The likelihood that further U.S. efforts 
will reduce violence to an acceptable level--however one might define 
that term--appears remote.
    Meanwhile, our military capacity, especially our ability to keep 
substantial numbers of boots on the ground, is eroding. If the surge is 
working as some claim, then why not sustain it? Indeed, why not 
reinforce that success by sending another 30,000 or 60,000 or 90,000 
reinforcements?
    The answer to that question is self-evident: because the necessary 
troops don't exist. The cupboard is bare.
    Furthermore, recent improvements in security are highly contingent. 
The Shiite militias, Sunni insurgents, and tribal leaders who have 
agreed to refrain from violence in return for arms, money, and other 
concessions have by no means bought into the American vision for the 
future of Iraq. Their interests do not coincide with our own and we 
should not delude ourselves by pretending otherwise.
    It is as if in an effort to bring harmony to a fractious, 
dysfunctional family, we have forged marriages of convenience with as 
many of that family's members as possible. Our disparate partners will 
abide by their vows only so long as they find it convenient to do so.
    Unfortunately, partial success in reducing the level of violence 
has not translated into any substantial political gains. Recall that 
the purpose of the surge was not to win the war in a military sense. 
General Petraeus never promised victory. He and any number of other 
senior officers have assessed the war as militarily unwinnable.
    On this point, the architects of the surge were quite clear: the 
object of the exercise was not to impose our will on the enemy but to 
facilitate political reconciliation among Iraqis.
    A year later signs of genuine reconciliation are few. In an 
interview with the Washington Post less than a month ago, General 
Petraeus said that ``no one'' in the U.S. Government ``feels that there 
has been sufficient progress by any means in the area of national 
reconciliation.'' While it may be nice that the Kurds have begun to 
display the Iraqi flag alongside their own, to depict such grudging 
concessions as evidence of an emerging national identity is surely to 
grasp at straws.
    So although the level of violence has subsided somewhat, the war 
remains essentially stalemated. Iraq today qualifies only nominally as 
a sovereign nation-state. In reality it has become a dependency of the 
United States, unable to manage its own affairs or to provide for the 
well-being of its own people. As recent events in Basra have affirmed, 
the Iraqi army, a black hole into which the Pentagon has poured some 
$22 billion in aid and assistance, still cannot hold its own against 
armed militias.
    The costs to the United States of sustaining this dependency are 
difficult to calculate with precision, but figures such as $3 billion 
per week and 30 to 40 American lives per month provide a good 
approximation.
    What can we expect to gain in return for this investment? The Bush 
administration was counting on the Iraq War to demonstrate the 
viability of its Freedom Agenda and to affirm the efficacy of the Bush 
Doctrine of preventive war.
    Measured in those terms, the war has long since failed. Rather than 
showcasing our ability to transform the Greater Middle East, Operation 
Iraqi Freedom has demonstrated just the opposite. Using military power 
as an instrument for imprinting liberal values in this part of the 
world has produced a failed state while fostering widespread antipathy 
toward the United States.
    Rather than demonstrating our ability to eliminate emerging threats 
swiftly, decisively, and economically--Saddam Hussein's removal 
providing an object lesson to other tyrants tempted to contest our 
presence in the Middle East--the Iraq War has revealed the limits of 
American power and called into question American competence. The Bush 
Doctrine hasn't worked. Saddam is long gone, but we're stuck. Rather 
than delivering decisive victory, preventive war has landed us in a 
quagmire.
    The abject failure of the Freedom Agenda and the Bush Doctrine has 
robbed the Iraq War of any strategic rationale. The war continues in 
large part because of our refusal to acknowledge and confront this loss 
of strategic purpose.
    Now there are members of this committee who have written of their 
admiration for Reinhold Niebuhr. I share in that admiration. Perhaps 
not surprisingly, the great Protestant theologian has much to say of 
relevance to this issue. Niebuhr once observed that ``even the wisest 
statecraft cannot create social tissue. It can cut, sew, and redesign 
social fabric to a limited degree. But the social fabric upon which it 
works must be `given'.''
    In Iraq, to the extent that any meaningful social fabric has ever 
existed, events have now shredded it beyond repair. Persisting in our 
efforts to stitch Iraq back together will exhaust our army, divert 
attention from other urgent problems at home and abroad, and squander 
untold billions, most of which we are borrowing from foreign countries.
    Therefore, the best way to close the gap between too much war and 
too few warriors is to reduce our commitments. That means ending the 
U.S. combat role in Iraq. It means exerting ourselves, primarily 
through diplomatic means, to limit the adverse consequences caused by 
our ill-advised crusade in Iraq. It means devising a new strategy to 
address the threat posed by the violent Islamic radicalism, to replace 
the failed strategy of the Freedom Agenda and the Bush Doctrine.
    This reformulation of strategy should begin with an explicit 
abrogation of preventive war. It should include a candid recognition 
that invading and occupying an Islamic nation in hopes of transforming 
it qualifies as a fantasy.
    There are people of good will who will disagree with this 
assessment. They will insist that we have no choice but to persevere in 
Iraq--although to say that the world's sole superpower has ``no 
choice'' in the matter suggests a remarkable failure of imagination. 
They will insist further that restoring the social fabric of Iraq--
engineering the elusive political reconciliation that will stabilize 
the country--remains an imperative.
    To the extent that this counsel carries the day, then the 
predictable result will be to exacerbate even further the problem of 
having too much war and too few warriors.
    War is the realm of uncertainty. There's always some chance of 
catching a lucky break. Perhaps next year the Iraqis will get their act 
together and settle their internal differences. Perhaps next year 
Congress will balance the Federal budget. Such developments are always 
possible--they are also highly unlikely.
    When it comes to Iraq, a far more likely prospect is the following: 
if the United States insists on continuing its war there, the United 
States will get what it wants: the war will continue indefinitely. 
According to General Petraeus, a counterinsurgency is typically a 10- 
to 12-year proposition. Given that assessment, and with the ``surge'' 
now giving way to a ``pause,'' U.S. combat operations in Iraq could 
easily drag on for another 5 or 10 years. A large-scale U.S. military 
presence might be required for two or three decades.
    In that event, the conflict that already ranks as the second 
longest in our history will claim the title of longest. Already our 
second most expensive war, it will become in financial terms the 
costliest of all. On one point at least, Donald Rumsfeld will be able 
to claim vindication: Iraq will indeed have become a ``long slog.''
    For the United States to pursue this course would in my judgment 
qualify as a misjudgment of epic proportions. Yet if our political 
leaders insist on the necessity of fighting this open-ended war, then 
they owe it to those who have already borne 5 years of combat to 
provide some relief.
    Bluntly, if those in Washington are unable or unwilling to reduce 
the number of wars in which U.S. forces are engaged, then surely they 
ought to increase the number of warriors available to fight them.
    Today, in a nation that according to President Bush is ``at war,'' 
approximately one-half of 1 percent of the population is in uniform. 
Double that figure and the problem of too much war for too few warriors 
goes away. The United States will have the troops necessary to sustain 
Iraq (and Afghanistan) for years to come.
    I do not want to minimize the challenges, political as well as 
economic, inherent in any such effort to expand our military. They 
would be large. But I will insist that continuing on our present course 
in which soldiers head back to Iraq for their third and fourth combat 
tours while the rest of the country heads to the mall will break the 
army before it produces policy success. Worse, our present course--in 
which a few give their all while most give nothing--is morally 
indefensible.
    If the war in Iraq is as important as some claim, then sustaining 
that war merits a commitment on the part of the American people, both 
to fight the war and to pay for it. If neither the American people nor 
their political leaders are willing to make such a commitment, then the 
war clearly does not qualify as genuinely important. Our loudly 
proclaimed determination to ``support the troops'' rings hollow.
    The choice is one that we can no longer afford to dodge: it's 
either less war or more warriors. I urge the members of this committee 
to give this matter the attention it deserves.
    Thank you.

    Chairman Levin. We thank you, Dr. Bacevich, for your 
statement.
    General Keane?

  STATEMENT OF GEN JOHN M. KEANE, USA (RET.) SENIOR MANAGING 
                 DIRECTOR, KEANE ADVISORS, LLC

    General Keane. Senator Levin, Senator McCain, and members 
of the committee, thank you for permitting me to provide some 
thoughts today on our situation in Iraq.
    I just returned from Iraq at the end of March, and visited 
three times during 2007. Let me say that the character of my 
visits is to spend considerable time with the Iraqi people, 
their sheikh and tribal leaders, as well as time with our U.S. 
and Iraqi military and civilian leaders, and, of course, our 
troops.
    It is not my purpose today to repeat the assessment 
provided by General Petraeus and Ambassador Crocker during 
their lengthy testimony yesterday. However, I would like to 
emphasize some points of my own assessment, albeit similar to 
theirs, and draw several conclusions and implications.
    First and foremost, we have the most talented and capable 
leadership team in Iraq, represented by General Petraeus and 
Ambassador Crocker. Nothing in my 40-plus years in national 
security compares to this extraordinary team, who provide the 
very best of leadership to their marvelous teammates and 
troops.
    Let me begin by saying that our strategy in Iraq is 
working. Frankly, it is doing so beyond our initial 
expectations. The security turnaround in Iraq from the hell of 
2006 and 3 years of failed strategy is one of the most stunning 
achievements in the annals of counterinsurgency practice. It 
was achieved in a matter of months, versus the years I thought 
it would take to turn around one of the most formidable 
insurgencies the west has ever faced.
    Fundamental to that success was the use of proven 
counterinsurgency practices to protect the people with 
sufficient amount of Iraq and U.S. troops. This was a catalyst 
for the widespread Sunni Awakening Movement, which is truly 
underappreciated here in the United States. What really 
happened is, the sheikhs and tribal leaders decided they could 
not achieve their political objectives with al Qaeda in 
fighting the United States and the Government of Iraq. As such, 
the overwhelming majority of Sunni insurgent leaders made four 
strategic decisions: (1) to stop the violence; (2) to leverage 
the U.S. leaders to influence the Government of Iraq; (3) to 
reconcile with the Government of Iraq; and (4) provide their 
``sons,'' to work with us and the Iraqis to help defeat al 
Qaeda and protect their own people.
    These results are the very best one could expect in 
fighting an insurgency. Your opponent not only surrenders, but 
comes to your side to assist.
    The entire Arab Muslim world is aware of the Sunni 
rejection of al Qaeda, the first major occurrence ever where 
the people have rejected al Qaeda and their barbaric hold on 
them.
    Additionally, in a recent poll, over 90 percent of Sunnis 
are expected to participate in the political process in the 
2008 provincial election and in the general election in 2009. 
What does that tell us about reconciliation? Clearly, the 
Sunnis are politically reconciling with the Government of Iraq, 
and the Government of Iraq is providing some assistance.
    The implication of this is that the central region of Iraq 
is relatively secure, and now the United States and Iraqi 
forces are focusing their efforts on the remaining presence of 
al Qaeda in the north. In my view, al Qaeda is already 
operationally defeated, and the final campaign against al Qaeda 
is underway as we speak. We will complete that defeat of al 
Qaeda in the months ahead in 2008.
    Make no mistake, this is genuine progress, and it has led 
to a significant conclusion. We cannot lose militarily in Iraq, 
as we were on the verge of doing in 2006. Al Qaeda and the 
remaining hardliner Sunni insurgents cannot mount an offensive 
that they could sustain which would threaten the regime.
    Are we finished? No. But, we and the Iraqis have the 
momentum, we are on the offense, and we can finally see that 
winning in Iraq is now a likely outcome.
    The remaining major security challenge in Iraq is in the 
south, where we must counter the significant Iranian influence. 
The Iranians have a comprehensive political, economic, 
diplomatic, and military strategy to accomplish two objectives: 
(1) to cause the United States to fail in Iraq and withdraw 
prematurely, and (2) to support a stable, but weak, Government 
of Iraq which is aligned with Iran as a result of their 
foothold and leverage in the south of Iraq. As such, the 
Iranians have been working their strategy since 2003, and have 
made some progress these last 2 years because of our 
understandable preoccupation with al Qaeda, to rescue ourselves 
from the jaws of defeat in 2007, as well as the British 
pullback, which gave the Iranians and their militias a free 
hand.
    Admittedly, Maliki has taken a much needed first step to 
address this problem. As impulsive as he was, and while the 
planning and coordination was inadequate, this is the right 
course of action. We should not be quick to judge the success 
of a campaign by the first few days of action, when we know 
this is the beginning of a campaign which will last for months. 
My view is, the campaign in the south will not be as difficult 
as the fight against al Qaeda and the Sunni insurgents. Indeed, 
Maliki's political position has been considerably enhanced, 
because all the major political parties are supporting Maliki 
against the Sadrists, who are now isolated. In fact, this 
weekend Maliki announced that you cannot participate in the 
upcoming elections if your political party has a militia. This 
has thrown the Sadrists into disarray.
    All that said, it is critical to succeed. It is in the 
United States national interests to defeat Iran in Iraq. To do 
so, we need a U.S. national and regional strategy. General 
Petraeus, Ambassador Crocker, and Mr. Maliki cannot do this by 
themselves. The strategy should have a political, diplomatic, 
economic, and military component.
    In Iraq, there is much potential as we squeeze the militias 
militarily and politically. As I said, I believe it'll be much 
easier than the al Qaeda and the Sunni insurgents. We can do 
much to influence the sheikhs and the tribal leaders to turn 
around, as the Sunnis did in the central region. In fact, 
Sheikh Muhazem, a leader of the Tamimi tribe in the south, 
which is one of the largest tribes in Iraq, stretching from 
Basrah to Diyala, is, as we gather here, turning against the 
Iranian influence and taking on the Jaish al-Mahdi (JAM). 
Maliki is encouraging Muhazem, and is providing financial and 
military support. This is significant, because we have the 
potential to reduce the fighting much more rapidly, as happened 
in the central region with the Sunnis.
    In any event, the Iraqis and the U.S. forces will bring the 
south under security control prior to the provincial elections 
in the fall, in my view.
    The surge or counteroffensive was always intended to buy 
time so that the Iraqis could make political and economic 
progress. This is happening. While there is much to be done, 
the progress is definable. How can anyone conclude there is no 
political progress, when, number one, the Sunnis are 
reconciling with a Shiite-dominated government, they stopped 
the violence, and are providing 91,000 of their ``sons'' to 
assist us? This, after all, was the intent of the much 
discussed national legislative benchmarks. Number two, as to 
the benchmarks, we, the United States Government, browbeat the 
Government of Iraq into submitting to a legislative agenda. 
After we have achieved some basic security, the Government of 
Iraq has made impressive political progress, passing 12 of the 
18 benchmarks and making progress on 5 others. Significantly, 
four of the six legislative benchmarks, to include de-
Baathification, amnesty, semi-autonomous regions, and 
provincial powers, are passed. Why is it so difficult to 
acknowledge that both these points--Sunni reconciliation and 
major national legislation--represent significant political 
progress?
    Much of the discussion and debate surrounds how fast we 
should reduce our forces. The fact is, we are reducing our 
combat forces some 25 percent in 2008. I believe there will be 
further reductions in 2009. We should prepare ourselves that we 
may not reduce our forces further in 2008, because of the major 
operations in the north and south, and we do not want to 
squander the gains in central Iraq.
    Our leaders in Iraq want to reduce our forces, as we all 
do. But, they simply want it to be measured. Two realities 
drive them: the fact that in the past we overestimated Iraqi 
capabilities to take over, and the fact that we underestimated 
enemy capabilities. They do not want to make those mistakes 
again. Erring on the side of caution makes sense, particularly 
in view of our hard-earned success.
    It is a myth to suggest that by withdrawing rapidly, 
somehow that will force the Iraqis to make progress they would 
not make by our presence. Anyone who truly knows the situation 
in Iraq and the Iraqi leaders realizes it is the American 
presence that has aided the Iraqis to make the progress they 
have made and will continue to make. Our encouragement, tough-
mindedness, and genuine assistance are major factors in that 
success.
    To leave and abandon them forces them into isolation, not 
reconciliation. It brings out their worst fears, driven by 
their paranoia about the past, that the Shiites are on their 
own and all their enemies are around them. What is needed is 
our continued, but not open-ended, presence to further our 
mutual objectives.
    One final point about our ground forces. I welcome the 
comments of Dr. Bacevich, that we need to expand them. They are 
not only magnificent, but are performing to a standard not seen 
in any previous conflict. They are not a broken force, or near 
broken. Their discipline, morale, competence, behavior, and 
courage is extraordinary, and it is so with the knowledge that 
many Americans do not support the war, but do support them.
    Are they stressed, and their loved ones as well, by the 
repeated deployments? Of course they are. This is a proud, 
resilient force that has no quit in it. They have a dogged 
determination to succeed. We are fighting two wars that are in 
our national interests, and I have known, since September 11, 
that our force, which I was a part of, was committed to protect 
the American people by staying on the offense against our 
enemies. They want to win, and they will. They do not want to 
be a party to choosing defeat or to be a part of an Army or 
Marine Corps that suffers a humiliating defeat.
    That stark reality will break the force. Fighting 
protracted wars in our history has always stressed our forces. 
Doing what we can to reduce the impact is critical. But, 
choosing victory is, hands down, the best answer.
    I said, earlier, we cannot lose militarily, and that should 
be clear; but we can lose politically because we lose our will 
here at home, we lose our determination to work through 
difficulty and uncertainty. I ask you to find the will and, 
yes, the courage our soldiers display routinely to persevere 
and to not give in to understandable frustration and to support 
the judgments of our gifted commander and ambassador.
    Thank you. I look forward to your questions.
    [The prepared statement of General Keane follows:]

          Prepared Statement by GEN John M. Keane, USA (Ret.)

    Mr. Chairman, ranking member and members of the committee. Thank 
you for permitting me to provide some thoughts today on our situation 
in Iraq. I just returned from Iraq at the end of March and visited 
three times during 2007 (February, May, and August).
    Let me say that the character of my visits is to spend considerable 
time with the Iraqi people, their Sheik and Tribal leaders, as well as, 
time with our U.S. & Iraqi military and civilian leaders and, our 
troops.
    It is not my purpose, today, to repeat the assessment provided by 
General Petraeus and Ambassador Crocker provided during their lengthy 
testimony yesterday. However, I would like to emphasize some points of 
my own assessment, albeit similar to theirs, and draw several 
conclusions and implications.
    First and foremost, we have the most talented and capable 
leadership team in Iraq represented by General Petraeus and Ambassador 
Crocker. Nothing in my 40-plus years in national security compares to 
this extraordinary team who provide the very best of leadership to 
their marvelous teammates and troops.
    The security turnaround in Iraq, from the hell of 2006 and 3 years 
of failed strategy, is one of the most stunning achievements in the 
annals of counter-insurgency practice. It was achieved in a matter of 
months vs. the years it normally takes to turnaround one of the most 
formidable insurgencies the west has ever faced. Fundamental to that 
success was the use of proven counterinsurgency practice, to protect 
the people, with sufficient amount of Iraq and U.S. troops. This was a 
catalyst for the widespread Sunni awakening movement, which is truly 
under appreciated here in the U.S. What really happened is the Sheiks 
and Tribal leaders decided they could not achieve their political 
objectives with the al Qaeda in Iraq (AQI), in fighting the U.S. and 
the Government of Iraq (GOI). As such, the overwhelming majority of 
Sunni leaders made four strategic decisions to: (1) stop the violence; 
(2) leverage the U.S. leaders to influence the GOI; (3) reconcile with 
the GOI; and (4) provide their ``sons'' to work with us and the Iraqis 
to help defeat the AQI and protect their own people. These results are 
the very best one could expect in fighting an insurgency; your opponent 
not only surrenders, but comes to your side, to assist. The entire Arab 
Muslim world are aware of the Sunni rejection of AQI, the first major 
occurrence, ever, where the people have rejected the AQI and their 
barbaric hold on the them. Additionally, in a recent poll over 90 
percent of Sunnis are expected to participate in the political process 
in the 2008 provisional election and in the general election in 2009. 
What does that tell us about reconciliation? Clearly the Sunnis are 
politically reconciling with the GOI and the GOI is assisting.
    The implication of this is that the central region of Iraq is 
relatively secure and now the U.S. and Iraqi forces are focusing their 
efforts on the remaining presence of AQI in the north. In my view, the 
AQI are already operationally defeated and the final campaign against 
AQI, is underway as we speak. We will complete the defeat of AQI in the 
months ahead in 2008.
    Make no mistake this is genuine progress and has led to a 
significant conclusion. We cannot lose militarily in Iraq, as we were 
on the verge of doing in 2006. The AQI and remaining hardliner Sunni 
insurgents cannot mount an offensive, that they could sustain, which 
would threaten the regime. Are we finished, no, but we and the Iraqis 
have the momentum, we are on the offense and we can finally see that 
winning in Iraq is, now, a likely outcome.
    The remaining major security challenge in Iraq is in the south 
where we must counter the significant Iranian influence. The Iranians 
have a comprehensive political, economic, diplomatic and military 
strategy to accomplish two objectives: (1) to cause the U.S. to fail in 
Iraq and withdraw prematurely; and (2) to support a stable but weak 
GOI, which is aligned with Iran as a result of their foothold and 
leverage in the south of Iraq. As such, the Iranians have been working 
their strategy since 2003 and have made some real progress these last 2 
years because of our understandable preoccupation with AQI, to rescue 
ourselves from the jaws of defeat in 2007, as well as the British pull-
back, which gave the Iranians and their militias a free hand.
    Admittedly, Maliki, has taken a much needed first step to address 
this problem. As impulsive as he was and while the planning and 
coordination was inadequate this is the right course of action. We 
should not be quick to judge the success of a campaign by the first few 
days of action when we know this is the beginning of a campaign which 
will last for months. My view is, the campaign in the south will not be 
as difficult as the fight against AQI and the Sunni insurgents. Indeed 
Maliki's political position has been considerably enhanced because all 
the major political parties are supporting Mailiki against the 
Sadirists, who are now isolated. In fact, this weekend Maliki announced 
that you cannot participate in the upcoming elections if your political 
party has a militia. This had thrown the Sadirists into disarray.
    All that said, it is critical to succeed. It is in the U.S. 
national interests to defeat Iran in Iraq. To do so, we need a U.S. 
national and regional strategy to defeat Iran in Iraq. General 
Petraeus, Ambassador Crocker and Mr. Maliki cannot do this by 
themselves. This strategy should have a political, diplomatic, economic 
and military component. In Iraq there is much potential as we squeeze 
the militias militarily and politically, they will fold much easier 
than AQI and Sunni insurgents. We can do much to influence the Sheiks 
and Tribal leaders to turnaround as the Sunnis did in the central 
region. In fact Sheik Muhazem a leader of the Tamimi tribe in the 
south, which is one of the largest tribes in Iraq, stretching from 
Basra to Dyala, is as we gather here, turning against the Iranian 
influence and the JAM. Maliki is encouraging Muhazem and is providing 
financial and military support. This is significant, because we have 
the potential to reduce the fighting much more rapidly, as happened in 
the central region with the Sunnis. In any event, the Iraqis and U.S. 
forces will bring the south under security control, prior to election 
in the fall.
    The surge or counter-offensive was always intended to buy time so 
that the Iraqis could make political and economic progress. This is 
happening and while there is much to be done, the progress is 
definable. How can anyone conclude there is no political progress when: 
(1) the Sunnis are reconciling with a Shia dominated government, 
stopped the violence, and are providing 91,000 of their sons to assist 
us. This after all was the intent of the much discussed national 
legislative benchmarks. (2) As to the benchmarks, we the U.S. 
Government, ``brow-beated'' the GOI into submitting to a legislative 
agenda. After we achieved some basic security, the GOI has made 
impressive political progress--passing 12 of 18 benchmarks and making 
progress on 5 others. Significantly, four out of six legislative 
benchmarks including, debathification, amnesty, semi-autonomous regions 
and provincial powers are passed. Why is it so difficult to acknowledge 
that both these points, Sunni reconciliation and major national 
legislation, represent significant political progress?
    Much of the discussion and debate surrounds how fast we should 
reduce our forces. The fact is we are reducing our combat forces some 
25 percent in 2008. The fact is there will be further reduction for 
sure in 2009. We should prepare ourselves that we may not reduce our 
forces further in 2008 because of the major operations in the north and 
south while not squandering the gains in central Iraq. Our leaders in 
Iraq want to reduce our forces, as we all do, but they simply want it 
to be measured. Two realities drive them, the fact that in the past we 
overestimated Iraqi capabilities to take over and the fact that we 
under estimated enemy capabilities. They do not want to make those 
mistakes again. Erring on the side of caution makes sense, 
particularly, in view of our hard-earned success. It is a myth to 
suggest by withdrawing rapidly, somehow, that will force the Iraqis to 
make progress they would not make by our presence. Anyone who truly 
knows the situation in Iraq and the Iraqi leaders, realizes that it is 
the American presence that has aided the Iraqis to make the progress 
they have made and will continue to make. Our encouragement, tough-
mindedness and genuine assistance are major factors in that success. To 
leave and abandon them, forces them into isolation, not reconciliation. 
It brings out their worst fears, driven by their paranoia about the 
past, that the Shia's, are on their own and their enemies are all 
around. What is needed is our continued, but not open-ended, presence 
to further our mutual objectives.
    One final point, about our ground forces; not only are they 
magnificent but are performing to a standard not seen in any previous 
conflict. They are not a broken force or near broken. Their discipline, 
morale, competence, behavior and courage is extraordinary and it is so 
with the knowledge that many of the American people do not support the 
war, but do support them. Are they stressed and their loved ones as 
well, by the repeated deployments, of course they are. But this is a 
proud, resilient force, that has no quit in it, they have a dogged 
determination to succeed. We are fighting two wars that are in our 
national interest and I have known since September 11, our force, which 
I was a part of it, was committed to protect the American people by 
staying on the offense against our enemies. They want to win, and they 
will, they do not want to be a party to choosing defeat, or to be a 
part of an Army or Marine Corps that suffers a humiliating defeat. That 
stark reality will break the force. Fighting protracted wars in our 
history has always stressed our forces. Doing what we can do to reduce 
the impact is critical but choosing victory is hands-down the best 
answer.
    I said earlier we cannot lose militarily and that should be clear, 
but we can lose politically because we lose our will, here at home, 
lose our determination to work through difficulty and uncertainty. I 
ask you to find the will, and yes the courage, our soldiers display 
routinely, to persevere, to not give in to your understandable 
frustration and to support the judgments of our gifted commander and 
ambassador.
    Thank you and I look forward to your questions.

    Chairman Levin. Thank you very much, General Keane.
    Dr. Malley?

   STATEMENT OF ROBERT MALLEY, MIDDLE EAST AND NORTH AFRICA 
          PROGRAM DIRECTOR, INTERNATIONAL CRISIS GROUP

    Dr. Malley. Thank you very much, Mr. Chairman, members of 
the committee.
    This hearing comes at yet another important time in our 
debate over the future of our strategy in Iraq. Some argue that 
the surge has been a success, and therefore, we should 
perpetuate our stay. Others argue that it has been a failure, 
and therefore, we need to leave promptly.
    In my view, it's the wrong question, addressed in the wrong 
way, and it inevitably will lead to wrong answers. The question 
of troop level and the pace of our withdrawal should be the 
dependent variable, not the independent variable.
    The real question is how and to what extent our troop 
presence is serving coherent, articulable, policy objectives.
    I was a surge skeptic. I admit, and I am happy to admit, 
that the surge has exceeded, by far, my expectations, in terms 
of what it could achieve. Part of it is because of the planning 
that was done, partly for reasons that were serendipitous, and 
partly coincidental. But, at the core I believe it reflects a 
conceptual revolution at the heart of the military. Our 
military commanders in Iraq displayed, for the first time, real 
and sophisticated understanding of the dynamics in Iraq, which 
gave them the ability to carry out new policies and take 
advantage of new dynamics. As a result, as General Keane just 
described, the violence is down, areas have been pacified, and 
the sectarian war that was unfolding in 2005-2006 has virtually 
come to a halt. The end result is that the prospect of a 
single, devastating civil war has been replaced by the reality 
of smaller, more manageable ones.
    But, if I'm no longer a surge skeptic, I remain very much a 
skeptic of the policy it's purported to serve.
    Yesterday, we heard testimony from General Petraeus and my 
friend Ambassador Crocker, and the key questions that they were 
asked were: What's the objective of our policy? To what end are 
we pursuing our military enterprise? Until when? I was left--
and I don't think I'm alone--profoundly frustrated and 
dissatisfied by the answers we got.
    Therefore, my sense today is that, after 4 years, where the 
U.S. administration pursued a lofty strategy about building a 
democratic Iraq and transforming the region, but obviously had 
no realistic tactics to achieve that goal, today, for the first 
time, we have smart, intelligent, subtle tactics, only to find 
ourselves bereft of a strategy that they're supposed to serve.
    The starting point, for me, needs to be two fundamental 
realities, and from there we need to devise a clear policy.
    Reality number one is that a U.S. withdrawal at this time 
under these conditions--a failed state, a fragmented polity, 
with interference from foreign countries, with the fragility of 
Iraq and the rise of jihadism--would be a huge setback to U.S. 
interests, and I think we cannot deny that fact. It would leave 
Iraq as a failing state. It would probably lead to escalating 
internecine and sometimes perhaps horrific violence. It would 
lead to regional involvement in Iraq at a time of great tension 
in the Middle East. Ultimately, it would weaken our posture in 
the Middle East. That's reality number one.
    But, there is reality number two, which is that our 
continued presence every day that we remain in Iraq also comes 
with a very heavy price tag. There's a human toll I don't need 
to evoke any further. There is the drain on our resources. Our 
military is overstretched. Our readiness is being undercut. Our 
room to maneuver in other critical issues, such as dealing with 
Iran, is automatically limited when we are so taken by the 
combat in Iraq, and our standing, our prestige, and our 
credibility throughout the region is being eroded.
    Both realities are true, and we have to take both of them 
into account. That leads me to say that our policy objective 
should be to create a local environment in Iraq and a regional 
environment in the region that would minimize the damage to our 
interests, to the Iraqis' well-being, and to the regional 
environment, as a whole, of the inevitable departure of our 
troops. That's the task that U.S. policymakers should be 
pursuing. How do we minimize the damage to ourselves, to the 
Iraqis, and to the region of a departure that's going to have 
to take place probably sooner rather than later?
    If that's the objective, two things, in my view, need to be 
at the core of U.S. policy.
    First, we need to press the Iraqi Government, our Iraqi 
allies, to take the steps they have not taken up until now. 
They're the ones who could change the Iraqi local environment, 
not us.
    Second of all, we need to devise a more coherent regional 
strategy in order to lessen the tensions and make sure that 
when we leave Iraq, Iraq doesn't become a magnet for foreign 
interference and doesn't become a source of further instability 
throughout the region.
    Is the U.S. policy currently pursuing either one of those 
objectives? I see no evidence that it is. For me, two facts, 
two startling facts, put this in stark relief.
    The first fact is that our best Iraqi allies in the surge, 
those who have allowed the progress that's been made, have not 
been the people we brought to power, the people we've provided 
with military and financial resources, the people who we 
protect. The people who have been our best allies are the 
former insurgents, our former enemies. In fact, the ones who we 
brought to power, protect, and promote are obstacles and are 
threatening the success of the surge, because they are 
dithering in putting in place the kind of policies that the 
surge was supposed to lead to.
    So, what our U.S. troops have been able to achieve through 
their military actions, the Iraqi Government is threatening to 
undo because of its political dithering. That's a stunning 
indictment, to think that those who have helped us are those 
who we used to be fighting, and those who are standing in the 
way are those who could not survive, who could not be in power 
without our support.
    So, we have done our part with the surge. Our allies have 
not. Our allies are threatening, every day by their actions, 
the sustainability of the surge. By not bringing together a 
political compact, they risk alienating the Sons of Iraq, the 
Awakening Councils, and the concerned local citizens who may 
see, in the end, that they don't have a possible partner in 
this government. If they don't create neutral, nonpartisan 
state institutions, then you'll find the tribes will simply 
become another force in a multilayered conflict. If they take 
action, as they did in Basrah--and I'll come back to that 
later--they risk undoing the benefits of Muqtada al Sadr's 
unilateral cease-fire. Time and again, we're seeing, through 
their actions, that they are threatening the gains that we 
achieved.
    Now, the second fact that I think brings into stark relief 
the problems that our policy faces is that our allies in Iraq, 
those same allies I just was describing, are also the allies of 
our arch enemy, Iran. Iran, who we claim is trying to 
destabilize Iraq, and Iran who we claim is our number-one enemy 
in the region. So, we're fighting Iran while our Iraqi partners 
are partnering with Tehran. We're siding in this Iraqi intra-
civil war with Iran's allies.
    These two fundamental contradictions, inconsistencies, and 
the incoherence at the heart of our policy tells me, as starkly 
as it could, that we do not have a coherent policy, that our 
troops are performing admirably, but not in pursuit of a policy 
that anyone could articulate. Therefore, what it means is that 
they are being forced to carry a disproportionate burden--in 
many ways, the exclusive burden--in pursuit of unreachable 
goals, inconsistent objectives, and an inordinate and rising 
cost.
    There is an alternative policy, I believe, and it has to be 
articulated around three fundamental pillars. The first is to 
put more pressure on Maliki's Government, real pressure. The 
second is to engage in real regional diplomacy, including and 
especially with Iran and Syria. The third is to transition 
towards a longer-term nonmilitary commitment investing in 
Iraq's resources.
    As to the first, as I said, the key is to put pressure on 
our allies to do what they have been asked to do, time and 
again, and have not done. Despite all the benchmarks that we 
could recite, they have not created a national compact, they 
have not reached out in the way they need to, they have not 
created a nonsectarian, impartial state. They're not even on 
the way towards doing it.
    To be credible, if we do want to put pressure on this 
government, we, the United States, have to be comfortable with 
the prospect of withdrawing from Iraq, even under less than 
auspicious circumstances. Unless and until we are convinced 
that we are prepared to take that step, there's no reason for 
the Maliki Government to believe it, and there's no reason for 
Maliki and his people to take any risk. Why should they? For 
what reason should they alienate their own constituency, 
threaten their fragile coalition, when they know that we're 
there to stay, they know that we won't ask them any questions, 
they know there's no consequences for their inaction, and they 
know we will continue to back them up.
    This is not a matter of benchmarks or artificial deadlines. 
That's not what I'm saying. I'm saying that we have to be blunt 
with the Maliki Government, that if they don't do what we've 
asked them to do for several years, we cannot stay. It's not 
necessarily our first choice, but it will be the inevitable 
one. We can't tie our success to Maliki's survival. We can't be 
hostage to what he does or doesn't do. Given the gap between 
what U.S. troops can do and what needs to be done in Iraq, in 
fact, paradoxically the greatest leverage our troops have is 
the threat that they might withdraw and take away the support 
that they're giving to the Government of Maliki. There are 
other ways in which we need to turn from unconditional support 
to conditional support. We should stop all assistance to units 
of their army, to Iraqi commanders in the field who we know to 
be partisan, sectarian, and pursuing partisan and sectarian 
agendas. We should condition our assistance to any equip-and-
train mission to proper vetting of the security forces.
    The second pillar is regional diplomacy. We can't try both 
to stabilize Iraq and destabilize Iran. Those two policies are 
at war with one another. We have to choose. If we want to 
stabilize Iraq, we're going to have to come to terms with 
Iran's role in Iraq, which is deep and which will become even 
deeper. They have cultural, historical, military, and religious 
tools that we simply lack. They are there, and they'll be there 
for a very long time. So, if our priority is Iraq, we need to 
enter into tough bargaining with Iran. Iraq will be one of the 
issues on the table, but not the only one.
    The third, as I said, and there's more in my testimony, is 
a long-term commitment to Iraq's depleted human resources.
    What happened in Basrah, for me, is a microcosm of 
everything that's gone astray, everything that went astray. It 
was initiated by the Iraqi Government without our agreement, 
and it was ended by the Iranian regime without our involvement. 
It was an episode of an intra-Shiite civil war in which we were 
dragged in as if we had no influence, no leverage, and no say. 
To me at least, it was dumbfounding.
    So, to conclude, the question is: Is our mission on the 
path to minimizing the cost to our strategic interests, to the 
Iraqi people's well-being, and to regional stability of a 
withdrawal that, sooner or later, must occur, or are we simply 
postponing the most likely scenario: Iraq's collapse into a 
failed state, protracted violence, and foreign meddling? We 
should be clear, either there's a national compact and 
reconciliation and steps toward a nonsectarian, nonpartisan 
state and state institutions, in which case we will negotiate 
the terms of our departure and the pace of our departure, or 
those steps are not taken and we have no business continuing 
with this war.
    Thank you very much.
    [The prepared statement of Dr. Malley follows:]

                Prepared Statement by Dr. Robert Malley

    Mr. Chairman: Let me begin by expressing my deep appreciation for 
the invitation to testify before the Senate Armed Services Committee. 
This hearing comes at an important time, when some argue that the 
surge's success dictates continuation of the U.S. military presence 
while others claim the surge's underlying failure commands a relatively 
prompt military withdrawal.
    The issue and the stakes involved merit a different deliberation. I 
long have believed that the matter of troop levels, which absorbed so 
much of the debate 1 year ago and maintains its centrality today, is a 
misleading question that has spawned misguided answers. On its own, and 
in the absence of significant policy changes, the addition of troops 
can have an impact, perhaps even an important one. But, by its very 
nature, that impact inevitably will be temporary, reversible and 
inadequate.
    The surge is a case in point. Its achievements--some planned, some 
serendipitous, others purely coincidental--should not to be belittled. 
The military campaign calmed areas that had proved particularly violent 
and inaccessible, such as Anbar and several Baghdad neighborhoods and 
essentially halted sectarian warfare. Sunni leaders, both tribal 
elements and former insurgent commanders, turned against al Qaeda in 
Iraq and reached deals with U.S. forces. Until recently at least, the 
Sadrist movement abided by a unilateral ceasefire and avoided 
confronting coalition troops. All in all, U.S. commanders in the field 
displayed a degree of sophistication and knowledge of local dynamics 
without precedent during the long course of this war. The end result 
can be summed up as follows: the prospect of a single, devastating 
civil war has given way to the reality of a series of smaller, more 
manageable ones.
    But the question is: then what? What higher purpose will these 
successes serve? Are they putting the United States on a path that will 
allow it to minimize the costs to our strategic interests, the Iraqi 
people's well-being and regional stability of a withdrawal that, sooner 
or later, must occur? Or are they simply postponing what still remains 
the most likely scenario: Iraq's collapse into a failed and fragmented 
state, protracted and multi-layered violence, as well as increased 
foreign meddling that risks metastasizing into a broader proxy war?
    As late as yesterday, we still have not received convincing answers 
to these fundamental questions. For the first 4 years of this war, the 
administration pursued a lofty strategy--the spread of democracy 
throughout the Middle East; Iraq as a regional model--detached from any 
realistic tactics. The risk today is that, having finally adopted a set 
of smart, pragmatic tactics, it finds itself devoid of any overarching 
strategy.
    The tactical successes associated with the surge offer a fragile 
but genuine opportunity to reassess our overall approach and put the 
emphasis where it needs to be: steps by the U.S. administration to 
credibly pressure the Iraqi Government and alter the regional climate. 
This entails ceasing to provide the Iraqi Government with unconditional 
military support; using our leverage and the threat of withdrawal to 
encourage progress toward a broad national compact and a non-sectarian, 
impartial state; designing a long-term program of cooperation to 
replenish Iraq's depleted human resources; and, importantly, engaging 
in real diplomacy with all of its neighbors, Iran and Syria included.
    If, however, this administration or its successor is not prepared 
to undertake such a paradigm shift, then our Nation has no business 
sending its men and women in harm's way. It has no business squandering 
its resources on a multilayered civil war. It will be time to bring 
this tragic policy to a close through the orderly withdrawal of 
American troops.
    Mr. Chairman, at the outset it is important to recognize what has 
occurred since the surge was announced and which exceeded many 
observers' expectations, mine and my colleagues included. My assessment 
is based on the longstanding fieldwork performed by the International 
Crisis Group's staff and consultants who have been in Iraq repeatedly, 
inside and outside the Green Zone, in contact with officials, 
militiamen, insurgents and ordinary citizens, almost without 
interruption since the war began.
    The surge in some cases benefited from, in others encouraged and in 
the remainder produced a series of politico-military shifts affecting 
the Sunni and Shiite communities. One of the more remarkable changes 
has been the realignment of tribal elements in Anbar, known as the 
Awakening Councils or sahwat, and former insurgents, now referred to as 
Sons of Iraq. This was largely due to increased friction over al Qaeda 
in Iraq's brutal tactics, proclamation of an Islamic State and 
escalating assaults on ordinary Iraqis labeled traitors or apostates 
(including policemen, civilians, and mere cigarette smokers). Opting to 
break with al Qaeda, they chose to cooperate with the U.S.
    In both cases, tribal and insurgent decisions were aided by 
enhanced military pressure on al Qaeda resulting from augmented U.S. 
troops and in both instances U.S. forces displayed far greater subtlety 
and sophistication than at any prior point. All parties benefited. U.S. 
forces gained access to the tribes' and former insurgents' in-depth 
knowledge of local topography and human environment; conversely, groups 
collaborating with the coalition typically ended up with greater 
control over relevant areas. As a result of cooperation between the 
Awakening Councils, the Sons of Iraq and U.S. forces, large areas of 
Anbar were pacified and Baghdad neighborhoods regained a measure of 
stability.
    Among Shiites, the most significant evolution was Muqtada al-Sadr's 
August 2007 unilateral ceasefire. The decision was made under heavy 
U.S. and Iraqi pressure and as a result of growing discontent from 
Muqtada's own Shiite base. The Sadrists were victims of their own 
success. Throughout 2006 and early 2007, the movement was on a steady 
rise, controlling new territory, attracting new recruits, accumulating 
vast resources and infiltrating the police. But there was a flip side. 
The vastly increased wealth, membership and range of action led to 
greater corruption, weaker internal cohesion and a popular backlash. 
Divisions within the movement deepened, splinter groups--often little 
more than criminal offshoots--proliferated. As a result, anti-Sadrist 
sentiment grew, including among Muqtada's constituency.
    The U.S. surge worsened the Sadrists' situation, checking and, in 
some instances, reversing the Mahdi Army's territorial expansion. The 
August 2007 clashes in Karbala between members of Muqtada's movement 
and the rival Shiite Islamic Supreme Council of Iraq (ISCI) further 
eroded the Sadrists' standing. In reaction, Muqtada announced a 6-month 
freeze on all Mahdi army activities which he subsequently prolonged in 
February 2008. The decision reflects a pragmatic calculation that a 
halt in hostilities would help Muqtada restore his credibility, give 
him time to reorganize his forces and wait out the U.S. presence. Sunni 
and Shiite ceasefires were mutually reinforcing, as the need to defend 
one's community from sectarian attacks receded. Sectarian warfare 
largely came to an end.
    Other factors account for the reduction in violence. These include 
a welcome shift in U.S. military posture toward population protection, 
shifting forces from large bases to the frontlines of the unfolding 
civil war, establishing neighborhood patrols and in particular filling 
the security vacuum in Baghdad. They also include the less welcome fact 
that, by the time the surge was in place, sectarian-based armed groups 
had divided up the capital into separate fiefdoms in which they held 
their increasingly homogenized population hostage. All in all, however, 
the surge benefited from a conceptual revolution within the U.S. 
military leadership, which gave U.S. forces the ability to both carry 
out new policies and take advantage of new dynamics. Had it remained 
mired in past conceptions, propitious evolutions on the ground 
notwithstanding, we would today be facing a very different and bleaker 
situation.
    On their own, absent an overarching strategy for Iraq and the 
region, these tactical victories cannot turn into genuine successes. 
Yet, as far as one can tell, the tasks being performed by U.S. troops 
are disconnected from a realistic, articulated political strategy vis-
a-vis Iraq or the region. What objectives are U.S. troops trying to 
accomplish? What is an acceptable endstate? What needs to be done and 
by whom? None of these questions has an answer, and they expose the 
limits of the surge's tactical success.
    Without genuine efforts by the Maliki Government to reach a new 
political compact, the surge's achievements are insufficient. By 
President Bush's own standards, the military surge was useful only to 
the extent it led the Iraqi Government to forge a national consensus, 
recalibrate power relations and provide Sunnis in particular with a 
sense their future is secure. Observers may legitimately differ over 
how many of the administration's eighteen benchmarks have been met. 
None could reasonably dispute that the government's performance has 
been utterly lacking. The government's inadequate capacity cannot 
conceal its absence of will: True to its sectarian nature, and loath to 
renounce its exclusive hold on power, the Maliki Government has 
actively resisted moving toward compromise. Why not? It has no logical 
reason to alienate its core constituency and jeopardize its fragile 
political makeup when inaction has no consequence and the U.S. will 
always back it up.
    A small number of agreements have been reached and are regularly 
trumpeted by the administration. But they have made virtually no 
difference. In the absence of a basic political consensus over the 
nature of the state and distribution of power and resources, passage of 
legislation is only the first, and often the least meaningful step. 
Most of these laws are ambiguous enough to ensure that implementation 
will be postponed or the battle over substance converted to a struggle 
over interpretation. In the absence of legitimate, representative and 
effective state and local institutions, implementation by definition 
will be partisan and politicized. To date, such has been the fate of, 
inter alia, the constitutional review, the Justice and Accountability 
Law, and the Provincial Powers Law--each one giving rise to 
controversy, some having done more harm than good, and none being 
meaningfully carried out. What matters is not chiefly whether a law is 
passed in the Green Zone. It is how the law is carried out in the Red 
Zone.
    Without establishment of a more inclusive, less partisan and 
sectarian Iraqi political and security structure, the surge's 
achievements are reversible. Among Sadrist rank and file, impatience 
with the ceasefire already is high and growing. They equate it with 
loss of power and resources, believe the U.S. and ISCI are conspiring 
to weaken the movement and eagerly await Muqtada's permission to resume 
the fight. The Sadrist leadership has resisted the pressure, but in 
light of recent events in Basra and Sadr City, this may not last. The 
answer is not military. The Sadrists are as much a social as they are a 
political or military phenomenon. They enjoy wide and deep support, 
particularly among young Shiites. Excessive pressure, particularly 
without political accommodation by current power-holders, is likely to 
trigger both fierce Sadrist resistance in Baghdad and an escalating 
intra-Shiite civil war in the south. Again, those trends have been much 
in evidence over recent weeks.
    Among Sunnis, mood and calculations also could readily alter. The 
turn against al Qaeda is not necessarily the end of the story. While 
some tribal chiefs, left in the cold after Saddam's fall, found in the 
coalition a new patron eager to provide resources, this hardly equates 
with a genuine, durable trend toward Sunni Arab acceptance of and 
participation in the political process. For them, as for the Sons of 
Iraq in general, it is chiefly a tactical alliance--forged to confront 
an immediate enemy (al Qaeda) or the central one (Iran). Any 
accommodation has been with us, not between them and the government. It 
risks coming to an end if the ruling parties do not agree to greater 
power sharing and if Sunnis become convinced the U.S. is not prepared 
to side with them against Iran or its perceived proxies; at that point, 
confronting the greater foe (Shiite militias or the Shiite-dominated 
government) once again will take precedence.
    Even al Qaeda in Iraq cannot be decisively defeated through U.S. 
military means alone. While the organization has been significantly 
weakened and its operational capacity severely degraded, its deep 
pockets, fluid structure, and ideological appeal to many young Iraqis 
mean it will not be irrevocably vanquished. The only genuine and 
sustainable solution is a state that extends its intelligence and 
coercive apparatus throughout the territory, while offering credible 
alternatives and socio-economic opportunities to younger generations.
    Without steps to build a more effective, legitimate central state, 
the surge's achievements could portend a serious strategic setback. The 
U.S. is bolstering a set of actors operating at the local level, beyond 
the realm of the state or the rule of law and imposing their authority 
by sheer force of arms. The tribal awakening in particular has 
generated new fault lines in an already divided society as well as new 
potential sources of violence in an already multilayered conflict. Some 
tribes have benefited heavily from U.S. assistance, others less so. 
This redistribution of power almost certainly will engender instability 
and rivalry between competing tribes, which in turn could give rise to 
intense feuds--an outcome on which some insurgent groups are counting. 
None of this constitutes steps toward consolidation of the central 
government or institutions; all could very easily amount to little more 
than U.S. boosting specific actors in an increasingly fragmented civil 
war. In sum, short-term tactical achievements could pose a threat to 
Iraq's long-term stability.
    Without cooperation from regional actors, the surge's achievements 
are vulnerable. Iraq's neighbors were not at the origin of, or even 
played a major part in, Iraq's catastrophe. But the situation is such 
that sustainable stability is impossible without their consent. If 
dissatisfied, the sahwat or Sons of Iraq could seek help from 
neighboring Arab states seeking to promote their influence, counter 
Iran, or pursue a sectarian, Sunni agenda. Iran has the greatest 
ability to sabotage any U.S. initiative and its help is required to 
pressure insurgents and militias to pursue a political path. U.S. 
troops can seek to contain this influence, but they are pushing against 
the tide. Tehran's role is there to stay and, over time, deepen, 
exercised through myriad channels--military, but also religious, 
cultural, economic and humanitarian. Tehran enjoys strong ties to 
actors across the political system, both within and outside the 
government. If the goal is to reduce Iran's destabilizing efforts and 
reach some accommodation over Iraq's future, this can only be done 
through U.S. diplomatic engagement with Tehran and negotiations over 
all issues.
    The bottom line is that it cannot be up to U.S. troops to achieve 
prerequisite of success: a legitimate, functioning government; 
credible, effective institutions; a less hostile regional environment. 
Those goals, if they can be accomplished at all, only can be done by 
Iraqis and by hard-headed U.S. diplomacy. This is not a military 
challenge in which one side needs to be strengthened and another 
defeated. It is a political one in which new local and regional 
understandings need to be reached. That is not occurring. Instead, far 
from being a partner in an effort to achieve a new compact or stem 
violence, our allies in the government are one side in a dirty war over 
territory, power, and resources. Likewise, far from engaging Tehran, 
the administration has objected to genuine, broadbased negotiations, 
placing it in the awkward position of relying on Iranian allies in 
Baghdad while at the same time developing a tough anti-Iranian strategy 
for the region.
    Mr. Chairman, three critical observations derive from this 
analysis.
    First, the United States's best allies during the surge have not 
been the parties we brought to power, protected and supported. They 
have instead been former leaders of the insurgency and armed groups 
who, for their own reasons, chose to side with us. That in itself 
represents a stunning indictment of U.S. policy to date. It means we 
have been unable to pressure those over whom we possess the greatest 
leverage.
    Second, the reason the U.S. lacks this leverage is that it has not 
convinced itself--and perforce its Iraqi allies--that it eventually 
might have to withdraw even in the absence of strategic success. This 
does not mean the U.S. should announce its departure now or espouse a 
timetable or rigid benchmarks. It means, however, that the 
administration should be prepared to live with the consequences of 
withdrawal if the Iraqi political class fails to make rapid, 
substantive progress toward political accommodation and establishment 
of non-partisan, non-sectarian state institutions. It means the U.S. 
must be prepared to bluntly convey that sentiment to its Iraqi 
interlocutors. For as long as the U.S. ties its fate to that of its 
Iraqi allies, it will remain hostage to their ineptitude or ill-will. 
Given the mismatch between what U.S. forces can do and what needs to be 
done, their greatest utility paradoxically may lie in the credible 
threat of withdrawal.
    Third, the United States's allies in Iraq are also allies of Iran 
which is our and, we claim, also one of Iraq's greatest foes. 
Ironically, we have been siding with Iran's partners in the intra-
Shiite civil war . That points to yet another fundamental contradiction 
at the core of our policy: the U.S. cannot simultaneously pursue the 
competing and self-defeating goals of stabilising Iraq and 
destabilising Iran. It must choose.
    Prolonging the military mission makes sense only if part of a 
strategy that is coherent, sets achievable goals, puts the onus on the 
Iraqi Government and its allies to take long-overdue steps, and accepts 
the need for a U.S. regional approach, including engagement with Iran 
and Syria and redefinition of our objectives in the Middle East. Absent 
such overarching policy objectives, U.S. troops are being asked to 
carry a disproportionate burden to attain unreachable and inconsistent 
objectives at inordinate and rising cost.
    The recent Basra operation is a microcosm of all that is astray in 
the current approach. The battle was initiated by the Iraqi Government 
without our agreement and halted by the Iranian regime without our 
involvement. Maliki informed coalition officials only a few days prior 
that he intended to target militias in the south. His protestation to 
the contrary notwithstanding, the operation was neither broadly aimed 
at all militias nor narrowly focused on so-called special groups. 
Militants linked to the Fadhila party were untouched, despite years of 
violently flouting the law. Nothing was done to the Badr organisation, 
ISCI's militia which, according to some reports, may even have fought 
alongside government forces. Without question, the target was the 
Sadrists and ISCI's as well as Maliki's purpose was to cut them down to 
size in advance of provincial elections scheduled for October. As the 
Iraqi Government seeks to replicate the tribal model to the south, and 
encourage tribes to take on the Mahdi Army, potential sources of 
internecine violence will multiply. The struggle was another episode in 
the ongoing intra-Shiite civil war, a harbinger of what awaits much of 
the country if current trends continue.
    For the U.S., the downsides were legion. The affair reversed timid 
U.S. efforts to reach out to the Sadrists. It threatened their tenuous 
ceasefire and led to lethal rocket attacks on coalition personnel in 
the Green Zone. It wholly contradicted the notion of an impartial, non-
politicised state. It called into question the tentative security and 
stability Baghdad and other parts of the country. It ended up boosting 
the Sadrists--who showed the strength of their organisation; Muqtada--
whose stature grew among his followers; and Iran--which mediated the 
truce. Meanwhile, Iraqi forces performed poorly, unable to dislodge the 
Sadrists from their southern strongholds and victims of a high number 
of defections.
    Yet, throughout the U.S. appeared at best passive, more often 
complicit. It allowed its airpower and Special Forces to be dragged 
into an intra-Shiite power struggle at the worst possible time, with 
the least possible coordination and resulting in the worst possible 
outcome. Despite Iraqi reliance on U.S. political and military support, 
the administration acted as if it had no leverage, no influence and no 
say. The episode was nothing short of dumbfounding.
    Mr. Chairman, in seeking to define concrete, achievable goals for 
our troops, I believe we must begin with acknowledgment of two basic 
realities.
    First, a U.S. withdrawal under existing conditions--an Iraq 
dominated by armed militias, sectarian forces and a predatory political 
class; the collapse of the state apparatus, the lack of any political 
accommodation; the rise of jihadism; an extraordinary refugee crisis; 
and a regional context more polarized and tense than ever before--would 
constitute a stark and perilous setback. It would leave Iraq as a 
failing state, set the stage for escalating and perhaps horrific 
violence and invite regional involvement and radicalism that will 
further damage our posture in the Middle East.
    But, second, that a continued U.S. military presence carries a 
heavy price tag as well. With each passing day, the human toll mounts. 
Precious resources are expended. Our military is overstretched and our 
readiness undercut. U.S. margin of maneuver on other critical national 
security issues is further limited. Our influence and credibility in 
the region and throughout the world continue to erode.
    The objective it follows should be to create a local and regional 
environment that minimize the damage flowing from the departure of our 
troops that, sooner rather than later, must occur, A strategy that 
seeks to capitalise on the surge's achievements to promote that goal 
would rest on the following three pillars:

          1. A new forceful approach that puts real pressure and 
        exercises real leverage on all Iraqi parties, government 
        included. The ultimate goal would be overhaul of the sectarian 
        political system and establishment of a more equitable and 
        inclusive compact, agreed upon by all relevant actors--e.g., 
        government, militias, and insurgent groups--on issues such as 
        federalism, resource allocation, internal boundaries, de-
        Baathification, the scope of the amnesty, the makeup of 
        security forces, and the timetable for a U.S. withdrawal.
          Pressing the Iraqi Government and its allies is key. As 
        noted, the U.S. must move away from unconditional support and 
        use the credible threat of military withdrawal if the 
        government does not compromise, fairly implement new 
        legislation or take steps toward impartial state institutions. 
        Our position should be clear: continued U.S. presence depends 
        on whether there is movement in this direction. If the compact 
        is not reached or implemented, the U.S. would significantly 
        accelerate the withdrawal of forces that then will have lost 
        their main purpose. Conversely, if and when a compact is 
        reached, a responsible schedule and modalities of coalition 
        withdrawal should be negotiated and agreed upon.
          There are practical, short-term consequences as well. The 
        U.S. should only support Iraqi military operations consistent 
        with its own goals and strategy; base training and assistance 
        on the professionalism and non-partisan behaviour of its Iraqi 
        recipients; and shun sectarian ministers or army units and 
        their commanders. Likewise, the U.S. should condition its help 
        to expand and equip the security apparatus on a strict vetting 
        process and retraining program.
          2. A new multilateral strategy that focuses on the region and 
        includes engagement with Iran and Syria. The ultimate goal 
        would be to diminish tensions and polarisation while agreeing 
        on rules of the game for outside powers to ensure that a U.S. 
        withdrawal trigger neither a regional scramble for power in 
        Iraq nor a local scramble for patrons by Iraqis--either of 
        which would cause greater instability and loss of American 
        influence. In principle, neighbouring countries and other 
        regional powers share an interest in containing the conflict 
        and avoiding its ripple effects. But, divided by opposing 
        agendas, mistrust and lack of communication, they so far have 
        been unable to coordinate their policies to that effect. Most 
        damaging, given Iran's enormous sway in Iraq, has been 
        competition between the U.S. and Iran and the conviction in 
        Tehran that Washington is seeking to build a hostile regional 
        order. Broad reassessment of U.S. regional policy will be 
        required, as will wide-ranging negotiations with Iran, whose 
        influence will not be checked militarily but mainly through 
        tough bargaining.
          There are other regional dimensions. The explosive question 
        of the Kurdistan region's boundary with the rest of Iraq 
        obliges the U.S. to define a clear and coherent relationship 
        with its North Atlantic Treaty Organization ally, Turkey, and 
        its Kurdish friends. It cannot address the question of al Qaeda 
        in particular and jihadi salafism more generally without 
        looking at its sources in Arab Gulf States.
          3. A long-term commitment to invest in and replenish Iraqi 
        human resources. Our obligations and responsibility will not 
        end after our troops have left. Iraq's human resources have 
        been sapped by years of sanctions, warfare and post-war 
        mismanagement. Much of the qualified middle class lives in 
        exile or is stuck in professional stagnation. The educational 
        system is eviscerated. Universities are dysfunctional, children 
        barely learn how to read and girls have been particularly 
        victimised. Blanket de-Baathification removed experienced 
        managers. Civil war dynamics in urban centres purged them of 
        less sectarian and more open-minded professionals. Oil-rich, 
        Iraq today is also humanly bankrupt. It will take decades to 
        recover and rebuild.
          To this end, Iraqis need training of civil servants, 
        scholarships and agreements with foreign universities. Refugees 
        also must be tended to. Many belonged to Iraq's middle class 
        and fled precisely because they were non-sectarian, were 
        unaffiliated with any given militia, and therefore lacked the 
        necessary protection. They should not be abandoned, left to 
        stagnate and languish but rather be prepared for their return. 
        Exile should be used to hone new skills that will facilitate 
        their eventual social reintegration. There is every reason to 
        assist host countries--Syria included--in that endeavor.

    This scenario does not constitute a clearcut victory under any 
realistic definition. But, in all likelihood, it represents the optimal 
outcomes at this late stage. At the very least, it is consistent with 
obligations incurred toward those who were sent to wage this war and 
toward those on whose soil it has, for their enduring misfortune, been 
waged.

    Chairman Levin. Thank you so much, Dr. Malley.
    Let's try 8 minutes for our first round of questions.
    I want to do something a little bit unusual, for me at 
least, and that's to spend my time asking our witnesses to 
react to each other's testimony. This is very powerful 
testimony from all three of you. It's very different.
    I want to start with you, Dr. Bacevich. If you would just 
take a couple of minutes, if you feel free, to comment on 
General Keane and any comment that you have on Dr. Malley's 
testimony. I'm going to ask each of you to spend a couple of 
minutes commenting on the other witnesses's testimony.
    Dr. Bacevich. I understand, Senator.
    I guess in response to General Keane I would want to raise 
two issues.
    The first issue is time. We've already been in Iraq, 
engaged in a war for over 5 years. Even to the extent that the 
surge has achieved some amount of improvement in the security 
situation, we have a long, long, long road ahead of us. The 
question of how long that road is, and I mean in terms of 
approximations. Nobody can say that it's going to be 18 months 
or it's going to be 24 months. But to some degree, the wisdom 
of continuing to go down this path has to be related to how 
long that road is, because the farther we go, the more it costs 
monetarily, the more it costs in terms of American lives. It 
seems to me that there's a tendency not to want really to 
address that issue directly. How long is it going to take?
    The second thing is that there's a real need, I think, to 
try to place the Iraq war back in some kind of a larger 
strategic context. What I was trying to suggest in my remarks 
is that the Iraq war came out of a particular vision of U.S. 
strategy that was devised by the Bush administration in the 6 
to 12 months following September 11, probably best expressed in 
the national security strategy of 2002, and that OIF was 
intended to demonstrate the viability of that approach to 
dealing with the larger threat of violent Islamic radicalism.
    In that context, it seems to me, this war has failed. This 
war does not provide us a paradigm or a model that somehow we 
are going to employ elsewhere in order to deal with that larger 
strategic threat, in order to make sure that another September 
11 on a worse scale doesn't happen.
    So, it sort of raises the question: What is the U.S. grand 
strategy? My own sense is that the perpetuation of the Iraq war 
doesn't lead to a strategy, doesn't produce a set of principles 
to help us understand how we're going to deal with the threat 
posed by Islamism. In many respects, the perpetuation of the 
Iraq war actually provides an excuse not to address that 
overarching question of, what are our guiding strategic 
principles?
    That would be my response to General Keane.
    Chairman Levin. Thank you, Dr. Bacevich.
    General Keane?
    General Keane. Yes. Thank you.
    I totally agree that we do not have a national strategy 
dealing with the war against radical Islam, given the fact that 
we will probably spend most of this century on that issue. I 
look back at the Cold War, where we did have a national 
strategy, one of containment, which transcended Presidents and 
different persuasions from political parties, but, in a general 
sense, different administrations supported that national 
strategy, that led to successful prosecution of the cold war. 
We are lacking that. There's no mistake about it.
    In terms of Iraq itself, I disassociate my comments with 
Dr. Bacevich that what we need to do is simply begin de-
escalation and withdrawal from Iraq. I would agree with that if 
it was measured based on the realities and the situation on the 
ground.
    In terms of the Army at large, I totally agree that the 
Army is too small. We have probably known that since the late 
1990s, if we're totally honest with ourselves about this. We 
took too deep a cut as a result of the peace dividend from the 
end of the Cold War and the dissolution of the Soviet Union in 
1991. Then we made another major mistake, post-September 11, 
that we did not grow our ground forces.
    Now, in fairness to all of you, nobody was putting in front 
of you a proposal to grow our ground forces post-September 11, 
either. That's the reality of it. Even the service that I am 
associated with was not fighting to grow the ground forces 
inside the Department of Defense (DOD) post-September 11, 
either. I just want to put those facts out there.
    The reality is, we are too small to counter the threats 
that are in front of us. The fact is the form of warfare by 
many of our opponents has changed. They know they cannot 
contest us directly with military arms and organizations, and 
they want to expose our vulnerabilities, which lead, by 
definition, to more protracted wars.
    Chairman Levin. Thank you.
    Dr. Malley?
    Dr. Malley. Just three quick comments on the testimony by 
General Keane.
    As I said, I think the surge has produced more than I would 
have expected, but we shouldn't fool ourselves, the 
reconciliation has been with us, not with the Iraqi Government. 
That's what this is about, and that's why it's not sustainable 
unless there is real reconciliation with the government.
    Second point. Yes, a number of benchmarks have been met, 
and some legislation has passed, but that really is not the 
measure of whether there is actually the building of a state 
that's legitimate and functional and recognized by all. These 
are pieces of paper that are being signed. Nothing has yet to 
be implemented. Most of the time, whatever is signed then gives 
rise to postponement of implementation or argument over 
implementation, which is simply another way to argue over the 
underlying legislation itself.
    Finally, on the operation in Basrah, which I continue to 
think was a very ill-thought-out enterprise. This was not a 
broadbased enterprise against militias. Some militias were 
participating in it. Ishmic Supreme Council of Iraq (ISCI) 
which is allied with Maliki, was participating on the other 
side of the battle; nor was it narrowly focused on the so-
called special groups. Let's call it what it was, it was 
another step in an internal Shiite civil war. The target was 
Muqtada al Sadr. I think that could have real consequences for 
us.
    Chairman Levin. Some months ago, according to the DOD 
document, the State Department, interviewing senior military 
commanders, said the following, that ``senior military 
commanders now portray the intransigence of Iraq's Shiite-
dominated government as the key threat facing the U.S. effort 
in Iraq, rather than al Qaeda terrorists, Sunni insurgents, or 
Iranian-backed militias.''
    Do you agree with that, Dr. Bacevich?
    Dr. Bacevich. I probably basically subscribe to that 
proposition, but would want to, I guess, expand on it a little 
bit. I'm not sure that there's any major group in Iraq that 
actually signs up to our vision of what Iraq is supposed to 
look like, whether you're talking Sunnis, whether you're 
talking Shiites, whether you're talking Kurds, or whether 
you're talking tribes. One of the likely fallacies of our 
efforts, at this point, is to assume that those who say they 
side with us, those who support us, those who take our money in 
return for setting down their arms, share our long-term 
purposes. In many respects--and, I think, here I agree with Dr. 
Malley--what the surge has done is to encourage a revival of 
tribalism to endorse the existence of groups that possess arms 
and probably have very little intention of surrendering those 
arms, and therefore, allowing the central state to ever 
exercise a monopoly of violence.
    So, I think my bottom-line point here is that we may be 
deluding ourselves in thinking that any amount of cajoling or 
encouragement or bribery can actually persuade different groups 
to buy into our vision of a legitimate, coherent Iraqi nation-
state.
    Chairman Levin. Do either of you have any comment on that? 
My time is up. If you could make it brief.
    General Keane. Yes. In reference to the Maliki Government, 
it's a challenge, to be sure. They've been growing in this 
position. They're certainly frustrating to work with. Maliki 
has probably got about a year and a half left in office. The 
Sunnis will be enfranchised in the next government. There'll be 
considerably more participation in it from that community. The 
coalition will change rather dramatically.
    But, the fact of the matter is, at our urging and with our 
assistance, Maliki has made some progress here. Pensions are 
now being paid, as well as amnesty for those who were fighting 
the government. He's permitting them to come back into the 
government through the de-Baathification program and to 
participate in the social fabric of life. That is the beginning 
of a government connecting with those who were disenfranchised.
    Chairman Levin. Thank you.
    Dr. Malley, do you just want to----
    Dr. Malley. I would, of course, echo that view and say, not 
only because of its intransigence, it's part of what's 
preventing----
    Chairman Levin. Oh, the view that I quoted?
    Dr. Malley. Yes, absolutely. But, also because the Iraqi 
Government's intransigence is what is threatening to undo the 
gains that have been made with Sunnis against al Qaeda and with 
the cease-fire with the Mahdi army.
    Chairman Levin. I've arranged with Senator Reed to take the 
gavel for about 45 minutes.
    First, Senator McCain.
    Senator McCain. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here.
    General Keane, was Prime Minister Maliki's move into Basrah 
ill-advised or ill-timed?
    General Keane. That's a great question. I think, from our 
perspective, we probably would have waited until the spring to 
conduct that operation. But at the end of the day, this is 
Maliki's country. He's impulsive. He got a lot of information 
just prior to that. I think he finally came to grips with the 
scale of the Iranian influence and the fact that it is 
threatening his regime, and how Sadr is tied into that 
influence. That resulted in the precipitation of that 
operation.
    Our commanders were working on a campaign for the south for 
some time, and had discussions with him, and I think it's 
through those discussions that illuminated the scale of the 
problem.
    So, yes, it would have been better if he waited a little 
bit further so we could have set the conditions, but the fact 
is, we had to get after this anyway. Now we're after it. It 
didn't start out right, but I'm convinced it will finish right.
    Senator McCain. In order to understand the adversaries, 
these are basically Shiite militias, a lot of which have been 
influenced by the Iranian training, supplies, and equipment. Is 
that correct?
    General Keane. That's absolutely true. They're not the only 
militias there, but the Iranians are influencing both sides. 
They do it through training, they do it through laundering 
money, and they do it through diplomatic influence. They take 
some of the sheikh and tribal leaders, and bring them over to 
Iran to show them that Iran is a stable country, friendly to 
them. Their malign influence has been growing for some time in 
the south.
    Senator McCain. In Mosul, where we have another battle 
raging, my understanding is it's going to go on for a couple or 
3 months, it is al Qaeda--Sunni extremists, primarily that 
we're struggling against there.
    General Keane. Yes, there are two security operations in 
front of us. One is in Mosul, which are the remnants of al 
Qaeda. This is not the al Qaeda that we were fighting in Anbar 
Province or the al Qaeda that was in Baghdad and certainly not 
the al Qaeda that was in Baqubah. We will finish that campaign, 
in my judgment, in a few months. I think then the command 
itself will be able to admit that AQI are operationally 
defeated. I believe they already are, but that campaign will 
finish it and remove any doubt about it.
    Senator McCain. Dr. Bacevich, do you have a differing view 
on that tactical situation on the ground?
    Dr. Bacevich. No, sir.
    Senator McCain. Dr. Malley?
    Dr. Malley. Just, again, to come back to the question of 
Basrah. I think there are two questions. It appears to be ill-
timed, and your questioning, yesterday, I think, of General 
Petraeus brought out that we would have done it differently and 
at a different time.
    I think it goes deeper. It was not just ill-timed, it was 
ill-conceived. This was not an operation, as I said, against 
militias. ISCI has a Badr Corps. It was formed by the Iranians, 
it's funded by the Iranians. They were not going after 
militias, they were going after a particular group. They didn't 
go after Fadhila, which also has a militia which has been 
flouting the law in Basrah for a long time.
    Maliki should not have been involved in it. We should not 
have been involved in it and dragged into it with our air 
support and special forces, which may cost us in other ways.
    Dr. Bacevich. Senator?
    Senator McCain. Dr. Bacevich, yes, but could I just say 
before you comment on that; I want to express all of our 
sympathy for the tragic loss of your son, and thank you for his 
service to our Nation.
    I would like for you to comment on that. But, also would 
you comment on your testimony, where you said we should have 
vigorous diplomatic efforts. How would you envision that? Would 
that also include face-to-face talks with the Iranians?
    Dr. Bacevich. Yes, sir. Could I go back to the previous 
issue just for a second?
    Senator McCain. Sure.
    Dr. Bacevich. I hate to make one of these horrible Vietnam 
comparisons, but when I was reading the news reports about the 
Basrah operation, I have to admit the thing that came to mind 
was Lam Son 719, which, remember, well into the Vietnamization 
project, this was supposed to be the unveiling of the new Army 
of the Republic of Vietnam.
    Senator McCain. Incursion into Laos.
    Dr. Bacevich. Right. It turned out that it didn't go well. 
It does seem to me that there's some, at least, echos of that. 
I mean, we've been trying hard for 5 years to build up the 
ISFs, and all I know is what I read in the newspapers, but it's 
hard to see that their performance was especially 
distinguished, which again brings us back to the time issue 
that it would appear to me that we have a long, long time 
before we're going to have that force built up to the level 
it's going to be able to handle the security requirements.
    Yes, sir, I did refer, in my comments, to diplomatic 
effort. I do subscribe, I think, in general terms, to the 
proposal made by the Iraq Study Group almost a year and a half 
ago, which I take to be based on an assumption that would have 
to be tested, but an assumption that there is a common interest 
in the region.
    Senator McCain. How do you test it?
    Dr. Bacevich. You test it by beginning discussions with 
other regions in the Nation. A common assumption is that we 
have a common interest in stability. We share a common interest 
in avoiding having Iraq or the disintegration of Iraq end up 
promoting a larger chaos in the region. Yes, sir, I believe 
that one would necessarily have to include Iran in that 
conversation.
    Senator McCain. Just to clarify, again, that the insurgency 
in Mosul is al Qaeda. There are other Sunni extremists, as 
well, aren't there, that they're battling against in Mosul?
    General Keane. Yes, they are aligned with some Sunni 
hardliners that are still fighting us. So, they do have some 
Sunni support structure, as they had in other provinces, as 
well.
    Senator McCain. Dr. Malley, I'd be interested in your 
comment about direct talks with the Iranians, and also any 
comment about the situation in Mosul, as well.
    Dr. Malley. On the Iranians, obviously, we have talks with 
them already. They're limited in Iraq.
    Senator McCain. Yes, but I think you would agree there's a 
difference between the kind of encounters that Ambassador 
Crocker has had, as opposed to a full-blown face-to-face 
discussion.
    Dr. Malley. Absolutely.
    My view is, it is a fallacy that we tend to view engagement 
as a prize that we withhold or nonengagement as a punishment 
that we inflict. I think we should be negotiating, with tough, 
tough positions, and not sacrificing our principles with Iran 
or with Syria.
    In the case of Iran, as I said earlier, I don't see how we 
could stabilize Iraq at the same time as we're trying to 
destabilize Iran. Iran is closer, has more ties, has influence 
in the government, in the opposition, in the tribes, and in the 
militias. We can't simply pretend that's not the case.
    I think we're going to have to talk to them. We're going to 
have to negotiate with them on the full range of issues, 
whether it's the nuclear issue, whether it's Iraq, or whether 
it's the support for militant violent groups in the region. 
That's going to have to be done, because, so far, the 
alternative, which has been not to talk to them, certainly has 
not served their interests.
    Senator McCain. Dr. Bacevich, finally, you made reference 
to the Vietnam war, and I think we are all in agreement about 
how overstressed the military is, and how tough it's been, and 
the unwise reductions in the size of the military that took 
place in the 1990s, the so-called peace dividend. Would you 
argue that a defeated military also has some devastating 
effects that take a long time to cure?
    Dr. Bacevich. Yes, sir. But, I'd agree with General Keane 
that there's no way we can possibly be defeated, and a strategy 
of deliberate, phased withdrawal, to my mind, does not 
constitute defeat.
    Senator McCain. Thank you.
    My time is up.
    Thank you, Mr. Chairman.
    Senator Reed [presiding]. Thank you, Senator.
    Senator Kennedy.
    Senator Kennedy. Thank you.
    Thank all of you.
    I'd like to come back to get your views on this, Iran in 
Iraq. We've heard a great deal about it during the testimony of 
General Petraeus. We've heard a great deal about the radiant 
support of various kinds of units that are out there 
threatening the security of American forces. We have allies who 
are over there, who are welcoming the Iranians in celebration 
of their leadership. We have Iranian diplomatic leadership that 
evidently played a role, in terms of establishing a cease-fire, 
which we've welcomed. It seems that we, as a country, never 
anticipated, in the involvement of the war that we have in 
Iraq, the role of Iran. Maybe we did, but maybe we didn't. 
Either we ignored it or we didn't anticipate it.
    Dr. Malley was talking briefly about this in response to 
the other question; but it does seem to me that we ought to 
have a better kind of understanding about whose side are they 
on and how we ought to be dealing with the process, because it 
does seem to me that they are convenient targets. Maybe they 
should be. What should we be thinking, and how should we be 
dealing with it?
    I'll start with Dr. Malley, and then if each of you would 
take a couple of minutes on it. I appreciate it.
    Dr. Malley. Several comments. First, it's true that 
throughout this war we've tended to look to outside causes for 
the failures that we've faced. One day it's Iran, one day it's 
Syria, then we find another. I think there is that tendency, 
whereas so many other problems are homegrown.
    That being said, there's little doubt that Iran is pursuing 
what can be described as a policy of managed, and sometimes 
less managed, chaos in Iraq. They see us tied down. They don't 
want us to turn our attention to them. They think we are 
bleeding, strategically and militarily. So, it's perfectly 
logical for them to be pursuing a policy of investing in as 
many actors as they can in Iraq. They've been proficient at 
this for a long time, much more proficient than we could ever 
be working with the Kurds, the Shiites, or with militias inside 
and outside of government, including militias that are fighting 
each other. They used to do that in Lebanon, as well. They're 
very good at it, and they'll continue to do it.
    The question is: What do we do? What is our approach? I 
always judge a policy by whether it succeeds or fails. Iran is 
continuing its meddling in Iraq, and it's harmful meddling in 
Iraq, in terms of our interests. It's continuing to enrich 
uranium, it just announced that it's going to expand it. It's 
continuing to support Hamas and Hezbollah. None of the criteria 
that we would judge to see whether our approach of containment 
and isolating and not talking, whether it's succeeded, points 
to success. On every single criteria, things are the same or 
getting worse. At a minimum, that argues for reassessment, and 
I would say it argues for the kind of tough, clear-eyed 
negotiations, bargaining with the Iranians, to see whether, in 
fact, we can reach agreement on an end state for Iraq which is 
not either one of our ideal situations, but with which we both 
could live, perhaps even the ways in Iranians and us have 
similar interests in Iraq. Neither one of us wants to see it 
descend into chaos and spill over into Iran.
    So, I think we need to have that discussion. It hasn't 
taken place. There's so many reasons, from the nuclear 
proliferation to stability in the Middle East, and, most of 
all, the security of our troops in Iraq, why that discussion 
needs to begin.
    Senator Kennedy. General Keane?
    General Keane. Yes, Senator. As I indicated before, one of 
the problems we had, certainly, with the change in strategy in 
Iraq, we were completely preoccupied with al Qaeda and the 
threat of the Sunni insurgents and the fact that they were 
winning and our policy was failing and Baghdad was a bloodbath. 
So, that has preoccupied us for 2 years, to rid ourselves of 
that. Obviously that has occurred.
    Meanwhile, the British were pulling back from the south, 
and we lost a lot of our situational awareness as that has 
occurred, and we turned it over to the Iraqis. While they have 
some human intelligence, they don't have the enablers that we 
do. So, a lot of what was happening in the south, we did not 
have the kind of resolution that we should have. Nonetheless, 
we know that Iranians' goals are very clear: they want us to 
fail in Iraq, and they want a stable government in Iraq that's 
friendly and aligned with them; but aligned with them is very 
important, and not aligned with the United States.
    I think the essential problem--I do agree with Dr. Malley, 
here--is that we do not have a national policy, in terms of 
defeating Iran in Iraq, or a regional strategy to deal with 
that. We should not leave this up to General Petraeus and 
Ambassador Crocker to work this out by themselves. They are a 
part of that fabric, and they have some of the tools to apply, 
for sure; but, we need a broader path than that to help them 
with that strategy. I do think we can. We have to, certainly, 
understand what are Iran's interests here. The fact that they 
want a stable Iraq, as we do, is a beginning for both of us to 
deal with this issue.
    Senator Kennedy. Dr. Bacevich?
    Dr. Bacevich. Again, I think the place to begin is trying 
to ask the larger strategic question. I mean, it seems to me 
that, to a very great extent, we tend to still think of Iran as 
this seat or source of Islamic revolution that they are intent 
on exporting around the world. I mean, after September 11, when 
President Bush lumped Iran into the so-called Axis of Evil, 
this sort of revived this image of a state with which we can 
have nothing to do, and that poses a threat to our vital 
interests. I think the basic image is false.
    The Islamic revolution in Iran is a failure. They're not 
going to export their revolution anywhere. Iran does not pose a 
threat to our vital interests. Iran is a mischiefmaker. In that 
sense, therefore, it seems to me that we should be more able, 
more willing, as I think Dr. Malley was suggesting, to try to 
at least understand, not necessarily empathize or agree with, 
how they define their security requirements and their security 
concerns, which are real, and then use that as a point of 
departure for engaging in a dialogue. A dialogue is not simply 
waving the white flag. A dialogue is a serious, tough-minded 
negotiation that tries to determine whether or not we have some 
common interests that can at least alleviate the kind of 
hostile relationship that we've had for the last 30 or 40 
years.
    The Iranians are not going to go away. They're going to be 
the neighbor of Iraq for as long as there is Iraq. So, it's 
quite understandable, it seems to me, that the Iraqis are going 
to have a rather particular view of Iran that may well differ 
from our own.
    Senator Kennedy. Thank you very much.
    My time is up. Thank you, Mr. Chairman.
    Senator Reed. Thank you, Senator Kennedy.
    Senator Sessions.
    Senator Sessions. Thank you very much.
    Thank you, panelists, for your testimony.
    Dr. Bacevich, I would think about your statement that a 
strategy of deliberate, phased withdrawal does not constitute 
defeat, I would say that it doesn't necessarily constitute 
defeat, but it could precipitate a defeat. It is a withdrawal 
policy, as I understand it, at least the one that's being 
discussed publicly around here, that's a withdrawal not tied to 
the conditions on the ground, and I believe it could put us in 
a position of defeat, which Dr. Malley says would be very 
detrimental to the United States and the region.
    General Petraeus has his Ph.D. at Princeton University and 
was number one in the General Staff College class. He has been 
3 years in Iraq. He was in Mosul with the 101st. He trained the 
Army for a year on another tour. Now, he came back and wrote 
the counterinsurgency manual for the United States of America. 
He has testified here that, in his view, a withdrawal should be 
tied to the conditions on the ground.
    General Keane, thank you for your participation in helping 
to draft the surge policy. I know that was a philosophy you 
thought would work. You did not believe our current policy was 
working. General Petraeus and General Odierno and others have 
executed that, and it has, as Dr. Malley said, achieved more 
than any of us would have thought possible.
    So, I have to tell you, when faced with a choice, I'm going 
with General Petraeus' recommendation. If he needs a few 
months, he says a pause, I think he's entitled to have that. I 
believe, despite all the difficulties that we've had, and I 
have to tell you, 2 years ago I was worried, I was very 
concerned about the status of our situation in Iraq, and I 
remain concerned about it. I certainly favor the withdrawal of 
our troops as soon as we can possibly do so.
    General Keane, you have provided an optimistic view here. 
You're a four-star general, 37 years in the military, not a 
Pollyanna. You see progress being made, real progress being 
made. Senator Collins, yesterday, sort of asked a question I 
think Americans are asking, ``Okay, the violence is down, but 
what are we looking at, 2, 3, 4 years down the road? Can we see 
further troops withdrawn, and can we see a stable Iraq?''
    Give us your best judgment, based on your experience and 
the number of times you've been over there--I don't know how 
many, but quite a few--give us your best judgment of what we 
can expect to achieve and what kind of result might occur if we 
follow the Petraeus recommendations.
    General Keane. Yes. Thank you, Senator.
    I understand some frustration. I mean, our leaders coming 
before this panel are reluctant to cast too much of a crystal 
ball, here, into the future, because they also know that 
previous leaders have done that, and have lost credibility in 
doing it, because of events that are not controllable sometimes 
in Iraq, and so, I understand that.
    But, when I look at this situation, we have really turned a 
corner here, and the strategy is working. The security 
situation that we all wanted to have has enabled the Maliki 
Government to make some genuine political progress with 
reconciliation. I mean, that is actually happening, and I know 
that for a fact, because I talked to the people who are the 
beneficiaries of that. So that, I am convinced of.
    Now, there's still a check in the mail with some of that, 
to be sure, because we have more implementation of the national 
legislation to take place. But, the big decision has been made 
by the Maliki Government, and that is that the Sunnis and the 
Sunni leadership, they know, is going to be a part of the 
fabric of their government and the fabric of Iraq, and they 
understand that, despite the fact that many of those Sunnis 
repressed them for 35 years. This has been a difficult 
psychological, emotional hurdle for them to get over. There are 
still residue of paranoia and fears there as a result of it, to 
be sure.
    But, when I look at this situation, we will finish al Qaeda 
this year in the north. The situation in the south, despite the 
serious Iranian influence, we do have to deal with the Shiite 
militias and bring the level of violence down, regardless of 
who those militias are. That will happen. It's not as 
formidable a task as dealing with al Qaeda and a Sunni 
insurgency. That will happen in 2008, as well. I think the 
intent is certainly to drive that so that in the fall of this 
year, the elections all over Iraq, but particularly in areas 
where there's still violence, that the elections in the south 
will be a free and open election and people will be able to 
express themselves. That, I think, is a very attainable goal.
    In my own mind, I don't think we should probably reduce 
forces any more in 2008 than the 25 percent we're going to 
take, but if General Petraeus thinks that we can do more 
because the situation has improved dramatically, so be it. My 
judgment tells me that's not going to be the case.
    However, in 2009 I do think we'll continue to reduce our 
forces, and I believe that probably late 2009 or 2010, the 
mission for our forces in Iraq--and this is important--will 
change. We will not be protecting the people, which absorbs a 
lot of force levels. The ISFs will be doing that. Our mission 
will transition to one of assisting and training them, and no 
longer protecting the people. That brings the force levels down 
rather significantly, and also the casualties are changed; if 
there is still violence in Iraq, it will be at a level that the 
ISFs can handle.
    Now, I don't believe this is an open-ended commitment to 
Iraq. I think what should be open-ended to Iraq is our 
political alliance with them and the fact that we do want to 
have a long-term security relationship with Iraq, but certainly 
we don't need to have forces in Iraq at the levels that we're 
at now on some open-ended contract. The conditions on the 
ground are going to change favorably that will permit us to 
continue to reduce our forces.
    Now, does that come close to what you were seeking, sir?
    Senator Sessions. Well, it certainly does. Would you say 
then, that with regard to withdrawal, DOD, General Petraeus, 
actually, and certainly Members of Congress, would like to see 
our troops withdrawn? The debate is over what rate, perhaps, or 
just how fast, and, really, how much of a gap do we have 
between the competing visions politically that we're hearing 
about on the question of withdrawal, in your opinion?
    General Keane. Well, I agree with that. I think much of the 
discussion has to do with the pace and the rate of reducing our 
forces. It's a given we're going to reduce our forces. General 
Petraeus knows that, Ambassador Crocker knows that. But, they 
want to do it on a measured basis, they want to do it based on 
the Iraqis' capability to take over, and also the enemy 
situation on the ground. That's reasonable, in my judgment, and 
particularly in view of the mistakes that we have made in the 
past in this area. Certainly they are influenced by those 
mistakes. I think it's prudent that the command comes before 
you and say they want to err on the side of caution here, and 
they want to take a measured approach to this, and they want to 
take a pause, and consolidate and evaluate where we are.
    Nobody in Iraq knows what the impact of the 25-percent 
reduction of our combat forces will be. To give you a sense of 
it, in Baghdad we will go from 30 U.S. battalions to 20. A 
third of the U.S. battalions will be gone. That's happening as 
we speak. In Anbar Province, we will go from 15 U.S. battalions 
to 6. Now, anybody looking at that knows that's a significant 
military reduction. We believe that the Iraqis will mitigate 
that, in terms of their own capabilities. We also believe that, 
because of the Sons of Iraq program and the Sunni insurgency, 
and the leaders who are helping us, that that is another 
mitigation. Those things should hold and permit us to make that 
reduction without any increase in violence; actually, with the 
violence going down. That's the goal. But, nobody knows for 
sure if that's going to happen.
    So, I think it's prudent for General Petraeus to say, 
``Look, I want to see what's going on, here. I want to see if 
those assumptions we're making are holding,'' and make certain 
of that before we take what could be unacceptable risks and 
reduce our forces further. I think that's what this is about. 
What they're doing makes sense to me.
    Senator Sessions. Thank you very much, all of you. The 
surge was a bitter pill for us. We were hoping we were on a 
downward trend at that point, but the success of the surge has 
exceeded our expectations to date. I thank you for your 
projections of the future, I think sometimes our military 
leaders are afraid to give theirs because it looks like they 
can't be certain; they don't want to be accused of being a liar 
if they turn out to be incorrect. Thank you for your experience 
and your advice.
    Senator Reed. Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    General Keane, the transition you're talking about is very 
comparable to what Senator Collins and I and others have 
proposed with the transition from providing security in Baghdad 
at the level we've been providing it, doing it alone, but by 
bringing in the al-Maliki Government security forces to provide 
more of their own security to transition, so that we can put 
more combat troops in the north, and we would have had, if we 
had done this previously, more combat troops in the south, 
which probably would have avoided what happened. While we 
commend Prime Minister al Maliki for standing up to the 
militias in the south, we wish that the result had been better 
at the beginning, and perhaps it will work out over time.
    But, couldn't we be beginning that process of transitioning 
now? Aren't we, in effect, doing it? Why don't we admit that we 
are, in effect, doing that, and, at the same time, build toward 
the residual force, so we know what we can do? Wouldn't that be 
a better way of planning what the future in Iraq is? The 
conditions on the ground would dictate how fast you can go, and 
the commanders on the ground can make the decisions so that we 
don't arbitrarily set dates, but can't we at least begin and 
ask for a planning process that would start the transition as 
soon as possible, in my opinion, now?
    General Keane. The transition has begun, Senator.
    Senator Ben Nelson. Then we had the resistance to Nelson-
Collins type of legislation, which said that that's what we 
should be doing, and we proposed that a year ago?
    General Keane. I think that the command does not want to be 
tied down by any timetable.
    Senator Ben Nelson. We didn't have a timetable.
    General Keane. They don't want to be tied down for when 
missions have to change.
    Senator Ben Nelson. We didn't put that, either.
    General Keane. They want maximum flexibility because 
they're dealing with an enemy, and the enemy has a vote on what 
we're doing.
    But, in terms of transition, to be clear here, we have 
places in Iraq, a number of them, where the Iraqis are clearly 
in the lead now, and we are in a supporting role, and we have 
made those transitions. That will be a gradual transition.
    Now, they want to be measured about this, because we've 
made mistakes about this in the past. It's easy to get 
impressed with your own plan and to start seeing results that 
may not be there, and that's happened to us. So, these 
commanders know that, and they go through a very detailed 
evaluation of what the Iraqis military capability is. They are 
transitioning them.
    Senator Ben Nelson. That's why we've said that the forces 
on the ground and conditions on the ground would dictate how 
fast this would go without a timetable. But, we've had 
resistance to the legislation, which has absolutely surprised 
me, because the only timetable that we put in there was that 
the transition should begin immediately and have goals to be 
achieved over some period of time, but conditions and 
commanders on the ground would dictate when and how and under 
what circumstances. I guess I was puzzled then, and I'm puzzled 
now, as to what the opposition was to our bill.
    I'd like to go to questions. Dr. Bacevich, I believe you 
said that Iran is a mischiefmaker. But, in terms of Hezbollah 
and Hamas and what they've been able to do in the region, at 
what point are mischiefmakers very successful in providing 
terrorism, at least within the region? Are we understating 
their impact when we say mischiefmakers, or do we have to say 
that they're full-fledged terrorists supporting state-sponsored 
terrorists for the region?
    Dr. Bacevich. Senator, I'll stick with mischiefmaker, but I 
don't mean to imply they are trivial, or be dismissed or 
ignored; I don't mean that at all. I understand the importance 
of noting their support for terrorist organizations, but those 
organizations don't pose anything remotely like an existential 
threat to the United States of America.
    Senator Ben Nelson. Well maybe not existential, but in 
terms of the turmoil of the Middle East, it does have an impact 
on us in many respects. Maybe, perhaps, it's not existential.
    Dr. Bacevich. Yes, sir. Again, I'm not trying to suggest 
ignoring that, but it does seem to me that one needs to take a 
broader view of Iran than simply to say that this is a country 
that supports Hezbollah and Hamas. This is a country that, as I 
said earlier, has failed in its effort to sponsor the spread of 
revolution. It's a country that does have serious national 
security considerations. We cannot ignore the history, Iran 
does have reason to view the United States as something other 
than a friendly democracy wishing the people of Iran well. So, 
I would not want the fact--and it is a fact--of their support 
for Hezbollah and Hamas to somehow act as kind of a veto or the 
determinant of what U.S. policy toward Iran would be.
    Senator Ben Nelson. General Keane, General Shinseki 
advocated that a larger force would be necessary to go into 
Iraq, and that advice was not followed. If that advice had been 
followed and a larger force had been placed in Iraq at the very 
beginning, and had been maintained there at higher levels, 
would there have been a need for the surge?
    General Keane. Yes, because there was much more of a 
problem than just force level. Now, to be quite accurate, 
General Shinseki's comments about size of force, actually, 
before this committee, as you probably know----
    Senator Ben Nelson. Yes, I was here.
    General Keane. --and a result of Senator Levin's 
questioning of him, and it had to do with the size of the force 
to provide stability and support operations in what was called 
phase 4, after the invasion, just to be specific about it.
    Senator Ben Nelson. Okay.
    General Keane. One of the things I think we did, as 
military leaders--and I was there at the time--is, I think we 
let down the Secretary of Defense and also the administration, 
in the sense that when we were dealing with the invasion plans 
that General Franks was putting together, none of us, and 
particularly the ground leaders, who have a little bit more 
sense of this, challenged the possibility that Saddam Hussein 
could choose not to surrender and to continue to fight us 
through other means. If we had done that, that would have 
caused us to think through the assumptions of what that is, the 
nature of that war, and then what kind of a force would we need 
after the invasion if such a thing occurred. I think it also 
would have spun us up on a lot of what we had forgotten about 
this kind of war itself. We would not have stopped Saddam from 
doing it. We've talked to all of his leaders; we have them in 
detention. We know that 6 months prior to the invasion they 
were making those plans, now. But, the fact is we would have 
been better prepared for it when it did occur, and maybe we 
would not have made as many policy mistakes that first year 
that we made. I mean, we still suffer from that incredible 
sequence of major policy errors that we made in the first year, 
and I think possibly we could have been in better shape for all 
of that.
    I think we bear some responsibility, ourselves. It's a 
shared responsibility, civilian and military leaders, certainly 
when it comes to war plans and execution of national policy. 
But, in the same respect, this is our lane, and we know a lot 
about it, and I don't think we did as good a job here as we 
could have.
    Senator Ben Nelson. Mr. Chairman, if I could just follow up 
on that.
    I remember, in a closed session, before the invasion of 
Iraq, asking Secretary Feith to give us some indication of what 
plans were in place to keep security if, in fact, the decision 
has been made to go in, or it hasn't been made and it is 
ultimately made to go into Iraq. What is the plan for phase 2? 
I received a stack of papers sometime, I think, in August, 
after phase 2 was obviously not succeeding because we weren't 
prepared to help them keep the peace, we had fired the 
military, and things were in shambles.
    General Keane. Yes. That doesn't surprise me.
    Senator Ben Nelson. Thank you.
    Thank you, Mr. Chairman.
    Senator Reed. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    It seems to me that the question that we're all facing is: 
Will the pause in the drawdown of troops after July allow for 
continued progress, or does it ease the pressure on the Iraqis 
to continue to take over more responsibility for their own 
security and to continue to meet the political and economic 
benchmarks that everyone agrees are essential for the long-term 
stability of Iraq? So, I'd like to ask each of you your 
judgment on that question. What is the impact of the pause of 
not continuing to drawdown in a gradual and responsible way, 
but, rather, holding back? There's a lot that's going to occur 
during that period if it goes beyond the 45 days that General 
Petraeus indicated is likely, yesterday. We run into, for 
example, the provincial elections that are going to occur in 
October, if they occur as scheduled. So, I'd like to get an 
assessment from each of you on what you believe the 
consequences of the pause will be.
    We'll start with you, Doctor.
    Dr. Bacevich. Well, the pause is not a policy. The pause is 
really just a way of avoiding, I think, or deferring, 
fundamental policy decisions. But, I have to say, I personally 
don't think that the pause will matter much, one way or the 
other. I say that because this is, I think, one of the areas 
where General Keane and I would just radically disagree with 
one another--I don't believe that we're really in charge in 
Iraq. I don't really believe that the efforts that are being 
made by U.S. officials or U.S. commanders to promote 
reconciliation really are shaping the course of events. I think 
events are much more likely to be shaped by the Iraqis 
themselves, and, again, not to repeat myself, that the various 
groups in Iraq are responding to their own particular agendas, 
so that, in the larger sense, Iraq is going to follow a 
trajectory that's going to be determined by Iraqis. The notion 
that staying a little bit longer or slightly accelerating the 
rate of U.S. withdrawal, or pausing the rate of withdrawal, is 
going to make a major difference strikes me as simply a 
fundamental misreading of the situation.
    If there is one thing that the Iraq war ought to have 
taught us, it is that American power is far more limited than 
we imagined back in the salad days of the 1990s, when we were 
proclaiming that we were the world's only superpower, an 
indispensable nation. It ought also have taught us that our 
capacity to understand these societies, to understand the 
dynamics that sort of shape the way they evolve, is not all 
that great.
    Senator Collins. Thank you.
    General Keane?
    General Keane. Yes. I think it certainly is a temporary 
situation. In my own view, its intended purpose will be 
accomplished. General Petraeus will be given the opportunity to 
assess whether the ISFs are able to mitigate the reduction 
that's taking place and, therefore, take over responsibilities 
that heretofore we had. Also, the so-called Sons of Iraq 
program, in terms of its viability; is that still supporting 
our efforts? That will take some time to understand that. I 
think it probably takes longer than 45 days.
    I also think, Madam Senator, that we should prepare for the 
likelihood that we may not resume reductions, in 2008, which, 
in my view, may be the case. Why is that? We want to reduce, so 
why does that make any sense? Well, the fact of the matter is, 
we have three major events that are occurring in 2008 that 
we're very much involved in, two military and one political.
    One is, we want to finish al Qaeda off, up in Mosul. We 
think we will do that in a number of months, and actually we 
think it'll probably be completed around the fall timeframe. 
But, there are variables there. The enemy has a vote. We will 
finish them, but it may take longer. Our judgment is, it will 
not.
    The operation in the south, which is just beginning, and 
let me say that, we can be so super-critical of military 
operations. You heard General Petraeus say that the operation 
in the south in many of the provinces that the ISFs performed 
very well; and in some of them, they did not, and it was 
uneven. So, we know enough about this ISF to know that their 
improvement has been very steady, and, overall, they're going 
to acquit themselves well in what they are doing, in my view. 
But, it will take some time. As I said before, this is not al 
Qaeda, and this is not mainstream Sunni insurgents we're 
dealing with. We have to shut down the level of violence and 
the gangs and the thugs down there, and I believe a lot of them 
are going to run from the force levels that we will apply. That 
should be completed before the fall election, which is what 
Maliki's motivation is, here. But, it may not.
    Then we have the fall election itself. This is a watershed 
political event in Iraq that will change Iraq for years to 
come, because this Maliki Government that everyone is kicking 
is willing to share power and decentralize some of its 
authority with those provinces, which means those provinces 
will have real budgets, money will have to be distributed, 
there'll be a percentage and a framework to do all of that, and 
there will be significant demands being placed on a central 
government by those provincial leaders, who are duly elected by 
the people in those provinces. We want that watershed political 
event to succeed. Our opponents in Iraq will want it to fail, 
and we cannot let that happen. We don't even want it to be 
delayed. We don't want it to go into 2009. That watershed 
experience is important to us. So, that's the third major thing 
that we have to do in 2008. During this, General Petraeus and 
his commanders are assessing the impact of the 25-percent 
combat force reduction.
    So, I think, in my own mind, we should not be too 
optimistic that: (1) he will be able to do that assessment in a 
short period of time; or (2) that, as a result of his 
assessment, he's going to come back and say that he's going to 
continue to reduce forces in 2008. I think the plate is very 
full for us in 2008, and we are taking a fair amount of risk 
with the 25-percent reduction that's already ongoing.
    That's the most frank answer I can give you. Does that 
answer your question, Senator?
    Senator Collins. It does. Thank you.
    Dr. Malley?
    Dr. Malley. Senator, as I said in my testimony, I believe 
in pressure. I believe we have to pressure the Maliki 
Government, and I also believe that probably the most potent 
form of pressure we have is the question of our troops.
    That said, I'm not a big believer in subtle signals; I much 
prefer blunt language. I'm not sure that whether we pause or 
don't pause, as has been said earlier, is really going to 
convey the message we want to convey. We don't know how Maliki 
would read the pause or a further withdrawal. We don't know how 
he would react or how other Iraqis might react. Would they see 
it as a signal that we're actually serious about withdrawing, 
and therefore, try, perhaps, to find other allies elsewhere? 
Would, on the contrary, they see this as a reason to take more 
responsibility?
    As I said, a signal such as this, I think, is going to get 
lost in translation. I think there needs to be blunt language, 
a clear message to Maliki, not that we're withdrawing 25 
percent or more, but, ``We cannot stay if you don't take 
certain steps,'' and we should be clear about what those steps 
are: passing and then implementing certain legislation; 
cleaning up some of the security sector that has been 
infiltrated by sectarian groups; and reaching out to some of 
the Sunnis who are looking for jobs; those are the concerned 
citizens. We should have clear tests for reaching a broad 
national compact. If he doesn't do them, then we should say, 
and we should be clear about it, ``Then our troops cannot stay, 
because then you're asking us to stay for an enterprise that 
has no end and that has no purpose.'' But, I'm not a big 
believer in subtle signals, at this point.
    Senator Collins. Thank you.
    Senator Reed. Thank you very much, Senator Collins.
    In 5 years of effort and extraordinary sacrifice by our 
service men and women, there are some, I think, strategic 
consequences that are becoming more palpable. One, ironically, 
is that we replaced a despicable government in Baghdad, but an 
implacable foe of the Iranians, with a government that is very 
friendly to the Iranians personally, politically, culturally, 
and religiously. So, General Keane, if our national need is to 
define a strategy to defeat Iran in Iraq, how do we do it with 
the present Government of Maliki, which is extremely 
sympathetic and personally connected to the Iranian Government? 
Do we replace them with a Sunni Government? Do we replace them 
at all? What do we do?
    General Keane. Well, I think it's a good question, and a 
reasonable one.
    First of all, this government will be replaced through a 
general election, in any event, in less than 2 years. I'm 
talking about the Maliki coalition.
    Second, it's been, I think, very fascinating to watch 
Maliki since he took office, and the weakness of his coalition 
and the growth of him in that office. Listen, it's been 
frustrating for our people who deal with it. Much of it's two 
steps forward and one back, and then one forward and two back, 
to be sure.
    Maliki is a realist, like the other national leaders are. 
Iran is a neighbor, they're always going to be there. The fact 
is, the United States is not always going to be there. That is 
probably a harsh reality.
    The point is also, and this sometimes is lost, they are 
Iraqi nationalists, and they feel very strongly about that. 
They do not want to be in bed with the Iranians. They do not 
want the Iranians to have undue influence in their country. 
They do not want the Iranians using leverage and the assault 
that they've made on the south--politically, diplomatically, 
and economically--to have that kind of influence on the central 
government.
    Now, they also have relations with Iran, and that's to be 
sure, and they have ties to it. Some of them lived in Iran 
during the terrible periods of Saddam Hussein. But, at the end 
of the day, my view is, they are nationalists, they clearly 
want to be aligned with the United States of America, they 
clearly want a long-term security relationship with the United 
States of America. They believe their future is with us in that 
region. At the same time, they want to have good relationships 
with their neighbors, and Iran is one of them.
    Senator Reed. Dr. Malley, your comments? You seem to 
suggest that that might be incompatible to some degree.
    Dr. Malley. I would certainly agree with your comments. I 
think we do have, today, a policy that's at war with itself. I 
don't understand how we could be saying, on the one hand, that 
Iran is the major threat to Iraq--which it may be; I'm not 
going to argue that point, one way or another--but that our 
allies in Iraq view themselves as very closely tied to Iran. 
You described it very well, that there are so many ways in 
which, in particular, Mr. Hakim and his party were born, bred, 
and flourished in Iran. So, the notion that we now have a part 
of the Shiites turning against the Iranians by turning against 
Muqtada al Sadr, I think, is just wrong. You have both sides 
that are supported by Iran.
    Again, if you look at the case of Lebanon, that's not 
unique. Both Hezbollah and Amal were supported by Iran, and at 
some point they were at war with one another, and Iran played 
one against the other, and sometimes mediated.
    But the notion that this is what's happening now, that the 
Maliki Government is disentangling itself from Iran, I think, 
is wrong. Again, I think that's why, ultimately, we're going to 
have to find some accommodation with Iran, or at least we're 
going to have to try. I don't want to sound Pollyannaish. It 
may be that our interests are too incompatible. But we're going 
to have to go to the source, we're going to have to try, 
because right now we have a government in Iraq in which we are 
investing huge sums and military personnel that is allied with 
the party we say is threatening our interests in the region and 
our interests in Iraq more than anyone else.
    Senator Reed. I want to ask Dr. Bacevich the same question, 
but I want to follow up quickly with just another question. If 
the Maliki Government is successful in suppressing the Sadr 
militias, which they view as their threat from the Shiite side, 
would they turn their attention to Sunni militias? Would they 
turn their attention to try to reduce these Concerned Local 
Citizens (CLC) groups that we're sponsoring, either directly or 
overtly? Or would the CLCs see themselves as being under undo 
pressure now that a militia group has been successfully 
eliminated from the scene?
    Dr. Malley. Well, first, I actually don't believe in the 
suppression of the Sadrist militia. I think it's a social 
phenomenon as much as a military one, and it has far deeper 
roots, incidentally, than either Maliki or Hakim has. I think 
we're seeing that, just in the reaction to the events in 
Basrah.
    Senator Reed. Which means, if there was a free and open 
election, they'd do pretty well?
    Dr. Malley. This brings me to a very important point about 
the elections. Part of what's happening now may well be an 
effort by Maliki and Hakim to make sure that those elections 
either don't take place, because there's too much chaos, or are 
postponed, or against someone, because you disenfranchise the 
Sadrists, the Sadrists can't compete. I don't know any expert 
who doesn't believe that the Sadrists are going to do much 
better in this election than ISCI will.
    Senator Reed. But the question about going out to the Sunni 
community?
    Dr. Malley. It's a good question. I don't know the answer 
to that. I think what may well happen is, the Sunni community, 
if it doesn't see, in the government and Maliki and his allies, 
steps that it believes are necessary to reach a compact they 
may turn. Right now, they've decided the greater enemy is al 
Qaeda, and they could postpone the fight against the 
government. Once al Qaeda's out of sight, or once they believe 
that the U.S. is not putting enough pressure on the Maliki 
Government or on Iran, they may turn their sights to the 
government and to the Shiite militias.
    Senator Reed. Dr. Bacevich, the same vein. You made the 
point, which I must confess I agree with, that the template for 
this operation was the transformation of Iraq as a beacon of 
freedom and free-market economics that would essentially 
propagate almost automatically throughout the region. I think, 
at this juncture, that's not the case. What seems to be 
emerging is a much more powerful Iran with a long-term, not 
only interest, but staying power. In fact, I think comments, 
even of General Keane, are correct that their staying power is 
probably as strong or stronger than ours, because of their 
proximity and their self-interests. Why don't you comment on 
that line of questioning.
    Dr. Bacevich. I think General Keane's made the key point, 
wherein he was referring to the long run. I think in trying to 
understand the way the Iraqi/Iranian relationship is likely to 
evolve, we should look to the long run. The long run is that an 
Arab nation is not going to want to be a wholly-owned 
subsidiary of the Persians.
    It seems to me that, at least on the fringes, one of the 
justifications offered by those who want to continue the war is 
that for us to change course at this point would give a big win 
to the Iranians. I think there's no question that the Iranians 
have done well as a consequence of our blunders. But if you 
look at the long run, I would expect that Iraq is going to 
serve as some kind of a counterweight to Iran, and that's going 
to be in the interests of the stability of the region, and 
probably will be in the interests of the United States, as 
well.
    Senator Reed. Thank you very much. My time's expired.
    Chairman Levin [presiding]. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman.
    I welcome this distinguished panel. Very many have profited 
by your, I think, very sage and wise comments this morning.
    I want to start off with our good friend, General Keane. I 
have before me a transcript of the hearings before the Senate 
Armed Services Committee, Readiness and Management Support 
Subcommittee, and General Cody, who was your successor as the 
Vice Chief, said as follows, ``The current demand for forces in 
Iraq and Afghanistan exceeds our sustainable supply of 
soldiers, of units and equipment, and limits our ability to 
provide ready forces for other contingencies.'' Do you agree 
with that?
    General Keane. I don't want to get into a contest with Dick 
Cody, who I have tremendous regard for.
    Senator Warner. No, that's the purpose you're here, to get 
into these----
    General Keane. No, you know me, I'm always going to give 
you a straight answer, Senator.
    Senator Warner. All right. Well, let's have it.
    General Keane. I'm just sort of warming up to it a little 
bit, all right? [Laughter.]
    Senator Warner. Well, I'm cold steel, and I want to get the 
answers.
    General Keane. I mean, I'm talking about a friend, as well 
as a colleague.
    Yes, there's an element of truth in that statement, 
certainly, but here's my view of it. The United States Army is 
certainly stressed by this war. We're fighting two wars, and 
it's understandable that it would be, as we have always been in 
wars of consequence that take time. That's number one.
    Number two is, the Chief of Staff of the Army is on record 
saying that he can sustain 13 combat brigades almost 
indefinitely, and I agree with that. Now, at what price would 
that be remains to be seen. I believe this force is tough and 
resilient, and they're going to continue to make the commitment 
to volunteer and be a part of it.
    In terms of other missions, here's where I come out on 
that. First of all, the Air Force and the Navy are largely not 
involved. The Army and the Marine Corps are very much involved. 
If we had an emergency someplace else, that would require all 
non-engaged Army and Marine Corps to respond, regardless of 
deployments, because it is an emergency. That would depend, for 
the Army, on the availability of equipment as much as it is the 
availability of people. Nonetheless, I am convinced they would 
be able to respond.
    Then you get to this other question that's always been 
troubling to me, the implication of that is that we should do 
something about our involvement in Iraq or in Afghanistan, and 
particularly Iraq, because that's really the contentious issue. 
What we should do is, out of consideration for what General 
Cody is speaking about--and I'm not suggesting he suggested 
this--but the implication is that what we need to do is pull 
our troops out of Iraq so we'll be ready in the event something 
else happens. That makes no sense to me.
    Senator Warner. I think we're getting astray, here. It's a 
fairly straightforward, clear pronouncement of a man who is in 
a position to make those judgments. I draw to your attention, 
and I'll ask unanimous consent to place it in the record, here 
a statement by the current Chairman of the Joint Chiefs of 
Staff, Admiral Mullen, perhaps you're aware of that statement, 
took the same basic conceptual thought. He is concerned about 
other contingencies around the globe, which, at this time, in 
his professional judgment, require deployment of additional 
U.S. forces.
    Chairman Levin. It will be placed in the record.
    [The information referred to follows:]

    What immediately comes to mind is additional forces for 
Afghanistan. I've said Afghanistan is an economy-of-force campaign and 
there are force requirements there that we can't currently meet. So, 
having forces in Iraq don't--at the level they're at--don't allow us to 
fill the need that we have in Afghanistan.
    Equally broadly around the world, there are other places we would 
put forces--or capabilities, not so much brigade combat teams as other 
kind of enabling capabilities or small training teams, that we just 
can't because of the pressure that's on our forces right now in the 
Central Command. I think we'll continue to be there until, should 
conditions allow, we start to be able to reduce our force levels in 
Iraq.

    Senator Warner. We'll have the Secretary of Defense and 
Admiral Mullen tomorrow, but I just wanted to get your views on 
that.
    Dr. Bacevich, I listened to you, and I agree 100 percent, 
we're not in control in Iraq. When I look back at World War II, 
my recollection is, we went into these areas that we conquered, 
Germany and so forth, we declared martial law and took charge 
and ran it until such time as they manifested the capability to 
go out and establish their governments. The transition was 
fairly smooth.
    Here, we roared in under the concept of democracy, and 
planted the democracy tree, and elections were held, and the 
rest is history. I think the Maliki Government does pretty much 
as it pleases, in my judgment; and that's regrettable. I don't 
suggest that our Department of State and DOD aren't trying to 
do everything possible to leverage that government to 
accelerate political reconciliation.
    I happen to have a personal thesis. If suddenly the Iraqi 
people and this government awaken to the fact that if we 
stopped our internecine fighting, went down and began to 
produce the natural resources in this country, and take the 
funds from those natural resources and rebuild our cities, you 
could create an Iraq which would be the envy of the whole 
Middle East, in terms of structure and education and medicine 
and care for its people. But, we're in this deadlock of these 
centuries-old animosities and hatred between these people, 
riddled with corruption, and it's difficult.
    I commend our forces, the men and women of the Armed Forces 
and their families. They have taken a tremendous sacrifice to 
give the Iraqi people this chance. We haven't given up on 
trying to make it come through.
    General Keane, I was interested, you just referred to the 
south, and you called the groups down there a bunch of thugs 
and so forth. I agree with you. This is what troubles me about 
the way we conduct these hearings and the terms that we use. We 
have to remember, they go out of here, and the media, in large 
measure, accurately transmits what's said.
    I grew up in a generation which I knew what, basically, an 
army was. An army is composed of a divisional headquarters, a 
series of, in the old days, regiments, now you have your combat 
teams and whatever it is, battalions, and on down. We keep 
calling this the Mahdi army. General Keane, it's not an army, 
by any means of the interpretation and the use of that term 
which has been used for decades. Am I correct?
    General Keane. Which army, Senator?
    Senator Warner. We call Sadr's outfit the Mahdi army. It's 
not an army, it's a disparate bunch of people that he's cobbled 
together through spiritual inspirations, and they're fighting. 
It's not an army. They don't have a divisional headquarters, 
they don't have regiments, and they don't have training areas. 
I mean, what is it that we're fighting over there?
    General Keane. That's one of the factions in the south, 
certainly, is the JAM.
    Senator Warner. Right. We call it the Mahdi army.
    General Keane. Which is the military side of his 
Organization of the Martyr Sadr. I've never referred to it as 
an army. There's good and bad parts to it. There's real thugs 
and killers in that, and some of them have been directly 
fighting U.S. forces present in Iraq, and there's others that 
are defensive militia, who are there to protect the people on 
the streets.
    Senator Warner. But, here's my difficulty. We have spent 5 
years training the Iraqi army, and this committee has put 
untold authorizations out for whatever was needed to do it. We 
now have a couple of hundred thousand Iraqi soldiers. There 
they are. They have training camps, practice ranges, armaments, 
everything. They're fighting this group, call it what you want, 
the Mahdi army and these other militias, which don't have any 
of that infrastructure. Yet, what they seem to have is a will 
to fight and die. Therein is their secret weapon and the thing 
that's making it effective, as we're struggling, the coalition 
forces, and so forth, against those people.
    Now, how do you describe that will to fight?
    General Keane. Well, I think that's true in some of the 
people that we've been fighting. Certainly, al Qaeda has 
reflected that will, some of the Sunni mainstream insurgents 
had that kind of determination, and certain members of the 
Shiite extremists have it, particularly those in the special 
groups that have been trained in Iran and are further 
committed. They have a low-tech system, certainly, that's being 
used against the most powerful military in the world, and this 
is classic insurgency business, here. The fact of the matter is 
that they use the people to shield them and to protect them, 
and that is why the change in strategy that we brought to Iraq 
recently has worked so well. That's how you defeat them, 
Senator. You don't defeat them just by killing them, you defeat 
them by isolating them from the people, so the people 
themselves reject them.
    Senator Warner. Then I think we should stop calling them 
the Mahdi army.
    Dr. Bacevich. May I comment, Senator?
    Senator Warner. Yes.
    Dr. Bacevich. I think a more accurate term would be 
militia.
    Senator Warner. That's correct. Militia.
    Dr. Bacevich. Which is also frequently used. The term is 
apt. A militia really is the people armed.
    Senator Warner. That's the concept of this country itself. 
In the 1700s, we had militias.
    Dr. Bacevich. Yes, sir. When you think of our history, and 
the fact that, in many respects, the forces that collected 
around Boston in 1775 in the aftermath of Lexington and 
Concord, the people armed were a militia.
    Senator Warner. They coalesced into George Washington's 
army.
    Dr. Bacevich. Yes, sir, but it's the militia men, a militia 
is very difficult to extinguish. One can imagine that, through 
the use of conventional military power, you have defeated a 
militia, when, in fact, all you've done is disperse it until it 
gathers to fight another day. I personally fear that, to some 
degree, what we see to be the recent success in Iraq is simply 
that the militia has gone to ground or, for its own reasons has 
chosen to stop fighting for now, and they'll be back tomorrow.
    Senator Warner. But, they do have an unusual will to fight. 
They fight with less armaments, less protection, and less 
equipment. But they fight, and that's what we're experiencing 
down there.
    Dr. Bacevich. Yes, sir.
    Senator Warner. It's just tragic that we had 1,000 Iraqi 
soldiers--that's what was reported--defect in the heat of 
battle down in this Basrah situation the other day. I'm just 
wondering, does anybody know about what accountability any of 
those officers have been held to, and what Maliki's doing about 
it?
    General Keane. May I just comment on that, Senator?
    Senator Warner. Yes.
    General Keane. I mean, there were 15,000 troops involved in 
that operation.
    Senator Warner. Right.
    General Keane. Most of those defections came from the 
malign police force. I was down there 2 weeks ago talking to 
the police chief, a former army division commander by the name 
of Jalil. Very good soldier. I said, ``What's your problem?'' 
and he said, ``My biggest problem, General, is that 80 percent 
of my police force is maligned with some form of militia or 
another, and I can't trust them. If we try to do anything down 
here that requires police support,'' he said, ``they're going 
to roll on me. They will align themselves with their militia.''
    Now, that is part of those 1,000 that took place there, and 
there was also some problems with some of the army forces that 
went into Basrah. But, the overwhelming majority of the forces 
did not defect.
    Senator Warner. Performed quite well.
    General Keane. Some of their performance was uneven. This 
is pretty typical of the Iraqi army. Now, when they're with us 
and partnering with us, they do very well. A number of them 
have been able to perform independent operations, and there's 
been a lot of progress there.
    So, don't take that little headline and make it something 
worse than what it really is because it's not.
    Senator Warner. No, I fully recognize it was a relatively 
small thing. But, it is significant.
    One last point, and I'll give up my time, here.
    I grew out of a generation of World War II. I claim no 
personal glory myself, but I saw that. Sixteen million men and 
women were trained to fight in that 5-year period. We've now 
crossed that with Iraq. Those units were trained, and they were 
ready to go into battle in 6 or 7 months. We've been training 
these Iraqis for 5 years. I just cannot understand how we can 
continue to accept, ``Oh, well, they've just begun, and they're 
just doing this.'' Five years of investment, giving them, as 
far as I know, every possible economic support that they needed 
to do that.
    Dr. Malley. May I comment on that?
    Senator Warner. Yes.
    Dr. Malley. I think it brings me back to your former 
question. I think what the Mahdi militia has, which the army 
doesn't have, or many parts of the army don't have, is loyalty 
to a cause, and which is why they're prepared to die for it, 
which the army doesn't have, to a large extent. It's not a 
matter of military training, it's a political question. Do they 
have something they're loyal to? Are they loyal to their sect? 
Are they loyal to their profession? Or are they loyal to a 
central state that's viewed as legitimate? Until you reach that 
threshold, I think you're going to find the same frustration 
that you've found, and you're going to compare them unfavorably 
to those members of a militia that have a real cause and a real 
will to fight for it.
    General Keane. I disagree with some of that. The ISFs, and 
particularly the army, have made significant progress. They are 
extraordinary in battle. They display tremendous courage. We 
have not had a refusal of a major unit in Iraq in some time. 
The only problem we've had is just recently in Basrah, and a 
lot of that had to do with police, as opposed to army forces.
    There's tremendous will to fight in that force. In my last 
visit to Iraq, I did not find a single battalion or brigade 
commander who did not point out to me an Iraqi unit that they 
were proud of and thought they could fight on their own. That 
was different than visits in 2007. This slope may not be fast 
enough for any of us, but the slope is an improving slope, for 
sure.
    I'm convinced that we're going to be able to transition to 
the Iraqis and bring our combat forces out of there, because 
they will have the capability to do that. But, we need a little 
bit more time to do it.
    Senator Warner. Well, everybody says, ``We need a little 
bit more time.'' Can you definitize ``need a little bit more 
time''?
    General Keane. As I said before, I think we'll make further 
reductions in 2009, below where we are right now.
    Senator Warner. Of U.S. forces?
    General Keane. In our forces, and then I think, probably in 
2010, we'll transition our mission, which is no longer protect-
the-people counterinsurgency, and we'll start to do more of 
training the ISFs, to finish the training that they need, and 
that would mean that they begin to take over much of the 
responsibilities that we have. This cannot be done overnight, 
but the progress is there. If we take the measured course that 
General Petraeus has laid out for us, I think it is very likely 
we're going to have a favorable outcome in Iraq.
    Senator Warner. My time is up.
    Chairman Levin. Thank you, Senator Warner.
    Senator Lieberman.
    Senator Lieberman. Thanks, Mr. Chairman.
    Thanks, to the witnesses.
    I want to ask a few questions, General Keane, through this 
perspective, which you alluded to, which is, in the midst of 
all the controversy about the war, there's no one that really 
wants to stay there in a conflict forever. This is really, 
ultimately, a question of what pace do we withdraw our forces, 
and based on what standards, and, implicitly, what kind of 
condition do we leave behind?
    So, with that context, I do want to ask you about a few of 
the arguments that we hear in this debate for essentially not 
following General Petraeus's counsel yesterday, leaving it to 
conditions on the ground, in his judgment, during this period 
of consolidation and evaluation, but pressing harder for an 
earlier withdrawal.
    One is what Senator Warner was asking you about, I want to 
ask you to go back to it, which is stress on the Army. You have 
37 years, yourself, of experience in the U.S. Army leadership, 
and you've kept very close to what's happening in Iraq. So, I 
want to invite you to go back to what you were saying, because 
there are people who say, because of the stress on the Army, we 
should be withdrawing more rapidly, almost regardless of 
conditions on the ground. As a matter of fact, I think people 
would say ``regardless of conditions on the ground.'' I want 
you to work that through. How would you balance the stress on 
the Army against the mission we have in Iraq?
    General Keane. Well, certainly that premise, that because 
of the stress on the Army, which one would expect to have, and 
which we did have in all the major wars we have fought of 
consequence, and particularly those that were lengthy. In some 
of those wars, we actually broke the Army, because the purpose 
of that event was justified by that expenditure. That's the 
harsh reality of it.
    In this case, national interests at stake, the security of 
the American people, I believe, are directly related to these 
two wars that we are fighting. So, it has purpose and meaning 
to us, regardless of what the motivation was to go in 
initially. Our Army is stressed by that, primarily because it 
is not large enough to be able to endure both of these 
conflicts.
    Senator Lieberman. Agreed.
    General Keane. We should realize that is the elephant in 
the room here with us, and never let go of that, and help these 
two institutions grow.
    That said, I don't believe for a minute that what we should 
do is take risk in Iraq with our force-reduction program to 
relieve the stress on the Army or the Marine Corps. I don't 
know how risking a humiliating defeat in Iraq would ever help 
those two institutions maintain the viability that they need if 
they, in fact, have suffered a humiliating defeat. I was part 
of something like that, as a platoon leader and company 
commander coming out of the Vietnam war, and then as a major, 
watching us lose that war. The psychological and emotional 
impact on the officers and noncommissioned officers, the 
professional corps of the military, was very significant. We 
lost our way for a while, to be frank about it, and you know 
that.
    Senator Lieberman. Yes.
    General Keane. Nobody wants to be a part of a force like 
that.
    The other thing is, this vague notion that we need the 
forces to do something else. What are we really talking about, 
here? Are we talking about Pakistan, with ground forces? I 
think not. Are we talking about the Pacific Rim, with ground 
forces? I think not. Are we talking about more forces for 
Afghanistan? Yes. Do we need more forces in Afghanistan? We do. 
That's true. I think those forces will be available for 
deployment in Afghanistan eventually, but not right now from 
the United States. Afghanistan, let's be frank about it, is a 
secondary effort compared to Iraq. Iraq has a higher priority.
    Senator Lieberman. I want to come to that with you in a 
minute. I agree with everything you've said. It seems to me 
that to risk a defeat based on the best counsel of our 
commanders on the ground, by accelerating the withdrawal of our 
forces from Iraq sooner than they advise because we need to 
have forces available for some possible potential speculative 
conflict somewhere else doesn't make any sense.
    The second point is the one that Senator McCain, I think, 
was making in his earlier question, which is, yes, the Army is 
under stress, you're worried about breaking a force; but you 
can break a force, and probably more likely will break a force, 
by letting that force be defeated. The morale of our troops in 
Iraq today is very high. There is tremendous pride in what is 
being accomplished. If you want to break it, pull out the rug 
from under them.
    I want to ask you to go to Afghanistan, because here is a 
second argument made for a congressionally-mandated accelerated 
withdrawal from Iraq, and I'll try to state the argument 
fairly, that we are essentially fighting the wrong fight, that 
we are engaged more deeply in the less consequential of the 
battlefields in the global war on terrorism in Iraq, and, as a 
result, we have taken our eye off the ball, we have lost our 
focus on the key battlefield, which is Afghanistan.
    I know that you have visited Afghanistan and Pakistan. So, 
I want you to give me your response to the argument that we'd 
be better off taking troops out, regardless of conditions on 
the ground. I may be overstating the case; but regardless of 
the advice of commanders on the ground, to put them into 
Afghanistan as soon as possible, because that's the main event, 
regardless of what happens in Iraq.
    General Keane. Yes. Afghanistan certainly is important to 
us, and I would never want to diminish what we're trying to 
achieve there. We have problems in Afghanistan, but al Qaeda is 
not the central enemy in Afghanistan. What has taken place 
there is the Taliban have resurged, and they're trying to come 
back, and they've made some inroads in the south, and the 
government is very weak in the south. This is not of the crisis 
stage in Afghanistan that we were dealing with in Iraq in 2006, 
when al Qaeda and the Sunni insurgents created the bloodbath in 
Iraq and were threatening regime survival. That is the 
important distinction.
    There is no threat to regime survival in Afghanistan. There 
is a problem in Afghanistan in the south. It is aided and 
abetted by the Pakistanis because there is a Taliban safe haven 
in Pakistan that we're all familiar with.
    Two things can be done in Afghanistan. One is, eliminate 
that sanctuary, and two is, provide some additional forces in 
the south. I think that was the basis for the President's 
discussion at the North Atlantic Treaty Organization, the week 
before last, to get more forces to do that, and also for the 
additional marine forces.
    Here's the other point I want to make. If we are talking 
about pressuring General Petraeus so that he provides another 
brigade or two for 2008, that would not be decisive in 
Afghanistan, but it could be very decisive in Iraq, in terms of 
what the consequences of that reduction could be.
    Senator Lieberman. Let me ask you a final question, just on 
that. My time's up, so I'm going to ask you to be as brief as 
you can. Take the argument on the other side of this to what I 
think is its logical conclusion. If we started to forcibly 
withdraw, or mandate a withdrawal of our troops from Iraq, 
risking defeat there, and, in fact, are defeated, and we do it 
because we want to focus on Afghanistan, what would the effect 
on the war in Afghanistan be if, essentially, chaos developed 
in Iraq?
    General Keane. Well, I mean, certainly suffering a 
humiliating defeat is not going to help you prosecute another 
war with a similar adversary, nor does it help you with the 
relationship of our allies, who count on the United States to 
be there when they say they're going to be there. It certainly 
encourages our adversaries and the radical Islamists, and al 
Qaeda, in particular. But, also, I think one of the enduring 
qualities that we have about us is our reliability and our 
commitment, and we stick with them, even though there's a 
degree of difficulty, uncertainty, and sacrifice that's 
associated with it. There's no country in the world that has 
ever made the degree of sacrifices that we have made to help 
other beleaguered nations in the world. The record's 
extraordinary. To back away so that we could help another 
friend a number of miles away makes no sense to me, in terms of 
taking that kind of risk. It endangers the United States and 
puts us further at risk in the world.
    Senator Lieberman. Thanks, General.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Senator Graham.
    Senator Graham. Mr. Chairman, thank you for holding this 
hearing. Number one, I thought you did an excellent job 
yesterday, as chairman. That was one of the best hearings I've 
attended.
    Chairman Levin. Thank you.
    Senator Graham. It was thoughtful and full of difficult 
issues.
    I really enjoy our discussions here, because people in 
decisionmaking capacities have to have some framework from 
which to work off of. I think one of the fundamental questions 
that I have to address, as a Senator, and where I want to go 
with this: Is Iraq part of a global struggle now, or a more 
isolated event? For us to come to grips with where to go, I 
think we have to come to grips with our failures.
    General Keane, is it fair to say that the surge is 
corrective action being taken because of the past strategy 
failing?
    General Keane. Yes. Absolutely. We made a decision to 
transition to the ISFs, so they, in fact, could defeat the 
insurgency.
    Senator Graham. Right.
    General Keane. We never made the decision to defeat it 
ourselves.
    Senator Graham. Do the other two witnesses generally agree 
with that, that our first 4 years here were going backwards, 
not forward?
    Dr. Malley. Yes.
    Dr. Bacevich. Yes, sir, I agree. But, beyond that, I think 
that the initial decision to invade Iraq was a mistake.
    Senator Graham. Well noted. But, I have to make a decision. 
I can't go back in time. If I could go back in time, there are 
a lot of things I would do differently. The first thing I would 
do is, when the Soviets left Afghanistan, I would have done 
things differently, because vacuums are going to be filled. 
That's the one thing I've learned, Dr. Malley, is that in this 
ideological struggle--and that's what it is; it's not a capital 
to conquer or a navy to sink or an air force to shoot down, 
it's an ideological struggle. We paid a heavy price, I think, 
once the Soviets left, people filled in that vacuum. My biggest 
fear now, Dr. Bacevich, is that whatever mistake we've made in 
the past, the first job I have is not to compound that mistake. 
So, my premise is that we can have an honest disagreement about 
what we should have done, and I would argue a bit that leaving 
Saddam Hussein in power after ignoring 17 United Nations (U.N.) 
resolutions, given his history, is not a status quo event, that 
you can't go back in time and say, ``We shouldn't have 
invaded,'' without some consequence, in terms of this regime 
that we replaced living off the Oil-for-Food Program. I don't 
think it was a static situation. I think very much that the 
U.N. would become a lesser body than it is today if you allow 
dictators like Saddam Hussein to constantly ignore them. But, 
that's a legitimate debate, and that debate's behind us.
    Now, what to do now? The new strategy is a result from 
failure. The new strategy bought into the idea, as I understand 
it, General Keane, that the missing ingredient in Iraq was not 
a lethargic Iraqi people, indifferent to their fate, that was 
relying upon us to do everything, but an Iraqi people under 
siege that could not develop military capacity as they're being 
attacked and fought at the recruiting station, and an Iraqi 
Government that was under siege, where sectarian violence 
knocked politicians down. The way to break through, in terms of 
military capacity and political progress, was to provide better 
security. Is that the underpinning theory of the surge?
    General Keane. Yes, absolutely. The general election was 
held in December 2005, and constitutional referendum in 
October-November. Maliki was forming his government from 
January through the end of March 2006, when the Samarra Mosque 
bombing occurred, in February, with the single purpose and the 
intent to provoke the Shiite militias into an overreaction, as 
a result of that mosque bombing, to undermine the government. 
So, our problem that we had was a security situation, and the 
compromise that we had made in the past, of not putting 
security first as a necessary precondition to political and 
economic progress, had failed. We had to put security first.
    Senator Graham. Well, let's look forward. There are two 
points in time, from the fall of Baghdad to January 2007. I 
think any objective observer would say that strategy failed to 
produce results. Reconciliation is a word. If you look at other 
conflicts in history, you name the civil strife, whether it be 
religious-based or ethnically-based, there has to be a level of 
looking forward, versus backward.
    Now, what's happened from January 2007 to the present day? 
I would argue, and I would like to hear your thoughts on this, 
that the amnesty law that's yet to be implemented, but about to 
be implemented, is a giant step forward, in this regard. It's 
the Shiites and the Kurds saying to the Sunnis that are in jail 
that took up arms against the new Iraq, against the Iraq where 
Shiites and Kurds would have a bigger say, 17,000 people have 
had their applications for amnesty approved, out of 24,000 who 
have applied. Is that not an act of sectarian forgiveness that 
is a precondition to reconciliation? Isn't that something that 
is a positive trend?
    General Keane. In my mind, that and other programs like it 
that the Iraqis are implementing is all about reconciliation. I 
don't believe we're going to have this national compact, as Dr. 
Malley is suggesting, of some kind of Kumbaya event.
    Senator Graham. Right.
    General Keane. That's not the way this is going to take 
place. This is a tribal society, and it's not going to work 
that way. This is significant, in what you are suggesting, and 
so is de-Baathification.
    Senator Graham. Now, I'm from South Carolina, so we know 
about civil war. It started in my State. So, we can't rewrite 
our history. All those struggles they're having in Iraq have 
been known to other people.
    Now, let's talk about the provincial election law. If it 
becomes a reality, and I don't want to keep us here any longer, 
Mr. Chairman, but the point that gives me optimism now, versus 
before the surge, is that there has been some actions taken in 
Baghdad that are positive, in my opinion. The provincial 
election law was agreed to by all the major parties, and it's a 
chance to vote in October 2008. From what I can understand, 
based on my visits to Anbar, the Sunnis are going to take this 
opportunity, this time around, to participate in elections. To 
me, that is a statement by the Sunnis to the Shiites and the 
Kurds that there is a better way to relate to each other, 
``We're going to use the ballot box to send elected 
representatives to the provinces, and eventually to Baghdad.'' 
Isn't that a major step forward, a sea change in Sunni 
relationship to the central government and to the people at 
large?
    General Keane. It absolutely is. I had in my statement that 
a poll has been taken among the Sunnis, and they indicate that 
90 percent of them will vote in the provincial elections, and a 
similar amount in the general election in 2009. So, what is 
that saying? That is saying that the Sunni people themselves 
are reconciling with the Government of Iraq. They want to 
participate in the political process. They know this is a 
Shiite-dominated government, but they want to enter that 
process. Overwhelmingly, the majority of the Sunni insurgent 
leaders are part of that process now.
    Senator Graham. Let's take the budget. Now, the one thing 
that Senator Levin and I have in common is that we understand 
the value of money in politics. Senator Levin is a very good 
representative for the State of Michigan, because Michigan gets 
their fair share, and I try to do the same for South Carolina. 
But, the $48-billion budget that was recently passed, to me, is 
a major move forward, simply because money, in politics, is 
power.
    You're having the Sunnis and the Shiites and the Kurds 
agreeing to divide up the resources of the Nation. To me, that 
is a statement by each group that, ``I am entitled to some of 
this money, but so are you.'' That is something that is 
encouraging. We're a long way from having this thing resolved 
the way we would like, but I would argue, General Keane, 
because of you and others, that we've turned it around, and 
that we're moving in the right direction.
    From a political point of view, I can tell you, as a 
politician, when you share money with other people, you see 
value in the role they play.
    So, I would just like to end this, Mr. Chairman, with the 
idea that better security has led to economic, political, and 
military progress, but for me to say that the war has been won 
and over would be a gross misstatement. I do believe we're 
going to leave, as you say, General Keane, here's what drives 
my train, gentlemen. I know, from a historical point of view, 
Dr. Malley, that I will not be judged by the date the troops 
came home. But, the people who follow behind me will judge me 
and others during this time in history by what we left behind 
in Iraq. I am confident that the only way we're going to win 
the war as a whole against radical Islam is defeat it where you 
find it. Al Qaeda was not in Iraq before we invaded, you're 
right, but they're there now. I do believe that one of the 
success stories of the last year and a half is that they have 
been punished. The Muslims in Iraq took up arms against al 
Qaeda, and anytime that happens, America and the world is 
safer. Does anyone disagree with that?
    Dr. Bacevich?
    Dr. Bacevich. Sir, I hope this is one of these things where 
we can have an honest disagreement.
    Senator Graham. Absolutely, we can.
    Dr. Bacevich. I just don't share the optimism about 
reconciliation. What I would say is, if indeed everybody in 
Iraq is keen on reconciling, then let's get out of the way, 
let's let them reconcile and be able, therefore, to achieve the 
success.
    Senator Graham. Do you think we're standing in the way of 
them reconciling?
    Dr. Bacevich. I do think that, to some degree, our presence 
becomes an excuse, a crutch, something that different groups 
can use to play with.
    Senator Graham. I gotcha.
    Dr. Bacevich. To my mind, the insistence that we hear from 
General Petraeus about taking the pause, the counsel from 
General Keane about not being too hasty now and putting at risk 
anything that we've gained, all is suggestive of, perhaps, some 
doubts on their part that this reconciliation express train is 
moving quite that rapidly. That would be my concern.
    Senator Graham. Well, I think they have honest doubts. I 
don't know the eventual outcome. I see progress. But, my point 
was about the Anbar environment changing, where Iraqi Muslims 
rejected al Qaeda, apparently, and aligned with us. To me, that 
is a positive step in the overall war on terror. Do you agree?
    Dr. Bacevich. Yes, sir.
    Senator Graham. Okay.
    General Keane? How significant is that?
    General Keane. Excuse me, sir?
    Senator Graham. How significant is what happened in Anbar 
vis-a-vis al Qaeda?
    General Keane. Oh, I think it's a stunning achievement, and 
very well appreciated in the Arab world, when you talk to 
people in other countries. It is the first time that a majority 
of people have rejected al Qaeda at the expense of their own 
lives. Essentially, that message is carried around the Arab 
Muslim world. When you pick up the traffic of al Qaeda 
themselves, they talk about it in terms of a defeat, 
themselves, by the Sunnis, ``We've been defeated by the Sunnis 
in Iraq.'' They're reluctant to admit, ``The Americans are 
killing us,'' but, ``We've been defeated by the Sunnis in 
Iraq.''
    Senator Graham. Thank you, Mr. Chairman. You've been more 
than generous with your time. Thank you very much.
    Thank you, gentlemen, it's been a great discussion. You're 
helping our country. Thank you for coming.
    Chairman Levin. Thank you, Senator Graham.
    By the way, Dr. Malley, did you want to add anything?
    Dr. Malley. Just on this process of reconciliation, I'd 
make two points.
    I believe, as General Keane said, that reconciliation is 
not a moment, it's a process. My doubt is whether this Iraqi 
Government and its allies are seriously, genuinely engaged in 
that process. There are a number of laws, I would say some may 
be more optimistic about whether they're going to be 
implemented, and whether the implementation will be 
nonpartisan, as opposed to politicized, which happened to de-
Baathification or to the amnesty law. My view is, we have to 
keep the government's feet to the fire and provide real 
pressure, which I haven't seen so far, to make sure that these 
steps are genuinely taken, rather than simply, ``Let's sign a 
piece of paper, because that's what Vice President Cheney asked 
us to do, but the minute they turn around, we're going to do it 
our way.''
    Chairman Levin. That's the whole issue here. It's not 
whether or not we want to maximize chances of success in Iraq. 
Everybody wants to do that. The suggestion that the other side 
of the coin from the current policy is a dismal defeat in Iraq 
is ignoring the argument, which is made by at least two of our 
witnesses here today, I believe, that the way to maximize 
success in Iraq is to put pressure on the Iraqis to work out a 
political settlement.
    Everybody agrees there's no military solution here. 
Everyone mouths the words, ``There's no military solution.'' 
Some people mean it. Some people, I don't think really 
understand what they're saying. If there's no military solution 
here, then we have to force a political solution. Then the 
question is: How do you do it? That's where the big divide is; 
more and more troops, or keeping the troops there in the hope 
of creating some kind of an atmosphere where the politicians 
can work out a solution. That's what the supporters of the 
status quo and the current policy is. Those of us who feel that 
the only way to get a political solution is to force the 
politicians to reach a political solution by ending this open-
ended commitment, which is clearly open-ended, there is no end 
that is projected for it; even this so-called pause, which, by 
definition, means a brief period. When you look up the term 
``pause'' in the dictionary, it means a relatively brief 
period.
    Yesterday, General Petraeus destroyed that idea, that the 
pause is going to be brief. What is it? Forty-five days, it's 
going to be examined, I think. That takes you to the middle of 
September. Then there is an indeterminate period to assess. No 
end in sight.
    I even asked General Petraeus, yesterday, ``What if things 
go well? Would you then say we will begin to reduce again?'' He 
would not even say that. I said, ``What if things go well by 
the end of the year? Can you then say we will start our 
reductions again then?'' He would not make a commitment. It 
doesn't make any difference to this policy whether things go 
well or things go terribly; the answer is the same, ``Maintain 
your military presence,'' even though the consensus is, 
``There's no military solution.''
    Now, I think a majority of the American people do not want 
a precipitous withdrawal. That is also used by the supporters 
of the status quo, that, ``The opponents of this policy want a 
precipitous withdrawal.'' No, they don't. They want a planned, 
careful, thought-out timetable that gives the Iraqi political 
leaders the opportunity to reach a political settlement. That 
is what has been proposed. That's what got 53 votes in the U.S. 
Senate. That's what has a majority vote in the House of 
Representatives. Not something which is precipitous, immediate, 
but something which has a plan to it, which ends this open-
endedness which the Iraqi political leaders think they have a 
commitment to.
    General, you said it shouldn't be open-ended. But, I don't 
see how the current policy is anything but open-ended. We had a 
statement by Secretary Gates, not too long ago, that it was his 
plan to continue these reductions after the surge. That's out 
the window. Then he said it would be a brief pause. That 
apparently is out the window. We had the President of the 
United States say that by the end of 2007 we would turn over 
the security of the country to the Iraqis. That's what he said 
would happen when he introduced the pause in early 2007. We 
have not turned over security in key areas. Obviously, we have, 
in peaceful areas. But, in the key areas, we have not.
    I visited the north of Iraq, 3 weeks ago. In those 4 
provinces up there, we were told that there were 110 combined 
operations in the previous 3 months. There were more Iraqi 
troops up there than American troops. Seventy percent, or 60 
percent of the Iraqi troops were able to take the lead in a 
combined operation. That's the statistics which we've been 
given. So, there's as many Iraqi troops in those four provinces 
capable of taking the lead in combined operations as there are 
American troops. Yet in only 10 out of 110 combined operations 
did the Iraqis take the lead. That's 9 percent.
    Economically, they are building up these huge surpluses. 
These incredible surpluses being built up at $100-a-barrel oil; 
2 million barrels a day are exported by Iraq, and we're still 
paying for most of their reconstruction?
    If you want to talk about dependency, that is what is 
continuing, here. It is a dependency on our presence and our 
money. Militarily, in those four provinces at least, we're 
still taking the lead 90 percent of the time, despite the 
ability of their troops to do so. Economically, we're still 
spending more for their reconstruction. Politically, we can 
talk all about these benchmarks having been met. No, they 
haven't been met. Most of the ones that have been, where the 
legislation has been adopted, depend on implementation. They 
have not, in many cases, been implemented yet.
    Senator Graham talked about this provincial elections law. 
Well, there's a provincial power law, but there is not yet a 
provincial elections law. That depends upon the Iraqi 
legislative body acting. They have not yet acted to put into 
place the machinery that will allow those October 1 elections 
to take place.
    I think you would all agree it's important that those 
elections do take place. I think everybody believes it's 
important that they take place. But, there's a real question as 
to whether they will take place or not. I'm not saying that 
based on just my assessment, that's based on the assessments of 
those who have the responsibility to make these kinds of 
assessments.
    So, all in all, what we come down to is not the question of 
whether or not it's important to, ``leave Iraq in better 
condition than we found it,'' whether or not it's important 
that it be a stable place. I think everybody wants that. The 
question is whether or not the current course that we're on, 
with all of our eggs in the Maliki basket, and when he fights a 
different part of the Shiite community, we're with him.
    We are right in the middle of a sectarian conflict. It was 
General Odierno, the other day, that called this an 
intercommunal struggle. Do you agree with that, General, this 
is an intercommunal struggle in Basrah?
    General Keane. Certainly, there are 42 different militia 
organizations in and around Basrah alone. But, you have to draw 
back from that and take a look at what really happened. We had 
no control there. The Brits pulled out of there 2 years ago, 
and militia groups took over and maligned the police force. So, 
what are we doing? We're going down there to provide security 
and control so that, yes, the political process can move 
forward. That's what it's about.
    Chairman Levin. Yes, but we went down there, not because 
they followed our advice; despite our advice. General Keane, I 
think you used a term, which is a very interesting term I 
found, back, I think, a few days ago, when you said that Maliki 
is, ``way in front of the military realities on the ground.''
    You acknowledge, and I think General Petraeus acknowledged, 
yesterday, it took a couple of times to ask him, and we're 
dragged in with Maliki.
    General Keane. But, Senator, what we're talking about here 
is probably a month or 2. That's the only difference. We have a 
campaign that's going to last a number of months to gain 
control of the southern provinces before the provincial 
election. General Petraeus was working on that plan, I believe, 
raising in front of the Iraqi leadership all of the issues in 
the south, as a result of the many meetings he was having, some 
of which he was having while I was there.
    Chairman Levin. He lays out a plan which is thoughtful, 
which is building up pressure. What happens to the guy we're 
supporting? He trashes the plan by a precipitous action. Maliki 
undermines the plan which Petraeus had laid out, and we just 
simply continue to defend Maliki.
    General Keane. So, you don't want to give him any credit.
    Chairman Levin. Maliki, for what?
    General Keane. We've been beating this guy up for 2 years, 
saying, ``This thing is not just about Sunnis and al Qaeda, 
this is really about Shiite extremists.''
    Chairman Levin. Let's go through the credits----
    General Keane. So, he steps up to the plate and starts to 
do something about it. Yes, it's a little ill-conceived, and it 
wasn't properly planned. In the long run, let's focus on how it 
ends and not how it began.
    Chairman Levin. I agree with that. But, when you say ``give 
him a little credit,'' I don't give him credit for 
precipitously going to the plate and swinging wildly. No, I 
don't. Because it raises a question as to what his motive is 
and whether or not there's a political motive in his mind, in 
terms of the power struggle he is in, politically, perhaps, 
with the Sadrists. So, it raises a big question as to his 
motivation. The wisdom of putting all of the eggs in the basket 
of someone who clearly is not someone who is nonsectarian, who 
has his own political ax to grind. So, that is where I have a 
lot of problems.
    General Keane. Well, I'm going to be the last to say that 
he's not----
    Chairman Levin. It's not a matter of whether or not we want 
to succeed. This isn't a question of whether or not you want to 
succeed in Iraq. The question is whether or not the Maliki 
course of action, which we are totally locked at the hip on, is 
the right way to go. That's the specific question. Or whether 
not we should end this open-ended commitment and let Maliki and 
others know, ``Folks, we've been there 5 years, we're spending 
$12 billion a month, we've lost 4,000-plus troops, this is 
longer than World War II, we've given you an opportunity.'' Now 
we're saying, objectively, the first 3 years were wasted, now 
we're saying that? There were some of us that were saying that 
was the wrong course, 3 years ago. But, we were then told, 
``You're defeatists. You want to surrender.'' That's what we 
heard, 4 years ago, 3 years ago, 2 years ago. No, we don't. We 
want to succeed as much as anybody else. The question is: Does 
this course that we're on lead to a conclusion which is a good 
conclusion, or does this lead to greater and greater 
intercommunal conflict? That's the issue.
    It's an issue where we have different points of view, and 
yesterday, by the way, when General Petraeus was asked, ``Could 
reasonable people differ on this issue?'' he would not even 
concede that reasonable people could reach a different 
conclusion than he did, I have to tell you, I was struck by 
that. I was so sure that General Petraeus would say, ``Of 
course reasonable people can differ.'' All three of you are 
reasonable people, sitting at this table, and you differ with 
each other. Does that mean you're not reasonable people? You're 
all reasonable people. You have very strong opinions that 
differ with each other. But, not to concede that somebody who 
differs with his approach, which is just a continuation of an 
open-ended commitment that those people are reasonable, it 
seems to me, showed the lack of a balance on his part to see 
the other side of this issue and to at least acknowledge the 
possibility, even though he disagrees with it, that the best 
course of action here may be to force the Iraqis to use the 
only leverage we have, which is our presence and the departure 
of most of our troops as a way of forcing them to accept a 
consensus position, ``There is no military solution, there is 
only a political solution.''
    Now, I've talked long enough, and I haven't taken time for 
my colleagues, but I want to give all of you a chance to sum 
up. Why don't we go in the same order
    Dr. Bacevich?
    Dr. Bacevich. I guess I would sum up just with two points. 
It's a great honor for me just to come and be part of this 
event. My frustration stems from the fact that the subject is 
Iraq, and the subject ends up being narrowly Iraq, and 
therefore, the conversation tends not to get around to the 
larger strategic questions.
    I'll repeat a point I made earlier, that, in my judgment at 
least, the continuation of this war serves to preclude a 
discussion over what ought to be our response to violent 
Islamic radicalism, given the failure of the Bush strategy, 
given the failure of the freedom agenda, and the failure of the 
doctrine of preventive war. General Keane himself acknowledged, 
earlier on, we don't have a strategy. As important as this war 
is, and trying to find a way to get out of it, it is the 
absence of a strategy, and really an absence of a clear 
understanding of how great or how limited the threat posed by 
violent Islamic radicalism that simply has been lost.
    I guess I would recommend to you, Senator, that some part 
of the conversation, at some point, should get to these larger 
strategic issues.
    But, thank you very much.
    Chairman Levin. Thank you, Dr. Bacevich.
    General Keane?
    General Keane. Thank you. Just briefly.
    I share your frustration and the frustration of other 
members of the committee, in terms of the time of our 
involvement here and the thought that what really goes on is, 
we're just kicking the can down the road some more. But, the 
fact of the matter is, there really is a new strategy at play, 
it has worked to resolve a lot of the major conflict in the 
central region. We will finish al Qaeda this year. I'm also 
convinced we're going to bring stability in the south. It's not 
as tough a problem as what we dealt with in the central region.
    Maliki now, for the first time ever, has the backing of all 
the political parties behind him in what he's doing in the 
south, except for the Sadrist Party. That is something, in and 
of itself.
    Let's be honest, our government browbeat Maliki into the 
national legislative agenda. Then, last time General Petraeus 
and Ambassador Crocker were here, we were beating up on them 
because they didn't do any of it. Now they've done 12 of 18, 
and 4 of the 6 significant legislative ones that will have 
dramatic impact on the people. Now we're beating them up to say 
it hasn't been implemented.
    To get to where they were took months of compromise and 
negotiations, and you know far better than me, in terms of 
getting complicated major sovereign-state issues like that 
passed, and they did. That deserves some recognition and some 
credit. If executed, and I believe it will be, it will change 
Iraq, as will the provincial elections, as will amnesty and the 
de-Ba'athification laws.
    Yes, I am optimistic. This is not an open-ended contract, 
Senator. It is not. I mean, our policy is to transition to the 
ISFs.
    Chairman Levin. That's been true for years.
    General Keane. Your frustration is that for 3 years we had 
the wrong policy. That's true. We have the right policy now, 
and we will transition to the ISFs. But, you're not going to 
get General Petraeus and Ambassador Crocker in here and lay out 
a time schedule on when that's going to be. They have too many 
variables to cope with. But, at the same time, I can provide 
you a framework for that, because I'm not accountable, the way 
they are, and I'm convinced it's pretty close. We will 
transition, and I think if you put the two schedules out on a 
piece of paper, I'm not sure they're all that different, except 
for the crowd that wants a precipitous immediate withdrawal.
    Chairman Levin. Okay, thank you, General Keane.
    Dr. Malley?
    Dr. Malley. Senator, I would start where you left off, 
which is that this is not a military struggle in which there 
are parties to be defeated and parties that are going to win. 
This is a political struggle in which deals are going to have 
to be made, for the most part, putting al Qaeda aside. That's 
what this is about. That's where we have to decide whether our 
mission makes sense or not.
    My fear, as I said earlier, is that we may have wise 
tactics, but we don't have a strategy. We don't have a strategy 
to achieve achievable goals. The real onus has to be on the 
Maliki Government, on the Iraqi Government.
    This military mission has a point and has a purpose only if 
it is set in the context of a strategy, achievable goals, where 
we put the onus on the Iraqi Government to do what it needs to 
do, and where we have a regional strategy, so that whenever we 
leave, we do it in an environment that is less polarized and 
less tense. But again, to echo what you said, I think we've 
done more than our part. Now it's up to them.
    Chairman Levin. Gentlemen, you've been great. This kind of 
discussion is exactly what I know our colleagues relish and 
welcome, regardless of their own predilections, which the 
American people, I think, are really into, in terms of a debate 
on Iraq policy again, and that's healthy.
    We will stand adjourned, with our gratitude.
    [Questions for the record with answers supplied follow:]

              Questions Submitted by Senator Susan Collins

                           DRAWDOWN OF TROOPS

    1. Senator Collins. Dr. Bacevich, General Keane, and Dr. Malley, 
will a pause in the drawdown after July ease the pressure on the Iraqis 
to make progress in meeting these important political and economic 
benchmarks?
    Dr. Bacevich. The question assumes that actions on our part--
whether sending more troops to Iraq or pulling some of them out--can 
fundamentally affect the behavior of the Iraqi Government. I'm not sure 
that I buy that assumption. It's far more likely that Iraqi politics 
have a dynamic that derives from domestic Iraqi considerations related 
to ethnic, tribal, and sectarian identity. In short, whatever the 
trajectory of Iraqi politics, whether toward democracy or 
authoritarianism or chaos, they will decide and we will find ourselves 
cast largely in the role of spectators.
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.
    Dr. Malley did not respond in time for printing. When received, 
answer will be retained in committee files.

                         IRAQI SECURITY FORCES

    2. Senator Collins. General Keane, one of the most important 
benchmarks is the need to increase the number of Iraqi security force 
(ISF) units capable of operating independently. The news reports that 
1,000 Iraqis either refused to fight or simply abandoned their posts 
during the Basra offensive are troubling to me and indicate that 
despite the time and funding we have put into training and equipping 
the Iraqi troops, we are not seeing the results we hoped for. 
Furthermore, both United States and Iraqi commanders stated in January 
that the ISF would not be ready to secure Iraq from internal threats 
until 2012, and from external threats until 2018-2020.
    It strikes me that the problem may not be one of resources and 
training, but of motivation--in other words, that Iraqis may be less 
willing to take responsibility for their own security because they know 
U.S. forces are there indefinitely to back them up.
    Why, in your opinion, has the ISF performed so unevenly?
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.

    3. Senator Collins. General Keane, we heard General Petraeus 
testify yesterday that the security situation in Iraq has improved 
since the implementation of the surge and that the number of combat 
battalions capable of taking the lead in operations has grown to well 
over 100.
    The report issued by the Independent Commission on the ISF, chaired 
by retired Marine Corps General and former Commandant of the Marine 
Corps, James Jones, suggests that coalition forces could begin to be 
adjusted, realigned, and re-tasked as the ISF becomes more and more 
capable. General Jones' report stated that U.S. forces could soon be 
retasked to better ensure territorial defense of the state by 
concentrating on the eastern and western borders and the active defense 
of critical infrastructures essential to Iraq.
    This is very similar in many ways to the transition of mission 
proposed by the Iraq Study Group, and also proposed in legislation by 
Senator Ben Nelson and me. We have suggested that our troops transition 
their mission and focus on border security, counterterrorism 
operations, training and equipment of Iraqi troops, and protecting 
Americans and American infrastructure.
    Under what conditions should the U.S. military begin a realignment 
of the mission in Iraq?
    General Keane did not respond in time for printing. When received, 
answer will be retained in committee files.

    [Whereupon, at 12:27 p.m., the committee adjourned.]


   THE SITUATION IN IRAQ, PROGRESS MADE BY THE GOVERNMENT IN IRAQ IN 
   MEETING BENCHMARKS AND ACHIEVING RECONCILIATION, THE FUTURE U.S. 
      MILITARY PRESENCE IN IRAQ, AND THE SITUATION IN AFGHANISTAN

                              ----------                              


                        THURSDAY, APRIL 10, 2008

                                       U.S. Senate,
                               Committee on Armed Services,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:02 p.m. in room 
SH-216, Hart Senate Office Building, Senator Carl Levin 
(chairman) presiding.
    Committee members present: Senators Levin, Kennedy, 
Lieberman, Reed, Akaka, Bill Nelson, E. Benjamin Nelson, Bayh, 
Pryor, Webb, Warner, Sessions, Collins, Graham, Cornyn, Thune, 
and Wicker.
    Committee staff members present: Richard D. DeBobes, staff 
director; and Leah C. Brewer, nominations and hearings clerk.
    Majority staff members present: Daniel J. Cox, Jr., 
professional staff member; William G.P. Monahan, counsel; 
Michael J. Noblet, professional staff member; and William K. 
Sutey, professional staff member.
    Minority staff members present: Michael V. Kostiw, 
Republican staff director; William M. Caniano, professional 
staff member; Paul C. Hutton IV, professional staff member; 
Gregory T. Kiley, professional staff member; David M. Morriss, 
minority counsel; Lucian L. Niemeyer, professional staff 
member; Lynn F. Rusten, professional staff member; and Dana W. 
White, professional staff member.
    Staff assistants present: Fletcher L. Cork, Kevin A. 
Cronin, and Jessica L. Kingston.
    Committee members' assistants present: Sharon L. Waxman and 
Jay Maroney, assistants to Senator Kennedy; James Tuite, 
assistant to Senator Byrd; Elizabeth King, assistant to Senator 
Reed; Bonni Berge, assistant to Senator Akaka; Christopher 
Caple, assistant to Senator Bill Nelson; Andrew R. 
Vanlandingham, assistant to Senator Ben Nelson; Jon Davey, 
assistant to Senator Bayh; Andrew Shapiro, assistant to Senator 
Clinton; M. Bradford Foley, assistant to Senator Pryor; Gordon 
I. Peterson, assistant to Senator Webb; Sandra Luff, assistant 
to Senator Warner; Anthony J. Lazarski, assistant to Senator 
Inhofe; Todd Stiefler, assistant to Senator Sessions; Jane 
Alonso and Mark J. Winter, assistants to Senator Collins; Clyde 
A. Taylor IV, assistant to Senator Chambliss; Lindsey Neas, 
assistant to Senator Dole; David Hanke and Russell J. 
Thomasson, assistants to Senator Cornyn; Jason Van Beek, 
assistant to Senator Thune; and Erskine W. Wells III, assistant 
to Senator Wicker.

       OPENING STATEMENT OF SENATOR CARL LEVIN, CHAIRMAN

    Chairman Levin. Good afternoon, everybody.
    On behalf of the committee, let me welcome you, Secretary 
Gates and Admiral Mullen. We appreciate your willingness to 
appear before the committee this afternoon. We thank you for a 
lifetime of service to this country.
    The issue before us isn't whether or not we want to succeed 
in leaving Iraq stable and secure. We all seek that goal. The 
question is how to maximize the chances of success and whether 
the course that we're on is the right one.
    Since the beginning of this conflict, we've tried 
repeatedly to get this administration to change course and to 
put responsibility on the Iraqi leaders for their own future, 
since just about everybody agrees there is no military 
solution, and only a political settlement among the Iraqis can 
end the conflict. The administration has repeatedly missed 
opportunities to shift that burden to the Iraqis.
    In September--excuse me, in January 2007, President Bush 
said, in announcing the surge, that, ``The Iraqi Government 
plans to take responsibility for security in all of Iraq's 
provinces by November 2007.'' Clearly, the Iraqis have not 
taken the lead on security in ``all of Iraq's provinces.'' As a 
matter of fact, as of March 2008, the Iraqi Government had not 
assumed security responsibility for the most populous 
provinces. As the fighting in Basrah demonstrated, the Iraqi 
security hold in provinces for which it is responsible is 
tenuous at best.
    In February of this year, Secretary Gates said that there 
was within the Department, ``a broad agreement that the 
drawdown should continue,'' as the added presurge brigades 
left. Secretary Gates, in his written statement to the 
committee this afternoon, refers to a period of consolidation 
and evaluation as a ``brief pause.'' Now, that stands in 
contrast to what General Petraeus said to this committee 2 days 
ago. Under questioning, General Petraeus pointedly refused to 
use either the word ``brief'' or ``pause'' to describe how long 
reductions might be suspended under the approach that he was 
recommending to the President.
    General Petraeus's recommendation was that there be a ``45-
day period of consolidation and evaluation,'' beginning in 
July, which would then be followed by a ``process of 
assessment, which would determine, over time''--those are his 
words--when he can make recommendations for further reductions.
    In September, in other words, according to General 
Petraeus's recommendation, a period of assessment would just 
begin. General Petraeus repeatedly refused to estimate how long 
that assessment period would last or how low U.S. troop levels 
in Iraq might be by the end of the year, even if all goes well, 
which was the question put to him.
    What recommendation did President Bush adopt a few hours 
ago? General Petraeus's open-ended approach or Secretary 
Gates's brief pause? The answer is, since the President said 
that General Petraeus ``will have all the time he needs,'' and 
even went so far as to say that ``some have suggested that this 
period of evaluation will be a pause'' and that is misleading, 
to use the President's words.
    In summary, instead of a continuous reduction beyond 
presurge levels, or even a brief pause, what the President did 
today was to reinforce America's open-ended commitment in Iraq 
by suspending troop reductions in July for an unlimited period 
of time.
    The administration's current policies are perpetuating 
Iraq's dependency on the United States--politically, 
economically, and militarily; and they take the pressure off 
the Iraqis to reach a political solution. The administration 
has repeatedly expressed its unconditional support for the 
excessively sectarian government of Prime Minister Maliki. Key 
legislation for reconciliation, including a hydrocarbon law, 
elections law, and amendments to the constitution, have not 
been passed. The success of other laws will depend upon their 
implementation.
    Our continuing funding of Iraq's reconstruction makes 
utterly no sense, particularly in light of Iraq's cash surplus 
resulting from the export of 2 million barrels of oil a day. 
Prior to the start of the Iraq war, the administration told 
Congress that Iraq would be able to finance its own 
reconstruction through oil revenues, and that they would be 
able to do that in fairly short order.
    Five years later, U.S. taxpayers have paid at least $27 
billion for reconstruction activities, while Iraq has reaped 
the benefits of skyrocketing oil prices. Iraq now has tens of 
billions of dollars in surplus funds in their banks in accounts 
around the world, including about $30 billion in U.S. banks.
    Furthermore, according to the Special Inspector General for 
Iraq Reconstruction, the Iraqi Government budgeted $6.2 billion 
for its capital budget in 2006, but spent less than a quarter 
of that. The President said today that ``Iraqis, in their 
recent budget, would outspend us on reconstruction by more than 
10 to 1.'' However, as of August 31, 2007, according to the 
Government Accountability Office (GAO), the Iraqi Government 
has, in fact, spent only a fraction of its $10.1-billion 
capital budget for 2007.
    Senator Warner and I wrote to the GAO on March 6, asking 
the Comptroller General to look into why the Iraqi Government 
is not spending more of its oil revenue on reconstruction, 
economic development, and providing essential services for its 
own people.
    Ambassador Crocker told this committee, on Tuesday, that 
``The era of U.S.-funded major infrastructure projects is 
over,'' and the U.S. is no longer ``involved in the physical 
reconstruction business.''
    However, as of last Thursday, the U.S. Government is paying 
the salaries of almost 100,000 Iraqis who are working on 
reconstruction. Listen to this, at the same time that 
Ambassador Crocker was saying what he said, that the U.S. is no 
longer involved in the physical reconstruction business, and 
the President today adding that ``American funding for large-
scale reconstruction projects is approaching zero,'' just this 
week the committee received a notice from the Department of 
Defense (DOD) that it intends to increase U.S. funding for 
reconstruction for this year by over 50 percent by reallocating 
$590 million of Iraqi security force funds previously 
designated for training and equipping and sustaining of the 
Iraqi security forces. The notice that we received from the 
DOD, from the comptroller there, is that the increased funding 
would be used, for example, to build 55 new Iraqi police 
stations.
    I sent a letter to Secretary Gates earlier today, and we 
notified his comptroller yesterday, requesting that the DOD's 
notice to us of its plan to use these additional U.S. taxpayer 
monies to pay for Iraqi reconstruction be withdrawn.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Supporters and critics of the Iraq war may 
disagree over much of the administration's policy, but can't we 
at least agree that a country which is awash in cash as the 
price of oil tops $110 a barrel, that Iraq should be using the 
resources that they have to pay for their own reconstruction?
    Again, I welcome our witnesses. I thank them for coming 
here. I know just how difficult their schedule is, and our 
schedule may be comparable to theirs today, since, as of a few 
minutes ago, we had a number of votes scheduled that are going 
to be stacked to begin in a few minutes, and I think that we've 
requested that that be changed, that they be delayed until 
later in the afternoon. But, as of now, there is no change.
    Senator Warner.

                STATEMENT OF SENATOR JOHN WARNER

    Senator Warner. Thank you, Mr. Chairman.
    I join you and other members of the committee in giving you 
a warm welcome and thanks to both of you.
    I've had quite a few years experience. It's been an honor 
to work with the Secretaries of Defense and the Chairmen. I 
think history will record the two of you one of the finest 
teams that ever served the country.
    Secretary Gates, I don't see your arm in a sling. You're 
back in every way. You're going to swing at us a little bit, I 
hope. Don't feel deterred.
    I also want to thank the service men and women under your 
command, and their families, particularly those families who 
have lost loved ones and those families who are loyally trying 
to nurse back to health the wounded. This country owes them a 
great debt of gratitude.
    This week, we had testimony by General Petraeus and 
Ambassador Crocker. I thought it was well prepared. The 
hearings explored, I believe, all facets, whether or not the 
answers meet the requirements of, individual or collectively, 
remains to be seen, but they came forward and did a real strong 
effort in that vein.
    We had witnesses yesterday before this committee with some 
different perspectives on the situation in Iraq.
    I want to commend you, Mr. Chairman, for having a full 
hearing schedule on this very important subject.
    Lastly--that's Iraq and Afghanistan--lastly, Mr. Secretary, 
I wrote a letter to the President, with a copy to you--and I'll 
ask unanimous consent that that letter be placed in the record 
following my opening remarks----
    Chairman Levin. It will be.
    Senator Warner.--expressing my grave concern about the 
narcotrafficking in Afghanistan. It has increased every year. 
Today, it's so full of drugs getting out of that country, it's 
meeting, as I understand it, almost 90 percent of the 
marketplace. Now, I know you've tried hard, Mr. Secretary, but 
the letter asked this matter be raised to the top levels of the 
the North Atlantic Treaty Organization (NATO) conference, 
because I think it deserves no less. I find it unconscionable 
that narcotics trafficking, which money is taken out of as it 
proceeds to leave Afghanistan and--goes directly into the hands 
of the Taliban, the insurgents, to buy weapons, which are used 
against NATO forces, our independent forces, and other allies 
struggling to achieve the goals in Afghanistan of enabling that 
country to exercise the reins of sovereignty over their people 
and their land.
    I would hope today that you could tell us what NATO did 
about that. I understand, from your able staff, that there was 
strong consideration, and I think I and my colleagues are very 
anxious to get those reports.
    I thank you, Mr. Chairman. I'll ask to put in a statement 
by Senator McCain and a further statement of my own.
    But, let's get to the hearing. We're anxious to hear from 
our witnesses.
    Chairman Levin. The statement you referred to, of Senator 
McCain, will be made part of the record, as will your letter, 
as well as my letter to Secretary Gates, requesting the 
withdrawal of this shift of $600 million for additional 
reconstruction projects in Iraq. They'll all be made part of 
the record.
    [The prepared statements of Senator McCain and Senator 
Warner follow:]

               Prepared Statement by Senator John McCain

    Mr. Chairman, I join you in welcoming Secretary Gates and Admiral 
Mullen to the committee. These are challenging times in our Nation's 
history and Mr. Chairman, I cannot think of two better men to serve our 
country and lead our brave men and women in uniform. I am grateful for 
your service and I thank you for testifying before us today on U.S. 
strategy and policy in Iraq and Afghanistan.
    On Tuesday, we heard from Ambassador Crocker and General Petraeus 
on progress in Iraq and their thoughts on our way forward. We still 
face difficulties in Iraq and Afghanistan, but we are making progress 
in both Iraq and Afghanistan. While there has been recent fighting in 
Baghdad and Basra, violence overall is down in Iraq. NATO's recent 
decision to add troops to Afghanistan is a welcomed and positive 
development for our ongoing fight against al Qaeda and a resurgent 
Taliban. The security, political, and economic gains outlined this week 
by General Petraeus and Ambassador Crocker are real.
    Today, the President addressed the Nation about his way ahead in 
Iraq, and today, we have two men, the Secretary of Defense and the 
Chairman of the Joint Chiefs of Staff, who are supremely aware of the 
challenges our forces and our policymakers face this year. Congress has 
a choice--as it did last year--to choose to build on the progress we 
have made or set a timetable for the withdrawal of U.S. troops from 
Iraq resulting in ultimate defeat.
    Last year, many observers predicted that the surge would fail. Yet, 
sectarian and ethnic violence, civilian deaths, and deaths of coalition 
forces have all fallen dramatically since the middle of last year. This 
improved security environment presents an opportunity for an average 
Iraqi, in the future, to embrace a more normal political and economic 
life. Reconciliation is happening. Over the weekend, Sunni, Shia, and 
Kurdish leaders backed the Prime Minister in a statement supporting his 
operation in Basra and disbanding all the militias. No doubt, much more 
needs to be done and Iraq's leaders need to know that we expect them to 
demonstrate the necessary leadership to rebuild their country. But 
today, it is possible to talk with real hope and optimism about the 
future of Iraq and the results of our efforts there.
    Iraq and Afghanistan lie at the heart of the region. A success in 
Iraq and Afghanistan means both nations are stable, prosperous, 
democratic states that do not threaten their neighbors and assist in 
combating terrorists and religious tolerance must triumph over violent 
radicalism.
    Whether Iraq or Afghanistan become stable democracies, or sink back 
into chaos and extremism, the outcome will have long-term implications 
for this critical part of the world as well as our Nation.
    This is broad strategic perspective on our efforts in Iraq and 
Afghanistan. Many people ask how do we succeed in Iraq and Afghanistan? 
The critics said we couldn't meet our goals in Iraq--that they were 
unachievable. They were wrong a year ago and they are wrong now. Since 
June 2007, sectarian and ethnic violence in Iraq has been reduced by 90 
percent. Overall civilian deaths have been reduced by more than 70 
percent. Deaths of coalition forces have fallen by 70 percent. People 
are going back to work. Markets are open. Oil revenues are climbing. 
Inflation is down. Iraq's economy is expected to grow by roughly 7 
percent in 2008. Political reconciliation is occurring across Iraq at 
the local and provincial grassroots level. Admittedly, political 
progress at the national level has been too slow, but there is 
progress.
    I know that the witnesses this morning face formidable challenges 
and what often seems like insurmountable obstacles, but I am confident 
that they will discuss ways in which America can succeed in Iraq and 
detail the likely costs of our failure to Iraq and the region. If the 
United States chooses to withdraw from Iraq before adequate security is 
established, we will exchange for victory a defeat that will have long 
lasting and terrible consequences for ourselves, our friends and the 
region. If Iraq or Afghanistan becomes a failed state, they could 
become a haven for terrorists to train and plan their operations. In 
Afghanistan, it would be a case of history repeating itself--a chance 
no one is willing to take. Iran's influence would increase in Iraq and 
would encourage other countries to seek accommodation with Tehran at 
the expense of our national interests.
    However, if we and the Iraqis can build on our successes, we have a 
chance to make Iraq a force for stability and freedom, not conflict and 
chaos, in doing so, our troops can leave with pride and our Nation can 
leave behind countries that contribute to the security of America and 
the world. I know that our distinguished witnesses possess a lifetime 
of experience and insight, and I look forward to their testimony.
                                 ______
                                 
               Prepared Statement by Senator John Warner

    Mr. Chairman, I join in welcoming Secretary Gates and Admiral 
Mullen back before this committee. I commend the continued skilled 
manner in which both have carried out their duties and responsibilities 
during these challenging times.
    Mr. Chairman, thank you for scheduling the series of hearings this 
week. On Tuesday we received the report from Ambassador Crocker and 
General Petraeus. Yesterday, we had a very good discussion with 
witnesses from outside government on their evaluation of the situation 
in Iraq and policy alternatives for the way forward.
    The committee, I believe, is pleased with the decision announced 
today by President Bush that he will reduce Army combat tours in Iraq 
from 15 months to 12 months. I presume our witnesses opinions on this 
issue were taken into consideration before the President made his final 
decision.
    The hearings held this week, coupled with the President's 
announcement, will yield an equally intensive line of questioning. The 
remaining issue, that of dwell time, or the time a servicemember will 
return from deployment and remain at his or her home station, must also 
be addressed.
    Speaking for myself, I have further lines of inquiry that I have 
formulated from these recent events.
    First, the military surge largely produced the intended results as 
announced by the President in his address on January 10, 2007 and 
provided the Iraq Government, ``the breathing space it needs to make 
progress.''
    The second part of the surge was the expectation that the Iraqi 
Government would make progress on national reconciliation. I 
acknowledge that some progress has been made. However, regrettably, the 
Maliki Government appears largely unable, or not inclined, to achieve 
national reconciliation based upon top-down political accommodation. 
From a long-term perspective, the prospect of establishing a secure and 
stable Iraq that rests upon a patchwork of local arrangements is not 
heartening.
    Additionally, the American people, every day, mourn the loss of 
life and limb and the hardship imposed on the military families. I 
believe many Americans are also growing increasingly impatient with 
Iraq's sectarian squabbling; Iraq's dilatory political delays; and 
impatient with the vast sums of U.S. funds that are being spent on 
Iraq's reconstruction at a time when Iraq's oil revenues and their 
surplus funds in banks continues to grow.
    I look forward to hearing the evaluation of the witnesses and the 
reasonable effort of reconciliation that will take place in the coming 
months.
    Finally, there is increasing attention towards the negotiations 
between the United States and Iraq on a Strategic Framework Agreement 
which would include a Status of Forces Agreement. With regards to these 
negotiations, I urge the witnesses to advocate for the fullest 
consultation between the administration and Congress.
    Turning to Afghanistan, I am increasingly concerned that our goals 
there, and the gains achieved so far, have been placed in jeopardy by 
the continuing growth of the drug trade in Afghanistan. The profits 
from that trade are being used to purchase arms for the Taliban and 
other insurgent groups which are, in turn, being used against U.S., 
NATO, and other partnered forces. I, myself, find this unconscionable 
and believe it has to be addressed immediately at the highest levels.
    Mr. Chairman, I would like to place into the record a letter I sent 
to the President, prior to the NATO summit, to address this issue at 
the highest levels. I look forward to hearing what steps, at the NATO 
summit, were taken to address this critical problem.
    [The information for the record follows after the prepared 
statement of Senator Warner.]
    It has been 9 weeks since our witnesses last appeared before the 
committee. Since then, the following events have occurred: the NATO 
Summit in Bucharest; the resignation of Admiral Fallon; the elections 
in Pakistan; and continued accounts of disturbing Iranian activity--all 
of which have bearing on our discussions today on Iraq and Afghanistan.
    During these 9 weeks, the committee also conducted a number of 
hearings which addressed the readiness of our Armed Forces.
    Six years of war have placed strain on the Armed Forces. In these 
hearings, the most disquieting statement--for me--came from General 
Cody, Vice Chief of Staff of the Army. At a Readiness and Management 
Support Subcommittee hearing on April 1, General Cody provided the 
following testimony: ``Lengthy and repeated deployments with 
insufficient recovery time at home station have placed incredible 
stress on our soldiers and on their families, testing the resolve of 
the All-Volunteer Force like never before.''
    As we approach the 35th anniversary of the establishment of the 
All-Volunteer Force, we must be ever mindful that the All-Volunteer 
Force is a national treasure we must preserve.
    Our witnesses should expect to address these concerns with the 
committee.
    Before closing, I would like to acknowledge a very significant 
event earlier this week. It was the presentation of the Medal of Honor 
to the parents of Petty Officer Michael Anthony Monsoor, a Navy SEAL. 
In September 2006, Petty Officer Monsoor laid down his life in Iraq for 
his fellow team members. America owes him and his family a debt that 
can never be repaid.
    This is why, everyday, Americans honor the service and sacrifice of 
all those who have given life and limb in Iraq and Afghanistan--as well 
as the sacrifices of their families.
    Chairman Levin, thank you.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Chairman Levin. Secretary Gates?

    STATEMENT OF HON. ROBERT M. GATES, SECRETARY OF DEFENSE

    Secretary Gates. Thank you, Mr. Chairman. Thank you, 
Senator Warner.
    Mr. Chairman, members of the committee, I appreciate the 
opportunity to be here to discuss the conflicts in Iraq and 
Afghanistan. As always, I thank the members of the committee 
for your support of the DOD, but, more importantly, for your 
support of our men and women in uniform. While there have been, 
and will continue to be, debates over our strategy in these 
campaigns, I know we are all unified in our admiration for 
those who have volunteered to serve.
    As you have heard from Ambassador Crocker and General 
Petraeus, violence in Iraq has declined dramatically since this 
time last year. In addition to the drop in U.S. casualties, we 
have seen a dramatic and encouraging decline in the loss of 
Iraqi civilians. Ethnosectarian deaths are down approximately 
90 percent; and overall civilian deaths, 70 percent.
    At the same time, the Iraqi security forces have provided a 
surge of their own to complement U.S. and coalition efforts. 
Though the recent operations in Basrah revealed shortcomings of 
Iraq's security forces, it is important to remember that, a 
year ago, they would not have been capable of launching a 
mission of that scale.
    At this time, half of Iraq's provinces have attained 
provincial Iraqi control. The next province we anticipate 
moving into that category is Anbar, a remarkable development, 
considering the grim situation--security situation in that 
province, 18 months ago. The Iraqi forces will shoulder more of 
the burden as we reduce our forces over time.
    On the economic front, the International Monetary Fund 
(IMF) expects real gross domestic product growth in Iraq to 
exceed 7 percent this year. Oil exports are above prewar levels 
and generated almost $40 billion for Iraq in 2007. These 
numbers reflect improvements that are having a tangible impact 
on the lives of Iraqis. These economic gains also mean that 
Iraqis should shoulder ever-greater responsibility for economic 
reconstruction and equipping their forces.
    In recent months, we have seen the Government of Iraq make 
meaningful progress in the legislative arena, as you heard from 
Ambassador Crocker. These legislative measures are not perfect, 
and certainly have their shortcomings. Clearly, these laws must 
be implemented in a spirit of reconciliation, or at least 
accommodation. Still, we ought not ignore or dismiss what has 
been achieved.
    Just as there is real progress to report, there are also 
substantial reasons to be cautious. Al Qaeda in Iraq, though on 
the defensive, remains a lethal force. It is trying to 
regenerate itself, and will continue to launch gruesome 
terrorist attacks. There will be difficult days for Iraqis and 
coalition forces alike in coming months.
    All of this, both the good and the bad, both progress and 
potential regression, was on our minds as we considered our 
options, going forward. In order to advise the President, I 
again asked for individual assessments and recommendations from 
the Commander in Iraq, from the Commander of Central Command 
(CENTCOM) and the Joint Chiefs of Staff. The President received 
recommendations face-to-face with General Petraeus, Admiral 
Fallon, Admiral Mullen, and each of the Service Chiefs. Though 
all bring different perspectives, from the institutional 
military to the operational military, all concurred with 
General Petraeus's recommendations and the course the President 
has chosen in Iraq.
    Presently, three of the five surge brigades have departed 
Iraq. The other two are scheduled to depart by the end of July. 
At this point, it is difficult to know what impact, if any, 
this reduction will have on the security situation. A brief 
pause for consolidation and evaluation following a return to 
presurge troop levels will allow us to analyze the process and 
its effects in a comprehensive way.
    I do not anticipate this period of review to be an extended 
one, and I would emphasize that the hope, depending on 
conditions on the ground, is to reduce our presence further 
this fall.
    But, we must be realistic. The security situation in Iraq 
remains fragile, and gains can be reversed. I believe our 
objectives are achievable. The gains that have been made over 
the past year, at no small cost in blood and treasure, should 
not be allowed to unravel through precipitous actions.
    Whatever you think of how we got to this place, the 
consequences of failure, of getting the endgame wrong, are 
enormous. Some have lamented what they believe was an 
unwillingness to listen to our military professionals at the 
beginning of the war. I hope that people will now not dismiss 
as irrelevant the unanimous views of the field commander, the 
CENTCOM commander, and the Joint Chiefs of Staff. All of the 
Nation's most senior military officers endorse this step-by-
step path forward. As I told the President, I also support 
these recommendations.
    A final observation. I have 8 months left in this position. 
We continue to find ourselves divided over the path forward in 
Iraq. This is not a surprise. The truth is, perhaps excepting 
World War II, all of our country's wars have been divisive and 
controversial here at home. That is the glory of our democracy, 
and gives the lie to the notion we are a warlike people.
    It was my hope, 16 months ago, that I could help forge a 
bipartisan path forward in our Iraq policy that would sustain a 
steadily lower, but still adequate and necessary, level of 
commitment for the years needed to yield an Iraq that is an 
ally against extremists and can govern and defend itself. I 
continue to harbor this hope for a bipartisan path, and I will 
continue to work for it.
    But, I do fear that understandable frustration over years 
of war and dismay over the sacrifices already made may result 
in decisions that are gratifying in the short term, but very 
costly to our country and the American people in the long term.
    We were attacked from Afghanistan in 2001, and we are at 
war in Afghanistan today, in no small measure because of 
mistakes this Government made, mistakes I, among others, made 
in the endgame of the Cold War there, some 20 years ago. If we 
get the endgame wrong in Iraq, I predict the consequences will 
be far worse.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Gates follows:]

               Prepared Statement of Hon. Robert M. Gates

    Mr. Chairman, members of the committee: I appreciate the 
opportunity to be here to discuss the conflicts in Iraq and 
Afghanistan. As always, I thank the members of the committee for your 
support of the Department of Defense, but, more importantly, your 
support of our men and women in uniform. While there have been--and 
will continue to be--debates over our strategy in these campaigns, I 
know we are all unified in our admiration for those who have 
volunteered to serve.
    Let me begin with a few words about Afghanistan.
    Last week, I attended the North Atlantic Treaty Organization (NATO) 
summit in Bucharest with the President and the Secretary of State. 
Progress was made in some key areas:

        <bullet> First, NATO leaders unanimously reaffirmed the 
        importance of success in Afghanistan and renewed their 
        commitment to the International Security Assistance Force 
        (ISAF) mission. This alone is a very significant event when one 
        considers that domestic opposition in Europe has hardened as 
        operational demands have greatly increased in the 17 months 
        since NATO leaders met at Riga. Despite the challenges, NATO 
        partners are standing together and standing firm;
        <bullet> Underlining this point, a strategic vision document 
        was adopted that lays out the alliance's goals over the next 3 
        to 5 years;
        <bullet> A senior U.N. representative was appointed to 
        coordinate development and reconstruction efforts; and
        <bullet> Several allies pledged additional forces, most notably 
        France, who will deploy a battalion to the volatile eastern 
        part of the country.

    These elements made Bucharest a successful summit with regard to 
Afghanistan and demonstrated that members of the alliance take their 
obligations seriously. Members of Congress have expressed frustration 
to me over NATO's shortcomings in the Afghanistan campaign--from force 
levels to caveats. I have had a few sharp things to say on these 
subjects myself. We continue to face serious challenges on the ground 
in Afghanistan.
    But it is important to remember the substantial, indeed heroic, 
contributions of many allies--in particular those operating in the 
southern part of the country.
    Before heading to Bucharest last week, I visited Denmark to meet 
with the Danish leadership and offer my thanks and appreciation for 
their efforts. Denmark--a country of about 5.5 million people and a 
total defense budget of $4 billion--is truly ``punching above its 
weight'' in Afghanistan. Their troops are in the fight and taking 
casualties--including two in the days that preceded my visit. I had a 
chance to meet privately with some Danish soldiers who had served in 
Helmand Province--a long-time Taliban stronghold. The soldiers told me 
that their efforts made a real difference by pushing back the enemy and 
by improving the lives of the local population. Senator Warner, I 
appreciated your kind words about Denmark last week.
    We are grateful to Denmark and all of our allies--and in particular 
the British, the Canadians, the Australians, the Dutch, the Romanians, 
and the Estonians--who have stepped up over the past year to take on 
some of the most difficult and dangerous missions in Afghanistan. Their 
contributions are truly impressive.
    Now to the main topic of this hearing--Iraq.
    In the past 2 days, you have heard from Ambassador Crocker and 
General Petraeus. Earlier today, the Nation heard from the President. I 
welcome the opportunity to contribute my views--as well as answer any 
questions you may have.
    Last year, when the President announced an increase in troops, an 
overhaul of our strategy, and a new leadership team, many were 
skeptical whether these changes could fundamentally alter the situation 
in Iraq.
    I believe the record shows that the fundamentals have changed, and 
that the United States is in a very different place in Iraq today--a 
better place, but one with significant challenges still ahead.
    We have always said that there is no purely military solution to 
the many problems facing Iraq. But a basic level of security for the 
Iraqi people is a necessary precondition for progress to take place on 
other fronts. Since the full surge forces became operational last 
June--just 10 months ago--we have seen security gains accompanied by 
movement in the political, economic, and governance arenas, both at the 
local and national level.
    As you heard from Ambassador Crocker and General Petraeus, violence 
has declined dramatically since this time last year. In addition to the 
drop in U.S. casualties, we have seen a dramatic--and encouraging--
decline in the loss of Iraqi civilians: ethno-sectarian deaths are down 
approximately 90 percent, and overall civilian deaths 70 percent.
    At the same time, Iraqi security forces have provided a ``surge'' 
of their own to complement U.S. and coalition efforts. Though the 
recent operations in Basra revealed some shortcomings of Iraq's 
security forces, it is important to remember that a year ago they would 
not have been capable of launching a mission of that scale. At this 
time, half of Iraq's provinces have attained Provincial Iraqi Control. 
The next province we anticipate moving into that category is Anbar--a 
remarkable development considering the grim security situation in that 
province 18 months ago.
    The Iraqi forces will shoulder more of the burden as we reduce our 
forces over time. I would reiterate that the United States has no 
desire to keep a large number of troops in Iraq indefinitely or have 
permanent bases. The Status of Forces Agreement being negotiated will 
put us on a path to a more ``normal'' security relationship with Iraq--
one that more closely resembles the arrangements we have with other 
allies and partners.
    On the economic front, the IMF expects real GDP growth in Iraq to 
exceed 7 percent this year. Oil exports are above pre-war levels and 
generated almost $40 billion for Iraq in 2007. These numbers reflect 
improvements that are having a tangible impact on the lives of Iraqis. 
To cite one example, the Narhwan Brick Factory Complex has quadrupled 
its workforce since January to 15,000. Similar efforts to revive 
industry are moving forward--aided by increasing foreign investment. 
These economic gains also mean that Iraqis should shoulder ever greater 
responsibility for reconstruction and equipping their forces.
    In recent months, we have seen the Government of Iraq make 
meaningful progress in the legislative arena as well. Iraq's political 
leaders have passed:

        <bullet> A pension law;
        <bullet> An amnesty law;
        <bullet> A provincial powers law;
        <bullet> A justice and accountability law; and
        <bullet> Their 2008 budget.

    These legislative measures are not perfect and certainly have their 
shortfalls. Clearly these laws must be implemented in a spirit of 
reconciliation, or at least accommodation. Still, we ought not ignore 
or dismiss what has been achieved.
    Just as there is real progress to report, there are also 
substantial reasons to be cautious. Al Qaeda in Iraq, though on the 
defensive, remains a lethal force. It is trying to regenerate itself 
and will continue to launch gruesome terrorist attacks. There will be 
difficult days for Iraqis and coalition forces alike in coming months.
    Similarly, the presence of militias and criminal gangs remains 
troubling--as does the ongoing influence of Iran. The operation in 
Basra and its aftermath also raises a number of legitimate questions. 
Even so, there is still a great deal to be said for the Government of 
Iraq's decision to confront the problem.
    All of this--both the good and the bad, both progress and potential 
regression--was on our minds as we considered our options going 
forward. In order to advise the President, I again asked for individual 
assessments and recommendations from the commander in Iraq, Central 
Command, and the Joint Chiefs. The President received recommendations 
from General Petraeus, Admiral Fallon, Admiral Mullen, and each of the 
Service Chiefs. Though all bring different perspectives--from the 
institutional military to the operational military--all concur with the 
course the President has chosen in Iraq.
    Presently, two of the five surge brigades have left Iraq. The other 
three are scheduled to depart by July. At this point it is difficult to 
know what impact, if any, this reduction will have on the security 
situation. A brief pause for consolidation and evaluation following a 
return to pre-surge troop levels will allow us to analyze the process 
and its effects in a comprehensive way. I do not anticipate this period 
of review to be an extended one, and I would emphasize that the hope is 
conditions on the ground will allow us to reduce our presence further 
this fall. But we must be realistic. The security situation in Iraq 
remains fragile and gains can be reversed.
    I believe the President's plan offers the best way to achieve our 
strategic goals:

        <bullet> A unified, democratic and Federal Iraq that can 
        govern, defend, and sustain itself;
        <bullet> An Iraq that is an ally against jihadist terrorism and 
        a net contributor to security in the Gulf; and
        <bullet> An Iraq that helps bridge the sectarian divides in the 
        Middle East.

    I believe our objectives are achievable. The gains that have been 
made over the past year--at no small cost in blood and treasure--should 
not be allowed to unravel through precipitous actions. The 
repercussions of getting it wrong now likely would haunt us in the 
future.
    Whatever you think of how we got to this place, the consequences of 
failure--of getting the end game wrong--are enormous. Some have 
lamented what they believe was an unwillingness to listen to our 
military professionals at the beginning of this war. I hope that now 
people will not dismiss as irrelevant the unanimous views of the field 
commander, Central Command Commander, and Joint Chiefs. All of the 
Nation's most senior military officers endorse this step-by-step path 
forward. I support these recommendations.

    Chairman Levin. Thank you so much, Mr. Secretary.
    Admiral Mullen?

 STATEMENT OF ADMIRAL MICHAEL G. MULLEN, USN, CHAIRMAN, JOINT 
                        CHIEFS OF STAFF

    Admiral Mullen. Mr. Chairman, Senator Warner, distinguished 
members of this committee, thank you for the opportunity to 
appear before you today.
    I thank you also for your continued support of the men and 
women of the United States Armed Forces. I've been spending a 
lot of time with our troops these last 6 months, as I know many 
of you have as well. It's apparent to me that they and their 
families know how much you care, and that, regardless of which 
side of the aisle you represent, you actually do represent all 
of them. We are grateful.
    I know you've heard extensive testimony this week by 
Ambassador Crocker and General Petraeus about Iraq, and I know 
you're interested in the military challenges we face in other 
places, such as Afghanistan. So, let me get right to it.
    The Joint Chiefs and I fully supported the recommendations 
made by General Petraeus to the chain of command, that he 
complete the withdrawal of all surge brigades and that he be 
given time to evaluate and assess his situation before making 
any further force-structure decisions. That seemed prudent to 
me.
    It's not a blank check. It's not an open-ended commitment 
of troops. It's merely recognition of the fact that war is 
unpredictable. That's why we also advised the President and 
Secretary Gates that General Petraeus's assessments of 
conditions on the ground be continuously made, rather than on a 
fixed schedule. More frequent views of exactly how we are 
doing, from a security perspective, is, in my view, the only 
way to ensure we make the right decisions at the right time. It 
is the speed and uncertainty of this war, not just the enemy 
itself, that we are battling. Such has always been the case in 
counterinsurgencies. Witness the lethal influence of Iran, the 
stepped-up attacks in the Green Zone, and the operations 
ongoing today in Basrah.
    I give a lot of credit to General Petraeus and Ambassador 
Crocker for their brilliant leadership over the past year. They 
understand, and have solved, many of the complex challenges of 
waging war against terrorists and extremists, while at the same 
time helping to build the foundations of a new nation. It's 
tough, grueling, messy, and, yes, even lengthy work.
    The surge of forces assisted them in that effort. It has, 
without question and by any measure, helped to improve 
security. But, the surge was never intended to be the remedy 
for all things Iraq. It is designed, rather, to give our 
military leaders the forces they need to execute more effective 
tactics--which it did--and to provide Iraqi leaders the 
opportunity to work toward political reconciliation and 
economic progress--which it also did.
    That such progress has been slower and of mixed success is, 
I believe, more a function of the difficulties of a 
representative government in Iraq than it is of the level of 
security enabled by military operations.
    Our troops can open many doors, but they cannot force Iraqi 
leaders through them. As the last of the surge brigades come 
home, the U.S. military in Iraq will be focused on keeping 
those doors open on assisting the development of more and 
faster progress and on helping the Iraqi security forces defend 
their own country.
    I can't be perfectly predictive, but I see no reason why we 
cannot accomplish these goals while also keeping open the 
option of an informed drawdown of forces throughout the 
remainder of the year. Such options are critical, because, 
while Iraq is rightly our most pressing priority right now, it 
is not the only one. I need the rest of our military focused on 
the rest of our challenges, which are, in this dangerous world, 
many and formidable.
    With the bulk of our ground forces deployed to Iraq, we've 
been unable to prepare for, or deploy for, other contingencies 
in other places. We are not training to full-spectrum 
capabilities. We are not engaging sufficiently with partner 
militaries. We cannot now meet extra force requirements in 
places like Afghanistan.
    Six years of war have certainly sharpened one side of our 
sword. We now have in our ranks the expertise of some of the 
most combat-experienced troops we've had in our history. But, 
the other side of the blade, the major-combat and full-spectrum 
side, needs sharpening, and we must turn this around.
    A quick word about Afghanistan. I'm deeply concerned. The 
Taliban is growing bolder, suicide attacks are on the rise, and 
so is the trade in illegal narcotics. In this economy-of-force 
operation, we do what we can. But, doing what we can in 
Afghanistan is not doing all that we should.
    We recently sent 3,500 marines to the south in Afghanistan. 
They are there and already making a difference. But they're not 
enough. Requirements exist there that we simply cannot fill, 
and won't likely be able to fill until conditions improve in 
Iraq.
    Continued NATO involvement and the commitment of more 
American forces, such as those the President has recently 
pledged, will remain vital to the long-term security of 
Afghanistan and our national interests there.
    Let me conclude here, if I may, by echoing the Secretary's 
sentiments on the quality of our men and women in uniform. I've 
never seen them better. Though I hear and feel the strain they 
are bearing in each of my encounters, I cannot deny that they 
are driven by a sense of mission and purpose. They believe in 
what they're doing, they know they're having an impact, and 
they want to serve.
    We must, from a leadership perspective, give them not only 
the tools to do so, but also the guidance, the counseling, the 
medical care, the support, and the time to do so safely and 
efficiently.
    The President's announcement today that Active-Duty Army 
deployments will be cut from 15 to 12 months is a welcomed 
first step in preserving the health of our forces, and I am 
grateful for his decision, as are the brave soldiers in our 
Army.
    Again, thank you for the continued support and leadership 
of this committee, as well as on behalf of our people and their 
families, and for your time today, Mr. Chairman.
    Thank you.
    Chairman Levin. Thank you so much, Admiral.
    The first vote is on. We have about 4\1/2\ minutes left in 
that first vote, plus the 5-minute extra time which we're 
provided. I think I'm going to try to get my questions in, and 
those who get back in time can pick up from there. If there's 
nobody here, we will just stand adjourned for a few moments 
until we get back. You both are old pros at this problem, and 
we appreciate your understanding.
    We'll have a 7-minute round.
    Secretary Gates, your testimony, says that a brief pause 
for evaluation following the return to a presurge level will 
allow some analysis, you don't anticipate this period of review 
to be an extended one. Now, it's very different, your words, 
from those of General Petraeus. We pressed him very, very hard 
on whether or not he would describe his recommendation as a 
``brief pause.'' He pointedly refused to do that. He would not 
use the word ``brief,'' he would not use the word ``pause.'' 
You used both.
    Then he has, in his recommendation, an ``open-ended, 
unlimited period of time.'' The way he phrased it was that 
after a 45-day period, which gets him to September, during 
which he would do some evaluation, at that point he would 
``begin''--now we're in September--he would ``begin a process 
of assessment,'' and then, over time, would determine what 
recommendations to make.
    Now, were you aware of General Petraeus's testimony to that 
effect when you prepared your own testimony?
    Secretary Gates. Yes, sir.
    Chairman Levin. Are you aware of the fact that he refused 
to use the term ``brief pause''--as a matter of fact, refused 
to put any kind of an estimate of time on his own reviews and 
assessments? Were you aware of that?
    Secretary Gates. Yes, sir.
    Chairman Levin. I think, to the average reader, here, 
there's a difference. Now, you can say that you support his 
recommendations, but there's no way you can paper over that 
difference between your saying you--hoping for a brief pause 
and his saying we're going to begin a period, open-ended, and 
that, over time, starting in September, there may be some 
recommendations. Would you agree that there's a difference 
here? You may want to describe why there's a difference, but 
would you at least acknowledge that there is some difference 
here in the way you described this upcoming period?
    Secretary Gates. There certainly is a difference in the way 
we've described it. When I visited Baghdad in February, I spent 
quite a bit of time with General Petraeus, and he went through 
the--if you will, the geometry of the battlefield as he 
contemplated the five surge brigades coming out and how he 
would be spreading the forces out, or pulling back from some 
places, or changing who was responsible for security, moving it 
to the Iraqis, and so on. He made, I thought, a compelling case 
that once the five surge brigades were out, at the end of July, 
that there should be a period of--what I referred to in talking 
to the press at the time, a period evaluation and consolidation 
so we could see what the impact of having withdrawn a quarter 
of the brigade combat teams would be.
    I continue to believe that that period of consolidation and 
evaluation makes sense. My view is that, in the context of a 
full year, and the fact that we went through a period, in 
December, January, February, or thereabouts, where we went 2\1/
2\ to 3 months or so without any drawdowns, that a period of a 
month to 6 weeks or so made sense, in terms of just seeing what 
the impact was. Does the security situation hold with the 
withdrawal of those brigade combat teams?
    My view is that he should be in a position, at the end of 
that 40-day--45-day period of evaluation and consolidation, to 
make a determination whether a next-further drawdown could take 
place of a brigade combat team or some elements thereof. I 
think that when he talks about a continuing period of 
evaluation, what he is talking about is that he will be making 
this kind of an assessment, beginning--in my view--in mid-
September, making a decision, in terms of whether to make a 
further drawdown then, or whether to wait 2 or 3 more weeks or 
a period of time before making an additional judgment whether a 
subsequent drawdown or an initial further drawdown should be 
made.
    I think, as the Chairman and I have both pointed out, if 
the conditions continue to improve in Iraq, as we have seen 
them improve over the last 14 or 15 months, then we believe the 
circumstances are in place for him to be able to recommend 
continuing drawdowns. But while we have used different words, I 
think that that certainly is my understanding and my 
expectation.
    Chairman Levin. Mr. Secretary, these are his words, ``At 
the end of that period''--that's 45 days--``we will commence a 
process of assessment to examine the conditions on the ground 
and, over time, determine''--that is an unlimited period of 
time. There's nothing in there about 30 days or 40 days. I 
particularly said, ``Could that be a month?'' He won't answer. 
``Could that be 2 months?'' ``I don't know.'' ``Could that be 3 
months?'' ``It may be.''
    Now, I know you must have been familiar with General 
Petraeus's testimony, and it is very different from what you're 
saying here and what, apparently, you recommended to the 
President. I think we ought to acknowledge it openly. I'll let 
you characterize your own testimony in this regard. But, there 
clearly is a difference. The question I'm asking you is, are 
you aware of the fact that General Petraeus refused to use the 
term ``brief'' or ``pause,'' and he refused to use any idea of 
a time period for that second period that began in September--
you're aware of the fact of his refusal?
    Secretary Gates. One of the benefits of being Secretary of 
Defense, I suppose, is that I am more allowed to hope than the 
field commander is.
    Chairman Levin. I hope you're doing more than hoping. I 
hope you're giving a hardheaded assessment of what you are 
recommending to the President.
    Secretary Gates. What I've just described to you, Mr. 
Chairman, is what I have recommended to the President, and I 
believe it is consistent with the decisions the President has 
made.
    Chairman Levin. When the President today, rejected the use 
of the word ``pause''--you used the word ``pause'' in your 
testimony. The President explicitly, in his statement, refuses 
to use the word ``pause.''
    Secretary Gates. I think they were in reference to 
different things. My statement of ``pause'' was pause in the 
drawdowns. The President was very explicit that we were not 
going to pause in our operations in Iraq.
    Chairman Levin. The other question I wanted to ask you has 
to do--talking about ``hope,'' you said, in September 2007, you 
hoped that we could get down to 100,000 troops in Iraq by 
January 2009. Do you still have that hope?
    Secretary Gates. No, sir.
    Chairman Levin. Finally, on the funds, on the 
reconstruction funds--Mr. Secretary, I find this, frankly, to 
be extraordinary, to put it mildly, that we have Ambassador 
Crocker coming before us, 2 days ago, saying that the United 
States is no longer involved in the physical reconstruction 
business. The same day, we get a letter from the DOD, asking us 
to shift almost $600 million into reconstruction. Today, the 
President says that we're just about down to zero, in terms of 
reconstruction.
    Now, it is unconscionable for a country with tens of 
billions of dollars of surplus money sitting in bank accounts--
$30 billion, probably, in ours alone; they sell 2 million 
barrels of oil a day at $110-plus a barrel; we're paying $3.50, 
on the average for gasoline--they're building up these huge 
surpluses, we have this huge national deficit and debt, we're 
paying for their reconstruction, and the President is saying 
that they're getting down to zero in reconstruction, the same 
week his DOD is asking us to pour an additional $600 million 
into reconstruction.
    I don't know if you've gotten the letter yet--apparently 
you didn't--but, we mentioned this to your Comptroller 
yesterday, that this is very troubling to me. If I had the 
power, as chairman, as I do in some areas, to actually 
disapprove a reprogramming request, I would disapprove this. I 
don't have that power in this area, because of a particular law 
that was passed. But, we do have the power to request that you 
withhold this shift of funds, and that you consider, during 
this period, whether or not you really want to make that kind 
of a shift. I think it's unconscionable. It runs smack into 
what the President assured the American people today. It runs 
exactly contrary to what the Ambassador said, 2 days ago. It 
just rubs everybody that I know of, of both parties, the wrong 
way. This is not a partisan issue. This is a commonsense issue 
about American dollars.
    When you get my letter, would you please promptly get 
back--reconsider what the President said today and what 
Ambassador Crocker said, and I would hope you would withdraw 
that notice of a shift.
    Secretary Gates. I will certainly respond to your letter, 
Mr. Chairman. I will say, the reprogramming was for the 
Commander's Emergency Response Programs (CERP).
    Chairman Levin. No, it's not, those are not CERP funds. No, 
no, no.
    Secretary Gates. And----
    Chairman Levin. We're all for the CERP funds. That's not 
this issue.
    Secretary Gates. But, I believe the reprogramming, Mr. 
Chairman, is for the CERP.
    Chairman Levin. No, the CERP doesn't build Iraqi police 
stations, 55 police stations.
    Secretary Gates. Well, I was unaware of the police 
stations, but it is certainly--I mean, the CERP is, basically, 
in the very short term, to give employment to Iraqis so they'll 
put their guns down and stop shooting at our soldiers.
    Chairman Levin. We're all for the CERP fund. Everybody, I 
think, here has basically supported the CERP fund.
    Secretary Gates. It may be the definition of the projects 
under the CERP. I don't know if the Chairman knows.
    Chairman Levin. No, I just don't think that's what this is, 
and we'll give you a copy of this letter so you can take a look 
at it, if you want to today. That's not this issue. This is 
$600 million for construction of the size of police stations.
    Senator Kennedy.
    Senator Kennedy [presiding]. Thank you. Thank you, Mr. 
Chairman.
    Mr. Secretary, in your opening comments, you talked about 
how your desire to have a bipartisan effort during the time as 
the Secretary of Defense--I think you should know, as well as 
Admiral Mullen, that many of us have differences with regards 
to the policy in Iraq, but I think all of us have enormous 
respect for your service, Admiral Mullen's and your comments, 
both, what you believe is in the best interest for the security 
of the country. We have our differences, but I think you should 
obviously know that members of this committee owe both of you 
the highest possible regard.
    Let me, just for a moment, continue what Chairman Levin has 
mentioned and why I think there is at least a degree of 
confusion. Mr. Secretary, you mentioned the ``brief pause,'' 
and I think you used the word ``for consolidation and 
evaluation, and I do not anticipate this period of review to be 
an extended one.'' President Bush, today, said in his 
statement, ``Petraeus will have all the time he needs for 
consolidation and evaluation.'' It is that dichotomy which 
brings the frustration, at least to me, and that, I think, is 
underlying the point that was being raised by the chairman. I 
think you've answered him. Unless there's something else that 
you want to say on it, I'll move on. I think it is that 
difference between what the President has said and what you 
have said. The chairman was talking about the difference 
between what General Petraeus himself had said before the 
committee. I think it's this difference that brings some 
confusion and some frustration, in terms of looking at this.
    Secretary Gates. I actually think, Senator Kennedy, that 
there's really not a substantive difference here. I think that 
the place where we all start is the ``decisions will be made.'' 
The place where General Petraeus, the President, and I all 
start is--and the chairman--is that decision will be made, in 
terms of subsequent drawdowns, based on the conditions on the 
ground. We intend to continue that process of evaluation. My 
view is, clearly the President, I think, was saying that he 
will defer to General Petraeus's evaluation of the situation on 
the ground, in terms of--and his continuing assessment of 
that--in terms of decisions on any further drawdowns. I agree 
with that statement, and I certainly support that statement.
    My view is that the period of evaluation and consolidation 
is a 45-day period that General Petraeus has referred, and then 
I think he makes the initial judgment, right then, whether or 
not further drawdowns are possible at that point. He will 
continue to make that judgment all through the fall.
    Senator Kennedy. Admiral Mullen, listening to your 
testimony, you were talking about the doors being opened in 
Iraq, you said, ``We can open doors. We can't force Iraqis to 
go through the doors. We can keep the doors open.'' It's just 
that kind of open-endedness that is of great concern to many of 
us, because it looks like what we are saying is that we are 
holding American service men and women hostage to the 
willingness of Iraqi politicians to make the political 
accommodations that are necessary in order to reach some kind 
of resolution there.
    How long are we going to keep these doors open? Many of us 
believe that we have kept them open long enough and that we 
should say to the Iraqis it's time for them to assume 
responsibility for their security and for their defense. Now 
we're just saying we are going to keep the doors open, and it 
appears to many of us that we're going to keep the doors open 
while American service men and women are fighting and dying, 
and while the Department of Treasury is open to pour additional 
funds into the sands of Iraq.
    Admiral Mullen. Senator, in the other part of my 
statement--I certainly wanted to be clear that I don't see this 
as a wide-open commitment, an unending commitment. When I've 
previously testified here, I've talked about how the military 
solution is not going to be the one that solves all this; we 
can provide the security so there can be progress. That has 
clearly happened with the surge, the effects of the surge. The 
security has improved remarkably, and in that timeframe, there 
actually has been movement in the political realm. Not too many 
people, myself included, would have said, last summer or last 
fall, that the Iraqi Government would have passed these four 
laws which they have passed. They've made progress. There are 
still other ones that they have to pass. That there are clearly 
limits, in terms of how long we would provide that kind of 
security. One of the messages that I hope to send in this is 
the sense of urgency that they continue to move as rapidly as 
possible to provide for their own security--and their security 
forces have improved dramatically; to pass the laws that need 
to be passed, in terms of their own government; and to 
politically reconcile--and that's happened, both locally, 
provincially, as well as nationally, not like we'd like it to. 
So, it's really in that context that I'm talking about when I 
talk about having those doors open. They must take advantage of 
that.
    Senator Kennedy. There seem to be different views on those 
matters, Admiral, but let me move on, because we know that we 
have had statements that were made today about the President--
which I welcome--who talks about shortening the deployment of 
our soldiers from 15 months to 12 months. We had Secretary 
Gates, on April 4. You confirmed that the President committed 
to our NATO allies the U.S. would send a significant additional 
contribution in troops to Afghanistan. I certainly welcome 
that.
    All of us know, and Admiral Mullen has talked about this--
the stress that is being put on our service men and women. Even 
if you're rotating the five brigades out of Iraq, those 
individuals have effectively burned up their time, and now 
we're talking about shortening the time from 15 months to 12 
months, we're talking about the additional kinds of personnel 
that are going to be necessary in Afghanistan.
    So, let me ask you, either Admiral Mullen or Secretary 
Gates--Admiral, you talked about, ``The military must reduce 
the stress on the Army and the Marine Corps, or risk crossing 
an invisible red line.'' Secretary Gates, haven't we already 
crossed that red line and over-strained our troops? If we 
haven't crossed the red line, when do you think we will? 
Admiral Mullen, I'd like to hear from you, too.
    Secretary Gates. I do not think we've crossed that red 
line. Clearly, the force is under strain, their families, in 
particular, are under strain. Admiral Mullen's been to the 
theater more recently than I have, but I was there just a few 
weeks ago, and morale is high, they are determined and 
committed. We are watching all of the indicators, in terms of 
the health of the force, very carefully. I think all of the 
Chiefs would tell you that we are not past that red line. But, 
particularly with the Army and the Marine Corps, we are 
watching very carefully, and that's one of the reasons why we 
put such a premium on being in a position to reduce the 
deployment time for troop--for units that are deploying after 
the first of August to 12 months, so they can have--and that 
they will have 12 months at home.
    Senator Kennedy. Admiral?
    It's difficult to see, with the stress that is on the 
military at the present time, the increased demand you're going 
to have, reducing the amount of time that they're going to be 
in rotation, and also putting additional kind of numbers into 
Afghanistan that you don't increase the kinds of pressure.
    Secretary Gates. Senator----
    Senator Kennedy. Let me just--there is no other member of 
the Senate here, so let me just use up----
    Secretary Gates. Could I just respond----
    Senator Kennedy. Sure, please.
    Secretary Gates.--to the comment about Afghanistan?
    Senator Kennedy. Okay.
    Secretary Gates. I made that comment, Senator, and 
encouraged the President to make the commitment he did, after 
long discussions with the Joint Chiefs, in full awareness of 
General Petraeus's recommendations, but also out of confidence 
that American troop levels in Iraq will be lower in the course 
of 2009.
    Senator Kennedy. I think you responded to the chairman 
asking about whether you thought the numbers were going to be 
down, and you indicated you didn't think so, in Iraq.
    Secretary Gates. No, I did not. I expressed the hope that 
they would be.
    Senator Kennedy. On another subject, on this long-term 
security commitment, in the discussions that we had, Secretary 
Gates, on Iraq in a February 6 hearing of the committee, you 
said that there ought to be a great deal of openness and 
transparency to Congress. You gave the committee your word that 
the Senate would have an opportunity to review it before it was 
implemented. So, many of us welcomed that commitment--I'd like 
to ask you whether you believe Congress should have the 
opportunity to approve or disapprove any agreement, regardless 
of what it's called, if it affects our troops. With the country 
so deeply involved in Iraq and the Nation so deeply divided, 
shouldn't we in Congress have a right to be able to vote on the 
nature of any long-term security commitment?
    Secretary Gates. Senator Kennedy, as we discussed in 
February, the agreement that is under negotiation is a standard 
Status of Forces Agreement (SOFA). It will make no commitments. 
It commits the new President, in January, to nothing. It will 
not involve bases, it will not involve troop levels, and it 
will not involve security commitments to the Iraqis. I would 
say that if an agreement emerged in some way that impacted 
treaty-making authorities of the Senate, then obviously it 
would need to be sent up here, but as long as it conforms to 
the standard kind of SOFAs, of which we have some 90 or 100 in 
place, none of which have been ratified by the Senate, I would 
think it is not necessary.
    But again, I think the important thing, because of the 
involvement and the controversy associated with the war in 
Iraq, it's very important for the executive branch to be very 
open with Congress as we go forward with the negotiation of 
this SOFA.
    Senator Kennedy. In 1953 we ratified the SOFA with NATO, 
and President Eisenhower didn't bypass Congress. Congress even 
approved the Compact on Free Association during the Reagan 
administration, where we didn't have the kind of velocity and 
the strong feeling with regards to troops. There's precedent, 
and given the fact--the enormous power of this issue, the fact 
of American troops--I mean, if we have American troops in those 
areas, whether we have the agreements or there are not going to 
be agreements, they're going to be affected by whatever is 
understood by the Iraqi Government. So, it does seem to me that 
this is certainly something that ought to be considered by 
Congress.
    My time has expired. Thank you very much.
    Senator Warner [presiding]. I thank my colleague.
    I was very taken aback by your testimony, Mr. Secretary. 
That testimony reflects your belief of accountability in public 
office and your candor about the mistakes made. I want you to 
know, having been the chairman of this committee during most of 
that period, I accept the same level of responsibility for some 
of those mistakes, as do you, even though you came later on. We 
have to go forward in a manner that we think is best for the 
long-term interests of our national security. I judge in both 
you and Admiral Mullen, a willingness to, on a daily basis, 
look at all the options and do what we can to achieve the goals 
of enabling that country to exercise the reins of sovereignty.
    I was thinking about the SOFA that's coming up and the 
Strategic Framework Agreement which is going to accompany two 
agreements. It sort of states that they're in a category of 
other nations of the world where we have SOFAs. It's a point of 
pride, as well as a point of resolving things that are needed 
by both the United States and Iraq.
    It seems to me that, therein might be some leverage to 
achieve a greater degree of reconciliation. They've done some 
reconciliation. We know what it is. But, it's far short of what 
I believe the President and yourself had in mind in January, 
when the surge was launched. Clearly the surge provided, as the 
President said, the breathing space, but it simply has not 
resulted in the measure of reconciliation that we literally 
entrusted to Maliki and the rest of his government.
    So, are these agreements a means by which to gain some 
leverage?
    Secretary Gates. Senator Warner, I think we ought to use 
anything we can find in the toolbox to try and encourage the 
Iraqis to move forward on reconciliation. My own view is that 
we may have--things began to come together and to move--after 
what seemed like many months of stalemate in Baghdad, they 
moved several of these pieces of legislation, all within a 
period of a few weeks, earlier this year.
    One of the things we're seeing is, all of the different 
elements in Iraq congratulating Maliki on taking on the 
situation in Basrah--the Kurds, Sunnis, and others. So we may 
be seeing a growing belief in Iraq, that the Government of Iraq 
is not sectarian, and that it does represent the interests of 
all Iraqis. So, this is clearly a work in progress, but I think 
it has accelerated in recent weeks, and we will need to 
continue doing everything that we can to push that process 
along.
    I would just say, in addition, I think that the team that 
you had in front of this committee, 2 days ago, or 3 days ago, 
of Ambassador Crocker and General Petraeus, is unlike anything 
I've seen since I joined the government, 42 years ago, in terms 
of being on exactly the same page and working with the Iraqi 
Government in trying to push them along in exactly the 
direction that you're describing.
    Senator Warner. Those two extraordinary public servants are 
working together as a team, like two strong horses trying to 
pull the wagon with the problems in it. That came through, time 
and time again, and I've had the privilege of working, 
certainly with the Ambassador for many years. He used to come 
up here and be part of the briefing team, before we even went 
into Iraq. I have a high degree of confidence in his judgment. 
I think he, likewise, is very pragmatic, recognizes mistakes 
were made--both of them--and that they stand accountable and 
with candor, they acknowledge it.
    But back to the drug issue I raised with you. You had the 
opportunity to see my letter to----
    Secretary Gates. Yes, sir.
    Senator Warner.--the President. I sent a copy to you. If 
you could enlighten me. Again, my concern was that this issue 
is so serious, in the minds of this Senator, that it had to be 
elevated--you had the heads of State and government there, and 
this was the forum, because we cannot stand by and just not do 
positive steps to rachet down, substantially--maybe we can't 
all do it in 1 year, but substantially eliminate those funds 
that are flowing to the aggressors that are fighting our troops 
and the troops of NATO.
    Secretary Gates. It is clearly a huge problem. It came up 
in two different forums in Bucharest, first in a meeting of the 
foreign and defense ministers of the countries that are all in 
Regional Command South. The importance of dealing with it, the 
importance of an integrated strategy, the importance of 
particularly going after the labs, after the large landowners, 
and working with the Afghans, and trying to get rid of corrupt 
officials. It then came up again in the meeting that the heads 
of government had with President Karzai, and a number----
    Senator Warner. Actually, really the buck stops on his 
desk, in my judgment.
    Secretary Gates. Yes.
    Senator Warner. It is his responsibility with his police 
and his other mechanisms of internal security.
    Secretary Gates. As part of the Afghan Compact, in February 
2006, primary responsibility for dealing with the narcotics 
problem passed to the Afghan Government. Now, they have a 
counternarcotics force with an authorized size of about 3,000, 
and they have about 2,100 onboard. They have some helicopters--
a dozen or so helicopters. They're working with the Drug 
Enforcement Agency, they're working with us. But, also, the 
United Kingdom and NATO are trying to figure out how we can 
support them to do a better job. Supreme Headquarters, Allied 
Powers, Europe is working on a plan, has addressed this issue 
on how the International Security Assistance Force (ISAF) can 
do a better job of supporting the Afghan Government. The 
results of that assessment are classified, but I'd be happy to 
provide it to you and to the committee for the record.
    [The information referred to follows:]

    [Deleted.]

    Secretary Gates. There is clearly an understanding on the 
part of the NATO governments, from the heads of government on 
down, of the importance of this, and I will tell you, they were 
very direct with President Karzai in the meeting in Bucharest.
    Senator Warner. I will avail myself of that opportunity, 
and that pleases me.
    Admiral, would you like to comment on that?
    Admiral Mullen. Just that it's as critical as you say it 
is, Senator Warner. It is a concern that troops in the field 
have, and actually some of our troops are very involved in 
meeting this challenge, as well, particularly some of the labs 
and that kind of work. It is something that is very much on 
their minds, and that a long-term comprehensive, effective 
strategy be put in place is critical to a successful outcome in 
this country.
    Senator Warner. The current senior officer in the country--
I know him as a matter of fact, on earlier visits he was 
stationed there--he has spoken out very frankly on this. I had 
a long talk with his successor, General Kern, who's coming up 
for confirmation before this committee shortly, and he, 
likewise, is concerned.
    Well, we have to do something. I'll come back, but, I mean, 
I leave this issue knowing that both of you are doing 
everything you can to reduce that threat to our troops from the 
drug money.
    Joe?
    Senator Lieberman [presiding]. Thanks, Senator Warner.
    Thanks to you both for being here, and for your testimony 
and service.
    I appreciate the opening statements both of you made. I 
want to read from the close of your statement, Mr. Secretary. 
``Some have lamented what they believe was an unwillingness to 
listen to our military professionals at the beginning of this 
war. I hope that now people will not dismiss as irrelevant the 
unanimous views of the field commander, CENTCOM commander, and 
Joint Chiefs. All of the Nation's most senior military officers 
endorse this step-by-step path forward. I support these 
recommendations.''
    I appreciate that, both because of the history that you 
referred to, but also because there was a lot of media 
speculation that there was intense disagreement within the 
military about how to go forward. I've been through this enough 
now to discount what I see in the media. But, the important 
point is that the recommendation General Petraeus brought 
before us, and that you and the President and the Chairman of 
the Joint Chiefs have now accepted, is really the unanimous 
recommendation of our military leadership. Admiral, I'm----
    Admiral Mullen. It is.
    Senator Lieberman. Yes. I appreciate that, and I think it's 
very important that Members of Congress and the public know 
that, that the President has acted on the unanimous 
recommendation of our military leadership.
    As this is going on--and, look, I have a point of view on 
the war, that you know, and I think the report of General 
Petraeus and Ambassador Crocker showed real progress. They 
didn't overstate the case. It's reversible. But, militarily, 
the numbers that you cited--real progress, politically and 
economically, in Iraq. There are now different lines of 
questioning being raised by critics of what we're doing in 
Iraq, one of which I think has some merit, although it may be 
overdone, and that's the one I want to ask you to comment on, 
which is the economic side of this, the concern expressed that 
the Iraqis are now putting some money in the bank, based on the 
improvement in their oil output and, of course, the increase in 
the international price of oil.
    So, I wanted to ask, Mr. Secretary or Admiral, if you'd 
talk about to what extent are we asking the Iraqis, and are the 
Iraqis now picking up costs of either the military or economic 
part of our involvement in their country? Two, what thoughts 
you have about what more we can ask of them in the months and 
years ahead.
    Secretary Gates. This is one place, Senator Lieberman, 
where I think there is true bipartisan agreement----[Laughter.]
    Senator Lieberman. I think you're right.
    Secretary Gates.--across the entire political spectrum, 
that the time has come for the Iraqis to pick up the bill for 
their own economic reconstruction and equipping of their 
forces, and so on. I think the figures that the President was 
referring to today, when he said a 10-to-1 differential, in 
terms of investment, is that the Iraqis have $13 billion in 
their budget for reconstruction, and there's nothing in our 
budget.
    I'm going to come back to the chairman of the committee, 
here, in a second, with an apology.
    But, my understanding is that in 2007, out of $2 billion in 
foreign assistance the State Department (DOS) got for Iraq, 
only about $520 million went for reconstruction. They've asked 
for a little less than a billion in foreign assistance. If you 
had the same proportion, it would be similar to that.
    Maybe I'm using a little of Senator Lieberman's time to 
offer you an apology, Mr. Chairman, but I've been handed a 
note, and, as strange as it may seem, leading the largest and 
most complex organization in the world, there are actually 
things that go on that I don't know about. The $600-million 
reprogramming that you talked about is not for CERP, and I will 
take a very close look at it----
    Chairman Levin [presiding]. Thank you.
    Secretary Gates.--for the reasons that you cite. But, it 
gets to the point----
    Senator Lieberman. Right.
    Secretary Gates.--that Senator Lieberman has raised. I 
think this is an area where there is broad agreement, it is 
time for the Iraqis to spend some of their money.
    Senator Lieberman. Should they be spending more of their 
money, not only on their own military costs, but on some of 
ours, which, of course, has happened in previous American 
involvements in conflicts, both in the Middle East, but also 
post-second World War, for instance?
    Secretary Gates. We haven't really discussed that, at this 
point. The focus has really been more on their spending money 
on their own forces and on their economic reconstruction. They 
clearly have a lot of money they need to spend in those areas. 
We've now, I think, actually delivered about $2 billion worth 
of arms and equipment, under foreign military sales, to them 
that they bought with their own money. There are several 
billion dollars more on order. Their forces, we will be asking 
for a significantly smaller amount for Iraqi train-and-equip in 
fiscal year 2009 than we have in the past.
    But, the question, in terms of whether there are some of 
our costs they ought to pick up, I'm not aware that we've 
really begun to consider that yet. It's been more of making--
one of the concerns, again, the chairman raised, is getting 
them--they can budget the money, but one of the----
    Senator Lieberman. Right.
    Secretary Gates.--problems they've had is getting them to 
execute their budget. Part of it's a lack of expertise, part of 
it is a lack of trained people, and part of it, in the past, 
has probably been politics. We think they're making headway on 
all of those.
    Senator Lieberman. It's good to hear. I hope you'll start 
to think about that, because I'm sure some of that bipartisan 
agreement on this question of the Iraqis picking up more of the 
costs of the conflict will be expressed, at some point in 
Congress, urging you to do that.
    I want to ask a second question. There's been a lot of 
concern expressed about the negotiations going on for a SOFA 
for a longer-term military relationship with Iraq. I'm thinking 
here, let's look to that day when it's post-conflict, when our 
troops are not involved in actual combat. Obviously, there's 
been a lot of controversy in the presidential campaign about 
Senator McCain's comment that we may have troops there a longer 
time after the war is over, for peacekeeping. Some seem to 
suggest that for us to have a longer-term military presence in 
Iraq would be somehow dangerous or destabilizing for the 
region.
    I don't want to coach the witness too much, but it does 
strike me that if one takes that position, then you have to 
answer the question. ``What about our presence in Qatar, 
Bahrain, Oman, the United Arab Emirates (UAE), and throughout 
the Arab world, throughout the Middle East?''
    I wanted to ask you if you would respond to the concerns 
about a longer-term, essentially, military-to-military 
agreement between a free, sovereign Iraq and the United States 
of America.
    Secretary Gates. I think that first of all, the states and 
their--and I'll invite Admiral Mullen to comment--I think, with 
one exception, virtually all of the states in the region would 
like to see the United States maintain some kind of a presence 
in Iraq, and not just as a stabilizing force, but to continue 
the hunt for al Qaeda, to continue going after--helping the 
Iraqi Government go after extremists, and so on. So, we are 
talking, at least in my opinion, of a force that is a fraction 
of the force that we have there now.
    Senator Lieberman. Admiral Mullen, do you want to add to 
that?
    Admiral Mullen. Yes. Senator, most believe we will need a 
long-term presence there, that is, as the Secretary said, 
obviously much, much smaller than we have had.
    Senator Lieberman. Right.
    Admiral Mullen. I'll just use the Basrah operation as an 
example. While they moved a division's worth of forces, there 
are capabilities they just don't have yet--the intelligence, 
surveillance, reconnaissance, and logistics, and there are a 
lot of them--what we call enablers, so that they can take care 
of their own security. So, there will be some of that. This is 
a sovereign country and if they want training assistance, which 
is what we do routinely in lots of countries around the world, 
that would be part of this. I would expect that would be part 
of this, as well.
    This is a part of the world that is as unstable as any, and 
so, to the degree that our forces have that kind of footprint 
that provide the kind of stabilizing influence that we often 
do, I would expect us to be there.
    Senator Lieberman. Secretary Gates, I assume that the one 
country in the region that you would guess doesn't want us to 
have a long-term military presence in Iraq is Iran.
    Secretary Gates. That would be correct, Senator.
    Senator Lieberman. Thank you both.
    Thanks, Mr. Chairman.
    Chairman Levin. Thank you, Senator Lieberman.
    Thank you, Secretary Gates, for your clarification.
    Let me just give you a couple of other numbers. We've 
expended, on reconstruction so far, $27.5 billion on just three 
funds; $12 billion is unspent that's been appropriated. So, 
there's another $12 billion to look at, as to whether or not we 
should not tell the Iraqis that rather than our spending that 
unspent $12 billion that's previously been appropriated, that 
we're going to look to them to pick up that slack. That's in 
addition to this ``$600 million'' letter that you'll be 
getting.
    Let me just give you one incident that I shared with 
General Petraeus and Ambassador Crocker. When I was there a 
month ago, and I was talking to one of our generals, and he 
said, ``Senator, I was asking an Iraqi general, the other day, 
this question.'' He said, ``I asked him, `Why is it that we 
Americans are cleaning up your cities at our expense?' His 
answer was, `As long as you're willing to pay for it, we're 
going to let you do it.' ''
    That's the dependency. That's what's been created here, and 
that's why I think there is a real feeling in the country which 
is united on that issue, and I think, a bipartisan feeling, 
hopefully, at least on that question. We appreciate your taking 
a close look at that request.
    There's another number out there which I want to ask you 
about. By the way, on the budget, when you said that they have 
$13 billion in their budget for capital costs, you very 
properly point out that the issue is whether they're going to 
spend it. I just want to reinforce that point, because in 2006 
they had a budget of $6.2 billion, the Iraqi budget; they spent 
less than a quarter of that. In 2007, as of August 31, they had 
spent, depending on which figure you use, either 4 percent, 
which is what the GAO said, or 24 percent, according to the 
White House computations--somewhere between 4 and 24 percent of 
their 2007 capital budget, which was $10 billion. So, the issue 
isn't a number that they put on the paper, it's what they spend 
which is the critical number. They have the money. It's sitting 
in our banks. We know that.
    Mr. Secretary, these are 2 million barrels of oil a day, at 
$110 a barrel. That's $200 million a day. The U.N. is going 
around trying to get the world to pick up costs for Iraqi 
people who have left their homes, instead of the Iraqis paying 
for the Iraqi people who have left their homes. Why is it that 
we're paying money, and that the U.N. is paying money, for 
Iraqi people who have been either removed forcefully or fled 
their homes--there's 2 million in Iraq and 2 million out of 
Iraq, approximately. Someone's going to have to pay for them; 
we understand that. But, why isn't the Iraqi Government paying 
for that? That's less than a billion dollars the U.N. is 
seeking. They get that in 5 days' worth of oil sales.
    Secretary Gates. Well, again, Mr. Chairman, I think that, 
as I suggested to Senator Lieberman, I think a big part of the 
problem here has been the Iraqi capacity to execute their 
budget, not a lack of willingness to do it. We have, for 
example, just sent 12 experts from the Department of the 
Treasury to work with the different ministries in Iraq, to try 
and help them figure out, ``How do you execute a budget? How do 
you get money to the provinces? How do you get contracts?'' 
This is all new for the Iraqis.
    Chairman Levin. I'm sorry, it's just not acceptable. 
Cutting a check from an account that they have in New York, Mr. 
Secretary, I just think it's totally unacceptable that we say 
they don't know how to cut a check. Do you know how much money 
they pledged last year to the U.N. for the support of their own 
Iraqi people who have been pushed out or fled their homes? Do 
you happen to have that article? I think it was something like 
$25 million. $25 million. That's a pledge. I don't even know if 
they followed through on the pledge. We have a responsibility 
to those people, by the way. I happen to feel that very deeply. 
But, my gosh, so do the Iraqis have a responsibility to their 
own people. We're spending more of our money, by far, on Iraqi 
refugees than the Iraqi Government is spending. The only reason 
we hear on that is that they don't have the capacity to cut a 
check to the U.N.? It doesn't wash. It's another example of a 
failure to force the Iraqi Government to take responsibility 
for their own country. It's just another example of that.
    Here's what I asked Ambassador Crocker about the number of 
employees that we have that are working on reconstruction. 
These are not your employees, these are not people working at 
the bases, these are not the Sons of Iraq, these are U.S. 
Agency for International Development and Army Corps 
reconstruction people--100,000 people on our payroll. The 
President describes this as coming to an end, today? It doesn't 
compute.
    What we're going to need you to do--and I really believe 
that there's a lot of bipartisan support for what I'm saying--I 
really need you to take a look at these monies that are in our 
budgets, that are unexpended, and--these are the DOD budgets, 
these are reconstruction funds. We think there's $12 billion, 
at least, unexpended. If you would take a look at that and get 
back to this committee with what can and should be covered by 
the Iraqis, it would be very helpful.
    [The information referred to follows:]

    I agree that Iraqis should pay for an increasingly greater share of 
the costs associated with reconstruction and stabilization. The 
Government of Iraq (GOI) has already assumed responsibility for the 
bulk of reconstruction costs. The 2008 GOI budget, with Iraq's mid-year 
supplemental, includes more than $21 billion for capital expenditures 
and $11 billion for the Iraqi security forces (ISF). The U.S. fiscal 
year 2008 budget in contrast includes $3 billion for the ISF Fund 
(ISFF), $1.7 billion for the Commanders' Emergency Response Program 
(CERP), and $50 million for the Task Force for Business and Stability 
Operations (TFBSO).
    In fact, the GOI has increased its spending for the ISF by about $2 
billion every year since 2005. For 2009, the Iraqi security budget is 
expected to reach $11 billion. In addition, the GOI is increasingly 
using the Foreign Military Sales program to equip and train its forces. 
By building Iraqi capacity and transitioning costs to the GOI, we have 
reduced our ISFF request for fiscal year 2009 to $2.0 billion. No funds 
will be requested for TFBSO.
    The GOI began to assume responsibility for payments to the 54,000 
Sons of Iraq (SoI) in the Baghdad area beginning October 2008, thereby 
covering $15.5 million in monthly payments previously funded through 
CERP. The gradual transition has been positive with both GOI and SoI 
leaders supporting the process. The GOI launched a $270 million Iraqi 
CERP in April 2008 and has provided a total of $550 million for post-
kinetic reconstruction in Basra, Mosul, Sadr City, and other cities. In 
the past, these efforts to enhance stability and cement hard-won 
security gains could have fallen to U.S. Commanders with CERP funding.
    Although recent, tentative security gains and improvements in GOI 
capacity have allowed us to hand over programs and associated costs, 
DOD programs remain indispensable to the U.S. Government 
counterinsurgency strategy. By enabling commanders in the field to 
respond quickly to urgent needs. CERP has proven to be one of our most 
successful counterinsurgency weapons. ISFF helps safeguard our 
investment in Iraq by ensuring a functional and effective 1SF. Any 
effort to curtail these programs would provide new openings for 
extremists to regain the initiative they lost in 2007, decrease our 
ability to build sustainable security conditions with the ISF, and 
hamper the further drawdown of U.S. forces.
    We will continue to look for activities that can and should be 
funded by the Iraqis. Transitioning these costs to an increasingly 
capable GOI and redeploying our troops as security improves and Iraqi 
forces assume responsibility constitute a return on our successes in 
Iraq.

    Chairman Levin. I think it would put us on a path, which is 
a kind of path you described in your opening statement, about a 
desire that this be put on a bipartisan course. You told me 
that, the first day that you came in my office, when you were 
nominated, and I believed you then, and I believe you now, that 
that is your desire, to try to find a path which can get 
bipartisan support. This is a element which I believe can get 
bipartisan support.
    The last question, if no one else is here--I hope that--
we're going to have a few more coming back--I was over there at 
the Senate; I can only tell you that there are so many people, 
so many colleagues of mine who were there voting, stuck there, 
because they obviously wanted to be here. We did make an effort 
to get these votes delayed; I want you to know that.
    My final question has to do with Afghanistan, and it goes 
to you, Admiral, because you, I think, made reference to 
Afghanistan in your statement. You indicated, I believe, that 
we have inadequate troops, that we may need to have more troops 
in Afghanistan. You said that--at least earlier in the month, 
and you, perhaps, said something similar today, which I may 
have missed--that there are force requirements in Afghanistan 
that we cannot currently meet, and that the high level of 
forces in Iraq doesn't allow us to fill the need that we have 
in Afghanistan. You said in December, ``It's simply a matter of 
resources, of capacity. In Afghanistan, we do what we can; in 
Iraq, we do what we must.''
    There's going to be a reduction from a 15-month deployment 
to a 12-month deployment--very regrettably, starting in August, 
which makes it too hollow for many of us. But, nonetheless, 
that's what the President has decided. So, this reduction is 
not going to help people who are already there. But, 
nonetheless, that reduction has been announced today by the 
President, to begin 4 or 5 months from now. How does that 
affect the Afghanistan picture? If you haven't already answered 
it. If you've already answered that, then I'll read it. But, if 
you have not answered that question, perhaps you could----
    Admiral Mullen. The reduction from 15 to 12 months most 
significantly affects what I believe--the health of the force, 
because it takes--these deployments, which I have believed for 
some time, are just--they're just too long. It really isn't 
going to affect availability for troops for Afghanistan. What 
will affect that is more troops being available, and the only 
relief valve that I see out there that would provide that, 
would be levels of forces in Iraq. So, I'd need to come down--
we'd need to come down a certain number of brigades before we 
could start to meet the legitimate force requirements that we 
have in Afghanistan that we just can't fill.
    Chairman Levin. All right. I said that was my last 
question, but I do have one more that has to do with the 
militias. There's a ban that the Prime Minister has placed on 
the Sadrists and on their militia. Does that ban extend to 
Hakim's Badr Corps and all other militias, as well as to the 
Mahdi Army?
    Admiral Mullen. I think it is specific, but I don't know.
    Chairman Levin. Specific to what?
    Admiral Mullen. I think it's just to Sadr's--to the Jaish 
al Mahdi (JAM) and to Sadr's militia, and not to----
    Chairman Levin. Because that would be----
    Admiral Mullen.--the Badr Corps.
    Chairman Levin.--that would be a real problem, if it's only 
limited to his opponents, his competitors----
    Admiral Mullen. Well, I'd have to----
    Chairman Levin.--in which
    Admiral Mullen.--I'd have to----
    Chairman Levin. You can double check that----
    Admiral Mullen.--check and get back----
    Chairman Levin.--because----
    Admiral Mullen. Yes, sir. I'll do that.
    Chairman Levin.--Article 9 of the Iraqi constitution 
already prohibits the formation of military militia, outside of 
the framework of the armed forces. That's a constitutional 
prohibition. I don't know if this recently announced ban, 
whether it's narrow or broad, will stick any more than the 
already existing constitutional prohibition will. I'm not 
particularly optimistic that it will. But, in any event, if it 
is not a broad ban for all militias, the way the constitution 
provides, then I think the legislation, which is the subject 
the benchmark provides, it would really create a problem, in 
terms of selectivity. If you could get back to us on that, that 
would be helpful, as well.
    [The information referred to follows:]

    [Deleted.]

    Chairman Levin. I want to make sure none of my colleagues 
are on their way back. [Pause.]
    Okay, Senator Reed is on his way back, and there are 
others, as well, but he's literally on his way. With your 
indulgence--you've made an apology to me today, we're grateful 
for that; you are always open in that regard. I'd like to 
emulate you. [Laughter.]
    I apologize for this interruption.
    We will stand in recess until Senator Reed or someone else 
comes back to take the gavel. We do know he's on his way back. 
So, we stand in recess. [Recess.]
    Senator Warner [presiding]. I thank our distinguished 
witnesses for their indulgence today. We have had a series of 
votes; and, thus far, I've run back and forth and made every 
one. I have to leave shortly, but, I'd like to ask a few 
questions now.
    I would say to our witnesses that a number of Senators I 
visited with on the floor are coming over after, hopefully, a 
final-passage vote, here shortly. I think the staff will let us 
know when that vote begins and ends.
    Admiral Mullen, on April 2, 2008, you said, ``Having forces 
in Iraq don't, at the level they're at, allow us to fill the 
need that we have in Afghanistan. Equally broadly, around the 
world there are other places we would put forces or 
capabilities, not so much brigade combat teams as other kind of 
enabling capabilities of small training teams that we just 
can't, because of the pressure that is on our force structure 
now in CENTCOM. I think we'll continue to be there until 
conditions allow us to start to be able to reduce our force 
levels in Iraq.''
    Admiral Mullen. Yes, sir.
    Senator Warner. Would you expand on that, sir?
    Admiral Mullen. Just available forces, that we have 
additional force requirements for--specifically for 
Afghanistan, up to three additional brigades----
    Senator Warner. Now, this is on top of the----
    Admiral Mullen. Yes.
    Senator Warner.--marines that are going in now.
    Admiral Mullen. Yes, sir. The marines--actually, from a 
fighting/combat standpoint, I'm pretty comfortable this year in 
Afghanistan. But, there are additional requirements we've had 
for a training brigade--so, about 3,000 trainers----
    Senator Warner. Training the Afghan----
    Admiral Mullen.--training the Afghan army and police.
    Senator Warner.--and police.
    Admiral Mullen. The marines are sending, basically, two 
battalions this year--one of them will be dedicated to 
training, and--
    Senator Warner. Training.
    Admiral Mullen.--the other to combat. But, they leave in 
the November timeframe. So they're partially filling those 
combat and training requirements right now, but those will 
still be there.
    We have a requirement for a training brigade and for up to 
two additional combat brigades in Afghanistan, down the road, 
and we need to--I mean, we have it now, and we're not going to 
be able to fill that until we have forces that are released 
from other obligations, principally in Iraq, at the brigade 
size.
    In addition, I have requirements in other theaters around 
the world that wouldn't necessarily be brigade combat teams, 
but that would be smaller units that do training with various 
militaries around the world or do exercises and those kinds of 
things, which are mitigating or preventative capabilities for 
the long term that we would normally be doing, some of which we 
are doing, but we're not doing it to the level that----
    Senator Warner. The level that you----
    Admiral Mullen.--we would be.
    Senator Warner. Yes.
    Admiral Mullen. Most of the pressure is on the brigade 
combat teams, specifically, and the enabling--the significant 
enabling capabilities that it takes to fight and--in Iraq and 
in Afghanistan--the intelligence, surveillance, and 
reconnaissance capabilities, and also the trainers, both in 
Iraq, as well as Afghanistan.
    Senator Warner. Let's clarify. You would add those 
brigades. What percentage would that increase the United States 
force structure in there? Now, your force structure is divided 
between those American forces that are working with NATO--as a 
part of NATO; then we have the independent force structure out 
here for the U.S. Would those brigades be going into the NATO 
structure or our own structure?
    Admiral Mullen. They would notionally be going in--
notionally into the NATO structure, but, essentially--and it 
would be three brigades worth 10,000, 11,000, and 12,000 that--
those kinds of numbers, in terms of overall size of the force.
    The other place we find ourselves is, we're growing the 
Army and the Marine Corps at a time--from the Army to the 
active-Duty Army--I think it's at 525,000. So, we're drawing to 
547,000 over the next couple of years. So, we find a great 
demand on the forces right now, at a time we're growing. In 2 
or 3 years, there'll be more capability. That will provide some 
relief. Same in the Marine Corps. But that growth isn't going 
to provide much relief in the 2009 or 2010 timeframe.
    Senator Warner. We'd better be very cautious that someone 
doesn't translate your comments to say we may be there 3 or 4 
years more in Afghanistan. That may be the case, but I think we 
should proceed very carefully before we try and reach a 
benchmark of a date when we're there.
    So, the augmentation of our forces, given the actions of 
Congress and the appropriations to fund to enlarge both the 
Army and the Marine Corps, as you say, will not come to full 
bear until late 2009, correct?
    Admiral Mullen. Well, actually the growth is out to 2010 
and 2011. I mean, when we really have----
    Senator Warner. Out to 2010 and 2011.
    Admiral Mullen.--all that capability.
    Senator Warner. So, I was trying to focus on the interim 
period.
    Admiral Mullen. Yes, sir.
    Senator Warner. Do you think that we would contribute three 
combat brigades to the current NATO structure?
    Admiral Mullen. If Iraqi forces came down far enough, that 
would be that----
    Senator Warner. I see.
    Admiral Mullen.--and it is the judgment of the Chiefs--
that's the next priority.
    The third piece of this, though, is to bring some of 
those--a brigade home, or two, at some point, because we need 
to start building dwell time----
    Senator Warner. Correct.
    Admiral Mullen.--which gets relief on the stress on the 
force.
    So, those are the three big pieces right now that have an 
extraordinary amount of pressure on our forces.
    Senator Warner. Now, the President announced, today--you 
also mentioned it, Mr. Secretary--in the President's speech, he 
says, we'll also ensure that our Army units will have at least 
a year home for every year in the field. Now, with the 
anticipated augmentation of three brigades to Afghanistan, are 
we going to be able to hold tight on the tour of 12 months and 
a minimum of 12 at home?
    Secretary Gates. Let me comment, and then invite Admiral 
Mullen to comment.
    The three-brigade figure comes out of a view of the ISAF 
commander that that's what he could use. We were very careful 
in Bucharest that the President not make a specific commitment 
or a specific period of time when additional U.S. forces might 
be available. So, I think it's an open question whether--how 
much of that three-brigade request the United States would be 
prepared to fill, or could fill. That decision will almost 
certainly need to be made by the next President of the United 
States. So, what we're really talking about is capabilities 
here.
    But, I would say that the Chiefs feel very strongly--and 
I'll let the Chairman speak to this--but, the Chiefs feel very 
strongly about the dwell-time issue. A big part of coming back 
to 12-months deployed is making sure they have a year at home.
    One of the things that----
    Senator Warner. At a minimum.
    Secretary Gates. Yes, sir. Our goal actually would be to 
move to 1 year deployed, 2 years at home----
    Senator Warner. Two years at home.
    Secretary Gates.--for the Active-Duty Force, and maybe 
even, ultimately, 3 years; and, for the Guard and Reserve, 1 
year mobilized, and 5 years at home, would be the goal 
ultimately that we're headed to. Your support of our proposals 
for growing the Army and the Marine Corps are really critical 
to making that happen.
    Senator Warner. Well, Congress is foursquare behind you, 
Mr. Secretary, and----
    Secretary Gates. Did you want----
    Senator Warner.--you, Admiral.
    Secretary Gates.--to add anything?
    Admiral Mullen. No, sir. This is a--we look at these 
requirements that we have. This goes back to the discussions 
we've had about Afghanistan being an economy-of-force campaign. 
We have a requirement for that one training brigade and two 
other brigades.
    Senator Warner. This will be refined, on the occasions you 
have this period of reflection, once you draw down the surge 
forces. Is that correct?
    Admiral Mullen. Yes.
    Senator Warner. Fine.
    On Pakistan, gentlemen--I'll ask both of you to comment--
it's been a major ally in this conflict, in Afghanistan. Much 
of our logistics comes across the territories of Pakistan. 
We've seen quite a turbulence in the political structure, and 
it is yet to be resolved. At the same time, we see the threat 
growing from the level of insurgents up in Waziristan, on that 
border between Pakistan and Afghanistan, that there's no 
diminution in that threat. How are we going to deal with that, 
Mr. Secretary?
    Secretary Gates. First of all, I think some credit is due 
to the Pakistanis, not only for allowing us the logistical 
supply routes and so on, but they've had over 100,000 troops 
deployed up in the northern and western part of Pakistan. I 
think they've suffered 3,000 or so killed in action. They've 
killed a lot of terrorists up there. They are a force 
principally trained to deal with their long-time adversary to 
the east, and so, clearly, we have some opportunities for 
training. But, we also have----
    Senator Warner. Mr. Secretary, I have a problem.
    Secretary Gates.--to let the civilian----
    Senator Warner. I have 3 minutes to make it to the floor.
    Secretary Gates. Okay.
    Senator Warner. If you'd finish that, for the record.
    Secretary Gates. Okay.
    Senator Warner. Thank you.
    [The information referred to follows:]

    Pakistan is a key partner in the war on terror and plays a major 
role in our long-term efforts to build a stable Afghanistan. Materials 
for delivery to coalition forces operating in Afghanistan transit 
through Pakistan, including approximately 40 percent of fuel and 84 
percent of all containerized cargo. The security of the border region 
with Afghanistan, therefore, is vital to the war on terror and 
Pakistan's internal security. The Federally Administered Tribal Areas 
(FATA) border region with Afghanistan is a largely ungoverned space 
that the July 2007 National Intelligence Estimate (NIE) identifies as a 
place where Taliban and al Qaeda forces recruit, train, and equip 
fighters and infiltrate them into Afghanistan. Pakistan recognizes the 
threat posed by its rugged 1,500 mile-long border with Afghanistan and 
has improved security by stationing approximately 120,000 military and 
paramilitary forces there and strengthening border controls.
    Since 2001, Pakistani military and paramilitary forces have 
conducted 91 major and countless small operations in support of the war 
on terror; it has captured or killed more al Qaeda and Taliban than any 
other coalition partner. Following the increase in Pakistani military 
and security operations in the FATA, the number of retaliatory suicide 
bombings and ambushes increased dramatically. In response to these 
attacks Pakistan intensified its efforts to combat extremists, 
resulting in the death or capture of a number of Taliban leaders in 
2007. In the past 5 years, Pakistani soldiers have sustained more than 
1,400 combat deaths (700 since July 2007) and more than 2,400 wounded 
in action.
    Pakistan has recognized, however, that it cannot rid its territory 
of violent extremists by military means alone--it must also create an 
environment inhospitable to terrorism and extremism. In 2006, Pakistan 
requested U.S. support in developing and funding a comprehensive 
Sustainable Development Plan to deny terrorists the ability to exploit 
the under-governed FATA through economic and social development, and 
strengthening effective governance in border areas. This plan is a 9-
year, $2 billion initiative which will provide services, upgrade 
infrastructure, promote the sustainable use of natural resources, and 
bolster commercial activity. The U.S. is seeking $750 million in 
support of infrastructure development, social welfare, and capacity 
building elements of the program over the next 5 years. The governance 
element aims to help Pakistan extend its writ into the FATA by re-
establishing the pre-eminence in local politics of the Government of 
Pakistan including recognized tribal elders and political agents. To 
complement and support this effort the U.S. developed the Security 
Development Plan (SDP) for Pakistan's Western Border Areas. The 
Department of Defense (DOD) is seeking approximately $200 million 
annually from a variety of authorities, including DOD counternarcotics 
(section 1004 and section 1033), Global Train and Equip (section 1206), 
and an authority specifically designed to train and equip the Frontier 
Corps. The SDP is the security element of the U.S. Government's 6-year 
plan that is designed to enhance the ability of Pakistan's military and 
security forces to secure its border with Afghanistan and deny safe 
haven for extremists.
    It may be several years before Pakistan's comprehensive strategy to 
render the remote tribal areas inhospitable to terrorists, insurgents 
and other violent extremists can be measured for success. However, 
Pakistan is making progress toward that goal. In the fall of 2007, 
positive indicators included the actions taken by the government to 
evict the extremists occupying the Red Mosque and its increased 
pressure on the Taliban leadership in Quetta. These indicators suggest 
Pakistan is willing to shoulder significant burdens to target the 
Taliban, al Qaeda, and other violent extremists who enjoy safe haven on 
Pakistani territory. It remains to be seen, however, if the newly-
elected civilian government maintain pressure on these extremists and 
continue work to eliminate the safe havens in the border region. The 
United States stands ready to offer continued support and cooperation 
as Pakistan undertakes this difficult challenge.

    Senator Warner. May I compliment you on going through 
Denmark en route to the NATO conference. That country, although 
small, made a valuable contribution to this operation in 
Afghanistan, and their troops come and fight, just as the U.S. 
troops.
    Secretary Gates. I met with some of those troops when I was 
in Copenhagen.
    Senator Warner. I know you did. Thank you.
    Excuse me, gentlemen.
    Chairman Levin [presiding]. Senator Reed.
    Senator Reed. Thank you very much, gentlemen, for not only 
your testimony, but for your service.
    Secretary Gates, I was listening to your opening statement, 
and it seems now that the parameters for success in Iraq are, 
as you describe it, an ally against extremists and a nation 
that can govern and defend itself. The first point raises the 
curious relationship between the Iranians and the Iraqis. Are 
they truly an ally with us against what some people would call 
some of the extreme policies of the Iranians?
    Secretary Gates. I think one of the things that has 
happened over the past year or so, and perhaps one of the most 
significant outcomes of the Maliki government initiative in 
Basrah, is that they have increasingly become aware and become 
educated to the realities of what Iran is doing, in terms of 
meddling in Iraq, in supporting groups that are adversaries of 
the government, in their influence in the south, and 
particularly around Basrah, and their supply of weapons and so 
on to people who are opposing the government. I think that this 
has been a real eye-opener for them.
    I think that there has long been a religious connection 
between the two, because of the location of the holy sites. The 
Iraqis obviously, under Saddam Hussein, were huge adversaries 
of the Iranians. But, I think that the Iraqi Government today 
is quite aware and increasingly concerned about Iranian 
activities inside their country.
    Senator Reed. Well, I think they are, but I don't know if 
this is a recent revelation. I think you understand, probably 
better than most, that, for example, Hakim spent a great deal 
of the Iraq-Iran war in Iraq. The Badr Brigade was organized by 
the Iranian forces, presumably still have close contacts with 
Iranians, maybe not in a military capacity. But, one of the 
problems here is that the Iranians, as Ambassador Crocker 
pointed out, have close ties with practically every Shiite 
organization and with Kurdish officials, and I would hesitate 
to say maybe even Sunni officials.
    So, one of the points that was made, I think very 
eloquently, yesterday when we had our panel, was the conflict 
between attempting to stabilize Iraq, given the huge influence 
of the Iranians and suggestions by some in the administration 
that we consciously destabilize Iran. It was described as, 
basically, contradictory objectives. Would you comment on that?
    Secretary Gates. I think our focus has certainly been on 
trying to stop the Iranian activities that have involved the 
supply of weapons and improvised explosive devices that have 
been used against our troops, and we've been pretty aggressive 
in that respect.
    I think these connections with Iran, as you say, go back 
quite a ways with a number of the Shiite leaders and 
politicians in Iran. I think what they are coming to understand 
is that Iranian influence has a significant malicious side that 
is contrary to their interests as Iraqis. I think, in the past 
few months we've seen them beginning to take some actions that 
indicate, not only an awareness, but a willingness to act on 
it.
    Senator Reed. Thank you.
    Admiral Mullen, the President announced, today, that tours 
of the Army will begin to phase down to 12 months, which I 
think is welcome news for many, many soldiers who are----
    Admiral Mullen. Right.
    Senator Reed.--serving, and who are yet to serve. Does this 
require an increased call-up of National Guard and Reserve 
brigades to maintain the force structure in Iraq because we've 
shortened the tour of the units that are in the field now?
    Admiral Mullen. Not in the planning that I'm aware of right 
now, it doesn't.
    Senator Reed. Is that----
    Admiral Mullen. This commences August 1.
    Senator Reed. Why?
    Admiral Mullen.--for troops deploying after August 1.
    Senator Reed. As you project force levels, going through 
until next year or beyond, I presume you're at least working on 
a 18-month to 2-year cycle, are you showing a decrease in 
forces? Is that one reason why we don't have to call on 
additional Reserve and National Guard components?
    Admiral Mullen. We're building some capability. I think, 
next year we come up two brigades. It's about two brigades a 
year. That's part of it. At this level, if we stayed at this 
level that we're at right now for a long period of time, 
clearly just the math would tell you that it would potentially 
impact that. I just haven't seen that, from a planning 
standpoint, at this point.
    Senator Reed. So, if, in fact, the commitment to 12 months 
is irreversible, then eventually, based on force structure 
alone, we have two options--either to drop the force structure 
in Iraq or to significantly, or at least to increase the number 
of National Guard or Reserve brigades that will be called up.
    Admiral Mullen. Clearly, if we are going to sustain this 
over a long period of time at the number of brigades we have 
there right now, that we would have that kind of impact. I 
think that would be longer-term, as opposed to immediately in 
front of us.
    Back to your point, we're planned pretty well out for the 
next couple of years.
    Senator Reed. At what force level are you planning? The 
current force levels for 2 years?
    Admiral Mullen. What General Casey has said is, he can 
basically sustain 15 brigades in CENTCOM. So, let's say 13 in 
Iraq, 2 in Afghanistan for the foreseeable future at----
    Senator Reed. Twelve months.
    Admiral Mullen.--a high-risk level specifically, 
particularly at high risk for the next 2 years. So, sort of, 
through the end of 2009 and into 2010, until he builds out more 
brigade combat teams with the Army growth.
    Senator Reed. Among the consequences of high risk is the 
lack of any significant Strategic Reserve.
    Admiral Mullen. Certainly front the ground forces----
    Senator Reed. Ground forces.
    Admiral Mullen.--yes, sir. We wouldn't be put in a much 
different position than we are right now.
    Senator Reed. There has been a great deal of discussion 
about the assumption of financial obligations by the Government 
of Iraq. Specifically, have they agreed to begin to fund the 
Concerned Local Citizens (CLCs), or the Sons of Iraq, Sunni 
components that we have organized in different parts--
principally Anbar, but also south of Baghdad, in mixed areas?
    Admiral Mullen. There is a commitment on the part of the 
Government of Iraq to provide what we're calling Iraqi CERP to 
$300 million, and they made that a few weeks ago. General 
Petraeus said recently, they're very close to that money being 
made available. He also said--I was made aware, within the last 
few days, that they have an additional commitment in the CERP; 
I just can't remember what the number is.
    Senator Reed. But----
    Admiral Mullen. I couldn't tell you, in the CERP category, 
whether that's going to salaries.
    Senator Reed. But, as I understand CERP--and my time 
expired--that is essentially civic-action funds.
    Admiral Mullen. It's both. It's both to pay the Sons of 
Iraq, as well as to build projects. That's one of the reasons 
that we--and General Petraeus, in particular--pushed so hard on 
this, is because he calls it his ``ammunition'' right now. It's 
had such a positive impact, in terms of employing people, and 
providing additional security, and, obviously, providing a 
salary for an Iraqi family so that they can survive in a 
meaningful way until we're sort of through this whole 
transition.
    Senator Reed. Thank you very much.
    Chairman Levin. Thank you, Senator Reed.
    Senator Sessions.
    Senator Sessions. Thank you, Mr. Chairman.
    I thank both of you for your leadership, and from my 
observations, I think both of you have won the respect of the 
American people and the commentators, critics even, of our 
effort, and that speaks well of how you've conducted yourselves 
and the integrity you've shown.
    Secretary Gates, one of the complaints that we had was, 
``Well, things may be getting better, militarily--violence is 
down, there's no doubt about that, but there has been no 
political progress in the country since the last report from 
General Petraeus and you.'' But, you note some political 
progress in your written statement--a pension law, an amnesty 
law, a provincial powers law, a justice and accountability 
law--and they passed a 2008 budget. Would you tell us--just 
give us a rundown of how significant you think those political 
developments are. What are some of the political challenges 
that remain?
    Secretary Gates. Well, I think that those laws represent, 
if I'm not mistaken, four of the six benchmark laws that we all 
talked about last year. One of the interesting aspects is how 
three of the laws were passed as a package deal in a 
negotiation within the Council of Representatives. It was 
actual politics going on, where, ``I'll support your bill if 
you'll support my bill, if you'll support my bill,'' kind of 
thing. I think that, again, you've----
    Senator Sessions. That's never done in Washington. 
[Laughter.]
    Secretary Gates. I think that it has been interesting to 
watch the reaction of the other politicians, the non-Shiite 
politicians in Iraq, responding to Maliki's initiative in 
Basrah, for all of its military shortcomings, because they saw 
him go after Shiite extremists. He has heard positive things 
from Sunni leaders, from Kurdish leaders, and so on, and it's 
still a long path to reconciliation, but I think that there has 
been real progress, particularly in the last 3 or 4 months, in 
terms of the political process in Iraq. It's still a long way 
to go. The challenge is still the suspicion of the Shiite, it 
is still the feeling of the Shiite--or the Sunnis that--
presumably, some residual hope that they could regain power 
someday. There will be the contest over politics--over 
elections in the provinces, and those will go well, I think, in 
those areas that are largely Shiite, Sunni, or Kurdish--it'll 
get more complicated in the provinces where there's a mixed 
population this fall. But, I think that they're moving in the 
direction--I don't know whether they'll make elections in 
October, but I think that the judgment of our folks in the DOS 
and the intelligence community is that they'll probably be able 
to get them done this year, the provincial elections, and then 
a national election next year.
    So, I think everyone has learned lessons from the past, and 
you heard great caution from General Petraeus and from 
Ambassador Crocker. I think you will hear caution from us, as 
well, in terms of expecting too much, too quickly. But, I do 
think there has been progress.
    Senator Sessions. Admiral Mullen, one of the things about a 
withdrawal--and I certainly hope that we can--if we do have 
this pause--and I'm inclined to take the advice of General 
Petraeus; I think his performance and his integrity and 
responding to our questions, and the success that we've seen, 
that exceeded my expectations, in the last number of months, 
makes me feel that we ought to be respectful of his opinion; 
so, I'm inclined to be supportive of that--but, I do believe 
plans for continuing the drawdown is important so that our 
allies and friends in Iraq don't become dependent upon us. But, 
explain to us, as has been explained to me, both in some of the 
hearings and privately by generals, how difficult it is when 
you pull a brigade out of an area. The danger of leaving gaps 
in your lines, and who's going to fill those responsibilities. 
Would you give us some appreciation for some of the decision 
difficulties that our commanders have when they take out a 
brigade in an area in Iraq?
    Admiral Mullen. General Petraeus frequently talks of 
``battlefield geometry'' as he looks at where he has forces and 
where he needs to move forces. Clearly he's done that, both in 
building the surge--now we have three of the surge brigades who 
have returned home, and the other two will be coming out 
through the end of July. It is that battlefield geometry, 
obviously, that he takes into account, in terms of where he's 
going to put people. That's clearly based on the security 
requirements that are either right in front of him or that he 
expects in the future. He's moved forces around very deftly, I 
believe, to handle this drawdown in a way where he's very 
comfortable handling the drawdown, and that kind of calculus 
goes on constantly.
    At the same time--and there is, obviously, very focused 
discussion today on the pause and the consolidation and 
evaluation and assessment. From my perspective, I think it's 
also very important to do this continuously, and because it is 
really conditions-based assessment that is actually going on, 
has been going on since the surge started to decline, as well 
as we'll continue, no matter how many troops we have there.
    It also takes, depending on whether you're a light brigade 
or a heavy brigade, literally--and where you are coming from 
and where you might redeploy to--depending on those factors, 45 
to 75 days to move you from where you are in Iraq to, let's 
say, back home, or vice versa.
    So, those are all factors, planning factors that he has to 
take into consideration as he makes decisions about where he 
puts his forces.
    Senator Sessions. Would you tell the American people--what 
I hear you to be saying is that this is complex and difficult, 
and you are spending considerable time on it, in planning it so 
that it goes as effectively as we can make it go.
    Admiral Mullen. General Petraeus is the principal architect 
of this, as the tactical guy, and he spends, along with his 
commanders, an extraordinary amount of time doing exactly that.
    Senator Sessions. Thank you.
    Chairman Levin. Thank you, Senator Sessions.
    Senator Bill Nelson.
    Senator Bill Nelson. Gentlemen, thank you, as everyone has 
said here, for your public service.
    I want to ask you about Afghanistan. We've recently put 
more marines in there. My question is--it's my understanding we 
still have such a paucity of troops, not only our troops, but 
the entire NATO force, that, once we clear an area, that we 
can't hold it. Can you comment to the committee about that?
    Secretary Gates. Let me make a brief comment, and then 
invite Admiral Mullen.
    First of all, it depends on the part of the country. In the 
north, where there is less of a Taliban presence, where there 
has been less violence, this is not so much of a problem. In 
the east, where we have had a very successful 
counterinsurgency, where most of our forces are located, and 
where we have very effective provincial governors, there we 
have been able to hold. The principal area of concern has been 
in the south. I would say that your characterization of not 
having enough forces to hold areas that we had cleared is an 
accurate description. I would also say that, countrywide, one 
of the shortages is for people to train the Afghan army and 
police.
    Admiral Mullen. I would only echo what the Secretary said 
in that regard. If you ask the commanders there right now, 
their number-one requirement is for trainers--the Afghan army 
and the Afghan police. We've generated--and are doing it very 
rapidly--an Afghan army. The police are behind that, and that's 
probably the most critical part of this.
    So, one of these two battalions of marines that are going 
in are specifically going in to train. They leave in 7 months. 
The fact that the French have now come forward and said they're 
going to add additional troops will provide capability that we 
need to address the shortfall that we have, although it won't 
meet it fully. It is principally in the south right now that we 
are most concerned, with respect to, certainly, combat, and 
that's where the Taliban is most dense.
    Senator Bill Nelson. Let me ask you about Iraq. We had 
testimony in the Senate Foreign Relations Committee last week 
from a couple of retired generals--General McCaffrey and 
Lieutenant General Odom--and General Odom told about how much 
we are paying Sunnis, basically, to be on our side. He 
specifically mentioned some kind of council, and that it 
basically costs us about $250,000 per month for 100-square-
kilometer area. Do you know anything about this?
    Admiral Mullen. I didn't see his testimony in--I think he's 
speaking to the salaries we are paying those in what used to be 
the CLCs, and now we refer to as the Sons of Iraq, to the tune 
of about 90,000 Sons of Iraq, who are providing for their own 
security, who have taken back their villages, their towns; and 
about 20 percent of them are--we're moving them into the 
security forces. So, all of that, from my perspective, is a 
winning strategy, because you take them off the street, they're 
providing for their own security, they can provide for their 
family, and, in fact, they're moving into the Iraq security 
forces. If it is different than that, then I'd have to get back 
to you, Senator.
    Senator Bill Nelson. So, basically, his cut on it was, 
``Well, we don't own them, we merely rent them,'' but what 
you're suggesting is that we're not buying their allegiance, 
we're buying their assistance.
    Admiral Mullen. I would say there's a mix. When I talk to 
commanders on the ground out there, there are those that they 
trust implicitly--vet them very hard--there are those that they 
trust implicitly, and there are others that they keep their 
eyes on. So the impact that it's had, in order to local 
security, has really been extraordinary.
    Senator Bill Nelson. Let me ask you about something General 
McCaffrey said, and I'll quote him, ``The U.S. Army is starting 
to unravel--equipment broken, National Guard is under-
resourced, terrible retention problems, severe recruiting 
problems--the Army is too small.'' You want to comment on that?
    Admiral Mullen. We're growing the Army to 547,000. The 
recruiting environment is challenging, although we continue to 
make the recruiting numbers, and we did so again this month. 
There are waivers, there are concerns about the waivers that 
are there, but that's watched very carefully, and their--
performance of individuals in the Army who have received 
waivers is consistent with the rest of the force, best we can 
tell. We watch the indicators very closely. Clearly, the ground 
forces in the Army, in particular, are stressed. That's why the 
15- to 12-month deployment is so important.
    That said, they're resilient, they're performing at an 
exceptionally high level, they're succeeding now in Iraq. When 
you visit them, they send you that message. They have a skip in 
their step, which is very positive, and yet they're looking for 
some relief. In addition to shorter deployments, they'd like to 
stay home longer. Their families are pressed very hard.
    But, I would not describe it as unraveling. General Casey 
has talked about this ``invisible red line.'' We're not 
standing right in front of that invisible red line. It's out 
there. It's a concern that we all have. So, I would not use 
that kind of language to describe where we are.
    Senator Bill Nelson. Finally, Mr. Secretary, I think what 
folks like me grapple with is the political reconciliation, as 
to whether or not it, indeed, is possible. You listed a number 
of laws that had been passed. I think the true test there is 
the question of whether or not those laws are being 
implemented, whether they're being executed. What about an oil 
law, which is a major one, because that's the divvying up of 
the resource? Other than what you've pointed out, that they 
have had some politics and produced some laws, you want to give 
us any other insight into political reconciliation?
    Secretary Gates. My view is that reconciliation in Iraq is 
the beginning of a process that will go on for a very long 
time. The enmities are ancient, and had been kept in place, as 
they were, in many respects, in the old Yugoslavia, by force. 
Once that force was removed, all of the monsters of the past 
have, sort of, come back.
    I think it has taken longer than any of us would have 
wanted, but I think we are beginning to see the re-emergence of 
a sense of Iraqi nationalism, including in the Government of 
Iraq. I think that is progress.
    But for these folks to learn to work together and live 
together freely and in a democratic society is going to take 
some real time, and that is not unusual for countries that have 
the kind of history that Iraq has. I think there has been 
progress, and I think they are moving in the right direction.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Collins.
    Senator Collins. Thank you.
    Secretary Gates, Chairman Levin raised the issue of the 
Iraqis taking over more of the expenses associated with the 
war, an issue that I brought up with General Petraeus earlier 
this week, and I'm very sympathetic to the points that the 
chairman made. I want to bring up one particular expense that 
just floors me that the Iraqis are not covering now, and that 
is the fuel costs. According to press reports, the Pentagon is 
paying the Iraqi Government $153 million a month for the fuel 
that's used at a time when the Iraqis are reaping billions of 
dollars in unanticipated oil revenues because the price of oil 
per barrel has doubled. Isn't that an expense that the Iraqis 
should be covering? Shouldn't they just give us the fuel that 
we need to operate?
    Secretary Gates. First of all, I think the practical 
aspects are, they cannot give us the fuel, because they have 
their own shortages of the actual fuel. I think the real 
question is whether there is the potential for reimbursement or 
something along those lines. I would be honest with you, I 
think that it's only been in recent weeks that we've been 
seeing the kinds of dollars, and projecting out the kinds of 
dollars, that the Iraqis may be able to accumulate. A certain 
amount of that, they have to keep in Reserves, under IMF 
agreements, but the question is--they are making a lot of 
money, they have a big budget--I mean, if you want a 
fundamental comparison between Iraq and Afghanistan, it is that 
Iraq, this year, has a budget of $50 billion and the Afghan 
Government will have revenues of $675 million.
    I think we are all beginning to come to grips with this, 
and I know the President feels strongly about this. He has 
weighed in with us, in terms of what we would propose to pay 
for Iraqi equipment and why we should pay for Iraqi equipment 
at this point. I think we're just beginning to address some of 
the issues, in terms of what kinds of expenses the Iraqis ought 
to start taking over, in addition to their own reconstruction 
funding.
    I would just tell you we are mindful of this, but we are at 
the beginning of the process of looking at it.
    Senator Collins. I hope that you'll work with us on this 
issue. Senator Nelson and I have had many conversations about 
this. I know the chairman and Senator Graham are interested, as 
well. I've often thought that if the group of us had succeeded 
in 2003 that had wanted the reconstruction money for Iraq to be 
in the form of a loan rather than a grant, that we might have 
seen far less sabotage of the reconstruction projects if the 
Iraqis had had personal money, more of a commitment to it. I 
don't know, we'll never know that. I hope that you will work 
with us. It's really difficult for Americans, who are 
struggling with the high cost of energy, to see us paying for 
fuel costs in a country that has the second largest oil 
Reserves, and has a budget that was supposed to be $48 billion, 
but now looks like it is going to have revenues of $60 billion 
because of the soaring price of oil. So, I think this really is 
an issue that we need to try to work on and come up with a 
solution.
    I do want to switch to Afghanistan. Your comments--your 
opening comments about the mistakes in American policy 20 years 
ago, and that we can't repeat those mistakes in either Iraq or 
Afghanistan, brought to mind the first meeting that I had with 
President Karzai in 2003. Senator Levin was there, and many of 
my other colleagues, and I'll never forget it, because we 
landed at Baghram Air Base, we met with him in an Army tent, 
and his message to us, even back then, was, ``Don't abandon us. 
Don't make the same mistakes that were made decades ago.'' 
That's always stayed with me, and in subsequent visits to 
Afghanistan, President Karzai has repeated that plea.
    That's why I'm concerned about the reports from the 
Afghanistan Study Group and the Atlantic Council that warned 
very bluntly that we are underresourcing Afghanistan and that 
NATO--the Atlantic Council's report goes so far as to say, 
``Make no mistake, NATO is not winning in Afghanistan.'' I 
apologize if you covered this and I missed it while we were 
voting, but could you give us your best assessment of whether 
you expect NATO countries, other than ours, to step up to the 
plate and provide the troops that there's widespread agreement 
it's necessary. I know you've worked very hard and pressed so 
hard on that. I know you've gotten grief for that, but I 
applaud you for that. We do need more troops. I'm really 
worried that having to send more American troops will make it 
impossible for us to, in the long-term, sustain the 12-month 
deployments that all of us are desperate to see us return to.
    Secretary Gates. One of my defense minister colleagues 
accused me of megaphone diplomacy. I think that--two things. 
First of all, I think that one should not underestimate what 
happened at Bucharest last week. In 2006, when NATO took on the 
Afghan challenge, I think a lot of countries really didn't know 
what they were getting into. I think they thought it was going 
to be largely peacekeeping, economic reconstruction, and so on. 
I think that's one of the reasons why they've had political 
problems at home in trying to justify more forces, or why they 
have not been willing to do that.
    In 2008 at Bucharest, the leaders, knowing what they know 
now, still unanimously reaffirmed the challenge of Afghanistan 
as NATO's most important operational activity. So the leaders 
of all of the NATO countries, basically said, ``We have to do 
this.'' President Sarkozy, at one point, referred to the 
importance of winning, and I mention him in particular, because 
the French made a substantial additional contribution that will 
be going--Regional Command East--that will allow us, then, to 
send some additional forces to Regional Command South.
    The desire of the commander--it's not a formal requirement 
at this point--the desire of the commander in Afghanistan to 
have three additional brigades, in my view, is a requirement 
that NATO will not meet. I think we will get additional forces 
from a number of different countries. I think they will have 
real capabilities. But, I think they will not add up to another 
10,000 to 12,000 troops that would be represented by 3 
brigades. How much they will contribute, I don't know. It will 
depend, in part, on election politics.
    One of the things that I initiated a year ago was getting 
NATO to approve a vision--a strategic vision statement of where 
we want to be in 3 to 5 years in Afghanistan, and what we've 
accomplished, and why we are there, in terms of the terrorist 
threat to Europe, that the European governments could then use 
in their domestic politics to try and educate their people 
about why the commitment in Afghanistan is important.
    I guess the experienced part of me would say they're 
probably not going to make significant additional 
contributions. My hope would be, taking advantage of the 
Bucharest Declaration and perhaps electoral politics changing 
in some of the countries, that there could be some significant 
additional contributions.
    I'll just leave it at that.
    Senator Collins. Thank you very much.
    Admiral Mullen, I know you've been very concerned about 
this, as well, and have pushed very hard for the reduced 
deployment. I know my time has expired, but I'll be interested 
in talking to you subsequently about that, as well.
    Thank you.
    Chairman Levin. Thank you, Senator Collins.
    Senator Ben Nelson.
    Senator Ben Nelson. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your service, and, of course, the 
men and women in uniform, both at home and abroad, and we 
appreciate, so much, their service, as well.
    Senator Collins, Senator Graham, Senator Bayh, and a whole 
host of us, have raised the question about making loans or 
seeking reimbursement for any direct payment for certain 
things. We are sort of reminiscing about 2003, and regretting 
that we didn't get that in position back at that time, but the 
administration balked at it on the basis that it would affect, 
negatively, our going to the donors conference with other 
countries. In large part, that so-called donors conference 
turned out to be a lenders conference, with the exception of 
our effort.
    Is it possible for us to be able to work together with the 
administration to work out a method of reimbursement? Do you 
think we could come to an agreement as to the kinds of things 
that should be reimbursed or should the bill footed by the 
Iraqi Government, before we even approach the Iraqi Government 
to obtain their concurrence wherever necessary? If that's the 
case, where we could work together, do you have an idea of the 
kinds of things that you could identify for us that might be 
reimbursable? For example, gasoline, the cost of training. 
That--in some parts, money has gone from reconstruction into 
training programs for their security purposes. So, I guess I'm 
just asking, can you give us some idea of the things you think 
might be reimbursable or direct payments by the Iraqis, so that 
they don't come at the expense of the American taxpayer and 
borrowing from future generations?
    Secretary Gates. Senator Nelson, as I indicated to Senator 
Collins, we've, I think, just really begun--we have focused--as 
we have begun to look at the sums of money that Iraq is earning 
from the oil sales, we have, just in recent weeks, been looking 
at ensuring that the reconstruction funds and the military 
equipment for them are increasingly and dramatically headed in 
the direction of them picking up those costs. The subject of 
their reimbursing us, and of those kinds of things, or areas 
where they would pay for certain services, has not been 
broached yet because of this focus on the reconstruction and 
military equipment and so on. But, based on this hearing, I'm 
more than happy to carry the message back to the administration 
and see if we can have a look at this.
    Senator Ben Nelson. I suggested it recently. They're a bit 
aware of it, because I suggested it to Mr. Hadley, so that it 
wouldn't be a surprise that I intended to bring this up.
    Wouldn't you think it would be a good idea to do it in a 
comprehensive fashion so we don't do it in piecemeal--in other 
words, so we could put together a program, certain things that 
clearly would be a loan, those things that could be reimbursed 
today, those things that would be loaned for repayment in the 
future--wouldn't it be a good idea to have it in a 
comprehensive fashion?
    Secretary Gates. Well, I certainly agree that if we're 
going to go down this path, we ought to look at it 
comprehensively.
    Senator Ben Nelson. With some urgency, because every day 
that goes by, people pay more at the pump, and the oil was at 
$1.10, now it's $1.12, maybe spiking up yet today. I hope not, 
but perhaps. It is a very strong drag, I think, on our economy 
to see these things occur, and then it's sort of an injury on 
top of the insult, when we're also paying for services for some 
other country.
    I have another area that I'd like to raise, as well. During 
testimony yesterday before our committee, I discussed with 
retired General Jack Keane who's one of the authors of the 
surge strategy--about language that Senator Collins, I, and 
others have wanted to get passed, and that is to transition the 
mission in Iraq out of providing security in Baghdad into 
providing more combat troops into the north to take out al 
Qaeda and the insurgency through counterinsurgent methods in 
the north; and, at that time--we've also proposed, for some 
time, a stronger emphasis in the south, with the militias and 
the Mahdi Army and other groups in the south. We've really not 
received any support from the administration. We've not set a 
timetable to withdraw. We set a date to start the process, and 
that would be to start it. Now, based on what I heard General 
Keane say, and what I'm hearing in the discussions with General 
Petraeus and Ambassador Crocker--is that, in fact, that's 
what's happening. I guess my question to you is, is that what's 
happening? Have we begun the transition of the mission from 
providing, essentially, security for the Government of Iraq in 
Baghdad to expanding it into these other areas?
    Secretary Gates. Let me comment and then invite Admiral 
Mullen to comment.
    I think we began the transition of mission with the 
withdrawal of the first surge brigade, in December. What is 
going to happen in Iraq if you're doing this in a color 
graphic, the country is not going to turn from one color to 
another color for the whole country. It will be more of a 
mosaic, with different pieces of it turning at different times. 
There are already eight provinces under provincial Iraqi 
control. Anbar will probably go to provincial Iraqi control 
within a matter of weeks. So, the mission will have 
transitioned dramatically in those places, to strategic 
overwatch, where there will be relatively few troops, 
relatively few coalition troops, and their role will be very 
different, say, in Anbar, than it was 7 or 8 months ago. It 
will be----
    Senator Ben Nelson. If I might ask you, would that also be, 
perhaps, the beginning of the establishment of a residual force 
or a residual mission there, as well?
    Secretary Gates. Yes, sir, I think so. There will be places 
in Iraq where the mission has transitioned from our being in 
the lead and being in combat to a strategic overwatch, where we 
have a residual force, to other places in Iraq where we're 
still engaged in combat, such as in Mosul and places like that. 
So, I believe we are in the process of a transition of mission, 
and it is taking place at different times and different places 
in Iraq.
    Admiral Mullen. In fact, General Petraeus, when he was here 
in September, was given a mission statement that essentially 
was directed to generate this kind of transition. That's 
obviously tied to building the Iraqi security forces. We're up 
about 20 battalions now from where we were a year ago, in 
addition I think it's about 107,000 or so that are leading 
independently or leading with us throughout the country, all of 
which is part of this transition. There will be places where we 
can do it and get into an overwatch position very quickly; in 
others, it's going to take more time.
    Senator Ben Nelson. We have stressed, with this 
legislation, that we always felt that, if it started, the 
question of ``how fast does it go?'' depended on conditions on 
the ground and commanders on the ground and success. So it was 
passed, even though it wasn't voted on. That might be an unfair 
way to characterize it, but it does seem that, in effect, that 
that is now the strategy. I never understood the opposition to 
our legislation. But, that probably isn't the first, nor will 
it be the last time, that I don't understand opposition.
    Thank you very much for your answers. Appreciate it.
    Chairman Levin. Thank you, Senator Nelson.
    Senator Graham.
    Senator Graham. Thank you, Mr. Chairman.
    The whole premise of the surge was to provide better 
security and hoping that would lead to better performance by 
the Iraqi military and a better economy and quicker political 
reconciliation. In January 2007, the President announced that 
we were going to change strategy. Admiral Mullen, as I 
understand the strategy behind the surge, was to add additional 
combat power to bring a level of security to Iraq that was 
unknown before January 2007. Is that correct?
    Admiral Mullen. There's actually two things--not just the--
--
    Senator Graham. Okay.
    Admiral Mullen. --additional combat power, but also that 
provide security for the Iraqi people. Really, it's--
    Senator Graham. That's right, to----
    Admiral Mullen. --the counterinsurgency----
    Senator Graham. --protect the population.
    Admiral Mullen. --the counterinsurgency approach, which was 
generated at that time, as well.
    Senator Graham. My premise has been that, without better 
security and better protection and more confidence of the Iraqi 
people, nothing is going to happen. You had political and 
economic stagnation before January 2007; you had, basically, 
Anbar province occupied by elements of al Qaeda; and widespread 
sectarian violence. So, the hope would be that, by protecting 
the Iraqi people, getting out behind the walls, the joint 
security stations, confidence would be built by the Iraqi 
people to take more action, to tell us more about the 
insurgency.
    I think, by any objective measure, it's worked, that the 
military situation in the Anbar situation has dramatically 
improved, that the biggest success of all, from my point of 
view, is that the Anbar Iraqis rose up against al Qaeda, 
aligned themselves with coalition forces, and al Qaeda has 
taken a very big beating. To me, of all the things that could 
happen in the war on terror, having Muslims reject al Qaeda, 
particularly Sunni Muslims, would be a huge sea of change in 
the war on terror. I just want to compliment you both, and all 
under your command, for having brought about success that was 
not known before and has come at a heavy price.
    So, now, where to go. The SOFA that is of much discussion. 
The reason I think we need to deal with that now is, it's my 
understanding the legal underpinning for our presence in Iraq 
is based on the U.N. resolution that expires in December. Is 
that correct?
    Secretary Gates. Yes, sir.
    Senator Graham. Okay. So, come December, the legal 
authority that we're basing our presence upon in Iraq, dealing 
with security threats and the ability to be there, goes back to 
the U.N. resolution. The good news, for me, is that the Iraqi 
Government is saying, ``We want out from Article VII--Chapter 
VII of the U.N. We want to be seen as a legitimate state, not a 
chaotic place,'' and that will require a bilateral negotiation 
to continue our presence. Is that the game plan, here?
    Secretary Gates. Yes, sir.
    Senator Graham. Do you know of anyplace in the world where 
thousands of American troops are stationed in a foreign country 
without a SOFA or something like it?
    Secretary Gates. No.
    Senator Graham. As a matter of fact, it would be very 
irresponsible, wouldn't it, to leave our troops in Iraq or any 
other country without some law governing their conduct and 
providing them protections? Is that correct?
    Secretary Gates. Exactly.
    Admiral Mullen. Yes, sir.
    Secretary Gates. A SOFA is for the protection of our 
troops. It's the ground rules under which they are in another 
country.
    Senator Graham. Having been a military lawyer for 25 years, 
I appreciate how important that is, because when a soldier, 
airman, sailor, or marine may be caught by the host nation 
police forces, sometimes, we don't want our folks to go into 
that legal system, and I would argue that maybe this is an 
occasion where we would want to retain jurisdiction over any 
offenses committed in Iraq.
    So, there is an effort to negotiate a bilateral agreement, 
a traditional SOFA, with the Iraqi Government. Is that correct?
    Secretary Gates. Yes, sir.
    Senator Graham. I would urge you to get that done, sooner 
rather than later, because the next President, whoever he or 
she may be, is not coming into office until January, and 
there's a legal no-man's land beginning in December. So, I hope 
we can do that, and certainly not make it a treaty that needs 
to be ratified, and standard SOFAs are not.
    Now, about Iran--let's think of Iraq a little more 
strategically. Iran seems to me to be hell-bent on requiring 
nuclear capability, that they are not producing power--nuclear 
power for peaceful purposes, or at least I don't believe they 
are; I don't trust them when they say they are. What would be 
the effect of a nuclear armed Iran to the region, in your 
opinion, Admiral Mullen and Secretary Gates? How would it 
change the balance of power?
    Admiral Mullen. I think it would have a dramatic effect on 
the region. I worry a great deal about it generating concerns 
in other countries, who then would think they'd have to have 
the same capability. Clearly, that kind of capability puts 
Israel potentially under the envelope, which is----
    Senator Graham. Is it your understanding that the Iranian 
nuclear desires could eventually lead to a nuclear weapon? Or 
what are their motives? What do you think they're up to, when 
it comes to a nuclear program?
    Admiral Mullen. Oh, I believe they're still trying to 
develop a nuclear weapon.
    Senator Graham. What about you, Secretary Gates?
    Secretary Gates. I think they're determined to get nuclear 
weapons.
    Senator Graham. How much time do we have before they get 
there? Does anybody really know?
    Secretary Gates. No. You have estimates, and the estimates 
range from, the worst case, sometime maybe late next year, to--
--
    Admiral Mullen. 2009.
    Secretary Gates. --out several years.
    Senator Graham. Israel is a very valuable ally. Is it fair 
to say that some of the attacks that are being generated from 
the Gaza Strip, in terms of rockets coming into Israel, the 
weaponry is coming from Iran? Are you familiar with that?
    Admiral Mullen. I would go so far as to say that certainly 
Iranian support for Hamas is there.
    Senator Graham. So, Iranian support for Hamas is there. 
It's clear that the ``special groups'' that are operating in 
Iraq have Iranian ties. Is that correct?
    Admiral Mullen. Yes, sir.
    Senator Graham. General Petraeus's testimony was pretty 
stunning to me, in the sense that he said, ``Now it's not al 
Qaeda, it's not sectarian violence that's the biggest threat to 
a peaceful, stable Iraq, but Iranian influence.'' Is that a 
fair statement, Admiral Mullen?
    Admiral Mullen. Yes, sir, I think it is.
    Senator Graham. Secretary Gates, do you agree with that?
    Secretary Gates. Yes, sir.
    Senator Graham. Okay. Some people have said we've taken our 
eye off the ball when it comes to al Qaeda by being in Iraq. 
What would be the consequence to the war on terror, in general, 
if al Qaeda would have been seen to have lost in Iraq because 
Sunnis in Iraq turned on them? Would that have a benefit 
throughout the world, in terms of our struggle with al Qaeda?
    Secretary Gates. My opinion is, given the level of 
investment--in fact, as the President said this morning, given 
the level of effort and investment that al Qaeda made in Iraq, 
and where they were, 15-18 months ago, in Anbar, it would be 
seen, I think, throughout the region, as a major setback.
    Senator Graham. Has anyone suggested to you that we should 
take troops out of Iraq and send them to Waziristan? No?
    Admiral Mullen. No, sir.
    Senator Graham. Okay.
    Final question. What intrigued me about the comment about 
the budgets of Afghanistan and Iraq is that it--did you say it 
was $675 million for all of Afghanistan?
    Secretary Gates. Yes, sir.
    Senator Graham. Has anybody gone to the Iraqis and asked 
them, ``there's another nation out there struggling, trying to 
regain their freedom. Would you contribute some money to the 
Afghan people?'' I mean, if they have $60 billion, and they've 
budgeted for $48 billion--I've never thought about that, until 
you mentioned it, but if you get a chance to talk to the 
Iraqis, this may be a chance to demonstrate to the world that 
they're going to be a team player, here.
    So, with that thought in mind, thank you for your service.
    Chairman Levin. Thank you, Senator Graham.
    Senator Cornyn.
    Senator Cornyn. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, I'm not going to ask you 
about Iraq or Afghanistan. I'd like to stick a little closer to 
home and talk about our hemisphere; and specifically, Latin 
America. I come from a State with a 1,600-mile common border 
with Mexico, a place that, but for the grace of God, may have 
been governed by somebody unfriendly to the United States, 
Lopez Obrador, if he had won and beat President Calderon. 
President Calderon, of course, has been a good ally and worked 
with us; and, particularly, we've helped him fight the 
narcotraffickers in his own country. But, it's still a lot of 
violence, and it's a big challenge.
    Going a little farther south, we have another tremendous 
ally named Colombia. Recently, I had a chance to visit with 
Admiral James Stavridis, head of Southern Command--about 
current developments and challenges our Nation faces in his 
area of responsibility, which includes Latin America. I've read 
that our policy--our official or national policy toward Latin 
America has been described as one of benign neglect. I prefer 
to think that it was more unintentional, because of our 
concentration in other parts of the world. But, the Admiral 
made it clear to me that there's a real threat of the spread of 
terrorism in Latin America. Of course, President Uribe, in 
Colombia, is fighting the Revoluntionary Armed Forces of 
Colombia (FARC), which has found safe haven and support in 
places like Hugo Chavez's Venezuela and elsewhere.
    Unfortunately, today we have the news that the House of 
Representatives--and this is not your bailiwick, necessarily, 
but the House of Representatives has changed its rules and 
prevented us from acting on the Colombian-U.S. Free Trade 
Agreement. My question is not so much about trade, but about 
our national security.
    I would just ask both of you, if the United States were to 
turn its back on Colombia, how would this impact our national 
security?
    Secretary Gates. Senator, a week or 10 days ago, I 
published an op-ed on the national security implications of our 
relationship with Colombia and of the trade agreement, and I'd 
be happy to get you a copy of that. It clearly focuses on where 
we were in Colombia 10 years ago.
    I will tell you, one of the biggest changes in the time 
since I retired from the government and came back has been what 
has happened in Colombia. What troubles me is that there was 
recognition of Colombia's importance to our security, on a 
bipartisan basis, beginning in the Clinton administration with 
Plan Colombia, that has invested something like $5 billion of 
American money in Colombia for their security, for their 
police, for counternarcotics, for counterterrorism, and so on. 
We have seen a real success in Colombia in all of these ways. 
We have seen the kinds of connections that the FARC has with 
neighboring countries. So I believe that Colombian security is 
very important, and it would be a shame to see the progress 
that's been made there put at risk because they face economic 
difficulties or because President Uribe suffers political 
consequences because his good friend the United States of 
America basically turned its back on him.
    Senator Cornyn. Admiral Mullen?
    Admiral Mullen. Senator, I visited Colombia 2 months ago, I 
think, and, while I was aware from a distance how much better 
their security had gotten, it was really an incredible 
experience to go through it with their military and to see 
exactly what they had, which has in effect, become a 
counterinsurgency force, expanded in size, and taken back their 
own country, about 30 percent of which--I'm sure you know 
this--the local mayors, in 2002, didn't live anywhere close to 
the towns they were mayors at; they are now all living in their 
towns. I give the Colombia leadership, President Uribe, as well 
as the Colombian military, great credit for doing this.
    They are a good friend of ours, and I do worry, and have 
historically worried, about how well we look to the south. This 
is just my own experience. I'm not sure benign neglect is the 
right answer, but clearly Latin America is an important part of 
the world for us. They are our neighbors, and clearly there are 
growing challenges down there, not just from the narco piece, 
but potentially becoming narcoterrorism--and the leadership, 
which is clearly not supportive in other countries--is not 
supportive of where we're headed.
    So, we need Colombia, certainly from a military standpoint, 
to be a strong ally. They've made incredible progress, and I 
would hate to see the kind of investment that we've made be 
jeopardized, based on other issues which are clearly in play.
    Senator Cornyn. I think it's not a coincidence that we've 
seen countries like China and Iran interested in South America 
and Latin America, generally. Of course, if my memory serves 
me, I believe there has been some developments about weapons 
production down in Venezuela. If I'm not mistaken, involving 
Kalashnikov rifles, and sales of military materiel to Venezuela 
by other countries.
    I would just hope that the memory of President Ahmadinejad, 
of Iran, a state sponsor of international terrorism, touring 
Latin America, strengthening their ties with the likes of Hugo 
Chavez and leaders of the terrorist group FARC, would cause us 
to wake up--and I'm not talking about you, I'm talking about 
Congress--to wake up and realize the importance, not only of 
our economic ties, but the importance of our national security 
ties to a country like Colombia.
    I would just think that the only person who is celebrating 
the killing of the Colombia Free Trade Agreement today, at 
least until after November, is probably Castro, Chavez and all 
of our enemies in that part of the world. They're, in effect, 
telling President Uribe, ``This is what you get for being a 
friend and ally of the United States.'' Not a message we want 
to send, and one that's not consistent with our national 
security interests.
    My time's expired. Thank you.
    Chairman Levin. Thank you, Senator Cornyn.
    Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary and Admiral, for being so patient 
today.
    Admiral Mullen, a recent estimate by the Congressional 
Budget Office puts the projected cost of future operations in 
the global war on terrorism between $440 billion and $1 
trillion over the next 10 years. The lower figure is based on 
an assumption of 30,000 troops deployed to both Iraq and 
Afghanistan by 2010, a significant reduction from the 
approximately 200,000 currently engaged, an increasingly 
unlikely goal.
    Admiral Mullen, if realized, what impact will these 
expenditures have on the ability of the services to transform 
and modernize over the next decade so that they can effectively 
meet 21st-century challenges, especially with regards to future 
combat systems and the Air Force and Navy fleets.
    Admiral Mullen. Senator, that obviously is tied very 
clearly to what the defense budget is over time. Over that same 
period of time, we're challenged in managing the funds that we 
have, with buying what we need for the future, operating today 
in operations just as you've described, as well as resourcing 
the people who really make all this possible. That tension is 
clearly there in a timeframe. If our defense budget went down 
fairly dramatically, then those operations were still ongoing--
there's only one place to get those kinds of resources, and 
that pretty significantly takes it out of future development or 
reduce the number of people. Most of us believe, right now, 
that probably wouldn't be a prudent move. We're living in a 
very dangerous, unpredictable, uncertain world, and having the 
right resources to support the men and women who carry out 
these missions is absolutely vital. So, it could put a great 
deal of pressure on our future accounts, certainly our 
acquisition accounts, based on the size of the operation in an 
extended period of time.
    That said, that kind of projection, in terms of operational 
level, long-term, most of the analysis that we've done in the 
DOD look at some level of operations out there in a time of 
what we call persistent conflict. In the world we're living in, 
one of my biggest concerns is that we figure out a way to 
resource that correctly.
    Senator Akaka. Mr. Secretary and Admiral Mullen, the 
absence of attacks within Iraq is a necessary, but not 
sufficient, condition for stability. Dr. Stephen Biddle, who 
testified only last week, says that much of the reduced level 
of violence is due to Iraq's becoming--and I'm quoting--``a 
patchwork of self-defending sectarian enclaves that warily 
observe each other.'' Even if a situation of reduced attacks is 
maintained by these regional cease-fires, the underlying 
problems of political and ethnic fracturing would still exist. 
These so-called cracks in the foundation of the new Iraq 
represent the absence of the political reconciliation that the 
surge was supposed to be able to help provide.
    My question to you, Secretary Gates and Admiral Mullen, 
what are the long-term implications for the U.S. military 
presence in Iraq if the Maliki government is unable to achieve 
a degree of reconciliation that will convince the warring 
factions to lay down their arms?
    Secretary Gates. Senator, first of all, I believe there has 
been some real political progress in Iraq with the passage of 
four of the six pieces of benchmark legislation. They are 
distributing the revenues of the oil--even though there isn't a 
hydrocarbon law, they are distributing them according to, 
basically, the percentages that would be in the law. I think 
that, as I mentioned earlier, we have seen Maliki take action 
in Basrah against Shiite who were influenced by Iran, probably 
supported by Iran in many respects, and try to establish the 
authority of the national government down there. He's been 
congratulated on this by the Sunni leadership, by the Kurdish 
leadership, and so on.
    They're not one big happy family, and they won't be for a 
long time, but I think there is progress in this respect. In 
some regards, I would say that oil will be the glue that holds 
Iraq together and provides the motive for everybody, no matter 
how hard things get from time to time, to ultimately work out 
their problems. I think they've made some headway on that. I 
believe that they will--I think it'll be a mixed record, but, I 
think, on the whole, it is moving forward--more slowly than we 
would like, but moving forward.
    Admiral?
    Admiral Mullen. The only thing I'd like to add to that, 
Senator, is we oftentimes focus on the national-level political 
reconciliation, which is a very important part, but there's 
been considerable progress in reconciliation at the provincial 
level, as well as at the local level. When I, again, visit our 
Provincial Reconstruction Teams (PRT), our commanders on the 
ground, they speak to a lot of progress, and it varies, 
depending on where you are in the country. But, the kind of 
movement among the Iraqi people from the local-politics 
standpoint, that just wasn't there a year ago. Also, provinces 
starting to connect with Baghdad, and Baghdad starting to 
connect with them, all of which is part of this, needs to move 
more quickly, but, like in many other things, I think, a year 
ago I would not have predicted it would have even gone this 
far.
    Senator Akaka. Admiral, one of the security successes over 
the past 6 months has been the Sunni Awakening Movement in 
Anbar province, where former Sunni insurgents have turned on 
their former al Qaeda allies in order to bring stability back 
to their local neighborhoods. This practice has started 
spreading to other provinces, and now even includes some Shiite 
groups.
    However, there is now a growing concern over what may 
become the focus for those battle-hardened militia groups in 
the years to come, much like the Mujahedin soldiers the U.S. 
aided in Afghanistan in the 1980s against the Soviets and 
eventually developed into elements of the Taliban. My question 
to you, is there a concern that these groups will ultimately 
make it even more difficult for the central Iraqi Government to 
establish and maintain effective control over the provinces, 
especially given the sectarian conflicts which we are 
witnessing now?
    Admiral Mullen. Certainly I think there is a concern along 
those lines, but it is not something that the commanders on the 
ground have spoken to as something they see in the immediate 
future with respect to those who are now working with us. I 
think the long-term outcome here is going to be tied to success 
in the country. Can the country come up in a way to provide the 
kind of overall economy and security, the big things we've 
talked about before, and, in fact, think of Iraq first, as 
opposed to the sectarian aspects of this, thinking that way? 
We're moving in that direction, but it is painfully slow, and 
it's just going to take some time to do that. The CLCs, 90,000 
or so, 20 percent of which are Shiite, and about 20 percent of 
that overall force is also joining the security forces. So, 
this is all moving in the right direction.
    Can we sustain it? I think that's the question that's out 
there. There's the feeling that there's a willingness to do 
this, but it's the entirety of the country that has to come to 
bear on this across all aspects of economy and politics, as 
well as security, which provide for a better country and a 
better outcome for all of the Iraqis.
    Senator Akaka. Thank you.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Akaka.
    Senator Thune.
    Senator Thune. Thank you, Mr. Chairman.
    Secretary Gates, Admiral Mullen, thank you very much for 
your presence here today and for your service to our country, 
and thank you for your patience. I think you're at the end of 
the line, here.
    Admiral Mullen, last week the Readiness and Management 
Support Subcommittee received testimony from the Service Vice 
Chiefs on the current readiness of our forces. During that 
readiness hearing, I asked the Vice Chiefs about the impact on 
each Service that may occur from the delay on the passage of 
the second part of the fiscal year 2008 supplemental 
appropriations request. General Magnus, the Assistant 
Commandant of the Marine Corps, said that the delays in 
funding, ``send a strong, unmistakable signal to our seasoned 
warriors who have been willing--and their families have been 
willing to sign them up to re-enlist.'' Then he went on to say, 
``that whenever we see a significant delay in deliberations 
regarding appropriations to support the pay for our armories--
and I'm sure it's the same for the other Services--you have a 
very intelligent, very professional force, and they also pause 
to be able to see what this means for them and their future.''
    Admiral, would you agree with General Magnus's assessment 
of the messages that these delays in funding send to our troops 
in Iraq and Afghanistan?
    Admiral Mullen. In my opening comments, I talked about the 
support that this committee and Congress has had for our men 
and women in uniform, and it's been extraordinary, and we 
couldn't be the military that we are without that.
    That said, this specific issue of the remaining 
supplemental for this year starts to be seen--send the kind of 
signals that you've described, or that General Magnus describe. 
It also impacts the institution in a way that the institution 
starts to react earlier than even the time that we figure we're 
going to run out of money. So, the discussion now gets centered 
on--that we potentially could run out of money to pay the Army 
as early as June, and there--the institution starts to get 
poised for that, and the people start--certainly the troops 
start to worry whether that's going to happen.
    So I would ask the committee and Congress to pass this as 
rapidly as possible, because it does have those kinds of 
effects. Clearly, it then has a rolling effect, if it didn't--
if funding didn't get out there--into our readiness--very 
seriously, our readiness for the rest of this year.
    Senator Thune. General Cody also--the Army Vice Chief--
testified about the delay of emergency war supplemental funding 
and its effects on equipment readiness. He said that these 
delays have a ``cascading impact on readiness over time.'' 
Could you talk a little bit about the impacts of delayed 
funding on the equipment readiness in theater?
    Admiral Mullen. Clearly, we've brought equipment back from 
theater to run through the depots to repair it. The funds that 
are spoken to in this bill are those kinds of funds, and that 
does have a cascading and cumulative effect that would, in 
fact, impact our ability to be ready to go do what we need to 
do in theater, and to refurbish it in order to continue to 
support what we're doing.
    Senator Thune. This would be for Secretary Gates or for 
you, Admiral--but, at a committee hearing last week, again, 
General Cody, the Army Vice Chief, testified that the Army is 
out of balance, and that the current demand for our forces in 
Iraq and Afghanistan exceed the sustainable supply and limits 
our ability to provide ready forces for other contingencies. 
We've heard similar statements that have been made, expressed 
by the Army Chief of Staff, General Casey. At the same time, 
Congress has been very supportive of initiatives that have been 
proposed by the Department to increase the number of ground 
forces, to accelerate the purchase of new equipment, provide 
recruiting and enlistment incentives, and to support the 
investment required to transform the Army into modular 
brigades. In addition, the President announced, this morning, 
that the Army plans to reduce deployment times in Iraq from 15 
months to 12 months.
    All of these fixes are intended to relieve the stress and 
the strain of the current operations tempo for the Army's 
ground forces. I guess my question is, In your opinion, does 
the Army have the remedies in place to improve their readiness 
while continuing to meet security requirements in Iraq and 
Afghanistan? If not, what more can be done to help the Army get 
themselves back in balance?
    Admiral Mullen. The ``grow the force'' initiative is 
incredibly important, and yet, we're still 2 or 3 years out 
from when we complete that.
    When General Casey speaks of the Army being out of balance, 
he focuses on the training that we're going through now, and 
then the missions we're executing, which principally focuses on 
counterinsurgency. So, there's a full-spectrum aspect of this 
which we're not able to do right now, in the Army or the Marine 
Corps, because we're focused here. General Conway would tell 
you he is not able to do any expeditionary amphibious 
operations, both training--because of where he's focused right 
now--and in that regard, out of balance, that the Army--the 
ground forces--and we do focus on the Army, and these 15- to 
12-month deployments are specifically Active-Duty Army. But, we 
shouldn't forget the pressure that the Marine Corps is under. 
They've been in a one-to-one dwell, 7 months gone and 7 months 
back, for a significant period of time, as well. That pressure 
is on those forces, and it's going to take, actually, both a 
``build the force'' and a combination of that and reducing the 
amount of forces that are deployed, to start to build more 
dwell time, which is the next big step, so forces can go out 
for a year and come back for up to 2 years; clearly, the 
funding to refurbish the equipment and also the time, if I were 
back 2 years, to do some of this additional training.
    The other thing is, the Army, in particular, has 
modularized at an--when you consider what we're doing in war, 
they have modularized at an incredibly fast rate--and I really 
applaud that--to meet the needs for the future.
    So, we're in a very delicate place right now, for all these 
things, and it's the force requirements that are generating a 
lot of this, and until we get some relief there--that would be 
the next big step.
    Secretary Gates. Let me add one thing to that, Senator.
    I think one of the biggest differences between a 
conscription Army and an All-Volunteer Force is the attention 
that we need to pay to families. The family has become 
incredibly important in the success of the All-Volunteer Army. 
We hope to have, up here fairly soon, some initiatives that 
address the family needs and send messages--more messages to 
the families about their importance. This will include requests 
for accelerated construction of daycare centers and longer 
hours for daycare centers, and hiring preferences for--in the 
whole Federal Government, for the spouses of our men and women 
in uniform, and some--potentially, the sharing of unused 
benefits and so on. So, we hope that Congress will take a close 
look at those. Congress has always been supportive of these 
kinds of initiatives, but paying attention to the family needs 
is really going to be important and has been, and will continue 
to be.
    Senator Thune. We would welcome suggestions that you have 
about that, and look forward to working with you when you are 
prepared to submit those to us.
    So, thank you all very much, again, for your service.
    Thank you, Mr. Chairman.
    Chairman Levin. Thank you, Senator Thune.
    Thank you both. It's been a long afternoon, and very 
uneven, in terms of schedule and calendar, but that's the U.S. 
Senate. You've been very understanding.
    Admiral?
    Admiral Mullen. Mr. Chairman, just in the hopes that I 
could eliminate additional administrative requirements, your 
specific question about Maliki's ban really was focused on JAM, 
and there actually are other efforts for other militias that 
people are trying to--that are--there are significant efforts 
to try to make them go away, not successful, as you----
    Chairman Levin. Well, if you look at the--I think it's 
called the Council of--if you look at the Iraqi--I think it's 
called Presidency Council, but I'm not sure----
    Admiral Mullen. Right.
    Chairman Levin. --their--and it may have been their 
security advisor--National Security Council--their statement 
was ``all militias.'' There's a huge difference.
    Admiral Mullen. Right.
    Chairman Levin. It's just not going after his own--Maliki's 
only going after the Sadr militia, and leaving out his own. 
Number one, he's not being consistent with the constitution. 
Number two, he's sending exactly the wrong message, I think, in 
terms of even enforcement of the effort to stop all militias. 
Remember, the benchmark is aimed at a law to prohibit all 
militias. Maliki's taken it onto himself a statement that, 
unless certain militia is disbanded, apparently leaving out the 
others, that they will not have an opportunity to participate 
in the October 1 elections. I'm not sure where he got that 
from.
    Could you do this, Admiral? Would you--this is really a 
suggestion for you, Mr. Secretary, not for the Admiral--could 
you double check that with our ambassador and see whether or 
not that reflects our policy and whether it reflects the Iraqi 
constitution? ``That'' being to just single out one militia for 
the prohibition. If it is the Maliki position, and if it 
doesn't reflect our policy--and I don't think it does--or their 
constitution--and I don't think it does--could you then express 
your own opinion, whatever it might be, to our ambassador?
    Secretary Gates. Sure, and we'll start with making sure of 
what Maliki actually said.
    [The information referred to follows:]

    There is no conflicting policy on Prime Minister Maliki's part 
regarding the prohibition of militias in Iraq. The Prime Minister has 
indicated on a number of occasions that he is against militias and has 
ordered their disbandment as a threat to national sovereignty. Illegal 
militias that have refused to disband are being routinely targeted by 
Iraqi security forces for destruction. The Prime Minister has taken a 
less combative approach with members of the Islamic Supreme Council of 
Iraq (ISCI) than he has taken with the Sadrist Trend, whose members 
remain with active ties to Sadrist militias. This circumstance stems 
from the Sadrist group's reticence to disarm until confronted, as 
during recent security operations in Basrah in April 2008; however, the 
former military wing of ISCI, the Badr Brigade militia, disarmed in 
2003 following the liberation of Iraq.

        <bullet> Since its founding in 1982, ISCI has been a political 
        force in Iraq. During its years in exile, ISCI became an 
        important political voice for the exiled Iraqi community. Since 
        the liberation of Iraq in 2003, ISCI has been influential 
        within the Iraqi Government, most notably within the Ministry 
        of Interior, and to a lesser extent, the other segments of the 
        Iraqi security forces.
        <bullet> Also in 2003, ISCI and the Badr leadership chose to 
        recognize Coalition Provisional Authority (CPA) Order Number 91 
        that requires all illegal militias to disband. The Government 
        of Iraq supports this disarming and is thus synchronized with 
        U.S. policy goals to disarm illegal militias. This order not 
        only requires disbandment of illegal militias but, under 
        certain circumstances, precludes former militia members from 
        holding political office for a period of 3 years. CPA Order 
        Number 91 directs:

                <bullet> ``A member of an Illegal Armed Force or 
                Militia may not hold political office at any level. An 
                individual determined to have been a member of an 
                Illegal Armed Force or Militia shall be barred from 
                holding political office at any level for a period of 3 
                years from the date such individual ceased to be a 
                member of an Illegal Armed Force or Militia.''

    In a USA Today October 2006 interview, Prime Minister Maliki 
stated:

        <bullet> ``We started to deal with militias since the first day 
        I took over as prime minister. I declared from that day one of 
        my goals was to dissolve the militias. I believe there could be 
        no true state while armed militias are operating.''
        <bullet> ``This conviction has not changed, whether the militia 
        is Shiite, Sunni, Arabic, or Kurdish. The problem is the same. 
        The problem that we face in disbanding militias--and the 
        militias have to be disbanded--is that there are procedures, 
        steps that need to be taken, which take time. We have taken 
        some important steps toward that end.''

    In April 2008, following Iraqi security force operations in Basrah, 
Prime Minister Maliki said:

        <bullet> ``The first step will be adding language to a draft 
        election bill banning parties that operate militias from 
        fielding candidates in provincial balloting this fall. The 
        government intends to send the draft to parliament within days 
        and hopes to win approval within weeks.''

    Prime Minister Maliki, in an interview with CNN on April 7, 2008, 
also said:

        <bullet> ``Solving the problem comes in no other way than 
        dissolving the Mahdi Army. They no longer have a right to 
        participate in the political process or take part in the 
        upcoming elections unless they end the Mahdi Army.''

    The United States supports Prime Minister Maliki's approach and 
shares the vision for an Iraq that is free of the violence of militia 
groups and other violent elements. U.S. policy is clear: the Iraqi 
people have a constitutional right to ``participate in public affairs 
and to enjoy political rights including the right to vote, elect, and 
run for office.'' However, militias and other violent groups cannot be 
members of the same democratic institutions that they work to undermine 
by using violence to kill and intimidate the people.
    In April 2008 Secretary of State Condoleezza Rice said:

        <bullet> ``First of all, I didn't hear anybody say that the 
        Sadrist trend, which is--you know, was elected, shouldn't try 
        again to get the votes of the Iraqi people, as long as they're 
        prepared to do it not armed. That was--that militias need to 
        break up. Eventually, all armed force has to be under the 
        state, and that's true for any society, any democratic society.

    Also in April 2008 U.S. Ambassador Ryan Crocker said:

        <bullet> ``Iraq is at the point in its development where the 
        events of Basrah and Baghdad are the state asserting its 
        authority against an extralegal or illegal militia. That's 
        certainly how Iraqis broadly are viewing this, and in that 
        sense, it is a defining event. The politics of Iraq will go on. 
        The competition between the Supreme Council and Dawa and the 
        Sadr trend and Fadhila just to name a few on the Shia side, 
        that's going to be part of the political landscape and that's 
        what elections are all about.

    U.S. policy toward the uniform elimination of militias in Iraq is 
synchronized with Iraqi policy regarding the elimination of these same 
militias. Prime Minister Maliki's initiative in removing the threat of 
all militia activity from Iraq does not appear to show evidence of 
favoritism toward any one militia group. We will continue to support 
the efforts of the Government of Iraq to quickly and lawfully remove 
militias from Iraq.

    Chairman Levin. We thank you both. It's been a very 
important hearing for us. Thank you.
    [Questions for the record with answers supplied follow:]
                Question Submitted by Senator Carl Levin
                            risk assessment
    1. Senator Levin. Admiral Mullen, Vice Chief of Staff of the Army 
General Cody, in testimony before the Readiness and Management Support 
Subcommittee of the Senate Armed Services Committee on April 1, stated 
``Our readiness, quite frankly, is being consumed as fast as we can 
build it'' and ``I've never seen our lack of strategic depth be at 
where it is today.''
    At the same hearing, Assistant Commandant of the Marine Corps 
General Magnus stated ``The short dwell time at home does not allow our 
units the time to train on the full spectrum missions needed to be 
ready for other contingencies'' and ``the readiness of the nondeploying 
units has been at a significantly lower level than the forward deployed 
forces.''
    How would you assess the risk if another contingency, such as 
conflict on the Korean peninsula, arose while U.S. forces remain 
engaged in Iraq and Afghanistan?
    Admiral Mullen. [Deleted.]
                                 ______
                                 
               Questions Submitted by Senator Mark Pryor

                     SHIITE CLERIC MUQTADA AL-SADR

    2. Senator Pryor. Secretary Gates, I asked Ambassador Crocker if 
radical Shiite cleric Muqtada al-Sadr is trying to set himself up as an 
Ayatollah in Iraq. An article in the USA Today on April 10, states that 
``the recent spike in violence here has shown that the enigmatic Shiite 
cleric and his Mahdi Army militia continue to have the muscle to plunge 
Iraq into warfare and essentially reverse recent security gains made by 
the United States military that the Bush administration cites as a key 
sign of progress. Or as he did in August, al-Sadr can stop much for the 
bloodshed by ordering a ceasefire--and win some credit from the United 
States military for the resulting calm.'' What are we doing to help the 
Iraqi Government deal with cleric Muqtada al-Sadr?
    Dr. Gates. We continue to work with the Government of Iraq (GOI) to 
protect the population, build the capability of the Iraqi Security 
Forces (ISFs), and support job training programs. We are also 
encouraging and assisting the GOI to provide essential services to the 
population to diminish the appeal of extremist and militia movements by 
promoting confidence in the Iraqi Government. These efforts have 
contributed to a reduction in insurgent and militia activity. We 
strongly support efforts by the GOI to bring Sadrist elements into the 
Iraqi Government and ISFs. At the same time, we continue to target 
criminal militia elements and Iranian supported Special Groups. The GOI 
has recently taken a more aggressive posture against criminal militia 
elements, and we will continue to work closely to support Prime 
Minister Maliki's efforts in that regard.

    3. Senator Pryor. Secretary Gates, are we working on developing a 
plan or strategy to get him to stand down and disarm his militia?
    Dr. Gates. We continue to work with the GOI to protect the 
population, build the capability of the ISFs, and support job training 
programs. These efforts have contributed to a reduction in insurgent 
and militia activity. We strongly support efforts by the GOI to bring 
Sadrist elements into the Government and ISFs. At the same time, we 
continue to target criminal militia elements and Iranian supported 
Special Groups. The GOI has recently taken a more aggressive posture 
against criminal militia elements, calling for all political groups to 
disband armed militias. We will continue to work closely to support 
Prime Minister Maliki's efforts in that regard.

    4. Senator Pryor. Secretary Gates, does the U.S. military have a 
strategy if he does not stand down or disarm and re-engages with 
American troops on the streets of Iraq?
    Dr. Gates. We retain the ability to engage any militia elements 
that take up arms against us or the GOI.

    5. Senator Pryor. Secretary Gates, concerning the decreased level 
of violence in Iraq, is this a true indication of success in Iraq or is 
this simply Shiite cleric Muqtada al-Sadr issuing an order to his 
militia to cease fire which he can reverse at any moment?
    Dr. Gates. The decrease in violence is an important indicator of 
progress in Iraq. Muqtada al-Sadr's cease fire order is just one factor 
in decreasing violence levels. Other factors include our effort to 
focus on protecting the population, sustained counterinsurgency 
operations by Iraqi and coalition forces, the increased capability of 
the ISFs, and Iraqi citizens such as the Sons of Iraq turning against 
al Qaeda and helping secure their own neigborhoods. Continued Iraqi and 
coalition pressure on extremists, terrorists, criminals, and other 
armed groups, along with numerous blows to al Qaeda in Iraq's (AQI) 
leadership and networks, have diminished enemy capability to conduct 
attacks.

                           OPERATIONS IN IRAQ

    6. Senator Pryor. Secretary Gates, in response to Senator Collins' 
questions on April 9, 2008, at a Senate Armed Services Committee 
hearing about the progress made by the GOI in meeting benchmarks, 
retired Army General John M. Keane testified that ``we may not resume 
reductions in 2008'' pending three significant events that need to take 
place: (1) fend off al Qaeda in Mosul; (2) stabilize the operation in 
the South of Iraq; and (3) fall election in Iraq which will be the 
watershed political effort in Iraq. What is your assessment of these 
ongoing and upcoming events?
    Dr. Gates. Operations in Mosul against al Qaeda are part of the 
ongoing effort to destroy its network and deny al Qaeda sanctuary in 
Iraq. Coalition forces are partnering with Iraqi Army and police units 
in Ninewa province to accomplish this mission. Prime Minister Maliki 
directed the establishment of the Ninewa Operations Center and directed 
additional reinforcements to Mosul to bolster the existing Iraq 
Security Forces presence there. The provinces in southern Iraq are 
under Provincial Iraqi Control (PIC). Therefore, the ISF are leading 
efforts against criminal militias, with Coalition enabler support. The 
fall provincial elections will be a significant event in Iraq's 
transition to a fully sovereign and democratic nation and are likely to 
promote increased reconciliation as communities who boycotted previous 
elections participate in the political process and gain increased 
representation in their government. General Petraeus will factor these 
events and others into his recommendation following the 45-day period 
of consolidation and evaluation upon the withdrawal the of the last 
surge brigades in July 2008.

    7. Senator Pryor. Secretary Gates, do you tie these successes/
failures to the 45-day period of consolidation and evaluation and then 
assessment linked to the withdrawal of troops?
    Dr. Gates. At this point it is difficult to know what impact, if 
any, the reduction in surge forces will have on the security situation. 
A brief pause for consolidation and evaluation following a return to 
pre-surge troop levels will allow us to analyze the process and its 
effects in a comprehensive way. I do not anticipate this period of 
review will be an extended one, and I would emphasize that the hope, 
depending on conditions on the ground, is to reduce our presence 
further this fall. But we must be realistic. Conditions in Iraq remain 
the measure on which we will base our troop strength decisions, and 
doing that requires sober and realistic assessments of the effects our 
return to pre-surge levels have on those conditions. The security 
situation in Iraq remains fragile and gains can be reversed.

      READINESS TO RESPOND TO WEAPONS OF MASS DESTRUCTION ATTACKS

    8. Senator Pryor. Admiral Mullen, the Commission on the National 
Guard and Reserve issued its final report on January 31 and cited 
substantial shortcomings in the Nation's readiness to respond to 
weapons of mass destruction attacks. Do you agree with the Commission's 
assessment?
    Admiral Mullen. The Commission did a very thorough job looking at 
the WMD consequence management problem from a view focused on the 
National Guard operating under title 32 and the Reserves under title 10 
authorities. The Department views our role in a more holistic manner, 
covering not only the consequence management aspect but the 
nonproliferation and counter proliferation elements of the national 
strategy. We consider the Active and Reserve components as integral to 
the Department's capacity to respond in accordance with the overall 
Federal strategy.
    Essential to DOD's role is interdicting WMD prior to arrival in the 
homeland. To that end, DOD participates in numerous interagency venues 
to identify, track, and interdict movement of WMD and suspect shipments 
from state and non-state proliferators. We have already met with 
success in several areas, creating obstacles for would be WMD-capable 
actors from gaining access to these materials.
    To be sure, the most costly and difficult aspect of the national 
strategy is how to respond in a post-detonation environment. There is a 
three-phased response. The first response phase is executed routinely 
at the state and local level with the National Guard WMD Civil Support 
Team (CST), which was directed by congress almost 10 years ago. These 
teams have progressively grown to number 55, with at least one team 
resident in each state. The teams routinely respond to local level 
alarms and will likely provide the first confirmation that an attack 
has occurred. The second response phase is executed with National Guard 
Chemical, Biological, Radiological, Nuclear and Explosives (CBRNE) 
Enhanced Response Force Packages (CERFP), also directed and funded by 
congress. There are 12 validated CERFPs with 5 more in various states 
of sourcing and validation. These units are roughly 150 members strong, 
and have response capabilities that compliment the detection and 
assessment capabilities resident with the first on-scene elements. 
CERFPs provide immediate but limited duration capability in 
decontamination, specialized medical, technical extraction, and command 
and control. The CERFPs were developed along the model of the Marine 
Corps' Chemical Biological Incident Response Force (CBIRF), which was a 
key element during the response to Anthrax attacks on the U.S. Senate. 
The size of the crisis will dictate the level of response, therefore to 
address our third response phase, I directed the assignment of the 
CBRNE Consequence Management Response Force (CCMRF) to USNORTHCOM. This 
5000-person organization is built around an Army Brigade Combat Team 
(BCT) and deploys with self contained and supporting communications, 
medical, transportation, decontamination, logistical, rotary-wing 
aviation, and unique WMD response units. The Department is working to 
incrementally allocate forces to provide additional capabilities in the 
event of multiple events.
    As I previously stated, our consequence management response 
strategy is built on a combined NG, Reserve component, and Active Duty 
solution. The initial elements are predominantly NG (CST, CERFP), with 
follow-on forces provided from the Active Duty or Federalized Reserves. 
Time is a tyrant and the challenge of moving individual units across 
the country is exacerbated considering time to muster and traditional 
methods and policies for mobilization. As you are well aware the 
Department does not have uncommitted brigades for this mission set, so 
I have directed the JS, Services, and JFCOM to develop Reserve 
component sourcing solutions. This effort is ongoing with steady 
progress.
    The Department has worked to synchronize our response to support 
the Federal lead agency, which in most cases is the Department of 
Homeland Security. DOD elements reside with FEMA Regional offices and 
are incorporated in their response architecture. This effort has vastly 
improved our response coordination as evident in natural disaster 
scenarios, most recently the CA Wildfires. We also train along side our 
interagency partners. In May we exercised a broad series of responses 
in the National Level Exercise, and USNORTHCOM conducts similar 
training events twice a year, normally in the spring and the fall.

    9. Senator Pryor. Admiral Mullen, what actions do you believe are 
needed to improve the Department of Defense's (DOD) capabilities in 
this area?
    Admiral Mullen. To continue our efforts in improving DOD's 
capabilities to respond to WMD attacks, the Department follows a 
construct based on deliberate planning, coordination activities, 
operations, and capabilities development detailed in the National 
Military Strategy to Combat Weapons of Mass Destruction (NMS-CWMD). 
This military strategy complements the three pillars of 
counterpoliferation, nonproliferation, and consequence management set 
forth in the National Strategy to Combat WMD.
    The Department is taking aggressive actions to specifically 
address: protecting the force, improving response capabilities to 
support homeland defense and civil support consequence management, and 
building partnership capacity. The Joint Staff is currently conducting 
a CWMD Strategic Global Assessment that will address the combatant 
commanders' ability to execute the strategy outlined within the NMS-
CWMD. This assessment will be used to adjust planning and influence 
future CWMD capability development.
Protecting the Force:
    The Department's Chemical and Biological Defense Program (CBDP) is 
modernizing the joint force by developing and fielding integrated and 
interoperable capabilities to the joint force. Modernization of 
Chemical, Biological, Radiological, and Nuclear (CBRN) defense 
capabilities will continue to enable the warfighting combatant commands 
to accomplish all of the CBRN components of the NMS CWMD. The CBDP 
addresses key doctrine, organization, training, material, leadership 
and education, personnel and facilities (DOTMLPF) modernization needs 
described in the capabilities-based assessments conducted for passive 
defense, consequence management, WMD interdiction, and WMD elimination. 
Success in CWMD operations depends on the effective integration of 
equipment, trained personnel, and proven tactics, techniques, and 
procedures (TTP). The CBDP is developing capabilities that can be 
employed at home and abroad, on and off installations, with local and 
state responders, and to assist allies or other coalition partners 
across a range of operations. Another significant focus area the 
Department is addressing is the threat of biological warfare. Broad 
spectrum medical countermeasures are being developed to defend against 
genetically engineered or naturally mutating pathogens for which there 
are no current defenses along with capabilities to manage the 
consequence of major catastrophic events.
Consequence Management:
    The Department remains committed to providing capabilities to 
mitigate the effects of WMD attacks at home and abroad. There are 55 
WMD CSTs and 17 CBRNE Enhanced Response Force Packages (CERFPs). The 
WMD CSTs provide CBRN identification, assessment and technical advice. 
The CERFPs provide medical, decontamination, casualty search and 
rescue, technical rescue and C4I. The Department has also fielded a 
domestic CBRN Consequence Management Response Force (CCMRF) to assist 
the Lead Agency with capabilities ranging from personnel 
decontamination and medical triage to air and ground transportation. 
Additional CCMRFs will be sourced in the near future to provide 
increased capability. The Department is also in the process of 
evaluating and assessing mitigation measures to enhance DOD's 
capability to respond to CBRN incidents contained on U.S. military 
installations abroad and in support of foreign partners in the event of 
an overseas WMD attack.
Building Partnership Capacity:
    The Department actively engages in International CBRN defense 
programs seeking cooperative efforts in advanced development and 
procurement, doctrine and requirements, and science and technology. 
These efforts seek to expand the Nation's ability to reduce and, where 
possible, eliminate or minimize the threats posed by traditional CBRNE 
weapons. The Joint Staff assists in the development of international 
military standardization and interoperability agreements involving 
chemical, biological, radiological and nuclear (CBRN) defense. The 
Joint Staff engages in numerous international organizations, including: 
the North Atlantic Treaty Organization (NATO) Joint Capability Group on 
CBRN Defense; the NATO CBRN Medical Working Group; Australia, Canada, 
United Kingdom and United States CBRN Memorandum of Agreement and 
Counterproliferation of WMD Bilateral Agreements (South Korea, Japan, 
United Kingdom, France, Israel, and Indonesia). These international 
organizations are exchanging research, development, test and evaluation 
efforts in CBRN detection, identification, sampling, protection, 
medical countermeasures, and modeling and simulation. They are also 
conducting numerous multi-national Table Top Exercises that have 
identified capability gaps and potential DOTMLPF solutions.

                          OPERATIONAL RESERVE

    10. Senator Pryor. Admiral Mullen, what is your opinion of an 
Operational Reserve? Do you believe it is necessary?
    Admiral Mullen. I believe that having an Operational Reserve is 
vital for our national security. There are several factors that have 
evolved and are common for an Operational Reserve. One is our continued 
demand for timely utilization of select Reserve military capability. 
Second, there is an ongoing paradigm shift for assured, predictable and 
responsive access to a more ready Reserve component in order to sustain 
current and future operations while still maintaining the Citizen-
Warrior ethos of our Reserves. This means we are continuing to invest 
more resources in our Reserve components to become better manned, 
trained, and equipped to be readily available for mobilization and 
employment as cohesive units while providing predictability to families 
and employers.
    Each of the Military Services over the past decade and since the 
First Gulf War have continued to shift their respective Reserve 
components from a Strategic Force towards an Operational Reserve Force 
construct based on evolving mission capability requirements and 
necessity.
    The Military Services believe operationalzing their respective 
Reserve component is a necessary part of our overall National and 
Military Strategy to support Homeland Defense, plus current and future 
combat operations. We also are actively involved in reviewing the 
recommendations taken from the Commission on the National Guard and 
Reserve report that advocates reviewing the laws, policies, and 
procedures which further supports operationalzing our Reserve 
components.

                          PREPOSITIONED STOCKS

    11. Senator Pryor. Admiral Mullen, our prepositioned stocks have 
been drawn down for use in Iraq and Afghanistan and the depletion of 
these stocks increases strategic risk in that it hinders our ability to 
respond quickly to emerging conflicts. What is the DOD's plan to 
reconstitute the forward deployed war stocks?
    Admiral Mullen. Our prepositioned capabilities have been and will 
continue to be essential to sustaining the global war on terrorism. We 
project the current prepositioned capabilities to be fully 
reconstituted by fiscal year 2015, contingent on available resources 
and emergent operational requirements. Currently, most of the Army 
prepositioned equipment has been employed in support of the global war 
on terrorism. The remaining prepositioned combat capability is in a 
high state of readiness and the Army maintains unit sets afloat to 
support port opening operations to receive strategically deployed 
capabilities. By fiscal year 2015 the Army projects to have its full 
objective of three Heavy Brigade Combat Teams (HBCT), two Infantry 
Brigade Combat Teams, five Sustainment Brigades, a Fires Brigade, an 
Infantry Battalion, and associated wheeled augmentation sets, 
watercraft, and sustainment stocks. Of the Marine Corps three Maritime 
Preposition Squadrons, two have less than their full complements of 
equipment. They will be reconstituted through scheduled maintenance 
cycles and provide full capabilities in 2011 and 2012. The third is 
currently fully capable to support contingency operations. As DOD's 
prepositioned sets are being reconstituted, the Services are updating 
them with equipment and supplies that provide balanced and flexible 
capabilities. These capabilities will support a range of operations 
from major contingency to lower spectrum operations.
                                 ______
                                 
          Question Submitted by Senator Hillary Rodham Clinton

                      OUR NATION'S STRATEGIC DEPTH

    12. Senator Clinton. Secretary Gates and Admiral Mullen, recently, 
Army Vice Chief of Staff General Richard Cody testified before the 
Readiness and Management Support Subcommittee of the Senate Armed 
Services Committee on the state of readiness of the Army. He testified 
that the current demand on our forces in Iraq and Afghanistan ``limits 
our ability to provide ready forces for other contingencies.'' Both the 
Army and the Marine Corps told the committee that they are not sure if 
their forces could handle a new conflict if one came along. In 
particular, General Cody noted our Nation's ``lack of strategic 
depth.''
    In light of General Cody's comment regarding our Nation's 
``strategic depth,'' what missions are our armed forces not performing 
or are incapable of performing because of their commitments in Iraq and 
Afghanistan?
    Dr. Gates. We continually assess the capabilities of our forces to 
perform against plans and assigned missions in all regions. These 
assessments, which are classified, are delineated in the Quarterly 
Readiness Report to Congress. In summary, while significant portions of 
our ground forces are currently involved in operations in Iraq and 
Afghanistan, there should be no doubt that we have formidable 
capabilities to respond around the globe in the event of another 
crisis. Our air and naval forces can respond swiftly and effectively to 
any armed aggression. We also have significant capabilities in our 
noncommitted ground force, particularly the Reserve component, which 
can be called upon to fully mobilize, if required, to meet urgent 
national needs. We would also call upon all the instruments of national 
power, to include diplomatic, informational, and economic, to address 
the situation at hand.
    Admiral Mullen. Our Armed Forces are performing a wide array of 
combat and noncombat missions throughout the world. Although our forces 
are strained, we can perform all missions and execute all contingency 
plans. With the advent of combat operations in Iraq and Afghanistan, 
the Secretary of Defense and the Chairman of the Joint Chiefs of Staff 
restructured DOD priorities throughout the world. This has affected our 
noncombat operations and ability to respond to a second full-spectrum 
major combat operation (MCO).
    Every year, combatant commanders determine their regional 
priorities and request resources to fulfill their demands. Due to our 
focus on combat operations in Operation Iraqi Freedom and Operation 
Enduring Freedom (OEF), we curtailed or scaled back some of our theater 
security cooperation (TSC) efforts and multi-lateral exercises. 
Combatant commanders continue to conduct TSC efforts throughout their 
areas of responsibility; however, fiscal year 2009 demands will not be 
completely sourced for TSC and other partnership-building activities. 
Sourcing deficiencies will not prevent combatant commanders from 
implementing mitigation measures to accomplish priority missions. This 
is no different than previous years prior to the global war on 
terrorism.
                                 ______
                                 
            Questions Submitted by Senator Claire McCaskill

           AL QAEDA AND THE SECURITY OF THE AMERICAN HOMELAND

    13. Senator McCaskill. Secretary Gates and Admiral Mullen, while 
the bulk of the administration's focus in terms of troops, resources, 
and taxpayer dollars has been on Iraq, it seems the most pressing 
threat to the homeland security of the United States comes from the 
Afghanistan-Pakistan border. Admiral Mullen, you and Central 
Intelligence Agency Director General Michael Hayden have publicly 
stated that a future attack on the United States will most likely come 
from the al Qaeda group operating along the Afghanistan-Pakistan border 
in the largely ungoverned tribal areas. Despite these statements, our 
continued troop commitment in Iraq has affected our effort in 
Afghanistan. Admiral Mullen, you have stated, ``in Afghanistan, we do 
what we can, in Iraq we do what we must.'' This has led you to 
characterize our effort to stabilize Afghanistan as an ``economy-of-
force operation'' because ``our main focus, militarily, in the region 
and in the world right now is rightly and firmly in Iraq.''
    Can you characterize your assessment, based on all information 
available to you, of whether AQI is planning to launch, or is capable 
of launching, attacks on the United States Homeland from Iraq?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    14. Senator McCaskill. Secretary Gates and Admiral Mullen, is the 
core organization and purpose of AQI oriented at attacks within Iraq or 
outside of Iraq?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    15. Senator McCaskill. Secretary Gates and Admiral Mullen, did AQI 
exist prior to the United States invasion of Iraq and, if so, was it 
affiliated with the broader al Qaeda international network at that 
time?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    16. Senator McCaskill. Secretary Gates and Admiral Mullen, if we 
know that al Qaeda is planning attacks against America from the 
Afghanistan-Pakistan border, why is the effort in Afghanistan not a 
higher priority?
    Dr. Gates. [Deleted.]
    Admiral Mullen. Developing a stable, free, democratic Iraq that is 
not a threat to its neighbors and is an ally on the war on terror has 
been the U.S. main military focus. An Iraq that cannot govern, defend, 
and sustain itself jeopardizes our vital national interests in the 
region. Further, risk associated with a drawdown from Iraq that is not 
conditions-based outweigh risk emanating from the Afghanistan-Pakistan 
border region. However, Afghanistan continues to be a top military 
priority. Their are a total of 33,000 U.S. and 29,000 coalition troops 
currently deployed to Afghanistan, the highest level since the 
beginning of combat operations in that AOR. We are also seeing a higher 
level of operational effort by Pakistani forces, which has resulted in 
lower levels of cross-border infiltration into Afghanistan by al Qaeda 
and Taliban forces. The U.S. and our allies in Afghanistan continue to 
work closely with Pakistan to address the cross-border movement of 
enemy forces as well as their sanctuaries along the border.
    It is important to note that both conflicts (Iraq and Afghanistan) 
compete for many of the same critical resources. As security in Iraq 
improves, U.S. force levels will decrease consistent with the 
commander's assessment of conditions on the ground, allowing the 
military to reset, reconstitute, and shift focus as required by 
existing and emerging threats. As indicated by the recent U.S. Marine 
Corps deployment to Afghanistan, the U.S. commitment is strong and will 
continue to be so. The military will continue to press al Qaeda and its 
associated network in Iraq, Afghanistan and wherever else they operate.

    17. Senator McCaskill. Secretary Gates and Admiral Mullen, why has 
the DOD continually acted consistent with an Iraq first policy, in 
terms of priorities, when threats to our Homeland appear most densely 
concentrated in Afghanistan, which the DOD is clearly assigning a lower 
priority and acknowledges is under-resourced?
    Dr. Gates. The defense of the territory of the United States, its 
people, and interests requires an active defense-in-depth, which 
includes detecting and countering threats at their source. Destroying 
the al Qaeda network remains our most immediate and important task to 
deter and prevent any further attacks on the homeland. Al Qaeda's 
leaders still view Iraq as the central front in their global strategy, 
sending funding, direction, and foreign fighters to Iraq. Winning in 
Iraq, which includes defeating al Qaeda, is critical to our success in 
the long war and protecting our vital national interests throughout the 
Middle East and abroad.
    The Department is fully committed to success in Afghanistan. There 
currently are some 38,000 U.S. troops assigned to Afghanistan. More 
than 21,000 of these personnel are assigned to the NATO-led 
International Security Assistance Force (ISAF), while the remaining 
17,000 are assigned to OEF missions, which include both 
counterterrorism and training and equipping the Afghan National 
Security Forces. Some 3,500 U.S. marines recently deployed to 
Afghanistan, of which more than 2,400 are deployed to Afghanistan's 
volatile southern region. The remaining 1,100 marines are supporting 
the mission to train the Afghan National Police. Our allies and 
partners also are contributing in important ways to the mission in 
Afghanistan. Some 30,000 non-U.S. troops are deployed throughout the 
country, and ISAF leads 26 Provincial Reconstruction Teams (PRTs) in 
Afghanistan--of which 14 are commanded by non-U.S. force contributors. 
Nonetheless, more is needed--the ISAF Commander has identified 
requirements that remain unfilled. These include maneuver forces, air 
assets, Operational Mentoring and Liaison Teams, and additional PRTs. 
The Department works closely with our allies and partners to encourage 
them to help fill these requirements.
    Admiral Mullen. The defense of the territory of the United States, 
its people, and interests requires an active defense-in-depth, which 
includes detecting and countering threats at their source. Destroying 
the al Qaeda network remains our most immediate and important task to 
deter and prevent any further attacks on the homeland. Al Qaeda's 
senior leaders still view Iraq as the central front in their global 
strategy, sending funding, direction, and foreign fighters to Iraq. 
Winning in Iraq, which includes defeating al Qaeda, is critical to our 
success in the long war and protecting our vital national interests 
throughout the Middle East and abroad. An Iraq that cannot govern, 
defend, and sustain itself jeopardizes our vital national interests in 
the region.

    18. Senator McCaskill. Secretary Gates and Admiral Mullen, how much 
of AQI's diminished operating capacity can be attributed to the large 
American troop presence in Iraq? Specifically, do you believe that the 
Sunni ``awakening'' that pre-dated the surge has significantly damaged 
AQI?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    19. Senator McCaskill. Secretary Gates and Admiral Mullen, what 
role has the Shiite Maliki Government had in making sure that al Qaeda 
does not have a sanctuary in Iraq?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    20. Senator McCaskill. Secretary Gates and Admiral Mullen, would 
you agree that even the Iranians do not want AQI to take hold next door 
in Iraq? In short, are there not several factors other than American 
troop presence in Iraq that have destabilized AQI, and that would 
remain in that region even if American troops did not remain at pre-
surge levels?
    Dr. Gates. [Deleted.]
    Admiral Mullen. [Deleted.]

    21. Senator McCaskill. Secretary Gates and Admiral Mullen, what is 
the DOD doing to increase the availability of resources to ongoing 
operations in Afghanistan?
    Dr. Gates. We recently increased the effort in Afghanistan by 
deploying the 24th Marine Expeditionary Unit as well as 2nd Battalion, 
7th Marines. The Department of Defense and the Joint Staff continue to 
look at force availability for Afghanistan.
    Admiral Mullen. We recently increased the effort in Afghanistan by 
deploying the 24th Marine Expeditionary Unit as well as 2nd Battalion, 
7th Marines. The Department of Defense and the Joint Staff continue to 
look at force availability for Afghanistan with four principal 
considerations in mind;

         1. Continued support for and success in Iraq. As has been 
        clearly indicated by General Petraeus and reinforced by 
        Presidents of the United States, forces that might become 
        available as a result of a drawdown in Iraq must be well 
        thought through in order to ensure Iraq gains are not 
        negatively impacted. Joint Forces Command is continuously 
        making assessments of this force balance.
         2. Health of the force. The services ability to continue to 
        provide forces, whether for Iraq or Afghanistan, must be 
        considered in terms of overall stress on our forces. Increasing 
        the dwell time of our forces is a key component of any decision 
        about resourcing Afghanistan requirements.
         3. Strategic Reserve. The Secretary of Defense and the 
        Chairman of Joint Chiefs of Staff must also consider the 
        Strategic Reserve for our Nation and the impact that an 
        increase in resources to Afghanistan might have on 
        reconstitution of Strategic Reserve to respond to other 
        contingencies.
         4. Success in Afghanistan. The U.S. and our allies are 
        committed to success in Afghanistan and hard decisions about 
        resources will need to be made if we are to turn the tide 
        against the insurgency and support the Afghan Government in 
        security, reconstruction, and development. Bottom-line: we are 
        working within DOD and the IA to develop a resourcing plan that 
        meets the near-term and long-term needs of the operators in 
        Afghanistan.

funding and support from others for our efforts in afghanistan and iraq
    22. Senator McCaskill. Secretary Gates, at our hearing with General 
Petraeus and Ambassador Crocker, I asked Ambassador Crocker whether our 
future security agreements with Iraq will require the Iraqis to pay for 
the cost of our temporary bases and other related expenditures. 
Ambassador Crocker seemed to have not previously considered such an 
arrangement, but appeared open to taking the idea to the Iraqis. As you 
may be aware, our long-term security agreements with many other 
countries require the host country to offset some of the cost of our 
bases and related expenditures. This is an area that is important to me 
because of the incredible financial burden Iraq has placed on American 
taxpayers. I also note, as I did to Ambassador Crocker and General 
Petraeus, that the United States is running a massive budget deficit 
while the Iraqis are running a budget surplus. I believe it crucial 
that the Iraqis shoulder a greater amount of the burden of securing 
their nation, including offsetting, wherever appropriate, American 
expenditures made to support operations in Iraq.
    I am also interested in how we can get our North American Treaty 
Organization (NATO) allies to make a greater financial commitment to 
our effort in Afghanistan. While I applaud France and Romania for 
recently adding troops to the NATO force in that country, as you have 
stated, it appears unlikely that NATO will commit a large number of 
troops to Afghanistan. Since our NATO allies are unwilling to commit 
troops to Afghanistan, I would like to see them make an increased 
financial commitment to the reconstruction of the country and to 
training the Afghan Army. President Bush recently announced that he 
plans to pledge an additional $4 billion in aid for Afghanistan at the 
international donors conference to be held in Paris in June. I would 
like to see us leverage the President's commitment and the Paris 
conference to achieve a greater financial contribution from our allies. 
I am aware that the administration hopes the conference will raise a 
total of $12 billion-$15 billion to fund Afghan reconstruction 
projects. It is my hope that the conference will raise at least that 
much, if not more, from our allies.
    What is being done to increase Iraqi budget execution and, more 
importantly, to offset or reduce American expenditures in Iraq?
    Dr. Gates. The U.S. Treasury Department and Department of State are 
in the lead for enhancing the spending capacity of the GOI. There are 
13 ministerial capacity development teams consisting of over 400 
advisors working with various GOI ministries to improve Iraqi technical 
capabilities.
    A primary focus is to improve Iraqi budget execution which in turn 
helps the GOI spend its own money on reconstruction and security. This 
entails, but is not limited to: (1) documenting budget execution 
policies and procedures; (2) training Iraqis (central ministries and 
provincial governments) on capital budget execution; and (3) training 
U.S. personnel deployed to PRTs to improve the PRTs' ability to assist 
the provincial governments in executing their budgets.
    As a result of these efforts, Iraqi commitments to assume financial 
responsibilities and offset U.S. Government expenditures have already 
expanded significantly. In addition to passing a capital reconstruction 
budget of $13 billion and security budget of $9 billion in 2008, the 
GOI recently funded cost-sharing initiatives for sustaining and 
equipping the ISF, created a fund for urgently needed reconstruction 
projects that will be coordinated with U.S. commanders, and has begun 
to transition the costs associated with the maintenance of existing 
U.S. Government-funded Iraqi facilities, among others.
    Since 2005, the GOI has increased its share of the costs associated 
with ISF development from 29 to 75 percent. Furthermore, due to 
increased Iraqi spending, the Department has not requested any funds 
for capital expenditures in fiscal year 2008. On funding for the ISF, 
the Department asked for $3 billion in fiscal year 2008 and $2 billion 
in fiscal year 2009. The fiscal year 2009 request is 52 percent less 
than the average ISF funding levels between fiscal year 2005 and fiscal 
year 2008, and does not include any funds for infrastructure.

    23. Senator McCaskill. Secretary Gates, is it unreasonable that the 
United States should request or demand offsets from the Iraqi 
Government of some American expenditures in Iraq, especially when it is 
running a budget surplus?
    Dr. Gates. No, it is not unreasonable for the U.S. to request from 
the GOI increased contributions for the costs associated with capital 
reconstruction and development of the ISF. This is why U.S. Government 
officials are working with GOI to more effectively utilize its 
financial resources in support of these needs.
    We have worked closely with the Iraqis to gradually transition U.S. 
funding for ISF development as the GOI demonstrates the capacity 
required to support the transition. As a result of these efforts, the 
Iraqi Ministries of Defense and Interior have assumed responsibility of 
various U.S. Government-funded acquisition and life support contracts 
and developed a number of cost-sharing agreements to offset U.S. 
expenditures in Iraq.
    Moreover, the PRTs are working with local governments and tribal 
councils to help plan, prioritize, and execute Iraqi capital 
expenditure budgets to further offset U.S. spending on ISF 
infrastructure and capital reconstruction projects. Therefore, as 
ministerial and provincial capacity increases and matures, U.S. 
Government officials will continue to work with the GOI to transfer 
additional funding responsibilities to the Iraqis.

    24. Senator McCaskill. Secretary Gates, in what areas, such as base 
operations and support, as I have suggested, would it be appropriate to 
negotiate for Iraqi funding of the American presence in Iraq?
    Dr. Gates. It is appropriate for the GOI to assume responsibility 
for a greater share of the costs required to sustain and equip the ISF 
as well as the costs associated with the development of critical 
infrastructure, long-term capital reconstruction projects, delivery of 
essential services, establishment of vocational and technical training 
centers, and the creation of civil and public works programs throughout 
Iraq.
    It would not be appropriate for the GOI to fund U.S. base 
operations as such funding from the GOI would require Iraqi Council of 
Representatives' (CoR) approval. Alongside the political risk of budget 
defeat in the CoR, there would be no way of preventing the CoR from 
attaching additional provisions that could affect the operational 
flexibility of U.S. forces in Iraq (i.e. requiring pre-approval of 
expenditures prior to execution).

    25. Senator McCaskill. Secretary Gates, how extensively is the 
United States pursuing such financial assistance, in any area, from the 
Iraqis?
    Dr. Gates. U.S. Government officials regularly engage the Iraqi 
leadership on the need to expend a greater portion of surplus revenues 
on security, capital reconstruction, and strategic investments that 
will stimulate and sustain economic growth.
    Furthermore, as a result of the U.S. Government's sustained 
engagement with Iraqi leaders, we expect the GOI to pass its first 
supplemental budget later this year. This estimated $4 to $5 billion 
supplemental will augment existing provincial and ministerial capital 
accounts of $13.2 billion, and further demonstrate the willingness of 
the Iraqi leadership to use surplus oil revenues to offset U.S. 
Government expenditures.
    In addition to developing a 2008 supplemental budget, the GOI 
recently funded cost-sharing initiatives for sustaining and equipping 
the ISF, created a fund for urgently needed reconstruction projects 
that will be coordinated with U.S. commanders, established vocational 
and technical training centers throughout Iraq and has begun to assume 
the costs associated with the maintenance of existing U.S. Government-
funded Iraqi facilities, among others.
    We will continue to identify cost-sharing opportunities with the 
GOI.

    26. Senator McCaskill. Secretary Gates, what specifically do you 
plan on doing in the months leading up to the Paris conference to 
encourage our NATO allies to make a greater financial commitment to 
Afghanistan's reconstruction?
    Dr. Gates. The U.S. Government looks forward to joining the 
international community to renew our long-term commitment to 
Afghanistan at the June 12 Paris Support Conference. U.S. Secretary of 
State Condoleezza Rice will be leading our delegation. Afghanistan has 
made enormous progress since 2001, but stability remains fragile in 
many parts of the country and is dependent on the continued investment 
of the international community. The Paris Conference is an opportunity 
to build on the international community's renewed security commitment 
to Afghanistan reached at the NATO Summit in Bucharest with 
complementary achievements on the civilian side. The overarching goal 
of the conference is to reaffirm our long-term commitment to 
Afghanistan and to focus additional resources behind an effective 
strategy. To this end, we seek to surpass the pledge total achieved at 
the 2006 London Conference ($10.5 billion) and are endeavoring to 
ensure that each donor pledges more than it did at the London 
Conference. The U.S. Department of State is leading the U.S. 
Government's overall effort to increase donor contributions and is 
implementing an overall U.S. strategy to reach out to donors. My office 
is actively supporting these efforts, along with members of the United 
States Agency for International Development and the U.S. Department of 
Treasury, which include multiple contacts with donor governments at 
various official levels.

    27. Senator McCaskill. Secretary Gates, do you believe the $12-$15 
billion the administration hopes to raise is the most we can expect 
NATO to contribute? Why do you believe we cannot get them to contribute 
more?
    Dr. Gates. The U.S. Government seeks to surpass the pledge total 
achieved at the 2006 London Conference ($10.5 billion) at the June 12 
Paris Support Conference and is endeavoring to ensure that each donor 
pledges more than it did at the London Conference. The U.S. Department 
of State is implementing an overall U.S. strategy to reach out to 
donors via a number of worldwide demarches, engagements with key 
leaders in capitals and at regional meetings such as, for example, the 
U.S.-E.U. Summit, and continuous discussions at various levels with 
donor countries. We are optimistic that donor pledges will be 
substantial and will complement the security commitments reached at the 
NATO Summit in Bucharest.

    [Whereupon, at 5:04 p.m., the committee adjourned.]

                                 <all>

</pre></body></html>
